<html>
<title> - COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE MEMBERS' DAY HEARING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
  COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE MEMBERS' DAY HEARING

=======================================================================

                                (116-13)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                             
                            ______                       


               U.S. GOVERNMENT PUBLISHING OFFICE 
43-103 PDF               WASHINGTON : 2021                              
                             
                             
                             



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

  PETER A. DeFAZIO, Oregon, Chair
SAM GRAVES, Missouri                 ELEANOR HOLMES NORTON,
DON YOUNG, Alaska                      District of Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  EDDIE BERNICE JOHNSON, Texas
BOB GIBBS, Ohio                      ELIJAH E. CUMMINGS, Maryland
DANIEL WEBSTER, Florida              RICK LARSEN, Washington
THOMAS MASSIE, Kentucky              GRACE F. NAPOLITANO, California
MARK MEADOWS, North Carolina         DANIEL LIPINSKI, Illinois
SCOTT PERRY, Pennsylvania            STEVE COHEN, Tennessee
RODNEY DAVIS, Illinois               ALBIO SIRES, New Jersey
ROB WOODALL, Georgia                 JOHN GARAMENDI, California
JOHN KATKO, New York                 HENRY C. ``HANK'' JOHNSON, Jr., 
BRIAN BABIN, Texas                   Georgia
GARRET GRAVES, Louisiana             ANDRE CARSON, Indiana
DAVID ROUZER, North Carolina         DINA TITUS, Nevada
MIKE BOST, Illinois                  SEAN PATRICK MALONEY, New York
RANDY K. WEBER, Sr., Texas           JARED HUFFMAN, California
DOUG LaMALFA, California             JULIA BROWNLEY, California
BRUCE WESTERMAN, Arkansas            FREDERICA S. WILSON, Florida
LLOYD SMUCKER, Pennsylvania          DONALD M. PAYNE, Jr., New Jersey
PAUL MITCHELL, Michigan              ALAN S. LOWENTHAL, California
BRIAN J. MAST, Florida               MARK DeSAULNIER, California
MIKE GALLAGHER, Wisconsin            STACEY E. PLASKETT, Virgin Islands
GARY J. PALMER, Alabama              STEPHEN F. LYNCH, Massachusetts
BRIAN K. FITZPATRICK, Pennsylvania   SALUD O. CARBAJAL, California, 
JENNIFFER GONZALEZ-COLON,            Vice Chair
  Puerto Rico                        ANTHONY G. BROWN, Maryland
TROY BALDERSON, Ohio                 ADRIANO ESPAILLAT, New York
ROSS SPANO, Florida                  TOM MALINOWSKI, New Jersey
PETE STAUBER, Minnesota              GREG STANTON, Arizona
CAROL D. MILLER, West Virginia       DEBBIE MUCARSEL-POWELL, Florida
GREG PENCE, Indiana                  LIZZIE FLETCHER, Texas
                                     COLIN Z. ALLRED, Texas
                                     SHARICE DAVIDS, Kansas
                                     ABBY FINKENAUER, Iowa
                                     JESUS G. ``CHUY'' GARCIA, Illinois
                                     ANTONIO DELGADO, New York
                                     CHRIS PAPPAS, New Hampshire
                                     ANGIE CRAIG, Minnesota
                                     HARLEY ROUDA, California





                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    ix

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Oral statement...............................................     1
    Prepared statement...........................................     1
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure:

    Oral statement...............................................     2
    Prepared statement...........................................     2
Hon. Daniel Lipinski, a Representative in Congress from the State 
  of Illinois, prepared statement................................   196

                            MEMBER TESTIMONY

Hon. Max Rose, a Representative in Congress from the State of New 
  York:

    Oral statement...............................................     3
    Prepared statement...........................................     4
Hon. Gwen Moore, a Representative in Congress from the State of 
  Wisconsin:

    Oral statement...............................................     5
    Submissions for the record \<dagger>\ 



    Prepared statement...........................................     9
Hon. Lori Trahan, a Representative in Congress from the 
  Commonwealth of Massachusetts:

    Oral statement...............................................    14
    Prepared statement...........................................    16
Hon. Cheri Bustos, a Representative in Congress from the State of 
  Illinois:

    Oral statement...............................................    17
    Prepared statement...........................................    19
    Submission for the record \<dagger>\.........................   148
Hon. Mikie Sherrill, a Representative in Congress from the State 
  of New Jersey:

    Oral statement...............................................    21
    Prepared statement...........................................    22
Hon. Josh Harder, a Representative in Congress from the State of 
  California:

    Oral statement...............................................    24
    Prepared statement...........................................    26
Hon. Glenn Thompson, a Representative in Congress from the 
  Commonwealth of Pennsylvania:

    Oral statement...............................................    27
    Prepared statement...........................................    29
Hon. Ilhan Omar, a Representative in Congress from the State of 
  Minnesota:

    Oral statement...............................................    31
    Prepared statement...........................................    32
Hon. Mike Quigley, a Representative in Congress from the State of 
  Illinois:

    Oral statement...............................................    34
    Prepared statement...........................................    35

----------
\<dagger>\ Please see the ``Submissions for the Record'' section for a 
description(s) of item(s) submitted for the record.
Hon. Roger W. Marshall, a Representative in Congress from the 
  State of Kansas:

    Oral statement...............................................    37
    Prepared statement...........................................    39
Hon. Lauren Underwood, a Representative in Congress from the 
  State of Illinois:

    Oral statement...............................................    41
    Prepared statement...........................................    42
Hon. Steny H. Hoyer, a Representative in Congress from the State 
  of Maryland:

    Oral statement...............................................    44
    Prepared statement...........................................    46
Hon. James R. Langevin, a Representative in Congress from the 
  State of Rhode Island:

    Oral statement...............................................    47
    Submission for the record \<dagger>\.........................    49
    Prepared statement...........................................    51
Hon. James A. Himes, a Representative in Congress from the State 
  of Connecticut:

    Oral statement...............................................    52
    Prepared statement...........................................    53
Hon. Earl Blumenauer, a Representative in Congress from the State 
  of Oregon:

    Oral statement...............................................    55
    Prepared statement...........................................    57
Hon. Dan Newhouse, a Representative in Congress from the State of 
  Washington:

    Oral statement...............................................    58
    Prepared statement...........................................    59
Hon. Robert J. Wittman, a Representative in Congress from the 
  Commonwealth of Virginia:

    Oral statement...............................................    61
    Prepared statement...........................................    63
Hon. Donna E. Shalala, a Representative in Congress from the 
  State of Florida:

    Oral statement...............................................    65
    Prepared statement...........................................    67
Hon. Scott H. Peters, a Representative in Congress from the State 
  of California:

    Oral statement...............................................    69
    Prepared statement...........................................    71
Hon. Danny K. Davis, a Representative in Congress from the State 
  of Illinois:

    Oral statement...............................................    72
    Prepared statement...........................................    73
Hon. Josh Gottheimer, a Representative in Congress from the State 
  of New Jersey:

    Oral statement...............................................    74
    Prepared statement...........................................    76
Hon. Ro Khanna, a Representative in Congress from the State of 
  California:

    Oral statement...............................................    77
    Prepared statement...........................................    78
Hon. Debra A. Haaland, a Representative in Congress from the 
  State of New Mexico:

    Oral statement...............................................    80
    Prepared statement...........................................    81
    Submissions for the record \<dagger>\ 





Hon. Ben Cline, a Representative in Congress from the 
  Commonwealth of Virginia:

    Oral statement...............................................    90
    Prepared statement...........................................    91

----------
\<dagger>\ Please see the ``Submissions for the Record'' section for a 
description(s) of item(s) submitted for the record.
Hon. Peter Welch, a Representative in Congress from the State of 
  Vermont:

    Oral statement...............................................    92
    Prepared statement...........................................    93
    Submission for the record \<dagger>\.........................    95
Hon. Pramila Jayapal, a Representative in Congress from the State 
  of Washington:

    Oral statement...............................................    97
    Prepared statement...........................................    99
Hon. Elaine G. Luria, a Representative in Congress from the 
  Commonwealth of Virginia:

    Oral statement...............................................   101
    Prepared statement...........................................   102
Hon. William R. Keating, a Representative in Congress from the 
  Commonwealth of Massachusetts:

    Oral statement...............................................   103
    Prepared statement...........................................   105
Hon. Grace Meng, a Representative in Congress from the State of 
  New York:

    Oral statement...............................................   106
    Prepared statement...........................................   107
Hon. Steve King, a Representative in Congress from the State of 
  Iowa, oral statement...........................................   108
Hon. Tom O'Halleran, a Representative in Congress from the State 
  of Arizona:

    Oral statement...............................................   110
    Prepared statement...........................................   112
Hon. Tony Cardenas, a Representative in Congress from the State 
  of California:

    Oral statement...............................................   113
    Prepared statement...........................................   115
Hon. Zoe Lofgren, a Representative in Congress from the State of 
  California:

    Oral statement...............................................   116
    Prepared statement...........................................   117
Hon. Mary Gay Scanlon, a Representative in Congress from the 
  Commonwealth of Pennsylvania:

    Oral statement...............................................   119
    Prepared statement...........................................   121
Hon. Jim Costa, a Representative in Congress from the State of 
  California:

    Oral statement...............................................   122
    Prepared statement...........................................   124
Hon. Nydia M. Velazquez, a Representative in Congress from the 
  State of New York:

    Oral statement...............................................   125
    Prepared statement...........................................   126
Hon. Mark Takano, a Representative in Congress from the State of 
  California:

    Oral statement...............................................   127
    Prepared statement...........................................   128
Hon. Elissa Slotkin, a Representative in Congress from the State 
  of Michigan:

    Oral statement...............................................   129
    Prepared statement...........................................   130
Hon. Joe Neguse, a Representative in Congress from the State of 
  Colorado:

    Oral statement...............................................   132
    Prepared statement...........................................   133
Hon. Earl L. ``Buddy'' Carter, a Representative in Congress from 
  the State of Georgia:

    Oral statement...............................................   134
    Prepared statement...........................................   135

----------
\<dagger>\ Please see the ``Submissions for the Record'' section for a 
description(s) of item(s) submitted for the record.
Hon. Dean Phillips, a Representative in Congress from the State 
  of Minnesota:

    Oral statement...............................................   136
    Prepared statement...........................................   137
Hon. Maxine Waters, a Representative in Congress from the State 
  of California:

    Oral statement...............................................   138
    Prepared statement...........................................   140
    Submission for the record \<dagger>\.........................   227
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California:

    Oral statement...............................................   142
    Prepared statement...........................................   144

                       SUBMISSIONS FOR THE RECORD

Hon. Jodey C. Arrington, a Representative in Congress from the 
  State of Texas, prepared statement.............................   147
Hon. Tim Burchett, a Representative in Congress from the State of 
  Tennessee, prepared statement..................................   147
Principles To Include in an Infrastructure Proposal, Submitted 
  for the Record by Hon. Cheri Bustos, a Representative in 
  Congress from the State of Illinois............................   148
Hon. Matt Cartwright, a Representative in Congress from the 
  Commonwealth of Pennsylvania, prepared statement...............   150
Hon. Ed Case, a Representative in Congress from the State of 
  Hawaii, prepared statement.....................................   152
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, prepared statement....................................   153
Hon. David N. Cicilline, a Representative in Congress from the 
  State of Rhode Island, prepared statement......................   155
Hon. Gilbert Ray Cisneros, Jr., a Representative in Congress from 
  the State of California, prepared statement....................   157
Hon. Emanuel Cleaver, a Representative in Congress from the State 
  of Missouri, prepared statement................................   158
Hon. Gerald E. Connolly, a Representative in Congress from the 
  Commonwealth of Virginia, prepared statement...................   159
Hon. TJ Cox, a Representative in Congress from the State of 
  California, prepared statement.................................   160
Hon. Joe Cunningham, a Representative in Congress from the State 
  of South Carolina, prepared statement..........................   161
Hon. Madeleine Dean, a Representative in Congress from the 
  Commonwealth of Pennsylvania, prepared statement...............   162
Hon. Rosa L. DeLauro, a Representative in Congress from the State 
  of Connecticut, prepared statement.............................   163
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, prepared statement..............................   164
Hon. Dwight Evans, a Representative in Congress from the 
  Commonwealth of Pennsylvania, prepared statement...............   165
Hon. Ruben Gallego, a Representative in Congress from the State 
  of Arizona, prepared statement.................................   166
Hon. Louie Gohmert, a Representative in Congress from the State 
  of Texas, prepared statement...................................   167
Hon. Raul M. Grijalva, a Representative in Congress from the 
  State of Arizona, prepared statement...........................   168
Submitted for the Record by Hon. Debra A. Haaland, a 
  Representative in Congress from the State of New Mexico:

    Current Priority Infrastructure Projects in New Mexico's 
      First Congressional District...............................    82
    Letter of April 26, 2019, from Michael R. Sandoval, Cabinet 
      Secretary, New Mexico Department of Transportation.........    83
    Report entitled ``Tribal Infrastructure: Investing in Indian 
      Country for a Stronger America,'' by the National Congress 
      of American Indians........................................    86
    List of Indian Country Infrastructure Needs..................    87

----------
\<dagger>\ Please see the ``Submissions for the Record'' section for a 
description(s) of item(s) submitted for the record.
Hon. Jahana Hayes, a Representative in Congress from the State of 
  Connecticut, prepared statement................................   171
Hon. Kendra S. Horn, a Representative in Congress from the State 
  of Oklahoma, prepared statement................................   172
Hon. Will Hurd, a Representative in Congress from the State of 
  Texas, prepared statement......................................   174
Hon. Daniel T. Kildee, a Representative in Congress from the 
  State of Michigan, prepared statement..........................   175
Hon. Derek Kilmer, a Representative in Congress from the State of 
  Washington, prepared statement.................................   175
``Four Pillars for an Infrastructure Deal,'' by the New Democrat 
  Coalition 21st Century Infrastructure Taskforce, Submitted for 
  the Record by Hon. Derek Kilmer, a Representative in Congress 
  from the State of Washington...................................   176
Hon. Andy Kim, a Representative in Congress from the State of New 
  Jersey, prepared statement.....................................   177
Hon. Raja Krishnamoorthi, a Representative in Congress from the 
  State of Illinois, prepared statement..........................   178
Letter of May 1, 2019, from Members of Congress Advocating for 
  Career and Technical Education, Submitted for the Record by 
  Hon. James R. Langevin, a Representative in Congress from the 
  State of Rhode Island..........................................    49
Hon. John B. Larson, a Representative in Congress from the State 
  of Connecticut, prepared statement.............................   180
    Submitted for the Record by Hon. Larson:

        Connecticut Department of Transportation Recommendations 
          on FAST Act Reauthorization............................   181
        Letter of April 29, 2019, from Kevin A. Dillon, A.A.E., 
          Executive Director, Connecticut Airport Authority......   192
        Federal Priorities of the Capitol Region Council of 
          Governments (Connecticut)..............................   194
Hon. Andy Levin, a Representative in Congress from the State of 
  Michigan, prepared statement...................................   194
Hon. Daniel Lipinski, a Representative in Congress from the State 
  of Illinois, prepared statement................................   196
Submitted for the Record by Hon. Alan S. Lowenthal, a 
  Representative in Congress from the State of California:

    Letter of March 25, 2019, from the House of Representatives 
      Sustainable Energy and Environment Coalition...............   196
    Policy Proposal, ``Sustainable Energy and Environment 
      Coalition (SEEC) Sustainable Infrastructure Principles''...   199
Hon. Ben McAdams, a Representative in Congress from the State of 
  Utah, prepared statement.......................................   199
Hon. Betty McCollum, a Representative in Congress from the State 
  of Minnesota, prepared statement...............................   201
Submitted for the Record by Hon. Gwen Moore, a Representative in 
  Congress from the State of Wisconsin:

    Letter of February 8, 2019, from Hon. Gwen Moore, et al......     6
    List of DBEs willing to testify..............................     8
Hon. Joseph D. Morelle, a Representative in Congress from the 
  State of New York, prepared statement..........................   202
Hon. Bill Pascrell, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................   203
Hon. Ed Perlmutter, a Representative in Congress from the State 
  of Colorado, prepared statement................................   204
Hon. Bill Posey, a Representative in Congress from the State of 
  Florida, prepared statement....................................   205
Hon. Tom Rice, a Representative in Congress from the State of 
  South Carolina, prepared statement.............................   208
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, prepared statement................................   209
Hon. Bradley Scott Schneider, a Representative in Congress from 
  the State of Illinois, prepared statement......................   210
Hon. David Scott, a Representative in Congress from the State of 
  Georgia, prepared statement....................................   211
The Jobs, On-the-Job `Earn While You Learn' Training, and 
  Apprenticeships for African-American Young Men Act, Submitted 
  for the Record by Hon. David Scott, a Representative in 
  Congress from the State of Georgia.............................   213
Hon. Robert C. ``Bobby'' Scott, a Representative in Congress from 
  the Commonwealth of Virginia, prepared statement...............   218
Hon. Jose E. Serrano, a Representative in Congress from the State 
  of New York, prepared statement................................   219
Hon. Adam Smith, a Representative in Congress from the State of 
  Washington, prepared statement.................................   220
Hon. Jefferson Van Drew, a Representative in Congress from the 
  State of New Jersey, prepared statement........................   221
Hon. Jackie Walorski, a Representative in Congress from the State 
  of Indiana, prepared statement.................................   223
Hon. Jennifer Wexton, a Representative in Congress from the 
  Commonwealth of Virginia, prepared statement...................   225
Letter of April 30, 2019, from Hon. Maxine Waters, Chairwoman, 
  Committee on Financial Services, Submitted for the Record by 
  Hon. Maxine Waters, a Representative in Congress from the State 
  of California..................................................   227
Letter of May 1, 2019, from Hon. Peter Welch, Submitted for the 
  Record by Hon. Peter Welch, a Representative in Congress from 
  the State of Vermont...........................................    95

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             April 26, 2019

    SUMMARY OF SUBJECT MATTER

    TO:      LMembers, Committee on Transportation and 
Infrastructure
    FROM:  LStaff, Committee on Transportation and 
Infrastructure
    RE:      LFull Committee Hearing on ``Committee on 
Transportation and Infrastructure Members' Day''
_______________________________________________________________________


                                PURPOSE

    The Committee on Transportation and Infrastructure (T&I 
Committee) will meet on Wednesday, May 1, 2019, at 10:00 a.m. 
in 2167 Rayburn House Office Building to receive testimony 
related to ``Committee on Transportation and Infrastructure 
Members' Day.'' Pursuant to H. Res. 6 Sec. 103(j), the purpose 
of this hearing is to provide Members of Congress an 
opportunity to testify before the Committee on Transportation 
and Infrastructure on the Member's policy priorities within the 
Committee's jurisdiction.

                               BACKGROUND

T&I COMMITTEE JURISDICTION

    The T&I Committee has broad jurisdiction over all modes of 
transportation and numerous types of infrastructure programs 
and funding, which is overseen as delineated below by six 
subcommittees.

SUBCOMMITTEE ON AVIATION:

    The Subcommittee on Aviation has jurisdiction over all 
aspects of civil aviation, including safety, infrastructure, 
labor, economic regulation, and international issues. Within 
this scope of responsibilities, the Subcommittee has 
jurisdiction over the Federal Aviation Administration (FAA), a 
modal administration within the U.S. Department of 
Transportation (DOT). This jurisdiction covers all programs 
within the FAA as well as aviation programs of the DOT with 
respect to economic regulation of air carriers and passenger 
airline service. In addition, the Subcommittee has jurisdiction 
over commercial space transportation, the National Mediation 
Board (NMB), and the National Transportation Safety Board 
(NTSB).

SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION:

    The Subcommittee on Coast Guard and Maritime Transportation 
has jurisdiction over the U.S. Coast Guard, including its 
duties, organization, functions, and powers. Within the 
Committee's broader maritime transportation jurisdiction, the 
Subcommittee has jurisdiction over the regulation of commercial 
vessels and merchant seamen; domestic laws and international 
conventions related to the safe operation of vessels and safety 
of life at sea; and the regulation of ocean shipping, domestic 
cabotage requirements (Jones Act), and the merchant marine, 
except as it relates to national defense.

SUBCOMMITTEE ON ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY 
                    MANAGEMENT:

    The Subcommittee on Economic Development, Public Buildings, 
and Emergency Management is responsible for the authorization 
and oversight of federal real estate programs, including 
construction, repair, alteration, maintenance, and enhancement 
of such real property; the authorization and oversight of 
programs promoting economic development in communities 
suffering economic distress; the authorization and oversight of 
programs addressing the federal management of emergencies and 
disasters; and a variety of measures affecting homeland 
security, including the all-hazards nature of the federal 
response to disasters and the Federal Protective Service.
    The asset management activities of the Subcommittee's 
jurisdiction include: improved grounds of the United States, 
generally, and measures relating to the Public Buildings 
Service (PBS) of the General Services Administration (GSA)--the 
civilian landlord of the federal government--including the 
planning, site and design, construction, acquisition, and 
renovation of public buildings, courthouses, and border 
facilities, and the leasing of space for federal employees; the 
buildings, physical plant, and infrastructure of the Capitol 
Complex and use of the Capitol Grounds; the facilities of the 
White House complex; the facilities of the Smithsonian 
Institution, including all new and proposed facilities; 
facilities of the John F. Kennedy Center for the Performing 
Arts; Union Station Redevelopment Corporation; Judiciary 
Centers; measures relating to the location, use, accessibility, 
energy conservation, security, health and safety, and transfer 
or exchange of federal buildings; and the naming of federal 
buildings and courthouses.
    The economic development activities of the Subcommittee 
include jurisdiction over the Economic Development 
Administration (EDA) of the Department of Commerce, the 
Appalachian Regional Commission (ARC), the Denali Commission, 
the Delta Regional Authority (DRA), the Northern Great Plains 
Regional Authority, the Southeast Crescent Regional Commission, 
the Southwest Border Regional Commission, and the Northern 
Border Regional Commission.
    The Subcommittee's jurisdiction of federal management of 
emergencies and natural disasters includes the Federal 
Emergency Management Agency (FEMA) oversight and activities 
relating to disaster mitigation, preparedness, response, and 
recovery, as well as programs relating to first responders.

SUBCOMMITTEE ON HIGHWAYS AND TRANSIT:

    The Subcommittee on Highways and Transit is responsible for 
the development of Federal surface transportation policy and 
the authorization of programs for the construction and 
improvement of highway and transit facilities, highway and 
transit safety, commercial motor vehicle and driver safety, and 
research and innovation programs. Related to these 
responsibilities, the Subcommittee has jurisdiction over the 
following modal administrations and offices within the U.S. 
Department of Transportation: Federal Highway Administration 
(FHWA); Federal Transit Administration (FTA); Federal Motor 
Carrier Safety Administration (FMCSA); National Highway Traffic 
Safety Administration (NHTSA) (partial); Office of the 
Assistant Secretary for Research and Technology; National 
Surface Transportation and Innovative Finance Bureau; and 
Office of the Secretary of Transportation.

SUBCOMMITTEE ON RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS:

    The Subcommittee on Railroads, Pipelines, and Hazardous 
Materials exercises jurisdiction over the programs and 
activities of two U.S. Department of Transportation (DOT) modal 
administrations, the Federal Railroad Administration (FRA), and 
the Pipeline and Hazardous Materials Safety Administration 
(PHMSA). The jurisdiction of the Subcommittee includes all 
federal laws and programs regulating railroad transportation, 
including railroad safety, rail infrastructure programs, 
economic regulation, railroad labor laws, and the non-revenue 
aspects of the federal railroad retirement and railroad 
unemployment systems. The jurisdiction of the Subcommittee also 
includes all federal laws and programs regulating the safety of 
gas and liquid pipelines and the safety of transporting 
material and freight that has been classified as hazardous, 
regardless of the mode of transportation.
    Agencies and other establishments outside the DOT whose 
rail-related activities fall within the Subcommittee 
jurisdiction include: Surface Transportation Board (STB); 
Amtrak; Amtrak Inspector General; Northeast Corridor Commission 
(NEC Commission); Railroad Retirement Board (RRB); Railroad 
Retirement Board Inspector General (RRB IG); National Railroad 
Retirement Investment Trust; and National Mediation Board 
(NMB).

SUBCOMMITTEE ON WATER RESOURCES AND ENVIRONMENT:

    The jurisdiction of the Subcommittee on Water Resources and 
Environment consists generally of matters relating to water 
resources development, conservation and management, water 
pollution control and water infrastructure, and hazardous waste 
cleanup.
    Issues under the Subcommittee include: water resources 
programs (projects and regulations)--Army Corps of Engineers 
(Corps); Clean Water Act, water infrastructure and watershed 
protection programs--Environmental Protection Agency (EPA); 
Clean Water Act, regulatory authorities--EPA and Corps; 
Superfund and Brownfields revitalization--EPA; ocean dumping--
EPA and Corps; oil pollution--EPA and Coast Guard; Tennessee 
Valley Authority (TVA); Saint Lawrence Seaway Development 
Corporation--U.S. Department of Transportation; National 
Resources Conservation Service's Small Watershed Program--U.S. 
Department of Agriculture; Deepwater ports--EPA, Coast Guard, 
Corps; invasive/aquatic nuisance species/harmful algal blooms--
EPA, Coast Guard, Corps, and other agencies; coastal pollution 
and coastal zone management--EPA and National Oceanic and 
Atmospheric Administration (NOAA); natural resource damages--
NOAA, Department of the Interior, and other agencies; 
Groundwater protection--primarily EPA and Corps; water 
resources policy--multiple agencies; toxic substances and 
public health--Agency for Toxic Substances and Disease Registry 
(ATSDR); and boundary water issues between the United States 
and Mexico--the International Boundary Water Commission at the 
U.S. Department of State.


  COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE MEMBERS' DAY HEARING

                              ----------                              


                         WEDNESDAY, MAY 1, 2019

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
2167 Rayburn House Office Building, Hon. Peter A. DeFazio 
(Chairman of the committee) presiding.
    Mr. DeFazio. Welcome, good morning.
    This is our first hearing in our renovated hearing room. I 
hope everybody likes the color scheme. You can thank mostly 
Kathy for that, if you don't like it.
    And if you like it, you can thank me. So--no, actually, we 
agreed on it and I like it very much.
    So here we are. We want to hear from Members.
    We hope in the not-too-distant future to write a long-term 
surface transportation bill, take on the wastewater issues, 
harbor maintenance, you know, deal with water itself, rail, all 
our jurisdictions. And so we want to hear from our colleagues 
on their ideas.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    The hearing will come to order. Let me officially welcome Members 
of the Committee to our hearing room. Today is the first day the 
Committee convenes in our renovated space--it feels good to hold the 
gavel on home turf. I am especially pleased that we are able to share 
our return to room 2167 with Members of the House who join us today to 
present their transportation and infrastructure priorities.
    Yesterday, I had the opportunity to join Leader Pelosi and other 
Members of the House and Senate at a meeting with the President. I went 
into that meeting hopeful that we could come together and chart a path 
forward to secure, at last, the robust investment in transportation and 
infrastructure this country desperately needs.
    I made clear to the President that taking action to address our 
infrastructure needs is not optional--letting our roads, bridges, 
airports, transit systems, ports, and water systems crumble amounts to 
a national crisis. Every day that we wait to act also means the price 
tag to fix our infrastructure goes up.
    We have let our infrastructure--and our infrastructure funding 
streams--stagnate to the point where we now need to invest hundreds of 
billions of dollars to make up for past neglect and plan for the 
future. There is no way around this reality if we expect improvement.
    We must now act to address this challenge, by coming together and 
enacting legislation that will make a difference in every Congressional 
district and to every Member's constituents. We must demonstrate to the 
American people that their government is still capable of working 
together and taking responsible action to complete critical projects, 
create family wage jobs, bolster U.S. industries, save lives, preserve 
affordable access to transportation and water infrastructure, protect 
our natural resources, and make smart investments and mitigate and 
adapt to climate change.
    While I continue to press my colleagues on the Committee on Ways 
and Means, House Leadership, the Senate, and the White House on a path 
forward on funding, this Committee must do its legislative work.
    That is why we have invited Members to speak today on 
infrastructure priorities under the jurisdiction of the Committee on 
Transportation and Infrastructure, so that we are informed by what 
matters most to our colleagues as we move forward with the Committee's 
legislative agenda.
    Thank you to all Members who have made time to come before the 
Committee today. I look forward to your testimony.

    Mr. DeFazio. At this point I turn to the ranking member for 
anything he might want to say.
    Mr. Graves of Missouri. Thank you, Chairman DeFazio. And 
obviously, that is what the hearing is about--to hear from our 
colleagues and hear what their ideas and their priorities are.
    I think that this is a good idea. We have got a lot of 
people, obviously, on the docket that do want to talk to us.
    And I do have a prepared statement. If that is all right, I 
will just submit it and we can move on.
    It is going to be a long day.
    [Mr. Graves of Missouri's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    The Committee's legislative priorities this Congress include an 
infrastructure bill, a surface transportation reauthorization bill, a 
Water Resources Development Act, a pipeline safety reauthorization, and 
more.
    We have some obvious challenges ahead. For example, we need a long-
term solution for the Highway Trust Fund. We all know that we can't 
continue to rely on a gas tax that is becoming more and more 
unreliable.
    We also know that transportation technology continues to evolve. We 
have to ensure that our infrastructure solutions keep pace and take 
advantage of the benefits of technology to enhance safety, create 
efficiencies, and reduce costs.
    And we know that the federal processes for approving projects 
continue to be too bureaucratic. That's why we should always look for 
ways to streamline the infrastructure delivery process wherever 
possible.
    That said, our country has a diverse set of infrastructure needs. 
One size does not fit all, and what works for one state or region may 
not work for another.
    As we move forward, an important step is to gather as much input as 
possible from a variety of stakeholders. Today we will hear from our 
Congressional colleagues about the projects and policies that are 
important to their districts and states.
    I look forward to hearing a wide variety of proposals that will 
help us address infrastructure needs across the United States.
    We have passed a lot of good, bipartisan legislation in recent 
years, and I look forward to adding to those accomplishments.
    The President has been outspoken about the need for Congress to 
develop a bipartisan infrastructure package that can be signed into 
law, so I hope this hearing today will help us reach that goal.
    Thank you again Chairman DeFazio, and thank you to all the Members 
testifying today.

    Mr. DeFazio. Excellent. I ask unanimous consent that the 
chair be authorized to declare recesses during today's hearing.
    Without objection, so ordered.
    Members appearing before the committee today will have 5 
minutes to give their oral testimony, and written statements 
will be made part of the formal hearing record.
    Given the number of Members appearing before the committee 
today, and out of consideration for colleagues' time, I ask 
unanimous consent that members of the committee be given 2 
minutes to question each Member/witness, following their 
statements.
    Without objection, so ordered.
    Without objection, our witnesses' full statements will be 
included in the record. Since your written testimony is made 
part of the record, the committee requests you limit your oral 
testimony to 5 minutes.
    And I think that is done with the script. So, with that, I 
recognize our colleague first from New York. First come, first 
served. OK.

 TESTIMONY OF HON. MAX ROSE, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF NEW YORK

    Mr. Rose. Thank you so much for hosting this hearing and 
for giving me this opportunity to come before the committee to 
highlight some of the major challenges facing my congressional 
district on Staten Island and in South Brooklyn.
    Despite being a part of New York City, you would never 
think it, based on how the folks in my district get around. 
Sixty-eight percent of Staten Islanders drive to and from work, 
as opposed to 22 percent in Manhattan.
    I have heard people blame Staten Island's car culture for 
the city's congestion problem, but that just ignores the root 
core of the issue, because for too many of my constituents, 
public transportation just is not a reliable and credible 
alternative. Until that changes, we need to stop punishing 
hard-working people who are just trying to get around.
    The reason we are stuck in this situation in my district is 
that my district has been forgotten when it comes to Federal, 
State, and local attention to our transportation needs. When it 
comes time to invest in transportation projects, Staten Island 
and South Brooklyn have been second thoughts throughout the 
years. We have one railroad, one ferry, and an express bus 
system to Manhattan, all of which are not working nearly as 
well as the other systems throughout New York City.
    The MTA system, which serves South Brooklyn, is currently 
scheduled to receive signal upgrades in a decade. A decade. Try 
telling that to people.
    So I understand that many communities around New York City 
and the country need improvements to their daily commutes, but 
so do my constituents, and we cannot afford to wait another 
decade.
    As always, I did not just come here to complain. Here are 
some real proposals.
    I encourage the committee to sit down and craft, obviously, 
a long-term infrastructure bill. And I know that there is not a 
person in this room that is not in favor of that. I want it, 
the American people want it, I know all of you do, as well.
    I also ask the committee to look at new ways to calculate 
commuter tax credits. While our current system is based on 
miles traveled, anyone who knows New York City knows that that 
is not enough. Most drivers commute far less than 15 miles, yet 
it often takes an hour to get there.
    On top of that, my district has the dubious honor of having 
the most expensive toll bridge in the country. We are getting 
squeezed on all sides, and it is only getting worse.
    If nothing else, calculating commuter tax credits according 
to the real cost of commuting would be an equitable step in 
providing a much-needed sense of relief.
    Lastly, I want to encourage the committee to build in 
competitive grant programs that support innovation in 
transportation. We have seen how ride-hailing technology has 
reshaped how Americans move around. And I believe that, with 
Federal support, we can develop equally revolutionary methods 
of reducing the number of cars on the road, while getting 
people where they need to go quickly and reliably.
    For instance, investment that improves access to mass 
transit can significantly increase ridership on Staten Island 
and South Brooklyn. We would love to use mass transit more, but 
it just needs to be a viable option for all of us. We have 
transit deserts, where it is a 5-mile ride or a 2-mile to the 
closest express bus, and people have to drive to get there, and 
it causes incredible congestion.
    In my conversations with members of this committee I have 
been encouraged by your desire to affect real change in the way 
that Americans move around. We have all come here to make the 
American people's lives better, and I have shared with many of 
you the sentiment that there is no better way to do that than 
to ensure that people get to and from work quickly and 
reliably.
    Thank you again for this opportunity to speak before you, 
and I look forward to working with all of you, going forward.
    [Mr. Rose's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Max Rose, a Representative in Congress from 
                         the State of New York
    Thank you Mr. Chairman,
    First off, I'd like to thank Chairman DeFazio and Ranking Member 
Graves for hosting this hearing.
    I appreciate the opportunity to come before the Committee to 
highlight some of the major challenges facing my district of Staten 
Island and South Brooklyn.
    Despite being part of New York City, you'd never think it based on 
how my district gets around.
    68 percent of Staten Island drives to and from work, as opposed to 
22 percent in Manhattan.
    I've heard people blame Staten Island's ``car culture'' for the 
City's congestion problem--but that just ignores the root cause of the 
issue.
    Because for too many of my constituents, public transit just isn't 
a reliable or credible alternative.
    And until that changes, we need to stop punishing hardworking 
people who are just trying to get to work on time.
    The reason we're stuck in this situation is that my district has 
been forgotten when it comes to federal, state and local attention to 
our transportation needs.
    When it comes time to invest in transportation projects, Staten 
Island and South Brooklyn have been second thoughts throughout the 
years. Staten Island has one railroad, one ferry, and an express buses 
system to Manhattan.
    The R Train which serves South Brooklyn is currently scheduled to 
receive signal upgrades to our subways in a decade.
    A decade.
    I understand that many communities around New York City and the 
country need improvements to their daily commutes.
    But so do my constituents--and we can't wait another ten years for 
it.
    As always, I didn't just come here to complain.
    I came with some real proposals that can make a difference in my 
constituents' lives.
    First, I encourage the committee to sit down and craft a long-term 
infrastructure bill. An infrastructure bill that makes real, 
significant investments to make American infrastructure the envy of the 
world again.
    I want it, the American people want it, and I know that many 
members of this committee want it.
    Let's come together and get to work on behalf of the American 
people.
    Second, I'd like to ask the Committee to look at new ways to 
calculate commuter tax credits.
    While the current system is based on miles travelled, anyone who 
knows New York City knows just doesn't help.
    Most drivers commute for less than 15 miles, yet it often takes 
more than an hour to get there.
    On top of that, my district has the dubious honor of having the 
most expensive tolled bridge in the country.
    My constituents are getting squeezed on all sides, hit with longer 
and longer commutes, tolls that keep going up, and often times no real 
alternative mode of transit.
    If nothing else, calculating commuter tax credits according to the 
real cost of commuting would be an equitable step and provide a much 
needed sense of relief.
    Lastly, I want to encourage the Committee to build in competitive 
grant programs that support innovation in transportation.
    We've seen how ride-hailing technology has reshaped how Americans 
move around, and I believe that with federal support, we can develop 
equally revolutionary methods of reducing the number of cars on the 
road while getting people where they need to go quickly and reliably.
    For instance, investment that improves access to mass transit can 
significantly increase ridership in Staten Island and South Brooklyn. 
We would love to use mass transit more, but it needs to be a viable 
option for us.
    In my conversations with Members of this Committee, I've been 
encouraged by your desire to effect real change in the way that America 
moves around.
    We all came here to make the American people's lives better, and 
I've shared with many of you the sentiment that there's no better way 
to do that than to ensure people get to and from work quickly and 
reliably and can spend more time at home with their families.
    Thank you for the opportunity to speak, I look forward to working 
with you all going forward.

    Mr. DeFazio. I thank the gentleman. So we can move things 
along, does anyone have a question for the gentleman?
    If not, I congratulate you on your testimony. You said much 
that I think you will find support for on this committee. We 
would love to work with you on your particular concerns about 
getting access to the mass transit.
    Mr. Rose. Thank you, Chairman.
    Mr. DeFazio. OK. With that we will turn next to the 
Honorable Gwen Moore for her 5 minutes.
    Gwen, proceed.

TESTIMONY OF HON. GWEN MOORE, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF WISCONSIN

    Ms. Moore. Thank you so much, Chairman DeFazio and Ranking 
Member Graves. I really appreciate this opportunity to talk 
about our Nation's infrastructure priorities.
    And, as you know, robust investment in infrastructure is a 
win-win-win situation. If we update our infrastructure, we put 
millions of Americans to work in good-paying jobs, and continue 
to help our communities be economically competitive.
    Transportation projects mean jobs and businesses for 
communities across our Nation. The Business Roundtable 
estimated that a significant Federal infrastructure investment 
would, one, increase real disposable income for Wisconsin 
households by an average of $1,200 per year and create 16,000 
more Wisconsin jobs over the next decade.
    Mr. Chairman, as you put together an infrastructure 
package, I hope that you will consider a new Water Resources 
Development Act, and reauthorize the Fixing America's Surface 
Transportation Act, and I hope that you address the following 
priorities.
    Make sure that infrastructure investments are inclusive of 
all communities, supporting investments in public 
transportation and supporting investments in water 
infrastructure.
    Mr. Chairman, we hear a whole lot about Flint, Michigan. 
But let me tell you the children that are poisoned by lead in 
Milwaukee, Wisconsin, there is a two-tenths of 1 percent 
difference in what is happening in Flint and what is happening 
in Milwaukee, Wisconsin. When I learned that my granddaughter 
was pregnant, the first thing I did was called up and started 
buying water, because of her--and I know that my constituents 
can't afford that.
    Mr. Chairman, it must remain a Federal priority to ensure 
that all communities could benefit from investments in 
infrastructure. And by that I don't just mean geographic areas 
where the funds are disbursed, but also diversity in the groups 
that receive the money, that undertake these projects, and who 
are employed on these projects. Congress has long recognized 
rightly that certain businesses, especially small and 
disadvantaged enterprises owned by minorities and women, face 
obstacles in competing for and winning transportation 
contracts.
    As a matter of fact, Mr. Chairman, without objection, I 
would hope that you would enter into the record a letter that I 
sent you, and a list of DBEs willing to testify before this 
committee.
    Mr. DeFazio. Without objection.
    [The information follows:]

                                 <F-dash>
 Letter of February 8, 2019, from Hon. Gwen Moore, a Representative in 
Congress from the State of Wisconsin, et al., Submitted for the Record 
                           by Hon. Gwen Moore
                                                  February 8, 2019.
The Honorable Peter DeFazio,
Chairman,
House Committee on Transportation and Infrastructure, 2164 Rayburn 
        House Office Building, Washington, DC.

    Dear Chairman DeFazio,

    As you put together an infrastructure package, we write to urge you 
to take steps to ensure that minority contractors can fully participate 
in all projects funded by any proposal in the 116th Congress. We urge 
the inclusion of funding and provisions in any such proposal that help 
facilitate the certification of these contractors as well as to support 
their ability to fairly compete and win work. Additionally, we urge you 
to ensure that all hearings on an infrastructure package in the 116th 
Congress include the voices and viewpoints of minority contractors who 
can testify to the ongoing challenges they face in competing for and 
winning work on federally funded infrastructure projects.
    Transportation projects mean jobs and businesses for communities 
across our nation and ensuring that all businesses in our communities, 
including small and disadvantaged concerns owned businesses, must 
remain a priority.
    Unfortunately, too often, the promises provided by federal law and 
regulations regarding minority contractor participation in federally 
funded infrastructure projects fall well short of the reality. Despite 
some successes, many states are still struggling to meet participation 
goals and requirements with their regular federal infrastructure 
funding, when such goals and requirements are attached. What these 
challenges do point out is the need for lawmakers to continue to make 
forceful efforts to attack the historically and ongoing inequality when 
it comes to federal infrastructure contracting.
    I know you agree with us that a new infrastructure package must 
benefit all stakeholders, including minority contractors. Therefore, 
including the voices of minority contractors in the development of an 
infrastructure package, including hearings on such a package, is a 
necessary first step. Hearing from these stakeholders will allow you to 
better understand existing gaps in federal and state participation 
requirements and help get to the bottom of the most frequent complaints 
and problems. And the message you will most likely hear is that the 
Department of Transportation (DOT) needs to improve the effectiveness 
and oversight of its Disadvantaged Business Enterprise (DBE) program, 
including better enforcement.
    The DOT's implementation of its DBE programs has been the subject 
of numerous reports by its Office of Inspector General (IG), 
highlighting problems with the Department's various DBE programs 
including at the Federal Aviation Administration. One of the most 
glaring conclusions from the past reports is the IG's conclusion that 
``[t]he Department does not provide effective program management for 
the multibillion-dollar DBE program.'' Before we pour billions more of 
federal transportation dollars through DOT to the states as a part of 
an infrastructure package or surface transportation reauthorization, 
Congress should listen to, and then appropriately respond to, the needs 
and concerns of stakeholders, including minority contractors and the 
IG. And any such package should incorporate their ideas about how to 
best construct a proposal to help ensure that all communities truly 
benefit and have a fair and equal opportunity to compete for the 
thousands of contracts and subcontracts that are likely to flow from 
that package.
    We also know that without pressure from Congress, long overdue but 
needed improvement will not occur and these business and our 
communities will find themselves remaining on the sidelines, even as 
billions in new funding flow to communities nationwide.
    Again, as you move forward on constructing the infrastructure 
package that our nation needs, we must consider and address the needs 
of these qualified but often overlooked businesses. The fact is that 
despite repeated affirmation by Congress, some states still make no or 
limited efforts to help certified firms obtain DBE work on federally 
funded projects and in others, most certified DBEs never win any 
business should concern and trouble us as policymakers.
    Lastly, one step such legislation can take is to make clear that 
all infrastructure agencies have a responsibility for implementing and 
enforcing rules, guidance, and federal laws which require equal 
employment and labor opportunities in federal contracting such as 
Executive Order 11246 (Equal Employment Opportunity). That E.O. 
requires agencies to include certain nondiscrimination and equal 
employment opportunity provisions in federal contracts, including 
federally assisted construction contracts. Unfortunately, we are 
concerned that this Administration's weak record and blatant attempts 
to roll back important protections enshrined in federal contracting law 
and regulations will have a disparate impact on minority communities 
and contractors.
    There is no reason why any package to invest in our infrastructure 
in order to foster a safe and modern transportation system should not 
also help small businesses like yours. These are not conflicting goals; 
it actually makes good and sound economic and transportation policy.
    As Members of Congress who care deeply about ending unequal access 
to federal contracts and addressing our nation's glaring infrastructure 
needs, we hope you understand the need to make sure both goals are met 
in any infrastructure package and will work with us to achieve them.
        Sincerely,
Gwen Moore,
  Member of Congress.
Henry C. ``Hank'' Johnson,
  Member of Congress.
Jan Schakowsky,
  Member of Congress.
Marc Veasey,
  Member of Congress.
Bobby L. Rush,
  Member of Congress.
Karen Bass,
  Member of Congress.
Suzanne Bonamici,
  Member of Congress.
Ayanna Pressley,
  Member of Congress.
Brenda L. Lawrence,
  Member of Congress.
Donald Payne, Jr.,
  Member of Congress.
Yvette D. Clarke,
  Member of Congress.
Earl Blumenauer,
  Member of Congress.
Nydia M. Velazquez,
  Member of Congress.
Rashida Tlaib,
  Member of Congress.
Andre Carson,
  Member of Congress.
Sanford D. Bishop,
  Member of Congress.
Bonnie Watson Coleman,
  Member of Congress.
Joyce Beatty,
  Member of Congress.
Mark Pocan,
  Member of Congress.
Lauren Underwood,
  Member of Congress.
Grace Meng,
  Member of Congress.
Eddie Bernice Johnson,
  Member of Congress.
Robin L. Kelly,
  Member of Congress.
Gregory Meeks,
  Member of Congress.
Al Lawson, Jr.
  Member of Congress.
Alcee Hastings,
  Member of Congress.
Sheila Jackson Lee,
  Member of Congress.
Jaoquin Castro,
  Member of Congress.
Adam Smith,
  Member of Congress.
Marcia L. Fudge,
  Member of Congress.
Terri A. Sewell,
  Member of Congress.
Tony Cardenas,
  Member of Congress.
Betty McCollum,
  Member of Congress.
Collin Peterson,
  Member of Congress.
Ilhan Omar,
  Member of Congress.
Debbie Dingell,
  Member of Congress.
Bennie Thompson,
  Member of Congress.
Jesus G. ``Chuy'' Garcia,
  Member of Congress.
David Scott,
  Member of Congress.
Adriano Espaillat,
  Member of Congress.
William Lacy Clay,
  Member of Congress.
Angie Craig,
  Member of Congress.
Ruben Gallego,
  Member of Congress.
John Lewis,
  Member of Congress.
Anthony Brown,
  Member of Congress.
  

                                 <F-dash>
List of DBEs willing to testify, Submitted for the Record by Hon. Gwen 
                                 Moore
                   List for DBE's willing to testify
National Association of Minority Contractors
Minnesota Chapter
Contact: Carlo Lachmansingh (DBE--Minnesota)

National Association of Minority Contractors
Wisconsin Chapter
Contact: Brian Mitchell

National Association of Minority Contractors
Oregon Chapter
Contact: James Posey

Chris Packer, President (DBE--Ohio)
Rod-Techs, Inc.
1727 West Galbraith Rd., Cincinnati, Ohio 45239 (Physical Address)
P.O. Box 101, Milford, Ohio 45150 (Mailing Address)

Elton L. Mason
WST/Owner
King County SCS Certification # 1052
W.S.D.O.T. DBE Approved Gravel Manufacture
MBE/DBE--D3M9621431 Prime NAICS: 484220
Trucking--Sand & Gravel Sales--Dump Sites--Statewide

Jerome Perry, President (DBE--Minnesota)
President, Highway Solutions, Inc.

Dr. Samuel L. Myers, Jr., Professor, Chair of Roy Wilkins Center for 
Human Relations and Social Justice, Humphrey Institute

Lennie Chism, Executive Director
Springboard Economic Development

    Ms. Moore. Thank you. Now, despite our progress, Mr. 
Chairman, too many qualified minority businesses are still 
being frustrated in their attempts to work at federally funded 
transportation projects, an outcome that I hope we can avoid as 
work begins on an infrastructure package.
    That is the message that these 45 of my colleagues joined 
with me on this letter to the committee earlier this year. 
Simply just hoping and praying and wishing that minority and 
small contractors get an opportunity, those who already face 
obstacles will get an opportunity, is just naive and damaging.
    We don't find, the Transportation and Infrastructure 
Committee, that there is any followup on making sure that these 
protocols are in place. We need to be proactive, Mr. Chairman. 
Because when Congress is silent, little to no DBE participation 
occurs. We want to strengthen the DOT programs focusing on 
helping DBEs increase access to capital.
    And lastly, we hope you will consider the public-private 
partnership concepts. Please keep in mind to put in place 
safeguards that ensure minority participation.
    I am running out of time, so I do want to mention that any 
infrastructure package must be inclusive of Tribal communities, 
including strengthening requirements that Federal agencies 
consult and engage with Tribal communities in a meaningful way. 
Federal policy and Executive orders call for it, and it is not 
always the reality.
    As noted by the National Congress of American Indians, 
Indian reservation roads, which make up the principal 
transportation system for residents and visitors to Tribal and 
Alaska Native communities, are some of the most underdeveloped 
networks in our Nation.
    I just want to mention in my last 17 seconds that we need a 
well-funded public transportation system.
    And again, water. It has no enemies, and--but we are--it is 
endangering all of our lives, as we fail to deal with those 
investments.
    And I yield back my 1 second.
    [Ms. Moore's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Gwen Moore, a Representative in Congress 
                      from the State of Wisconsin
    Chairman DeFazio and Ranking Member Graves,
    I appreciate the opportunity to testify today about our nation's 
infrastructure priorities. As you know, robust investment in 
infrastructure is a win-win-win: we update the infrastructure, put 
millions of Americans to work in good-paying jobs, and continue to help 
our communities be economically competitive.
    Transportation projects mean jobs and businesses for communities 
across our nation. Both of you know the stats better than anyone. 
According to the Business Roundtable, a significant infrastructure 
investment will increase real disposable income for Wisconsin 
households by an average of about $1200 more per year over 20 years. 
For Wisconsin families, that's real money. The same report found that 
significant reinvestment in U.S. public infrastructure systems would 
create 16,000 additional Wisconsin jobs over the next decade.
    In addition, that analysis found that increased infrastructure 
investment over a 20-year period would result in other benefits to 
Wisconsin, including $54 billion of additional output from personal and 
non-tradable services; $30 billion of additional output from durables 
manufacturing; and, $21 billion of additional output from finance, 
insurance and real estate.
    As you put together an infrastructure package, consider a new Water 
Resources Development Act, and reauthorization of the Fixing America's 
Surface Transportation Act, I hope you address the following 
priorities:
                  Inclusive Infrastructure Investments
    It must remain a federal priority to ensure that all communities 
can benefit from investments in infrastructure. And by that I don't 
just mean the geographically areas where the funds are dispersed, but 
also diversity in the groups that receive the money to undertake these 
projects and who are employed on these projects.
    Congress has long recognized that certain businesses, especially 
small and disadvantaged enterprises owned by minorities and women, have 
faced obstacles competing for and winning such business and has taken 
steps to rectify those injustices. Yet, despite progress, too many 
qualified minority businesses are still being frustrated in their 
attempts to win work on federally funded transportation projects, an 
outcome that I hope we can avoid as work begins on a robust national 
infrastructure package. Some of the frustrations I continue to hear are 
lack of guidance, training, and enforcement regarding participation 
requirements by federal and state officials overseeing infrastructure 
funds.
    That is the message that 45 of my colleagues joined me on a letter 
to you earlier this year. We learned the lesson from the 2009 American 
Recovery and Reinvestment Act (ARRA) that simply hoping that minority 
and small contractors--again that we know already face great obstacles 
to winning work--will just naturally benefit from federal 
infrastructure investments is naive and damaging.
    I appreciate the small steps taken in last year's FAA 
Reauthorization Act and the FAST Act. In both, you added provisions to 
strengthen oversight of federal prompt payment requirements, which is a 
major concern for small businesses. Those provision will hopefully 
encourage the U.S. Department of Transportation (DOT) to both better 
track this issue and provide more assistance to help resolve delayed 
payments to Disadvantaged Business Enterprises (DBE) and other small 
businesses, which can be a life or death issue for these businesses.
    But we need to do more as made clear by stakeholders and numerous 
DOT Inspector General reports. The DOT's implementation of its DBE 
programs has been the subject of numerous reports by its Inspector 
General (IG), highlighting problems with DOT's various DBE programs. 
One of the most glaring conclusions from the past reports is the IG's 
conclusion that ``[t]he Department does not provide effective program 
management for the multibillion-dollar DBE program.'' Before we pour 
billions more of federal transportation dollars to the states as a part 
of an infrastructure package or surface transportation reauthorization, 
Congress should listen to, and then appropriately respond to, the needs 
and concerns of minority contractors and the IG.
    As Congress considers infrastructure, we have to proactively engage 
these communities and strengthen the law and resources dedicated to 
helping all businesses compete for and win work.
    For example, all federal infrastructure agencies have a 
responsibility for implementing and enforcing rules, guidance, and 
federal laws that require equal employment and labor opportunities in 
federal contracting such as Executive Order 11246 (Equal Employment 
Opportunity). That E.O. requires federal agencies to include certain 
nondiscrimination and equal employment opportunity provisions in 
federal contracts, including federally assisted construction contracts. 
Unfortunately, what is written on paper and what happens in the real 
world often don't line up, much to the frustration of these qualified 
businesses.
    One small first step is ensuring that the voices of minority 
contractors are included in hearings to consider transportation and 
infrastructure legislation. Hearing from these stakeholders will allow 
you to better understand existing gaps in federal and state 
participation requirements and help get to the bottom of the most 
frequent complaints and problems. Hearing from these contractors will 
also help the Committee establish a strong record on the need to 
address under-representation and continuing discrimination in surface 
transportation contracting. I have a list attached to my testimony that 
I am pleased to share with the committee.
    And the message you will most likely hear is that the DOT needs to 
improve the effectiveness and oversight of its DBE program, including 
better enforcement.
    Some specific suggestions as you consider infrastructure 
investments:
1.  Strengthen efforts to increase DBE participation, including by 
adding new requirements or encouragement to use these businesses where 
none currently exist.
    i.  Require DBE participation or engagement for Passenger Facility 
Charges (PFC's) funded projects. Since its creation in 1990, the PFC 
program has allowed airports to apply to impose local charges to 
finance and pay for capital development projects. Unlike the AIP 
program, the PFC statute does not require an airport to establish DBE 
participation goals for PFC-only financed projects or to make good 
faith efforts to include DBEs.
    ii.  As the annual total raised by PFC's approaches AIP funding, we 
know that DBE participation on those projects is lagging. One study 
found that DBE participation in PFC-only financed projects is 
substantially lower than the rate for AIP financed projects. That 
report noted that MIA spent $435 million on PFC-only financed projects 
but reported no DBE participation/spend on these projects. By contrast 
MIA's AIP spending was $102 million with a DBE participation rate of 
15% which again reiterates the importance of participation 
requirements.
    iii.  The existence of little to no federal encouragement in the 
PFC program to use DBE's or small businesses is resulting in little to 
no participation which runs contrary to Congress' long standing policy 
in this area.
2.  Expand the DOT's DBE Supportive Services Program
    i.  This program provides training, assistance, and services to 
minority, disadvantaged, and women-owned enterprises in order to help 
these firms develop into viable, self-sustaining businesses. The 
program receives about $10 million annually, about the same level it 
has received since its creation in 1982.
Increase funding for the Department's Office of Small and Disadvantaged 
        Business Utilization
    i.  The Office of Small and Disadvantaged Business Utilization's 
mission is to ensure that the small and disadvantaged business policies 
and goals of the Secretary of Transportation are developed and 
implemented throughout the Department in a fair, efficient, and 
effective manner to serve small and disadvantaged businesses across the 
country. This includes the Office's short-term lending and bonding 
assistance programs to help small businesses overcome financial 
barriers to participation.
    ii.  Its funding has been flat funded for too long. For just small 
additional investments, this existing office can be better position to 
support the engagement of DBE's.
Increase access to capital
    i.  Increase funding for DOT's Minority Business Outreach: The 
Office provides contractual support to assist small, women-owned, 
Native American, and other disadvantaged business firms in securing 
contracts and subcontracts resulting from transportation-related 
Federal support.
    ii.  Increase funding for DOT's Minority Business Resource Center: 
This program provides assistance in obtaining short-term working 
capital for minority, women-owned and other disadvantaged businesses 
and Small Business Administration 8(a) firms. This account includes the 
subsidy costs for capital obtained through this program as well as 
administrative expenses.
      <bullet>  This could be an opportunity to re-envision this 
agency. Changes in the past few years have slashed its budget and its 
lending authority. While it makes sense to help consolidate and 
strengthen SBA programs when appropriate, it may be worthwhile for the 
DOT to retain some ability to address capital needs of DBE contractors.
Increase funding for DOT oversight, reporting, and enforcement of DBE 
        requirements
    i.  Increase oversight of state DBE performance including better 
tracking of the results of funding set-aside for DBE's or won by DBE's, 
including ensuring that states and other grantees are providing 
accurate data, including on the DBE certification process.
    ii.  Transparency in how federal dollars are spent in the DBE 
program is critical for ensuring accountability in the program and 
ensuring the effective and efficient performance and management of the 
program. For example, Congress and the states must be able to compare 
actual DBE spending data reported by state DOTs to state DOTs' DBE 
goals in a meaningful way. I know this has been an area of concern in 
the past and I hope you will work to address it moving forward.
Provisions encouraging or incentivizing the use of best practices
    <bullet>  Provide greater funding incentives to recipients who 
unbundle contracts. Unbundling of contracts has been shown time and 
time again to be a great way to increase DBE and small business 
participation.

    Lastly, there has been some discussion about the pros and cons of 
public-private partnerships (P3). As you consider P3 concepts, I just 
hope that you keep in mind the needs of minority contractors and put in 
place safeguards that help ensure minority participation. Or that tool 
simply becomes another avenue to get around longstanding federal 
minority participation requirements.
                           Tribal Communities
    I would be remiss if I did not mention the need to ensure that any 
infrastructure package must be inclusive of tribal communities. A key 
part of that is to ensure that federal agencies spending these dollars 
consult and engage with tribal communities in a meaningful way on 
projects in or affecting their communities. Doing so is a key way of 
respecting these sovereign communities. Federal policy and Executive 
Orders call for it. But we need meaningful provisions in any 
infrastructure bill to make real and consistent consultation a reality.
    As noted by the National Congress of American Indians (NCAI), 
Indian reservation roads, which make up the principal transportation 
system for residents and visitors to tribal and Alaska Native 
communities, are some of the most underdeveloped road network in the 
nation. This is just one example of the many inequities between Native 
and non-Native communities. Congress has the opportunity to address 
tribal infrastructure gaps and we should.
    Unsafe reservation road conditions are a significant barrier to 
economic development and efforts to improve living conditions on 
reservations will be frustrated if we miss this opportunity. According 
to NCAI, tribal communities have ``an unmet immediate need of well over 
$258 million in maintenance funding for roads and bridges.''
    The poor condition of these roads, bridges, and transit systems 
jeopardizes the health, safety, security, and economic well-being of 
tribal members and the traveling public. Data I have seen from my state 
of Wisconsin shows that in 2012, crashes on tribal lands resulted in 
fatalities at almost four times the statewide rate.
    One recommendation is to create a new roads maintenance program 
that targets road and bridge projects on tribal lands that would 
rectify treacherous conditions, taking condition, remoteness and impact 
of weather/seasons, into consideration.
    I would also recommend the recent GAO Report 19-22: Tribal 
Consultation: Additional Federal Actions Needed for Infrastructure 
Projects for specific ways to help ensure that agencies consult, 
consider, and address the needs in these communities. For example, I 
strongly support the GAO recommendation that the Administrator of the 
Federal Highway Administration document in the agency's tribal 
consultation policy how agency officials communicate with tribes about 
how tribal input from consultation was considered in the agency's 
decisions. It should embarrass us that an agency that receives tens of 
billions of dollars each year to build and maintain roads and bridges 
has a consultation policy that doesn't require them to tell tribes how 
their input was used in the decision making process. Consultation for 
the sake of checking a box is not consultation.
                         Public Transportation
    A well-funded public transportation system is vital to economic 
competitiveness and development, especially as job centers shift and 
change. Please significantly boost investments in public 
transportation.
    Public transportation remains a vital need in my community; and 
must remain be a key part of any infrastructure package. Public 
transportation is essential to moving people in both rural and urban 
areas and is a key part of any strong multimodal transportation system. 
Public transportation also provides a basic mobility option for 
seniors, those with disabilities, and low-income individuals. The vast 
majority of transit trips are work related or education related.
    In the last decade, too many transit systems found themselves 
without sufficient federal, state or local support, and often have no 
choice but to raise fares, cut service, or both. When local transit 
spending has increased, nearly all has been directed to pay for the 
increasingly expensive maintenance of an aging fleet of vehicles. 
Today, over 40% of buses and 25% of rail transit assets are in marginal 
or poor condition. Estimates from the National State of Good Repair 
Assessment indicate that there is an $86 billion backlog of deferred 
maintenance and replacement needs--a backlog that continues to grow.
    Unfortunately, with aging transit fleets, now is not the time to 
skimp on needed investments. MAP-21 took a drastic step backwards when 
it cut public transportation funding. Let's not repeat that mistake.
    We need to continue to strongly invest in public transportation and 
programs that ensure that those with the most mobility barriers, such 
as low-income communities, also benefit from a rebuilt and stronger 
transportation network.
    The American Society of Civil Engineers gave public transportation 
a D- on its most recent report card. New transportation legislation 
should spur innovation and provide new funding streams that allow 
greater investment in multi-modal transportation, infrastructure, 
mobility management, bus transit systems, and other public transit 
systems.
    Even before we get to the expiration of the FAST Act, I was alarmed 
by a recent report from the Congressional Research Service that warned 
unless legislative action is taken, formula funding for the federal 
transit program could be decreased by approximately $1 billion in 
FY2020, roughly 12% of the total in the FAST Act. The result is 
reductions in almost all major federal transit grants to buy new buses, 
railcars, to maintain facilities, and, in the case of many smaller 
systems, for operating expenses.
    Our communities cannot afford another reduction in federal 
investment in transit. In my district, between 2001 and 2010, the 
largest transit provider in my district cut bus service hours by 20 
percent. One study on the impact of those cuts estimated that in 2014, 
this system served 1,300 fewer employers (about 31,000 jobs) than would 
be the case if the transit system of 2001 were still in place.
    That means that nearly 31,000 jobs became transit inaccessible 
which is problem for both employees and the employers. No community can 
thrive if you have a growing gap between where employers are located 
and the ability of prospective employees to get there.
                                 Water
    The cost needed to repair and replace crumbling drinking water and 
wastewater infrastructure just in the eight Great Lakes states of 
Minnesota, Wisconsin, Illinois, Indiana, Michigan, Ohio, Pennsylvania, 
and New York is about $179 billion over 20 years according to the EPA.
    The Committee knows better than everyone that we cannot afford to 
delay or neglect the needed investment in our water infrastructure.
    I urge the Committee to provide a significant boost for water 
infrastructure programs under its jurisdiction. As part of those 
efforts, I hope you will include provisions to create greater awareness 
about a growing problem: the inability of people to pay their water 
bills. Along with long delayed investment, water affordability is 
quickly rising as an issue that policy makers must address. Higher 
water rates, which are frequently a part of efforts to fund 
infrastructure improvements at the local level, do not work for 
families that already cannot pay their water bills and face water 
shutoffs that jeopardize their health and the health of their children.
    According to data from the U.S. Water Alliance and other experts, 
from 2010 to 2017, water costs increased 41 percent across the country. 
While water rates rise for consumers, federal funding for water 
infrastructure has dropped significantly since 1977. In that year, 
investments from the federal government made up 63 percent of total 
spending on water infrastructure. By 2014, the federal government's 
contribution had dropped to 9 percent.
    One of the best ways the federal government can help is to pass an 
infrastructure bill that includes robust support for fixing drinking 
water, wastewater, and stormwater infrastructure.
    And any additional funding should:
    1.  Include provisions to help ensure affordability for households, 
income the most vulnerable. Ratepayers support the vast majority of 
water infrastructure investments but there is a limit to the ability of 
many individuals and families to continue to bear ever increasing 
costs.
    ii.  Ensure that the federal government supports the increased use 
of green infrastructure and nature-based solutions such as restoring 
wetlands, rain gardens, and permeable roads and sidewalks.
    iii.  Ensure that infrastructure legislation does not undermine or 
weaken environmental protections.

    Infrastructure is so important to our communities and the need for 
investment is so great. It is critical that we get it right. Thank you 
for allowing me to share the priorities for my community and I look 
forward to working with you to address our nation's infrastructure 
needs.

    Mr. DeFazio. I thank the gentlelady. She packed a lot into 
the 5 minutes.
    You would be happy to hear that, at the conversation at the 
White House yesterday regarding transportation infrastructure, 
the President himself brought up water issues. So I look at 
that as a good sign, and moving forward on some of those 
concerns.
    And DBE oversight, I agree with the gentlelady. We have 
left too much to the States, and some States are doing well and 
others aren't. And we need to look there, and we are going to 
need technical education and continuing education to get the 
workforce we are going to need, which could certainly impact 
the communities you are talking about.
    And then finally, on the Tribes, I know in the FAST Act I 
got a provision in there to allow self-governance for 
transportation. DOT didn't do a very good job of writing the 
rules, but they are doing a rewrite now, and the Tribes tell me 
it is going very well. So hopefully we will have that pretty 
soon. So I thank you for your testimony.
    Ms. Moore. Thank you so much.
    Mr. DeFazio. Does anyone else have questions for the 
gentlelady?
    OK, hearing none, thank you very much.
    OK, move on in order of arrival to the Honorable Lori 
Trahan from the great State of Massachusetts.

  TESTIMONY OF HON. LORI TRAHAN, A REPRESENTATIVE IN CONGRESS 
             FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mrs. Trahan. Thank you, Chairman DeFazio, Ranking Member 
Graves, members of the committee. Thank you for allowing me to 
share my priorities with you this morning.
    First, I ask that the committee approve the strong pipeline 
safety bill before the current law expires this year. Some of 
you may remember that I testified before the Subcommittee on 
Railroads, Pipelines, and Hazardous Materials a month ago on 
this very issue.
    I have no higher priority than to ensure that the residents 
of my district and of your districts are safe from the kind of 
preventable disaster that struck the Merrimack Valley last 
September. It destroyed homes, shuttered businesses, injured 
first responders and residents, and took a young man's life.
    On April 9th I introduced the Leonel Rondon Pipeline Safety 
Act. This bill, which was developed in close partnership with 
Senators Markey and Warren, as well as Representatives Moulton 
and Kennedy, includes a series of recommendations drawn from 
the National Transportation Safety Board interim report last 
November. It has been referred to this committee, as well as to 
the Committee on Energy and Commerce, which I understand is 
holding a hearing on pipeline safety at this moment.
    I ask that you give full consideration to H.R. 2139, so 
that this type of disaster never happens to a community again.
    Second, I ask that the committee ensure that wastewater 
infrastructure is a pillar of any infrastructure package that 
you develop.
    On Monday morning I convened a Merrimack River stakeholders 
meeting at the wastewater treatment plant in my hometown of 
Lowell. Among the key messages that I heard was the need for 
stable, reliable, and robust Federal funding for wastewater 
improvements. The chairman's bill, the Water Quality Protection 
and Job Creation Act, is an excellent starting point for this 
part of the infrastructure package, and I strongly support it.
    This week I will be introducing the Stop Sewage Overflow 
Act, which would refine the Sewer Overflow and Stormwater Reuse 
Municipal Grants program, which was authorized last fall as 
part of the America's Water Infrastructure Act. My bill has 
four components.
    First, it increases the grant's authorization level to $500 
million, annually. According to the EPA's most recent Clean 
Water Needs Survey, nearly $50 billion is needed for combined 
sewer overflow correction. Ever since the EPA's construction 
grants program was eclipsed by the Clean Water State Revolving 
Fund, cities and towns have shouldered an ever-greater share of 
the burden of improving their wastewater infrastructure.
    In Massachusetts, nearly $1 billion is needed for 
improvements to combined sewer systems, and it is estimated 
that there are more than 800 such communities across the 
Nation, including in Oregon and Missouri. The grant program's 
authorization level should be increased to more closely track 
with the degree of need across the Nation.
    Second, my bill would extend the program's authorization 
through 2030. Communities with major wastewater infrastructure 
improvement needs deserve the assurance that the Federal 
Government intends to be a partner with them over the long 
term. And thus, I encourage the committee to approve a 10-year 
extension so that CSO communities can be certain of our 
commitment to them.
    Third, it adds a new prioritization criterion that grant 
support should be targeted to communities with high levels of 
sewage in their rivers. Last year 800 million gallons of raw 
sewage and stormwater entered the Merrimack River, which is a 
drinking water supply for hundreds of thousands of people and a 
regional recreational asset. State revolving funds have been 
useful to communities since the construction grants went away. 
However, underserved communities with major CSO challenges need 
grant support, not just loans.
    Finally, my bill would reduce the local cost share 
requirement for a grant. It would be based upon a community's 
ability to pay for sewer system improvements. In Lowell, 
ratepayers spend approximately $550 annually on their sewer 
service. The 20th percentile of annual household income in the 
city is only $16,000. These households are paying approximately 
3.5 percent of their annual income for their sewer service. The 
local cost share requirement should correspond to the 
percentage of household income these families are already 
paying for their sewer.
    It is our responsibility here in Congress to provide our 
communities with clean water and to ensure their safety and 
peace through accountability. So again, I hope that the 
committee will give full consideration to the Leonel Rondon 
Pipeline Safety Act, as well as the Stop Sewage Overflow Act.
    I thank you for the opportunity to testify and for your 
leadership.
    [Mrs. Trahan's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Lori Trahan, a Representative in Congress 
                 from the Commonwealth of Massachusetts
    Chairman DeFazio and Ranking Member Graves, thank you for allowing 
me to share my priorities with you this morning.
    First, I ask that the Committee approve a strong pipeline safety 
bill before the current law expires this year.
    Some of you may remember that I testified before the Pipeline 
Subcommittee a month ago on this very issue.
    I have no higher priority than to ensure that the residents of my 
District and your Districts are safe from the kind of preventable 
disaster that struck the Merrimack Valley last September.
    It destroyed homes, shuttered businesses, injured first responders 
and residents, and took a young life.
    On April 9th, I introduced the Leonel Rondon Pipeline Safety Act.
    This bill, which was developed in close partnership with Senators 
Markey and Warren as well as Representatives Moulton and Kennedy, 
includes a series of recommendations drawn from the National 
Transportation Safety Board's interim report, issued last November.
    It's been referred to this Committee as well as the Committee on 
Energy and Commerce, which, I understand, is holding a hearing on 
pipeline safety at this very moment.
    I ask you to give full consideration to H.R. 2-1-3-9 so that this 
type of disaster never happens to a community again.
    Second, I ask the Committee to ensure that wastewater 
infrastructure is a pillar of any infrastructure package that you 
develop.
    On Monday morning, I convened a Merrimack River stakeholders 
meeting at the wastewater treatment plant in my hometown of Lowell.
    Among the key messages that I heard was the need for stable, 
reliable, and robust federal funding for wastewater improvements.
    The Chairman's bill, the Water Quality Protection and Job Creation 
Act, is an excellent starting point for this part of the infrastructure 
package.
    I strongly support it.
    This week, I will be introducing the Stop Sewage Act, which would 
refine the Sewer Overflow and Stormwater Reuse Municipal Grants 
program, which was authorized last fall as part of the America's Water 
Infrastructure Act.
    My bill has 4 components.
    First, it increases the grant's authorization level to $500 million 
annually.
    According to the EPA's most recent ``Clean Water Needs Survey,'' 
nearly $50 billion is needed for combined sewer overflow correction.
    Ever since the EPA's Construction grants program was eclipsed by 
the Clean Water State Revolving Fund, cities and towns have shouldered 
an ever-greater share of the burden of improving their wastewater 
infrastructure.
    In Massachusetts, nearly $1 billion is needed for improvements to 
combined sewer systems.
    And it is estimated that there are more than 800 such communities 
across the nation, including in Oregon and Missouri.
    The grant program's authorization level should be increased to more 
closely track with the degree of need across the nation.
    Second, my bill would extend the program's authorization through 
2030.
    Communities with major wastewater infrastructure improvement needs 
deserve the assurance that the federal government intends to be a 
partner with them over the long term.
    And thus, I encourage the Committee to approve a 10-year extension 
so that CSO communities can be certain of our commitment to them.
    Third, it adds a new prioritization criterion that grant support 
should be targeted to communities with high levels of sewage in their 
rivers.
    Last year, 800 million gallons of raw sewage and stormwater entered 
the Merrimack River--which is a drinking water supply for hundreds of 
thousands of people and a regional recreational asset.
    State Revolving Funds have been useful to communities since the 
construction grants went away.
    However, underserved communities with major CSO challenges need 
grant support, not just loans.
    Finally, my bill would reduce the local cost-share requirement for 
a grant. It would be based upon a community's ability to pay for sewer 
system improvements.
    In Lowell, ratepayers spend approximately $550 annually on sewer 
service.
    The 20th percentile of annual household income in the city is 
$16,000.
    These households are paying approximately 3.5% of their annual 
income for sewer service.
    The local cost share requirement should correspond to the 
percentage of household income these families are already paying for 
sewer service.
    It is our responsibility to provide our communities with clean 
water and ensure their safety and peace with accountability.
    Again, I hope that the Committee will give full consideration to 
the Leonel Rondon Pipeline Safety Act as well as the Stop Sewage Act.
    Thank you again for the opportunity to testify.

    Mr. DeFazio. I thank the gentlelady. I thank you for your 
legislative proposals, both in pipeline safety--and we will be 
writing a bill this year--and in wastewater, where we also 
intend to write a bill. So those will be helpful, and I thought 
your suggestions regarding particularly low-income communities 
were very well taken. I have similar concerns in my district. 
So thank you very much.
    Does anyone on the panel have questions for the gentlelady?
    OK. With that, thank you very much.
    Mrs. Trahan. Thank you, Mr. Chairman.
    Mr. DeFazio. And I think in order of arrival, Cheri was 
next.
    OK, the Honorable Cheri Bustos from Illinois.

 TESTIMONY OF HON. CHERI BUSTOS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mrs. Bustos. Thank you, Chairman DeFazio, and thank you, 
Ranking Member Graves----
    Mr. DeFazio. Oh, a former member of this committee.
    Mrs. Bustos. I know----
    Mr. DeFazio. We miss you.
    Mrs. Bustos. Mr. Chairman, I start out by saying----
    Mr. DeFazio. Look at this new room.
    Mrs. Bustos [continuing]. I am very homesick. And while I 
am very, very pleased to serve on the Committee on 
Appropriations now, I miss you and it is great to see the 
freshmen in the front row here. And so it is good to be back 
here. So thank you for the opportunity.
    What I would like to do is summarize and submit for the 
record a document outlining what I believe any infrastructure 
proposal should include, particularly to address the needs of 
small towns in rural America. But before I dive in, what I 
would like to note is that this document that I will submit for 
the record, I initially presented to the White House back in 
2017. I was invited to go over there; I was one of five Members 
at the time. It was bipartisan, and laid out really kind of the 
needs in rural America.
    But I bring that up because I think it emphasizes the 
importance of bipartisanship, and I know you understand that, 
Mr. Chairman and Mr. Ranking Member, the importance of that.
    The country that we are fortunate enough to live in, as we 
look at a major investment in our infrastructure, going 
forward, I think needs to--we need to look at three main 
things.
    First, we need to make sure that we direct Federal 
investment to the areas with demonstrated need.
    Number two, it should strengthen programs and target 
support, like I mentioned earlier, for rural America and small 
towns. It is very, very important to me and I know to some 
folks here. I am looking at Abby Finkenauer, sitting right in 
front of me. We share the Mississippi River. And so it is--I 
really, really hope that we can focus on rural America.
    Third, I think it maintains and expands policies like Buy 
American and Davis-Bacon provisions. And I know also, Mr. 
Chairman, how critical that is to you.
    So I want to take a look at things that are very, very 
important in the neck of the woods that I am fortunate enough 
to represent. The congressional district, the 17th 
Congressional District of Illinois--again, Congresswoman 
Finkenauer and I share the Mississippi River. But in my 
district we have nine locks and dams in the Upper Mississippi 
and Illinois Rivers that are just in my congressional district 
alone. If we have one single lock that goes down, literally it 
puts a dead stop to the navigation of our goods that cross the 
Mississippi River--or the Illinois River, in my case.
    So we literally have 60 percent of the Nation's grain 
exports go along these locks and dams in the congressional 
district I serve. So even knowing that, we have $8.75 billion 
in backlog needs along the Upper Mississippi. We need to expand 
these from 600 feet to 1,200 feet. It is critical for the 
movement of goods, as we go forward, and I would ask the 
committee to consider that.
    A couple other points that I would like to make is let's 
take a look at freight traffic on roads, and make sure that we 
look at the sustainable funding source for the Highway Trust 
Fund. Again, Mr. Chairman, I know that is very, very important 
to you.
    If we look at rural roads across the country, 35 percent of 
them are rated either poor or in mediocre condition. So I am 
hoping that is part of what you will consider.
    Additionally, an efficient rail network is important for 
the transport of goods through rural areas. And also passenger 
rail, we have got an Amtrak route from Chicago to Moline, 
Illinois. I am hoping that eventually that will be able to go 
into Iowa, as well, but we need to have a willing partner. But 
for right now, that is something where we have got some Federal 
funds set aside. I want to make sure that we follow through 
with that.
    Lastly, our Nation's airports, the smaller airports that 
serve regions like mine want to make sure that our airports 
serving these smaller communities are addressed along with the 
aging air traffic control towers.
    And I know that this falls outside this committee, but I 
want to make mention of a comprehensive package that I hope 
will include investment in education, healthcare, energy, and 
broadband.
    So, you know, I think we are fortunate enough that we had 
our parents' generation that knew the importance of investing 
in infrastructure. I know that the leadership of this committee 
understands the need for future investment.
    And with that, I am happy to--I have got 30 seconds, if you 
want me to answer any questions. Otherwise, I will yield back 
those 30 seconds of my time. Thank you, Mr. Chairman.
    [Mrs. Bustos' prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Cheri Bustos, a Representative in Congress 
                       from the State of Illinois
    Thank you Chairman DeFazio and Ranking Member Graves for giving me 
the opportunity to share my Transportation and Infrastructure 
priorities with the Committee today.
    As you know, I served on this Committee for my first three terms, 
and I have a strong appreciation for the essential work it does.
    Although I'm excited to now play a part in appropriating funds for 
the important programs you authorize, I would be lying if I said I 
didn't miss the work and my colleagues on T&I.
    Today, I would like to summarize and submit for the record a 
document outlining principles that any infrastructure proposal should 
include, particularly to address the needs of small towns and rural 
communities.
    But before I dive in, I should note that this document was 
originally created when I visited the White House in 2017 to engage in 
bipartisan discussions surrounding infrastructure. This underscores 
that the path forward MUST be bipartisan.
    This country needs significant investment in our infrastructure to 
build a strong foundation for a successful economy. To do this, any 
proposal should do three things:
    First--it should direct federal investment to areas with 
DEMONSTRATED need;
    Second--it should STRENGTHEN programs that target support to rural 
areas and small towns, like technical assistance;
    And Third--it should MAINTAIN and EXPAND policies, like Buy 
American and Davis-Bacon requirements, that support America's 
manufacturers and workers.
    Additionally, any proposal must address several modes of 
transportation and types of infrastructure.
    For example, I represent nine locks and dams along the Upper 
Mississippi and Illinois Rivers, and the failure of a single lock could 
shut down traffic up and down the river system--a system that moves 60% 
of the nation's grain exports.
    However, the nation faces an $8.75 billion backlog of inland 
waterway projects, and the locks on the Upper Mississippi need to be 
upgraded to 1200 feet to accommodate the traffic and movement of goods 
seen every year.
    Investing in this type of infrastructure not only helps our 
nation's farmers and boosts our economy, but it also helps every single 
household that consumes these goods by making their movement to market 
more efficient.
    Increased freight traffic on roads, coupled with everyday use, also 
means we need to invest more in our highways and bridges and provide a 
sustainable funding source for the Highway Trust Fund.
    In 2015, more than 35% of major rural roads across the country were 
rated in poor and mediocre condition.
    Congress needs to address this not only to help the economy, but 
also to promote basic public safety.
    Additionally, an efficient rail network is important for the 
transport of goods through rural areas, in addition to the success of 
passenger rail.
    However, federal investments in passenger rail infrastructure have 
lagged even while ridership on long-distance passenger rail routes that 
serve the Heartland is growing.
    We should continue to fund investments in passenger rail and 
incentives for maintaining freight rail infrastructure.
    Lastly, we need to make sure that any package invests in our 
nation's airports, including airports serving smaller communities and 
the country's aging air traffic control towers.
    And although these fall outside of this Committee's jurisdiction, I 
am hopeful that a comprehensive package would also include investment 
in education, healthcare, energy, broadband, and housing 
infrastructure.
    My parents' generation left us a world-class infrastructure system, 
and I look forward to working with you on these important initiatives 
to meet that promise for generations to come.

    Mr. DeFazio. I thank the gentlelady. And thanks in 
particular for emphasizing the need in the inland waterways. We 
tend to forget those in these discussions. I have been, 
obviously, focused on recapturing the Harbor Maintenance Tax. 
That will relieve some of the burden on the Corps, which could 
free up some money, but we really need to look at increased 
funding there, and how we can get there. And that actually came 
up in the discussions yesterday with the President. Inland 
waterways were part of the discussion.
    Mrs. Bustos. Very glad to hear that.
    Mr. DeFazio. Yes, yes. So--but we also look forward to your 
help on appropriations.
    Mrs. Bustos. I will be there for you.
    Mr. DeFazio. Some of this will be discretionary money, and 
some of it can be dedicated money. So we look forward to your 
assistance there.
    Does anyone have questions for the former member of the 
committee, the gentlelady?
    Yes, Ms. Finkenauer? You have 2 minutes.
    Ms. Finkenauer. I feel like we are at home right now, 
looking across the--you know, like we do with the Mississippi--
--
    Mrs. Bustos. This is like the Mississippi.
    Ms. Finkenauer. Yes, right across the river. But thank you 
so much, Congresswoman Bustos, for bringing up, obviously, our 
locks and dams and how important those are.
    Just wondering if you can touch even more on how important 
it is that we invest in our infrastructure, our roads, our 
bridges, and our locks and dams for our farmers, and how badly 
they need that investment when they are getting, you know, 
squeezed on all ends right now because of the retaliatory 
effects that we are seeing in States like ours because of the 
trade war that was started over a year ago, and just how 
important it is that we get that done.
    Mrs. Bustos. Well, the--most of the barge--is it OK if I go 
ahead and answer this, Mr. Chairman?
    The--most of the barge traffic that we have in our area, 
Abby, that you--that we can see every single day that we are at 
home--although flooding, by the way, is out of control right 
now--there was--two levees broke in Davenport, Iowa, just 
yesterday, so we have got a big problem there.
    But most of those barges are carrying corn and beans. So it 
is one of the most efficient, if not the most efficient way to 
carry our corn and our beans to market. So it is critical. And 
how our family farmers get to the barges through our rural 
roads and our bridges, again, absolutely critical.
    We hear the stories--and I know you do, as well, 
Congresswoman--of farmers who have to take the long route 
because the bridge is out. All of this is just absolutely 
critical to keeping down the costs that our families have to 
spend on their food supply.
    So again, I--you know, your district is mostly rural, my 
district is mostly rural. And that is why I just wanted to make 
sure that we drew attention to this today. Thank you for your 
question.
    Mr. DeFazio. I thank the gentlelady. Any other Members have 
questions?
    OK, with that, thank you for your testimony.
    Mrs. Bustos. Thank you, Mr. Chairman.
    Thank you, Mr. Ranking Member.
    Mr. DeFazio. And I believe that Mikie Sherrill from New 
Jersey was next up.
    Go right ahead, you have 5 minutes.

TESTIMONY OF HON. MIKIE SHERRILL, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Ms. Sherrill. Thank you so much. Thank you, Chairman 
DeFazio, Ranking Member Graves, and members of the committee 
for the opportunity to testify today. I want to particularly 
recognize my New Jersey colleagues, Representative Sires, 
Representative Payne, and Representative Malinowski, who work 
so hard to advance New Jersey's priorities as members of this 
committee.
    I was glad to see yesterday that the President and Speaker 
Pelosi met to talk about infrastructure, and agreed to move 
forward on a $2 trillion infrastructure package. A couple of 
weeks ago I had the opportunity to convey to the Speaker how 
important the Gateway Tunnel project is, in particular, and 
that is why I am here today.
    In fact, a good starting point for this administration 
would be to release the funds already appropriated to the 
Gateway Tunnel Project so we can immediately get started on 
this critical priority, because the Gateway Tunnel Project is 
the Nation's most urgent infrastructure project.
    As the members of this committee know all too well, 20,000 
commuters use the century-old Hudson River Tunnel to travel in 
and out of New York City each day. It is the linchpin of the 
passenger rail network, and the most heavily trafficked rail 
corridor, connecting train routes in 20 States.
    Superstorm Sandy badly damaged the existing tunnel. I 
examined the damage a few months ago. The brackish water that 
tore through the tunnel has left behind exposed rebar, corroded 
wires, and crumbling walls. Maintenance crews are only able to 
do basic upkeep, because they can only operate a few hours a 
night, hauling their equipment in and out of the tunnel for 
each triage session.
    I know the committee has focused on the cost of doing 
nothing. Well, the cost of doing nothing to address this poor 
condition is staggering. A complete collapse of the tunnel 
could injure thousands and cost our economy an estimated $100 
million a day.
    I recently hosted a discussion with the Regional Plan 
Association on their new report on the Hudson River Tunnel. A 
planned closure of half the tunnel would be a $16 billion hit 
to the national economy over 4 years, and a $22 billion hit to 
residential property values in New Jersey alone. Rising air 
fares, more pollution, longer commutes, and increased motor 
vehicle accidents will further harm the single most 
economically productive region in our country.
    Just as important to my constituents, every deferred 
decision on the Gateway Tunnel Project means mounting delays. 
It seems as though every few months we read about a train 
stopped in the tunnel. Or, in October of 2018, overhead power 
cables puncturing the top of a train car, stranding 1,600 
commuters.
    As a working parent, I know the stress of a delayed train 
when you are racing to pick up your kids at daycare, or make it 
home to watch a lacrosse game. I am on text chains with moms in 
my communities who have been stranded, feverishly working to 
find someone to pick up their kids.
    Ryan Coakley, a regular commuter from Montclair, New Jersey 
described his commute as ``a picture of inefficiency.'' Packed 
trains, constant delays, and a stressful commute. He said that, 
in order to coach his kid's team, he has to take a half of a 
day off from work because he can never depend on the trains 
being on time.
    Or Michael Preston, who has commuted into the city from 
Madison for 15 years. He compared riding the train to ``death 
by a thousand cuts.'' He now leaves two trains earlier than 
years before, because he knows if he needs to be at a meeting 
on time, he just can't count on the system to get him there.
    We are also approaching a new crisis with a shortage of 
train engineers for New Jersey Transit. This workforce gap 
leaves our transit system operating well below capacity going 
into the busy summer months. In fact, it has already been 
dubbed a summer of hell.
    We are better than this. There is no reason for transit 
agencies to struggle to maintain the workforce to keep the 
trains running on time. I look forward to working with this 
committee to explore how the Federal Transit Administration can 
provide greater assistance for recruiting and training to fix 
these workforce shortages.
    Although I was proud to partner with members of this 
committee to advocate for funding the Federal-State Partnership 
for a State of Good Repair, that is not enough. We must go 
beyond that and create a dedicated funding source for passenger 
rail projects, and provide Amtrak contracting authority to 
advance the work that we all know needs to be done.
    New Jersey sends more money to Washington in Federal tax 
dollars and gets back less than almost any State in the Nation. 
My constituents do not feel Congress is working for them, 
because commonsense things like this tunnel, or rail 
maintenance, are put on ice because of partisan politics.
    Nothing affects people's lives who go in and out of New 
York more than their daily commute. It is unavoidable, and it 
has to be done every day. We owe the hard-working men and women 
of our region a safe, reliable commute home. We have a 
tremendous opportunity to greenlight the funding for the new 
tunnel.
    I look forward to joining you, Chairman DeFazio, and 
members of this committee on Thursday and Friday to tour the 
Hudson River Tunnel and move forward on Gateway. We owe the 
American people no less. Thanks so much.
    [Ms. Sherrill's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Mikie Sherrill, a Representative in Congress 
                      from the State of New Jersey
    Thank you, Chairman DeFazio, Ranking Member Graves, and Members of 
the Committee for the opportunity to testify today. I want to 
particularly recognize my New Jersey colleagues, Rep. Sires, Rep. 
Payne, and Rep. Malinowski, who work so hard to advance New Jersey's 
priorities as members of this committee.
    I'm glad to see yesterday the President and Speaker Pelosi met to 
talk about infrastructure, and agreed on moving forward on a $2 
trillion infrastructure package. A couple of weeks ago I had the 
opportunity to convey to the Speaker how important the Gateway Tunnel 
project is in particular, and that's why I'm here today.
    In fact, a good starting point for the administration would be to 
release the funds already appropriated to the Gateway Tunnel Project so 
we can immediately get started on this critical priority.
    The Gateway Tunnel Project is the nation's most urgent 
infrastructure project.
    As the members from New Jersey and New York on the committee know 
all too well, 20,000 commuters use the century-old Hudson River Tunnel 
to travel in and out of New York each day. It is the linchpin of the 
passenger rail network: the most heavily-trafficked rail corridor, 
connecting train routes in 20 states.
    Superstorm Sandy badly damaged the existing tunnel. I toured the 
damage a few months ago--the brackish water that tore through the 
tunnel has left behind exposed rebar, corroded wires, and crumbling 
walls. Maintenance crews--and I must emphasize maintenance, because 
they are unable to do more than basic upkeep--can only operate for a 
few hours a night, hauling their equipment in and out of the tunnel for 
each triage session.
    I know the committee has focused on the cost of doing nothing to 
invest in our crumbling infrastructure. Well, the cost of doing nothing 
to address the poor condition of the current tunnel is staggering.
    A complete collapse of the tunnel could injure thousands and cost 
our economy an estimated $100 million a day.
    I recently hosted a discussion with the Regional Plan Association 
on their new report on the Hudson River Tunnel. A planned closure of 
half the tunnel would be a $16 billion hit to the national economy over 
four years. A $22 billion hit to residential property values in New 
Jersey. Rising air fares, more pollution, longer commutes, and 
increased motor vehicle accidents will further harm the single most 
economically productive region in our country.
    Just as important to my constituents, every deferred decision on 
the Gateway Project means mounting delays on the current system. It 
seems as though every few months, we read about a train stopped in the 
tunnel--or in one case in October 2018, overhead power cables 
puncturing the top of a train car, stranding 1,600 commuters.
    As a working parent, I know the stress of a delayed train when you 
are racing to pick up your kids at daycare, or make it home to watch a 
lacrosse game. I am on text chains with moms in my community who have 
been stranded, feverishly working to find someone to pick up their 
kids.
    Ryan Coakley, a regular commuter from Montclair, described his 
commute as ``a picture of inefficiency.'' Packed trains, constant 
delays, and a stressful commute for folks who already have stressful 
jobs. He said that in order to coach his kid's team, he has to take a 
half day from work because he can never depend on trains being on time.
    Or Michael Preston, who has commuted into the city from Madison for 
15 years. He compared riding the train to ``death by a thousand cuts.'' 
He now leaves two trains earlier than years before, because he knows if 
he needs to be to a meeting on time, he just can't count on the system 
to get him there.
    We are also approaching a new crisis with a shortage of train 
engineers for NJ Transit. The eight locomotive engineers graduating 
from training this May are not enough to fill the shortage we face. 
This workforce gap leaves our transit system operating well below 
capacity going into the busy summer months. In fact, it's already been 
dubbed ``Another Summer of Hell.''
    We are better than this. There's no reason for transit agencies to 
struggle to maintain the workforce to keep the trains running on time. 
I look forward to working with this committee to help explore how the 
Federal Transit Administration can provide greater assistance for 
recruiting and training to fix these workforce shortages.
    And if we truly want to build a 21st century infrastructure, we 
have to partner with Amtrak to reduce the backlog of projects along the 
Northeast Corridor. The greatest barrier to a strong passenger rail 
national network is the lack of investment. That is why I was proud to 
partner with members of this Committee to advocate for funding the 
Federal-State Partnership for a State of Good Repair.
    But that's not enough. We must go beyond that and create a 
dedicated funding source for passenger rail projects and provide Amtrak 
contracting authority to advance the work that we all know needs to be 
done.
    New Jersey sends more money to Washington in federal tax dollars, 
and gets back less, than almost any other state. My constituents do not 
feel Congress is working for them, because common sense things like 
this tunnel, or rail maintenance, are put on ice because of partisan 
politics.
    Nothing affects people's lives who go in and out of New York more 
than their commute. It is unavoidable, it must be done every day. We 
owe the hard working men and women of our region a safe, reliable 
commute home.
    We have a tremendous opportunity to greenlight the funding for the 
new tunnel. I look forward to joining you, Chairman DeFazio, and 
members of this committee on Thursday and Friday to tour the Hudson 
River Tunnel and move forward on Gateway. We owe the American people no 
less.

    Mr. DeFazio. Thank you. That was precisely timed. Very 
good.
    I thank the gentlelady, and I think you pointed out both 
the problem with the tunnels, but also the power and the 
transit vehicles themselves. And part of the reason transit 
ridership is lessening in many places is because of the 
decrepit condition of that.
    And so, $100 billion that will bring our transit up to a 
state of good repair, nationally, that is worth the investment.
    And then also for pointing out if we wait until those 
tunnels fail, $37 billion-a-year hit to the economy of the 
United States, all the United States, not just New Jersey, New 
York, or even the Northeast region.
    So thank you for your advocacy. I look forward to the tour. 
We will be going down there at 10 o'clock at night. It ought to 
be lots of fun, I am sure.
    Ms. Sherrill. Thank you.
    Mr. DeFazio. So any other members of the committee have 
questions?
    OK, hearing none, thank you very much for your testimony--
--
    Ms. Sherrill. Thank you.
    Mr. DeFazio [continuing]. And your advocacy.
    And with that, the gentleman from California, Josh Harder, 
is recognized for 5 minutes.

  TESTIMONY OF HON. JOSH HARDER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Harder. Thank you so much, Chairman DeFazio and Ranking 
Member Graves, for taking the time to hold this very important 
hearing.
    I have the honor of representing California's Central 
Valley here in Congress. And so, unsurprisingly, I am here to 
talk about water. Back home, our water infrastructure is about 
more than just sustaining the practical drinking needs of our 
community.
    My great-great-grandfather came out on a wagon train in 
1850. He settled in the Central Valley because, at the time, we 
had the best soil and, most importantly, the best water in the 
country.
    That is the key to our livelihoods and to our entire 
agricultural way of life. Our region's access to water allows 
us to deliver over half of America's fruits, nuts, and 
vegetables. But our water infrastructure is aging and hasn't 
kept pace with the growing population in the agricultural 
industry, let alone the impacts of climate change, which are 
exacerbating the droughts and the boom and bust cycles we have.
    This is a national and local priority, and we need some 
real smart investments here. On the heels of California's worst 
drought, we have an obligation to move quickly to invest, to 
prepare for the one that we know is just around the corner.
    California already has the most variable rainfall in the 
country. We are locked into this boom and bust cycle. We have 
to capitalize on the boom years, like this one, where we have a 
lot of rain and a lot of water, to get us through the busts, 
which we know always happen. The only way we can do that is if 
we actually invest in infrastructure projects.
    In the past we have failed to take advantage of these, and 
we have suffered. We should have made investments into our 
water systems 20 years ago, but the best thing we could be 
doing is making those investments today.
    In 2012, the American Society of Civil Engineers graded the 
State's levee and flood control a D, and the urban runoff 
infrastructure and programs a D+. It is not the grades we are 
looking for. And these ratings are--I think are really 
unacceptable and unsustainable in an area of the country like 
ours, that has some real challenges.
    As a committee, you have recognized that the Federal 
Government used to pay 75 percent of the total project costs 
for water infrastructure improvements. And today the Federal 
Government pays about 5 percent. I think we can agree that that 
is a dereliction of duty.
    That is why I announced the SAVE Water Resources Act just 
last week. This bill invests in water infrastructure, supports 
surface and groundwater storage below ground, and ensures we 
build infrastructure that lasts more than a few years down the 
road, but for the long term. We need to make sure we are 
ensuring the water security of our region 50, 100 years into 
the future.
    Some parts of this bill increase funding for or reauthorize 
key programs that we should prioritize as we are considering a 
new infrastructure package. My Central Valley colleagues agree. 
I led a letter with five other California Central Valley 
Members on addressing the need to do a couple things.
    First, to encourage the development of climate-resilient 
technologies that can withstand the impacts of severe droughts, 
floods, and wildfires that are now stretching 365 days a year.
    It also supports many of the water infrastructure projects 
authorized in the WIIN Act, including much-needed surface and 
groundwater storage projects, water recycling projects, and 
desalination.
    And third, it invests in programs that support the 
development, management, and improvement of water projects, 
like the U.S. Army Corps ]of Engineers Civil Works program.
    It expands Federal financing for new water projects by 
authorizing and expanding the Water Infrastructure Finance and 
Innovation Act and the Reclamation Infrastructure Finance and 
Innovation Act, known as WIFIA and RIFIA.
    And then it finally funds Federal programs that provide 
States with the financial support to encourage water 
infrastructure projects that improve water quality, like the 
Drinking Water State Revolving Fund and Clean Water State 
Revolving Fund.
    We have kids in the California Central Valley, in my 
district who have rashes if they go and try to take a shower 
with the drinking water that we have. The rural water--the 
Clean Water Drinking Act has expired. That is exactly what we 
need to be reauthorizing. We do that in my bill.
    If we commit to making these investments, we are going to 
protect not only the local needs of our valley, but the 
country's access to healthy, home-grown food. It is not just a 
priority for us, it is a priority for anyone who eats dinner or 
breakfast anywhere in the country.
    I encourage this committee to prioritize investments in our 
failing water systems, alongside our need to invest in our 
roads, bridges, and transit systems, and I look forward to 
continue to work alongside you to develop the best 
infrastructure program we can for the people I have an honor of 
representing in the Central Valley.
    Thank you, Mr. Chairman, and I yield back and open for any 
questions.
    [Mr. Harder's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Josh Harder, a Representative in Congress 
                      from the State of California
    Thank you Chairman DeFazio and Ranking Member Graves for taking the 
time to hold this important hearing.
    I have the honor of representing California's Central Valley here 
in Congress.
    Back home, our water infrastructure is about more than just 
sustaining the practical drinking water needs of our own community.
    It's also a key to our livelihoods and our agricultural way of 
life.
    Our region's access to water allows us to deliver over half of 
America's fruits, nuts, and vegetables.
    But our water infrastructure is aging and has not kept pace with 
our growing population and agricultural industry--or our changing 
climate.
    This is a public safety concern for the farmers, families, and 
water users across the state, and it's a concern for anyone across the 
country who eats our produce.
    This is a local and a national priority--and California's unique 
challenges require smart investments.
    On the heels of the worst drought in our state's history, we have 
an obligation to move quickly to invest in our water infrastructure to 
prepare for the next one.
    California has the most variable rainfall in the country--we're 
locked into boom and bust cycles.
    We have to capitalize on the boom years--like we're experiencing 
now--to get us through the busts. The only way we can do that is by 
investing in important infrastructure projects.
    In the past, we've failed to take advantage of the boom years, and 
we suffered during the last drought as a result.
    We should have made investments in our water systems 20 years ago--
but the least we can do is make those investments right now.
    In 2012, the American Society of Civil Engineers graded the state's 
levee and flood control a D, and urban runoff infrastructure and 
programs a D+. These ratings are unacceptable and unsustainable.
    And as you said before Mr. Chairman, the federal government's 
investments in infrastructure have not kept pace with our needs.
    The federal government used to pay 75% of total project costs for 
water infrastructure improvements. Today we pay around 5%. That's 
crazy.
    That's why I announced the SAVE Water Resources Act just last week. 
My bill invests in water infrastructure, supports surface and 
groundwater storage, and ensures we build infrastructure lasts more 
than a few years down the road, but for the long-term.
    Some parts of the bill increase funding for--or reauthorize--key 
programs that we should prioritize as we consider a new infrastructure 
package.
    My Central Valley colleagues agree--I led a letter with five other 
Central Valley Members on addressing the need to:
    <bullet>  Encourage the development of climate-resilient 
technologies that can withstand the impacts of severe droughts, floods, 
and wildfires.
    <bullet>  Support MANY water infrastructure projects authorized in 
the WIIN Act, including much-needed surface and groundwater storage 
projects, water recycling projects, and desalination projects.
    <bullet>  Invest in programs that support the development, 
management, and improvement of water projects, such as the U.S. Army 
Corp of Engineers Civil Works program.
    <bullet>  Expand federal financing for new water projects by 
authorizing and expanding the Water Infrastructure Financing and 
Innovation Act (WIFIA) and the Reclamation Infrastructure Financing and 
Innovation Act (RIFIA).
    <bullet>  Funding federal programs that provide states with the 
financial support to encourage water infrastructure projects and 
projects that improve water quality standards, such as the Drinking 
Water State Revolving Fund (DWSRF) and Clean Water State Revolving Fund 
(SRF).

    If we commit to making these investments, we will protect not only 
the local needs of the Central Valley, but also our country's access to 
healthy, home-grown food.
    As our national population continues to expand, we need to continue 
growing food here at home.
    I know most people can't see beyond their dinner plates, but their 
food comes from places like the Central Valley. No issue is more 
central to our ability to grow this produce at home than our access to 
water.
    And we can't maintain this access without making important 
infrastructure investments in our water systems.
    I encourage you to prioritize investments in our failing water 
systems alongside our need to invest in America's roads, bridges, and 
transit systems by making investments in the programs which I have laid 
out here today.
    I hope to continue working alongside you to develop a better 
infrastructure package for the people I have the honor of representing 
in the Central Valley.
    Thank you, and I yield back.

    Mr. DeFazio. I thank the gentleman, and I thank him for his 
legislative contribution to the debate and discussion over how 
the Federal Government can better partner in water. And 
obviously, you have a strong ally in the chair of the 
Subcommittee on Water Resources and Environment in the 
gentlelady from Los Angeles, who is not here today, but you 
know Grace Napolitano very well, and she will be a key as we 
move forward.
    And also, having served on the Committee on Natural 
Resources, I am more familiar with over 30 years' water wars, 
as I call them. But if you can all come to some agreement----
    Mr. Harder. It is time to get beyond the wars and into the 
solutions.
    Mr. DeFazio. That would be great.
    Any other members of the committee have questions?
    OK, seeing none, I thank the gentleman for his 
contribution.
    Mr. Harder. Thank you, Mr. Chairman.
    Mr. DeFazio. The gentleman, Glenn Thompson from 
Pennsylvania, is next to arrive. I recognize the gentleman for 
5 minutes.

TESTIMONY OF HON. GLENN THOMPSON, A REPRESENTATIVE IN CONGRESS 
             FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Thompson. Chairman DeFazio, Ranking Member Graves, and 
members of the committee, thank you for the opportunity and the 
privilege of being able to share my priorities for the 116th 
Congress.
    In order to improve and maintain the infrastructure of the 
United States, it is crucial that we support programs that 
promote new, innovative technologies that advance all the 
aspects of our country's transportation and infrastructure 
needs.
    I want to start with the Essential Air Service. The Airline 
Deregulation Act of 1978 made airlines the sole authority to 
determine which domestic markets would receive air service, as 
well as what airfares passengers would be charged. 
Subsequently, the Essential Air Service was established to 
ensure taxpayers in small, rural communities had continued 
connectivity to the entire national transportation system by 
subsidizing commuter and certified air carriers.
    This program is critical in rural America and has provided 
links to hub airports in over 175 locations throughout the 
United States and its territories that would otherwise lack 
commercial air service.
    Our Nation's rural and small communities depend on 
commercial air service for transportation, medical supplies, 
commercial supplies, access to larger business markets, and, 
quite frankly, economic development.
    With rural airports located in my congressional district, 
including four airports that participate in the EAS program, I 
see firsthand the importance of maintaining this program for 
all Americans who live in underserved rural areas.
    I want to touch on the Bus Testing Facility Program. The 
Bus Testing Facility Program, which is operated by the Thomas 
D. Larson Pennsylvania Transportation Institute, an 
interdisciplinary research unit of the Pennsylvania State 
University, tests new transit bus models for safety, structural 
integrity, durability, reliability, performance, 
maintainability, noise, and fuel economy. The program tests new 
bus models before they are purchased by transit agencies. This 
often helps address problems before the fleet is built, 
potentially saving considerable money and time, and avoiding 
inconveniencing passengers and communities.
    Since the beginning of this program, more than 470 new bus 
models have been tested, resulting in over 9,600 documented 
design failures. By identifying these failures early in the 
production process, the program averted many fleet failures, 
saving millions of dollars in maintenance costs, litigation, 
and lost revenue.
    The Bus Testing Facility Program originally received $3 
million in mandatory funds under the SAFETEA-LU. In fiscal year 
2018, Congress provided an additional $2 million discretionary 
appropriations in the Transportation, Housing and Urban 
Development Appropriations bill. This is the first increase 
that program received in 20 years.
    Now, based on fiscal year 2018 funding and an anticipated 
$3 million in fiscal year 2019 and $3 million in 2020, the Bus 
Testing Facility Program has sufficient funds through September 
2020.
    As we look forward to reauthorizing a highway bill, I 
request the committee take a close look at this program that 
has a proven record of high-quality success and reporting. 
Without this program, manufacturers will not be able to sell 
new buses. Transit agencies will not be able to acquire new 
buses. And the consumers will be left with fewer options for 
transportation.
    I want to touch briefly on locks and dams that has been 
discussed here. You know, specifically in my area, in the Upper 
Allegheny River, we sadly need action on maintenance, 
maintenance of locks and dams, and certainly more dredging to 
benefit both commercial and noncommercial riverway traffic. It 
is sad, the condition of those--been allowed to deteriorate to. 
Any support that this committee can provide for navigation of 
our locks and dams would--and our riverways would be 
appreciated.
    And finally, workforce development infrastructure. 
Rebuilding our Nation's infrastructure will require more than 
just bridges, roads, and waterways. It will require the 
development of a skilled workforce that can design, build, and 
maintain that infrastructure. And as cochair of the bipartisan 
House Career and Technical Education Caucus, I recognize the 
importance and value CTE programs offer to individuals, 
especially those in infrastructure sectors.
    CTE programs and apprenticeships are proven strategies that 
can help provide individuals with the education and work-based 
learning needed for career success in these high-skill, high-
wage industry sectors or occupations.
    Therefore, I just would respectfully request that you 
include the following in any infrastructure legislation: a 
stipulation that States devote a portion of infrastructure 
funds they receive to workforce development programs, including 
CTE programs, with the flexibility to invest in such programs 
that they deem appropriate for local infrastructure needs; and 
incentives for infrastructure-related businesses to invest in 
work-based learning, including apprenticeships and programs.
    I really, once again, appreciate the honor and the 
privilege of sitting before you today. Thank you, Chairman.
    [Mr. Thompson's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Glenn Thompson, a Representative in Congress 
                 from the Commonwealth of Pennsylvania
    Chairman DeFazio, Ranking Member Graves, and Members of the House 
Committee on Transportation and Infrastructure:
    Good morning and thank you for providing the opportunity to share 
my priorities for the 116th Congress. In order to improve and maintain 
the infrastructure of the United States, it is crucial we support 
programs that promote new, innovative technologies that advance all 
aspects of our country's transportation needs.
                         Essential Air Service
    The Airline Deregulation Act of 1978 made airlines the sole 
authority to determine which domestic markets would receive air service 
as well as what airfares passengers would be charged. Subsequently, the 
Essential Air Service (EAS) Program was established to ensure taxpayers 
in small, rural communities had continued connectivity to the entire 
National Transportation System by subsidizing commuter and certified 
air carriers.
    This program is critical in rural America and has provided links to 
hub airports at over 175 locations throughout the United States and its 
territories that would otherwise lack commercial air service.
    Our nation's rural and small communities depend on commercial air 
service for transportation, medical supplies, commercial goods, and 
access to larger business markets. By continuing regular air service to 
these areas, Americans will continue to access necessary medical 
services that might only be available in larger cities, as well as 
increasing the economic opportunities and visitors to these 
communities.
    With rural airports located in my congressional district, including 
four (4) airports that participate in the EAS program, I see first-hand 
the importance of maintaining this program for all Americans who live 
in underserved, rural areas.
                      Bus Testing Facility Program
    As part of authorization of the Safe, Accountable, Flexible, 
Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU), 
the Bus Testing Facility Program, operated by the Thomas D. Larson 
Pennsylvania Transportation Institute, an interdisciplinary research 
unit of the Pennsylvania State University, tests new transit bus models 
for safety, structural integrity and durability, reliability, 
performance, maintainability, noise, and fuel economy.
    The program tests new bus models before they are purchased by 
transit agencies. This often helps address problems before the fleet is 
built, potentially saving considerable money and time and avoiding 
inconveniencing passengers.
    Since the beginning of this program, more than 470 new bus models 
have been tested, resulting in over 9,600 documented design failures. 
In 2017 alone, the bus testing facility identified 183 deficiencies, 
including 55 structural, 19 road calls, and two severe safety related 
failures. By identifying these failures early in the production 
process, the program averted many fleet failures saving millions of 
dollars in maintenance costs, litigation, and lost revenue.
    The Bus Testing Facility program originally received $3 million in 
mandatory funds from SAFETEA-LU. In FY 2018, Congress provided an 
additional $2 million discretionary appropriation in the 
Transportation, Housing and Urban Development Appropriations bill. This 
is the first increase the program received in 20 years. Based on FY 
2018 funding and anticipated $3 million in FY 2019 and $3 million in FY 
2020, the Bus Testing Facility program has sufficient funds through 
September 2020.
    As we look toward reauthorizing a highway bill, I request the 
Committee take a close look at this program that has a proven record of 
high-quality success and reporting. Without this program, manufacturers 
will not be able to sell new buses, and transit agencies will not be 
able to acquire new buses.
                Workforce Development in Infrastructure
    Rebuilding our nation's infrastructure will require more than just 
bridges, roads, and waterways; it will require the development of a 
skilled workforce that can design, build, and maintain that 
infrastructure. On March 6, 2018, during a House Transportation and 
Infrastructure Committee hearing on the President's infrastructure 
proposal, Secretary of Transportation Elaine Chao testified, ``we 
probably will not have enough skilled trades workers to be able to 
address all the infrastructure needs when it finally gets all going . . 
. So, the workforce training and retraining part is important.''
    Career and Technical education (CTE) programs and apprenticeships 
are proven strategies that can provide individuals with the education 
and work-based learning needed for career success in these high-skill, 
high-wage industry sectors or occupations. As Co-Chair of the 
bipartisan House Career and Technical Education Caucus, I recognize the 
importance and value CTE programs offer to individuals, especially 
those in infrastructure sectors.
    By including these investments in a comprehensive infrastructure 
package, we will ensure that resources committed to our nation's 
infrastructure will be effective, building on established workforce 
development strategies to provide the skilled workers required to carry 
out the projects.
    Congress recently recognized CTE as an effective workforce 
development strategy when it unanimously passed the Strengthening 
Career and Technical Education for the 21st Century Act reauthorizing 
the Carl D. Perkins Career and Technical Education Act, which the 
President subsequently signed into law (Public Law No: 115-224). We 
must maintain this commitment moving forward. Therefore, I respectfully 
request that you include the following in any infrastructure 
legislation:
    <bullet>  A stipulation that states devote a portion of the 
infrastructure funds they receive to workforce development programs, 
including CTE programs, with the flexibility to invest in such programs 
they deem appropriate for local infrastructure needs, and that they 
coordinate such investments with the agencies that receive the states' 
funds from the Workforce Innovation and Opportunity Act and Carl D. 
Perkins CTE Act so as not to duplicate efforts;
    <bullet>  Incentives for infrastructure-related businesses that 
invest in work-based learning, including apprenticeship programs; and
    <bullet>  Dedicated resources for updating the facilities and 
equipment used in CTE programs of study in infrastructure sectors to 
ensure they are aligned with fast-paced, ever-changing industry 
expectations and standards.

    Again, thank you to Chairman DeFazio, Ranking Member Graves, and 
Members of this Committee for allowing me to express my priorities for 
this Committee in the 116th Congress. I appreciate your consideration 
and look forward to working together on these and other issues.

    Mr. DeFazio. I thank the gentleman. In particular, I am 
supportive of the EAS program. I think we have a little work to 
do downtown at the White House on that issue, but it is 
critical. I don't currently have any in my district, but we 
have had some in my State. And they have been successful, 
actually, over the years.
    And the bus testing facility is obviously a great asset, 
and we will certainly be looking at that when we go into the 
surface bill.
    And we heard earlier about inland waterways. And again, we 
understand that we are living off some stuff that is more than 
100 years old in places, and it can't last forever. So I 
appreciate your testimony.
    Anyone else have questions for the gentleman?
    Seeing none, I thank you for your testimony. And next in 
order of arrival is the Honorable Ilhan Omar from Minnesota.
    You are recognized for 5 minutes.

TESTIMONY OF HON. ILHAN OMAR, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF MINNESOTA

    Ms. Omar. Thank you, Chairman DeFazio and Ranking Member 
Graves, and to the entire committee for giving me the chance to 
join you today to share my perspective on the vital issues that 
are under your jurisdiction, and particularly the 
infrastructure needs of my district.
    For most people, the word ``infrastructure'' invokes the 
image of roads and bridges. But it is so much more than that. 
It is the public transit system taking people to work every 
day, the pipes delivering safe drinking water to our homes. It 
is the power grid keeping the lights on in this very room, and 
the broadband access that gives us the ability to connect with 
people without even stepping out of our front door, not to 
mention it is the means to fight the climate catastrophes 
currently threatening our future.
    And the role infrastructure plays in our lives is as broad 
as the definition of the word in itself. It isn't simply a 
means to get us from a point A to point P. It is a lifeline of 
community connection and the impact on quality of life of every 
living person in the United States. Because how can you count 
on an ambulance making it on time to save your life during an 
emergency if you can't count on the roads being drivable?
    How can your child be expected to succeed if they don't 
have access to internet to be able to do their homework?
    And I ask how can we build a metaphoric bridge between 
diverse communities in our country if we aren't able to build 
little bridges connecting them?
    America has a long history of building some of the most 
impressive infrastructure systems in the world, and investing 
in these vital networks is part of what makes this country 
exceptional. But unfortunately, we are beginning to fall 
behind. Since 2010 China has spent roughly 8 percent of its GDP 
on infrastructure. And, on average, European countries spend an 
equivalent of 5 percent of GDP. But the United States 
investment has hovered over 2.4 percent. And we have been 
putting off the backlog of maintenance needs which are 
estimated at $2 trillion.
    The effects of that diminishing investment can be seen in 
communities all over the country. If you were to travel to the 
district I represent--I certainly invite each one of you to do 
that--you will see an illustration of an infrastructure need 
everywhere you look.
    Twelve years ago today the I-35 Mississippi Bridge in my 
home district of Minneapolis fully collapsed in the middle of 
busy rush hour. Thirteen people lost their lives and 100 people 
were injured. More than a decade later, experts agree that we 
have not addressed the infrastructure crisis.
    But you won't just see the examples, you will hear about 
them, because the need for infrastructure investment and 
improvement is on the minds of everyone living in our 
community. In fact, since being elected in just a month, I have 
not had a single conversation with a mayor or a local elected 
official in my district who didn't raise the concerns for 
public transportation as being their pressing need.
    Right now there is a strong public push for an investment 
in projects in Minneapolis, the light rail system that would 
extend the blue line, adding 11 stops that would further 
connect the city with the surrounding areas. For my district, a 
project like this is one that is about more than commutes or 
train space. It is about choice and opportunity.
    Expanding public transit options gives my constituents the 
chance to move out to areas that might have more affordable 
housing. It means that a coffee shop in Brooklyn Park could 
attract more customers during their commute and consequently 
hire more staff. It means that seniors who might struggle to 
get around will have more options for visiting their loved ones 
or traveling to a doctor's office.
    So I encourage this committee to focus on smart solutions 
and develop a future-focused strategy. I am happy to extend an 
invitation to all the members of this committee to visit 
Minnesota's Fifth Congressional District and take stock of the 
many projects we are working on. We speak for most of Americans 
in welcoming a robust investment in local infrastructure. 
Please consider my invitation, and thank you again for 
convening us and having this very critical conversation about 
much-needed investment in infrastructure around the country.
    [Ms. Omar's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Ilhan Omar, a Representative in Congress 
                      from the State of Minnesota
    Thank you Chairman DeFazio and Ranking Member Graves, and to the 
entire Committee for giving me the chance to join you today to share my 
perspective on the vital issues that fall under your jurisdiction and 
particularly the infrastructure needs of my district.
    For most people, the word infrastructure invokes the image of roads 
and bridges. But it's so much more than that. It's the public transit 
systems taking people to work every day and the pipes delivering safe 
drinking water to our homes. It's the power grid keeping the lights on 
in this very room and the broadband access that gives us the ability to 
connect with the entire world without even stepping out of our front 
door. Not to mention, it's a means to fight the climate catastrophe 
currently threatening our future.
    And the role infrastructure plays in our lives is as broad as the 
definition of the word itself. It isn't simply a means to get us from 
Point A to Point B. It's the lifeline of community connectiveness and 
it impacts the quality of life of every last person living in the 
United States. Because how can you count on an ambulance making it to 
you in time to save your life during an emergency if the road to your 
home is undrivable? How can a child be expected to succeed if they 
don't have access the internet to do their homework? And I ask, how can 
we build metaphorical bridges between the diverse communities in our 
country if there aren't literal bridges connecting them?
    America has a long history of building some of the most impressive 
infrastructure systems in the world and investing in these vital 
networks is part of what makes this country exceptional. But 
unfortunately, we're beginning to fall behind. Since 2010, China has 
spent roughly eight percent of its GDP on infrastructure \1\ and on 
average, European countries spend the equivalent of 5 percent of 
GDP.\2\ But here in the U.S., our investment is hovering around 2.4 
percent. And we've been putting off a backlog of maintenance needs 
estimated at around $2 trillion.\3\
---------------------------------------------------------------------------
    \1\ Council on Foreign Relations, To Boost Flagging Growth, China 
Doubles Down on Its Least Productive Sector; January 14, 2019
    \2\ Council on Foreign Relations, The State of U.S. Infrastructure; 
January 12, 2018
    \3\ American Society of Civil Engineers, Economic Impact Analysis; 
2017
---------------------------------------------------------------------------
    The effects of that diminishing investment can be seen in 
communities all over the country, and if you were to travel to the 
district I represent--which I'd certainly invite each one of you to 
do--you'll see an illustration of the infrastructure needs everywhere 
you look. Twelve years ago, the I-35 Mississippi bridge in my home 
district in Minneapolis fully collapsed in the middle of a busy rush 
hour. Thirteen people lost their lives and over 100 more were injured. 
More than a decade later, experts agree we have not addressed our 
infrastructure crisis.
    But you won't just see the examples, you'll hear about them too. 
Because need for infrastructure investment and improvement is on the 
minds of everyone living in these communities. In fact, since being 
elected a few short months ago, I don't think I've had a single 
conversation with a mayor or local official in my district who didn't 
raise public transportation as one of their most pressing concerns. 
Right now, there's a strong public push for an improvement project to 
the Minneapolis light-rail system that would extend the Blue Line, 
adding 11 stops that would further connect the city with the 
surrounding areas. For my district, a project like this one is about 
more than commute times and train space--it's about choice and 
opportunity. Expanding public transit options gives my constituents the 
chance to move out to areas that may have more affordable housing. It 
means that a coffee shop in Brooklyn Park could attract more customers 
during their commute and consequently hire more staff. It means that 
seniors who may struggle to get around will have more options for 
visiting their loved-ones or traveling to the doctor's office.
    But the community would start to see benefits from a project like 
the Blue Line extension long before those additional stops are even up 
and operating. A federal investment in the project would mean 
construction could begin and workers could be hired, adding good union 
jobs to the economy. It would allow the community to start drawing up 
detailed plans that build up the resiliency of the network and improve 
the health of the environment. Because by choosing to invest in smart 
public transit options, like the Blue Line extension, the government is 
helping to cutdown on roadway congestion and ease our reliance on 
fossil fuels. Unless our national infrastructure strategy is one that 
helps cut down on emissions and strengthen the ability of our network 
to withstand natural disasters, then we'd only be shortchanging 
ourselves--we'd be setting ourselves up for another round of emergency 
rebuilds that we can't afford and adding to the already mounting costs 
that congestion and climate change are racking up for our economy and 
for future generations.
    I encourage this Committee to focus on smart solutions and develop 
a future-focused strategy as you continue working on the national 
infrastructure package that we so desperately need. That package must 
take into account more than just the map of roads currently in need of 
repair, but instead focus on creating a roadmap for the future--a 
roadmap that prioritizes the right kind of projects, that creates well-
paying jobs and that helps communities stay truly connected.
    I'm happy to extend an invitation to all Members of this Committee 
to visit us in the Minnesota 5th and take stock of the many projects we 
are working on, as well as speak to some of the many Americans who 
would so welcome robust federal investment in their local 
infrastructure. Please consider yourself welcome any time. We'd be 
happy to show you the same hospitality you've shown me as a guest in 
this Committee today.
    Thank you again Mr. Chairman and Mr. Ranking Member for allowing me 
to join you today.

    Mr. DeFazio. Great, I thank the gentlelady, particularly 
for tying together everything from broadband to public transit. 
What you did is you knit it together in a way that shows the 
interdependence and how we have a lot of investments to make.
    And also, I go around giving speeches about the pathetic 
efforts we are making nationally, compared--I mean, I used to 
say we were becoming Third World. And our colleague, Earl 
Blumenauer, said to me that it was insulting. I said, ``Well, 
you know how bad it is?''
    He said, ``No, insulting to Third World countries. They are 
investing a higher percentage of their GDP than we are in 
transportation infrastructure.'' So I really appreciate your 
emphasizing that point.
    So I thank the gentlelady. Does anyone have questions?
    OK, all right. With that, I thank you for your testimony. I 
appreciate it.
    Ms. Omar. Thank you.
    Mr. DeFazio. The next arrival would be the Honorable Mike 
Quigley from Illinois.
    Mr. Quigley. Thank you, Mr. Chair.
    Mr. DeFazio. Five minutes.

 TESTIMONY OF HON. MIKE QUIGLEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Quigley. Thank you, Mr. Chairman, and thanks to the 
ranking member and the members of the committee for having me 
today.
    It is interesting. This morning the Union Station in 
Chicago is closed. There is concrete falling from the roof onto 
the tracks. It is an indication of the broader issues our 
country has, a backlog of infrastructure needs. And as the Vice 
Chairman of the THUD Appropriations Subcommittee, I recognize, 
as you do, that it is so important for us--THUD and 
Transportation and Infrastructure--to work together on all of 
these needs.
    And as I sit here and listen to others talk about this, I 
think what is important is that I should care just as much 
about the tunnel in New Jersey as they should about me 
rebuilding the blue line in Chicago as I should care about the 
locks on the Mississippi and water mains and the water issues 
in California.
    And as we talk about a big infrastructure plan I think we 
need to keep in mind that this isn't a parochial what's-in-my-
district first. Obviously, my colleague and friend, Pete 
Visclosky, wants to double-track the South Shore Line into 
Indiana. That would help the entire region, and would help the 
environment, and help the economy. So I think, if we have that 
spirit, we will do well.
    A couple points. I would like to speak about the Federal 
Bird-Safe Buildings Act, which is in this committee. I have 
introduced a version of this bill in every Congress I have been 
a Member of, because I believe that we have a responsibility to 
be good stewards of the world we live in. Up to 1 billion birds 
die from colliding into buildings every year, a very 
preventable problem.
    The cost-negligible, bipartisan Bird-Safe Buildings Act 
requires that public buildings constructed, acquired, or 
significantly altered by GSA incorporate bird-safe building 
materials and design features. It is an important bill for 
several reasons.
    First, birds have an intrinsic cultural and ecological 
value. It is our responsibility to be good stewards of the 
environment and reduce the harmful impacts of our society on 
the natural world. Additionally, birds help generate billions 
of dollars annually to the U.S. economy through wildlife 
watching activities. One in five Americans, 48 million people, 
engage in bird watching, and they spend about $36 billion in 
pursuit of bird activities every year. These activities support 
over 600,000 jobs and bring $6.2 billion in State tax revenues.
    For all these reasons, it is vital that we take this 
simple, straightforward, and low-cost step in this bill to 
protect birds from fatal collisions.
    This bill has been referred to Chairwoman Titus' 
subcommittee, and I thank her for her support on this.
    I would also like to talk about something that is an issue 
for every city in the country, and Chicago is no exception: 
funding for public transportation. Effective public transit 
makes cities more livable and accessible for all its 
inhabitants. Transit-oriented development can turn wasted or 
unused land into vibrant communities and allow existing 
communities to access economic and social opportunities that 
otherwise might be difficult.
    For too long public transit has been underserved by 
Congress, and I will be glad to work with you and Chairman 
Price and my colleagues to ensure that adequate funding is 
provided for transit systems this year.
    In all of its work this Congress, I urge this committee to 
consider public transit needs, and specifically to clarify for 
the Secretary of Transportation that key Federal programs like 
TIFIA and RRIF should not be included as part of the Federal 
share of the budget--of a project as part of the Capital 
Investment Grant Program. Chicagoland agencies like RTA are 
working hard to ensure our infrastructure continues to meet the 
needs of citizens, and shoring up the Highway Trust Fund and 
addressing the capital construction backlog are key to 
achieving this goal.
    Finally, I want to touch on the issue of flooding, which is 
serious in Chicago and communities around the country. Today I 
reintroduced the Flood Mapping Modernization and Homeowner 
Empowerment Pilot Program Act, which will create a 12-city 
pilot program and give communities the resources they need to 
address urban flooding within their local contexts, while also 
helping FEMA glean new best practices to help improve flood 
mapping and mitigation.
    I encourage the committee to take up and pass that bill, 
because there is also room for additional pre-disaster work to 
address flooding. A pre-disaster infrastructure program as part 
of FHWA is one possible approach to safeguard the Nation's 
vital transportation systems like Federal-aid roads, highways, 
and bridges from increasing natural disasters, and to improve 
the long-term resilience of the systems. I believe the 
committee should look into the concept as a possible model for 
the future.
    Mr. Chairman, Mr. Ranking Member, members of the committee, 
it is an honor to be here, and thank you for your work.
    [Mr. Quigley's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Mike Quigley, a Representative in Congress 
                       from the State of Illinois
    Chairman DeFazio, Ranking Member Graves, Members of the Committee,
    Thank you for the opportunity to testify before the Transportation 
and Infrastructure Committee about a number of different priorities 
that are important to me and my constituents.
    As the Vice-Chairman of the Transportation, Housing, and Urban 
Development Appropriations Subcommittee, I believe it is vital that 
THUD and T&I work together to ensure that America's infrastructure is a 
driver of economic growth and meets the needs of all our citizens.
    And I think we'd all agree that we have a lot of work to do make 
get to that point.
    First this morning, I'd like to speak about the Federal Bird Safe 
Buildings Act, which is before this committee.
    In fact, I have introduced a version of this bill in every Congress 
I have been a member of because I believe that we have a responsibility 
to be good stewards of the world we live in.
    Up to one billion birds die from colliding into buildings every 
year, which is a totally preventable problem.
    The cost-negligible, bipartisan Bird Safe Buildings Act requires 
that public buildings constructed, acquired, or significantly altered 
by GSA incorporate bird-safe building materials and design features.
    Bird-safe is an important bill for several reasons.
    First birds have an intrinsic cultural, and ecological value. It is 
our responsibility to be good stewards of the environment and reduce 
the harmful impacts of our society on the natural world.
    Additionally, birds help generate billions of dollars annually to 
the U.S. economy through wildlife watching activities.
    One in five Americans, 48 million people, engage in bird watching.
    And they spend about $36 billion in pursuit of birding activities 
every year.
    These activities support over 600,000 jobs and bring $6.2 billion 
in state tax revenues.
    For all these reasons, it's vital that we take the simple, 
straightforward, and low cost steps in my bill to protect birds from 
fatal collisions.
    This bill has been referred to Chairwoman Titus' subcommittee and I 
thank her for her support of it in the past. I urge the committee to 
quickly consider and pass the Bird Safe Buildings Act so that it can be 
brought the floor for a vote in the full House.
    Next, I'd like to talk about something that is an issue for every 
city in this country, and Chicago is no exception--funding for public 
transportation.
    Effective public transit makes cities more livable and accessible 
for all inhabitants.
    Transit oriented development can turn wasted or unused land into 
vibrant communities and can allow existing communities to access 
economic and social opportunities that otherwise might be difficult for 
them to grasp.
    For too long, public transit has been underserved by Congress and I 
will work with Chairman Price and my colleagues on appropriations to 
ensure that adequate funding is provided for transit systems this year, 
but we are most effective in Congress when working together.
    In all of its work this Congress, I urge this committee to consider 
public transit needs and, specifically, to clarify for the Secretary of 
Transportation that key federal programs like TIFIA and RRIF should not 
be included as part of the federal share of a project as part of the 
Capital Investment Grant Program.
    Chicagoland agencies like RTA are working hard to ensure that our 
infrastructure continues to meet the needs of our citizens and shoring 
up the Highway Trust Fund and addressing the capital construction 
backlog are key to achieving that goal.
    Finally, I want to touch on the issue of flooding, which is a 
serious concern in Chicago and communities around the country.
    Today, I reintroduced the Flood Mapping Modernization and Homeowner 
Empowerment Pilot Program Act, which will create a 12 city pilot 
program and give communities the resources they need to address urban 
flooding within their local contexts, while also helping FEMA glean new 
best practices to help improve flood mapping and mitigation nationwide.
    I encourage the committee to take up and to pass that bill, but 
there's also room for additional pre-disaster work to address flooding.
    A pre-disaster infrastructure program as part of the FHWA is one 
possible approach to safeguard the nation's vital transportation 
systems like federal-aid roads, highways, and bridges from increasing 
natural disasters and to improve the long term resilience of the 
system.
    I believe the committee should look into such a concept as a 
possible model for the future.
    Chairman DeFazio, members of the Committee, thank you for your time 
today. I look forward to working with the committee going forward and 
thank you for your good work for the infrastructure of our country.

    Mr. DeFazio. I thank the gentleman for his thoughtful 
testimony, particularly beginning with the idea that the needs 
are national in scope and these problems don't stop at a city 
limits or a State line. And that is very insightful.
    We look forward to your advocacy on that subcommittee. We 
hope that, moving forward, you will have more money to allocate 
to some of these needs.
    And I wasn't aware of your Bird-Safe Buildings Act, but I 
certainly would be interested in having the Federal Government 
lead the way on that issue. So I appreciate that, and I will be 
taking a look at that. So thank you, thanks for your testimony.
    Mr. Quigley. Thank you, Mr. Chairman.
    Mr. DeFazio. Any members of the committee have questions 
for the gentleman?
    Mr. Quigley. Thank you all, sir.
    Mr. DeFazio. Seeing none, thank you.
    Mr. Marshall? Yes. The next arrived is the Honorable Roger 
Marshall from Kansas.
    You are recognized for 5 minutes.

   TESTIMONY OF HON. ROGER W. MARSHALL, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF KANSAS

    Mr. Marshall. Thank you, Chairman DeFazio, Ranking Member 
Graves, and members of this committee, and good morning. Thanks 
for giving me the opportunity to speak on behalf of the people 
of Kansas surrounding the upcoming infrastructure package.
    This year our office has already hosted 22 townhalls, and 
infrastructure consistently remains a ``top three'' topic for 
discussion. I represent the big First Congressional District of 
Kansas, which I continue to argue is the largest agriculture-
producing district in the country.
    Agriculture, of course, has a large reliance on surface 
transportation to get our commodities, which now include wheat, 
sorghum, soybeans, corn, cotton--yes, Kansas is now growing 
cotton--milk, distillers grain, ethanol, eggs, pork, and beef 
to market. In fact, I often brag as I travel, the two things 
American agriculture can still do is produce more per acre and 
get our goods to market cheaper and more reliably than any 
other country in the world.
    But I am afraid our infrastructure has been left somewhat 
neglected over the past decade or so, and America is suffering.
    With the FAST Act expiring next year, developing or 
extending programs to keep our roads and bridges well 
maintained through the Highway Trust Fund or BUILD grant 
program are of critical importance.
    Long-term funding for surface transportation infrastructure 
allows communities to better plan and invest in their 
communities, and ultimately helps the rural economy continue to 
grow.
    I should also mention a concern raised by many of our 
farmers and ranchers as they strive to get their livestock 
safely to market. My weekend job in high school and college was 
loading and unloading cattle at a local sell barn. From 
personal experiences I can say that transportation is the most 
stressful event for livestock animals that they can endure. And 
as a matter of emphasis, the amount of time an animal spends in 
transit is impacted by a variety of burdensome regulations.
    As cochair of the Congressional Beef Caucus, I ask you to 
consider including a 150 air-mile exemption for livestock 
hauling operations on both the front and back end of a trip, 
which would reduce unnecessary stress on the livestock and 
increase animal health, welfare, and safety.
    Water infrastructure is also of vital importance to our 
district, whether through availability of quality water sources 
or upgrading the aging water towers, levees, and dams, as well 
as underground pipes in many municipalities across the State. 
Many communities in my district are having to dig new water 
wells due to declining water availability or quality, which is 
a costly burden that many of these small towns cannot afford.
    Similarly, the aging state of water towers and pipes create 
health and safety concerns, in addition to issues with water 
delivery. Ensuring that rural communities are able to 
adequately maintain their water infrastructure and deliver safe 
drinking water to constituents is a priority, as is 
guaranteeing availability of quality water sources for 
agriculture purposes.
    Furthermore, flood mitigation efforts through preservation 
and maintenance of levees, locks, dams, and sound conservation 
practices protects homes and businesses, and allows communities 
to expand and invest in new development.
    The Essential Air Service Program and the Airport 
Improvement Program are also programs that continue to help the 
rural communities in my district survive. Through the Essential 
Air Service Program cities like Hays, Liberal, Salina, Garden 
City, and Dodge City, Kansas, are able to provide passenger 
service to multiple major hubs, as well as access to economic 
development opportunities.
    Furthermore, these communities utilize the Airport 
Improvement Program to maintain airport infrastructure, 
ensuring traveler safety and allowing small airports to plan 
their investments for the future.
    I understand that broadband is not within the jurisdiction 
of this committee. However, I feel that infrastructure packages 
should include broadband in the conversation. In nearly every 
townhall that I have held since coming to Congress, access to 
broadband has consistently been a top priority and issue for 
our constituents. The high cost of broadband deployment, 
coupled with the low population and vast expanses in rural 
America, make infrastructure implementation challenging and 
expensive for many communities.
    Overall, as we move closer towards an infrastructure 
package, I ask that the committee take the consideration of 
these unique challenges facing rural America. Whether it comes 
to infrastructure investments, surface transportation, water 
infrastructure, airport programs, and broadband are of critical 
importance to my district, as well as all of rural America, and 
thus for the American economy.
    As a true investment for our children and our 
grandchildren's sake for this economic future and prosperity of 
America, I ask for robust support for the programs mentioned.
    Infrastructure is something this whole country can rally 
behind, giving us a common goal and purpose. It could be the 
start of a new day, a day when Republicans and Democrats once 
again work together to make our country strong for the future.
    Thank you, Mr. Chairman, and I yield back.
    [Mr. Marshall's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Roger W. Marshall, a Representative in 
                   Congress from the State of Kansas
    Thank you Chairman DeFazio, Ranking Member Graves, and Members of 
this Committee for giving me an opportunity to contribute to the 
discussion surrounding the upcoming infrastructure package. This year, 
my office has already hosted more than 20 town halls, and 
infrastructure consistently remains a top 3 topic for discussion. So 
today, I would like to hit a few points related to surface 
transportation, water infrastructure, airport programs, and broadband.
    I represent the big First District of Kansas, arguably one of the 
largest Ag producing district in the country. With more than 60 
counties in central and western Kansas, and spanning over two-thirds of 
the state, you can see why folks back home call it ``the Big First.''
    Agriculture has a large reliance on surface transportation to get 
our commodities, such as wheat, sorghum, soybeans, corn, cotton, milk, 
distillers grain, ethanol, pork, and beef to market. In fact, I often 
brag, the two things American agriculture does is produce more per acre 
and get our goods to market cheaper and more reliably than any other 
country in the world. But I'm afraid our infrastructure has been left 
somewhat neglected over the past decade or so, and America is 
suffering.
    With the FAST Act expiring next year, developing or extending 
programs to keep our roads and bridges well maintained, such as the 
Highway Trust Fund or the BUILD grant program, is of critical 
importance. Long-term funding for surface transportation infrastructure 
allows communities to better plan and invest in their communities, and 
ultimately helps the rural economy continue to grow.
    In addition to surface transportation, water infrastructure is of 
vital importance to my district, whether through availability of 
quality water sources, or upgrading the aging water towers, levees, and 
dams, as well as underground pipes in many municipalities across my 
state. Many communities in my district are having to dig new wells due 
to declining water availability or quality, which is a costly burden 
that many of these small towns cannot afford. Similarly, the aging 
state of water towers and pipes creates health and safety concerns, in 
addition to issues with water delivery. Ensuring that rural communities 
are able to adequately maintain their water infrastructure and deliver 
safe drinking water to constituents is a priority, as is guaranteeing 
availability of quality water sources for agricultural purposes. 
Furthermore, flood mitigation efforts through preservation and 
maintenance of levees, locks, and dams protect homes and businesses, 
and allow communities to expand and invest in new development.
    The Essential Air Service program and the Airport Improvement 
Program are also programs that continue to help the rural communities 
in my district. Through the Essential Air Service program, the cities 
of Hays, Liberal, Salina, Garden City, and Dodge City, Kansas are able 
to provide passenger service to multiple major air hubs, as well as 
access to economic development opportunities. Furthermore, these 
communities utilize the Airport Improvement Program to maintain airport 
infrastructure, ensuring traveler safety and allowing small airports to 
plan their investments for the future.
    I understand that broadband is not within the jurisdiction of this 
Committee, however I feel that any infrastructure package should 
include broadband in the conversation. In nearly every town hall that I 
have held since coming to Congress, access to broadband has 
consistently been a top issue for my constituents. The high cost of 
broadband deployment coupled with a low population and vast expanses in 
rural America makes infrastructure deployment challenging and expensive 
for many communities. Yet our society continues to transition more and 
more toward digital connections, whether for education, healthcare, or 
even agriculture, making a reliable and affordable internet access no 
longer optional.
    Overall, as we move closer toward an infrastructure package, I ask 
that the Committee take into consideration the unique challenges facing 
rural communities when it comes to infrastructure investments. Surface 
transportation, water infrastructure, airport programs, and broadband 
are of critical importance to my district as well as rural America, and 
thus for the American economy. As a true investment for our children's 
and grandchildren's sake, and for the economic future and prosperity of 
America, I ask for robust support for the programs mentioned. 
Infrastructure is something the whole country can rally behind, giving 
us all a common goal and purpose; it can be the start of a new day, a 
day when Republicans and Democrats once again work together to make our 
country strong for the future.
    I thank the Committee for the opportunity to share about the 
impacts that these issues have on the State of Kansas, and I yield back 
the remainder of my time.

    Mr. DeFazio. I thank the gentleman for his thoughtful 
testimony, again, underlining the critical Essential Air 
Service Program, where we have a little--as I said to a 
previous colleague--a little work to do downtown to convince 
them on the merits of the program. But Congress has always been 
supportive, no matter what the position of administrations, 
other side of the aisle, have been.
    We have done a number of limited exemptions for agriculture 
in the past. I will be happy to look at the gentleman's 
concerns on livestock.
    And with that, are there any questions from the--the 
gentlelady from Kansas has a question.
    Two minutes.
    Ms. Davids. Thank you, Mr. Chairman. And I would like to 
thank Congressman Marshall for coming here and talking about 
some of the issues that are so important, particularly for a 
State like Kansas, where we are constantly trying to bridge the 
rural/suburban/urban divide that ends up happening, and just 
want to express my appreciation for you coming to talk about 
the rural broadband issues that I know our State is facing.
    And then also, just to note that you're talking about the 
kind of getting rid of the partisan politics around making sure 
that we are addressing infrastructure issues is so important.
    And I know that you and I have already had the chance to 
work on some of the agricultural ELD delays, and then issues 
around healthcare and trying to make sure that we are doing 
what is best for our communities. And I just want to tell you 
that I am glad that you are here today on behalf of the Kansas 
First Congressional District and all of Kansas, to make sure 
that we are addressing those issues. So thank you.
    Mr. Marshall. Thank you, Congresswoman. We are all in this 
together. Thanks for having me.
    Mr. DeFazio. I thank the gentleman; I thank the gentlelady 
for her contribution.
    I neglected to say one of the consensus items--there were 
some items that were not consensus, but one of the consensus 
items in the meeting with the President yesterday was broadband 
as a critical infrastructure investment for all America.
    So with that, I thank the gentleman. If there are no 
further questions--oh, question? Yes?
    Mr. Stauber. Thank you, Mr. Chair.
    Congressman Marshall, I couldn't agree with you more on the 
Essential Air Service. Rural airports are--they matter, and I 
have many in my district, and we have talked about that. So 
that really should be a bipartisan issue through and through. 
So thank you for commenting on that.
    Mr. Marshall. Thank you. It is another way to connect rural 
America to the rest of the world. Thank you.
    Mr. DeFazio. Any further questions?
    Seeing none, I thank the gentleman. The gentlelady, Ms. 
Underwood, has been very patient.
    And I recognize you for 5 minutes.

    TESTIMONY OF HON. LAUREN UNDERWOOD, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Underwood. Thank you, Mr. Chairman, for providing this 
opportunity for all Members to share their priorities with the 
Transportation and Infrastructure Committee.
    I am thrilled that the new Democratic majority in the House 
is approaching infrastructure with the serious, big-picture 
thinking that it deserves. I am encouraged by the bipartisan 
meeting that was held at the White House yesterday, and truly 
hope that Congress and the White House will work together to 
enact legislation this Congress to invest in 21st-century 
infrastructure for America.
    I am a freshman Member of this body, and I represent my 
home, Illinois' 14th Congressional District. Upon taking office 
this January, one of my very first priorities was to 
proactively reach out to my constituents to learn about their 
communities' infrastructure needs, with the intent of 
contributing to this infrastructure package.
    From engaging with people in my district I learned that our 
infrastructure investments need to be, one, inclusive of 
smaller communities, and not just for the big cities; two, 
broad and bold enough to go beyond roads and bridges; and, 
three, focused on building new infrastructure, as well as 
repairing the old.
    First, this package needs to be inclusive when it comes to 
improving infrastructure. We need to make sure that the needs 
of small and mid-sized towns in America are represented, not 
just the big guys.
    For example, St. Charles, Illinois, needs $500,000 to 
improve a local fire station. Elburn, Illinois, needs $1.3 
million to replace lead pipes in many of the village's homes, 
so that drinking water is free from lead and other 
contaminants. Yorkville, Illinois, needs $400,000 to refurbish 
a widely used outdoor recreation facility in the Kendall County 
Forest Preserve.
    You see, people in my district aren't thinking in the 
trillions. But for some of them, they might as well be. Because 
when we examined the details of these requests, we found that 
so many of them didn't have options for help from the Federal 
Government within existing funding streams.
    Next, we need to adopt a broad and bold approach to 
investing in infrastructure. We do need rail and roads in my 
district, and we also need to think more broadly. Rail and 
surface transportation is important. Expanding Metra mass 
transit service to more of the Chicago suburbs is one of the 
top priorities for economic and cultural growth in my district.
    We need new transit stops and we need new transit lines. 
Right now, Kendall County is the fastest growing county in 
Illinois. But Metra rail service doesn't extend to Montgomery, 
to Oswego, Yorkville, Plano, or Sandwich. Students at Northern 
Illinois University, which serves over 25,000 students, don't 
have direct access to transit to Chicago for internships or 
career opportunities.
    Our State absolutely has a role to play here in funding and 
development. But Illinois is a huge player in the national 
economy. We pay Federal taxes and we need a strong partner in 
Federal Government.
    In addition to new mass transit, we need better roads. I 
was in McCullom Lake a few weeks ago and saw firsthand how bad 
the conditions of the roads affect road safety and the local 
economy. And unfortunately, McCullom Lake Road is just one of 
the many roads in my district that need critical repairs. But 
as we develop this once-in-a-lifetime, agenda-setting package, 
infrastructure needs to mean all that: roads, rail, and much, 
much more.
    In McHenry County, infrastructure means rural and broadband 
access, including better metrics that better identify 
communities in our districts that are still pretty much on 
dial-up. Directing resources efficiently is key, and the devil 
is definitely in the details when it comes to broadband 
mapping.
    In McHenry County and across the country accessing the 
internet is critical for running a business, searching for a 
job, getting an education, and even seeing a doctor. It is not 
just about Netflix and Instagram.
    In Batavia, infrastructure means building the Fox River 
bike path to help reduce traffic and help people in our 
community live healthier lives. In Naperville, infrastructure 
means investing in our school facilities so that our kids get 
the absolute best public education we can offer them.
    And third, we need to invest in new projects, as well as 
repair and maintain existing ones. Now, I am a nurse, and I can 
tell you that an ounce of prevention is worth a pound of cure. 
Continuing to put off maintenance of our existing 
infrastructure isn't just dangerous; it is way too expensive. 
These upgrades need to be made. And as you all know, they are 
never going to be cheaper than they are today.
    Will all of this be a serious investment? Of course. 
Because we should be paying for quality American workers and 
quality American jobs.
    We know that infrastructure can be a smart investment that 
pays off. That is our job in Congress: to make smart 
investments in roads, transit, schools, technology, and clean 
energy that power our economy. That is our job, and I am ready 
to get to work.
    Thank you again for having me today. I look forward to 
working with you, with all of you on the committee, to bring 
America's infrastructure into the future.
    [Ms. Underwood's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Lauren Underwood, a Representative in 
                  Congress from the State of Illinois
    Thank you, Mr. Chairman, for providing this opportunity for all 
Members to share their priorities with the Transportation and 
Infrastructure Committee.
    I am thrilled that the new Democratic majority in the House is 
approaching infrastructure with the serious, big-picture thinking it 
deserves.
    I'm encouraged by the bipartisan meeting that was held at the White 
House yesterday, and truly hope that Congress and the White House can 
work together to enact legislation this Congress to invest in 21st 
century infrastructure for America.
    I'm a freshman Member of this body, and I represent my home, 
Illinois's 14th District.
    Upon taking office this January, one of my very first priorities 
was to proactively reach out to my constituents to learn about their 
communities' infrastructure needs, with the intent of contributing to 
this infrastructure package.
    From engaging with people in my District, I learned that our 
infrastructure investments need to be:
    (1)  inclusive of smaller communities and not just for the big 
cities;
    (2)  broad and bold enough to go beyond roads and bridges; and
    (3)  focused on building new infrastructure as well as repairing 
the old.

    First, this package needs to be inclusive when it comes to 
improving infrastructure.
    We need to make sure that the needs of small- and mid-size towns in 
America are represented, not just the big guys.
    For example:
    <bullet>  St. Charles, Illinois, needs $500,000 to improve a local 
fire station.
    <bullet>  Elburn, Illinois, needs $1.3 million to replace lead 
pipes in many of the village's homes, so that drinking water is free 
from lead and other contaminants.
    <bullet>  Yorkville, Illinois, needs $400,000 to refurbish a 
widely-used outdoor recreation facility in the Kendall County Forest 
Preserve.

    You see, people in my district aren't thinking in the trillions. 
But for some of them, they might as well be.
    Because when we examined the details of these requests, we found 
that so many of them didn't have options for help from the federal 
government within existing funding streams.
    Next, we need to adopt a broad and bold approach to investing in 
``infrastructure.'' We do need rail and roads in my district, and we 
also need to think more broadly.
    Rail and surface transportation is important. Expanding Metra mass 
transit service to more of the Chicago suburbs is one of the top 
priorities for economic and cultural growth in my district.
    We need new transit stops and we need new transit lines. Right now, 
Kendall County is growing faster than any other county in Illinois. But 
Metra rail service doesn't extend to Montgomery, Oswego, Yorkville, 
Plano, or Sandwich.
    Students at Northern Illinois University, which serves over 25,000 
students, don't have direct access to transit to Chicago for 
internships or other career opportunities.
    Our state absolutely has a role to play here, in funding and 
development. But Illinois is a huge player in the national economy, we 
pay federal taxes, and we need a strong partner in the federal 
government.
    In addition to new mass transit, we need better roads. I was in 
McCollum Lake a few weeks ago and saw firsthand how the bad conditions 
of the roads affect road safety and the local economy. And 
unfortunately, McCollum Lake Road is just one of many roads in my 
district that need critical repairs.
    But as we develop this once-in-a-lifetime, agenda-setting package, 
``infrastructure'' needs to mean all that--roads, rail--and much, much 
more.
    In McHenry County, ``infrastructure'' means rural broadband 
access--including better metrics that better identify communities in 
our districts that are still pretty much on dial-up.
    (Directing resources efficiently is key, and the devil is 
definitely in the details when it comes to broadband mapping.)
    In McHenry and across the country, accessing the internet is 
critical for running a business, searching for a job, getting an 
education, and even seeing a doctor. It's not just about Netflix and 
Instagram.
    In Batavia, ``infrastructure'' means building the Fox River bike 
path to reduce traffic and help people in our community lead healthier 
lives.
    In Naperville, ``infrastructure'' means investing in our school 
facilities so that our kids get the absolute best public education we 
can offer them.
    And third, we need to invest in new projects as well as repair and 
maintain existing ones. Now, I'm a nurse, and I can tell you that an 
ounce of prevention is worth a pound of cure.
    Continuing to put off maintenance of our existing infrastructure 
isn't just dangerous, it's way too expensive.
    These upgrades need to be made, and as you all know, they're never 
going to be cheaper than they are today.
    Will all of this be a serious investment? Of course. Because we 
should be paying for quality American workers and quality American 
jobs.
    We know that infrastructure can be a smart investment that pays 
off. That's our job in Congress: to make smart investments in roads, 
transit, schools, technology, clean energy, that power our economy.
    That's our job, and I'm ready to get to work. Thank you all again 
for having me--I look forward to working with all of you to bring 
America's infrastructure into the future.

    Mr. DeFazio. I thank the gentlelady for her excellent 
testimony, particularly drawing the analogy with your 
background in medicine as a nurse, and how intervention before 
something becomes very complicated and more expensive is the 
best way to go. And you are absolutely right on infrastructure. 
That is the key in bringing things up to a state of good 
repair.
    And as I mentioned earlier, broadband was discussed, and a 
consensus item yesterday, recognizing what you talked about, 
the connectivity and also the need for more physical 
connectivity to the urban areas. So thank you very----
    Ms. Underwood. Thank you, sir.
    Mr. DeFazio [continuing]. Thoughtful testimony. And with 
that I would turn to the gentleman--the majority leader from 
Maryland, Mr. Hoyer, for 5 minutes.

TESTIMONY OF HON. STENY H. HOYER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MARYLAND

    Mr. Hoyer. Thank you very much, Mr. Chairman. I want to 
congratulate you for your leadership, and I want to also thank 
you for your leadership in our meeting with the President 
yesterday, which I think led to a bipartisan conclusion as to 
the extent of the investment that we need to make, and the fact 
that we need to work together to accomplish it.
    I appreciate this opportunity to participate in today's 
meeting. Yesterday morning a number of us, as I just said, met 
with the President at the White House to discuss the importance 
of investing in 21st-century infrastructure.
    This issue, as you have articulated so effectively, Mr. 
Chairman, is of major importance to all of America. That is why 
it is one of the three core components of the agenda that I 
have been talking about for the last 9 years, Make It In 
America, I have been proud to lead, the others being education 
and skills training, and entrepreneurship. As part of that 
effort last Congress I traveled around the country hosting 
listening sessions with members of the local communities.
    What we heard everywhere we went was that the needs were 
massive, both to rebuild as life cycles near retirement, and to 
get ahead of the challenges we know technological advancement 
will bring.
    We also heard how private capital has some role to play, 
although clearly, public investment will be the major part of 
our rebuilding effort. But there is no substitute for robust 
public investment, particularly in those areas and those 
projects that don't promise the private sector profit.
    Everyone can see that roads, railways, bridges, airports, 
seaports, sewers, and water systems across the country are in 
desperate need of repair. Flint is just the very tip of the 
iceberg that exists in our country, and that is true throughout 
America. It is true in Maryland; it is true in my own Fifth 
Congressional District.
    Many of my constituents commute to Washington from both 
Prince George's County and southern Maryland in some of the 
worst congestion in the Nation. Last month the National Park 
Service had to begin emergency repairs on the Baltimore-
Washington Parkway because of the condition of that road.
    In addition, after years of deferring maintenance and 
failure to invest in a sustainable funding source, the Metro 
system, the system we refer to as America's subway, is facing 
real challenges. The general manager of that system is working 
to restore the safety and reliability of the system, but this 
process will take time. Millions of your constituents--and I 
look to the whole committee membership--ride on that system as 
they visit our city and visit their Capital.
    Communities across the country, including Prince George's 
County, which is the county just to the east of Washington, 
have seen water infrastructure fail and cause flooding. They 
have seen our Nation's infrastructure pushed to its limits by 
more frequent and more severe weather caused by climate change.
    Those are just the current problems we need to address. But 
if we wish to remain, Mr. Chairman, an economic leader, and 
grow for the future, we are also going to have to be proactive 
and direct significant investments toward expanding and 
modernizing our Nation's infrastructure.
    This also means, as we discussed at the White House, and as 
the President and we agreed, expanding wireless and broadband 
internet, expanding the infrastructure for more electric 
vehicles and taking steps to integrate more renewable forms of 
energy into the grid, including technologies to store and 
distribute energy, as well.
    In 2017 the American Society of Civil Engineers graded our 
country's infrastructure as a D+. Mr. Chairman, I imagine you 
pointed that out over and over and over again. But it bears 
repeating with an estimated need of $4.5 trillion to meet our 
infrastructure needs in the near and long term.
    With the President's leadership, and with our working 
together, we are not going to get to $4.5 trillion, but 
hopefully we will get to a very significant number and figure 
out how to pay for it, as well. That is why infrastructure 
remains a top priority, not only for House Democrats, but, as 
we learned yesterday, for the President of the United States.
    Investments in infrastructure are proven to help local 
economies attract new private-sector businesses and good-paying 
jobs that come with them. While we continue seeking ways to 
work with the White House, I hope the committee will draw ideas 
from the hearing and put forward solutions that have broad, 
bipartisan support, and that should be able to pass both the 
House and the Senate and deliver results for the American 
people.
    I want to thank the committee for the work it has already 
begun and look forward to seeing what it produces. And I look 
forward to working closely with those of you on the committee 
on both sides of the aisle to introduce and advance Make It In 
America legislation to invest in 21st-century infrastructure.
    [Mr. Hoyer's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Steny H. Hoyer, a Representative in Congress 
                       from the State of Maryland
    Thank you, Chairman Peter DeFazio and Ranking Member Sam Graves. I 
appreciate the opportunity to participate in today's Member Hearing.
    Yesterday morning, a number of us met with President Trump at the 
White House to discuss the importance of investing in twenty-first 
century infrastructure. This is an issue of major importance to 
millions of Americans.
    That is why it is one of the three core components of the Make It 
In America plan I've been proud to lead, the others being education and 
skills training and entrepreneurship. As part of that effort last 
Congress, I traveled around the country hosting listening sessions with 
Members in their local communities. What we heard everywhere we went 
was that the needs were massive, both to rebuild as life cycles near 
retirement and to get ahead of the challenges we know technological 
advancement will bring. We also heard how private capital has some role 
to play, but there is no substitute for robust public investment, 
particularly in those areas and on those projects that don't promise 
the private sector profit.
    Everyone can see that roads, railways, bridges, airports, seaports, 
sewers, and water systems across the country are in desperate need of 
repair. That is true in my own Fifth District of Maryland, as well. 
Many of my constituents commute to Washington from both Prince George's 
County and Southern Maryland in some of the worst congestion in the 
nation.
    Last month, the National Park Service had to begin emergency 
repairs on the Baltimore-Washington Parkway because of the condition of 
the road. In addition, after years of deferring maintenance and failure 
to invest in a sustainable funding source, the Metro system in 
Washington is facing real challenges. The General Manager is working to 
restore the safety and reliability of the system, but this process will 
take time.
    And communities across the country, including in Prince George's 
County, have seen water infrastructure fail and cause flooding, and 
they've seen our nation's infrastructure pushed to its limits by more 
frequent and more severe weather caused by climate change.
    Those are just current problems we need to address, but if we wish 
to remain an economic leader and grow for the future, we are also going 
to have to be proactive and direct significant investments toward 
expanding and modernizing our nation's infrastructure. This also means 
expanding wireless and broadband internet, expanding the infrastructure 
for more electric vehicles, and taking steps to integrate more 
renewable forms of energy into the grid, including technologies to 
store and distribute the energy generated.
    In 2017, the American Society of Civil Engineers graded our 
country's infrastructure a `D+,' with an estimated need of $4.5 
trillion to meet our infrastructure needs in the near and long term. 
That's why infrastructure remains a top priority for House Democrats. 
Investments in infrastructure are proven to help local economies 
attract new private sector businesses and the good paying jobs that 
come with them.
    While we continue seeking ways to work with the White House, I hope 
the Committee will draw ideas from this hearing and put forward 
solutions that have broad, bipartisan support and that should be able 
to pass both the House and Senate and deliver results for the American 
people.
    I thank the Committee for the work it has already begun and look 
forward to seeing what it produces. And I look forward to working 
closely with those of you on the Committee and with other Members to 
introduce and advance Make It In America legislation to invest in 
twenty-first century infrastructure. Thank you.

    Mr. Hoyer. One second remaining.
    [Laughter.]
    Mr. DeFazio. I thank the gentleman for his precise 
observance of the time limits. And I want to thank him for his 
leadership in helping organize that meeting yesterday, which I 
thought was an excellent start, and also for pointing out and 
emphasizing Make It In America, Made In America.
    And I know the gentleman knows this, but transportation 
infrastructure has the strictest Buy America rules of any part 
of the Federal Government, way more so than the Pentagon or 
other agencies, but we still see a few places for improvement 
that I hope to do in the coming long-term authorization to 
bring even more jobs here and better our infrastructure at the 
same time.
    Mr. Hoyer. Mr. Chairman, I am looking forward to working 
with you to schedule a major piece of legislation that you will 
argue. And hopefully the ranking member will be with you, and 
we will have a bipartisan bill that will pass and will make a 
difference for our country.
    Mr. DeFazio. That is the tradition of this committee. It is 
probably the most bipartisan committee in a Congress that 
oftentimes is a little too partisan.
    So I thank the gentleman. Any Members have questions? OK.
    Seeing none, I thank you for your testimony.
    Mr. Hoyer. Thank you, Mr. Chairman.
    Mr. DeFazio. OK, the gentleman from Rhode Island was the 
next arrival, Mr. Langevin.

   TESTIMONY OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF RHODE ISLAND

    Mr. Langevin. Thank you, Mr. Chairman, Chairman DeFazio, 
Ranking Member Graves, for the opportunity to testify before 
you today. And I would like to take this opportunity to 
highlight an issue that is particularly important to my 
constituents in Rhode Island and to workers and businesses 
across the country. That is investing in a skilled 
infrastructure workforce.
    I am sure encouraged by your plans to craft robust 
infrastructure legislation to strengthen our communities and 
stimulate our economy. I certainly echo the words of the 
majority leader and the need for infrastructure investment, and 
your comments as well, Mr. Chairman.
    In thinking of Rhode Island, I know that we have some of 
the greatest infrastructure needs in the country. And our 
needs, of course, are indicative of those of every 
congressional district across the country.
    But rebuilding our Nation's infrastructure will also 
require more than investments in bridges, roads, waterways, and 
broadband; it will require a workforce that can design, build, 
and maintain them. So therefore, as the committee works to 
craft its infrastructure agenda over the coming months, I urge 
you to consider investments in proven workforce development 
strategies, including career and technical education and 
apprenticeships to prepare our workers to realize these 
opportunities that are ahead of us.
    So just by way of example, the Brookings Institution 
estimates that 3 million more workers will be needed to support 
the Nation's infrastructure over the next 10 years, including 
designing, building, and operating transportation, housing, 
utilities, and telecommunications. However, Georgetown 
University estimates that with a trillion-dollar Federal 
infrastructure investment, we would more than double the number 
of required high-skill workers.
    So this is a great opportunity for millions of Americans 
who are out of work, underemployed, or seeking higher wages. 
However, without adequate skills training, these workers won't 
be prepared to fill open jobs and carry out high-priority 
infrastructure projects.
    So I am not alone in my concern. In fact, on March 6, 2018, 
during a hearing in this committee on the President's 
infrastructure proposal, Transportation Secretary Chao 
testified, and I quote, ``We probably will not have enough 
skilled trades workers to be able to address all the 
infrastructure needs when it finally gets all going, so the 
workforce training and retraining part is important.''
    So many of these jobs do not require a bachelor's degree, 
but they do involve a significant amount of on-the-job 
training. CTE and apprenticeships are proven strategies that 
give individuals the education and work-based learning they 
need for success in these high-skill, higher wage careers 
fields.
    Now, last July, Congress recognized CTE and apprenticeships 
as effective workforce development strategies when we 
unanimously reauthorized the Carl D. Perkins Career and 
Technical Education Act, which the President subsequently 
signed into law last July. This bipartisan victory demonstrated 
Congress' renewed commitment to skills-based education in high-
demand industries, and I certainly hope that the committee will 
continue moving this trend forward.
    Specifically, I would ask that you include in any 
infrastructure package a requirement that States devote a 
portion of any funds they receive to workforce development 
programs, including career and technical education, with the 
flexibility to invest in programs that they deem appropriate 
through coordination with local workforce boards.
    So I also request that you include incentives for 
infrastructure-related businesses that invest in work-based 
learning, including apprenticeship programs, and dedicated 
resources for updating the facilities and equipment used in CTE 
programs that train students for employment in infrastructure 
jobs.
    So each of these components is critical to building a 
workforce ready to fill millions of high-skill jobs over the 
next decade, and my fellow cochair of the Career and Technical 
Education Caucus, Representative G.T. Thompson from 
Pennsylvania, and I will also be sending an official letter to 
you and the ranking member in support of these investments.
    And, Mr. Chairman, I would ask unanimous consent to include 
a copy of the letter text in the record.
    Mr. DeFazio. Without objection.
    [The information follows:]
                                 <F-dash>
 Letter of May 1, 2019, from Members of Congress Advocating for Career 
  and Technical Education, Submitted for the Record by Hon. James R. 
 Langevin, a Representative in Congress from the State of Rhode Island
                                                       May 1, 2019.
The Honorable Nancy Pelosi,
Speaker of the House,
U.S. House of Representatives, Washington, DC.
The Honorable Kevin McCarthy,
House Minority Leader,
U.S. House of Representatives, Washington, DC.
The Honorable Peter DeFazio,
Chairman,
Committee on Transportation & Infrastructure, U.S. House of 
        Representatives, Washington, DC.
The Honorable Sam Graves,
Ranking Member,
Committee on Transportation & Infrastructure, U.S. House of 
        Representatives, Washington, DC.

    Dear Speaker Pelosi, Leader McCarthy, Chairman DeFazio and Ranking 
Member Graves:
    As you craft legislation to strengthen our nation's infrastructure, 
we respectfully request that you include investments in proven 
workforce development strategies, including career and technical 
education (CTE) and apprenticeships.
    Rebuilding our nation's infrastructure will require more than just 
bridges, roads, and waterways; it will require the development of a 
skilled workforce that can design, build, and maintain that 
infrastructure. The Brookings Institution estimates that 3 million 
additional workers will be needed for the nation's infrastructure in 
the next decade, including designing, building and operating 
transportation, housing, utilities and telecommunications \1\. On March 
6, 2018, during a House Transportation and Infrastructure Committee 
hearing on the President's infrastructure proposal, Secretary of 
Transportation Elaine Chao testified, ``we probably will not have 
enough skilled trades workers to be able to address all the 
infrastructure needs when it finally gets all going . . . So, the 
workforce training and retraining part is important.''
---------------------------------------------------------------------------
    \1\ Kane, Joseph and Adie Tomer. Infrastructure skills: Knowledge, 
tools, and training to increase opportunity (May 2016). Retrieved from: 
https://www.brookings.edu/wp-content/uploads/2016/05/
metro_20160510_infrastructure_skills_report.pdf.
---------------------------------------------------------------------------
    Many jobs in infrastructure sectors do not require a bachelor's 
degree, but they do involve a significant amount of on-the-job 
training. CTE and apprenticeships are proven strategies that can 
provide individuals with the education and work-based learning they 
need for career success in these high-skill, high-wage industry sectors 
or occupations. By including these investments in a comprehensive 
infrastructure package, we will ensure that resources committed to our 
nation's infrastructure will be effective, building on established 
workforce development strategies to provide the skilled workers 
required to carry out the projects.
    Congress recently recognized CTE as an effective workforce 
development strategy when it unanimously passed the Strengthening 
Career and Technical Education for the 21st Century Act (reauthorizing 
the Carl D. Perkins Career and Technical Education Act), which the 
President subsequently signed into law (Public Law No: 115-224). We 
must maintain this commitment moving forward. Therefore, we 
respectfully request that you include the following in any 
infrastructure legislation:
    <bullet>  A stipulation that states devote a portion of the 
infrastructure funds they receive to workforce development programs, 
including CTE programs, with the flexibility to invest in such programs 
they deem appropriate for local infrastructure needs, and that they 
coordinate such investments with the agencies that receive the states' 
funds from the Workforce Innovation and Opportunity Act and Carl D. 
Perkins CTE Act so as not to duplicate efforts;
    <bullet>  Incentives for infrastructure-related businesses that 
invest in work-based learning, including apprenticeship programs; and
    <bullet>  Dedicated resources for updating the facilities and 
equipment used in CTE programs of study in infrastructure sectors to 
ensure they are aligned with fast-paced, ever-changing industry 
expectations and standards.

    We appreciate your consideration of these requests and look forward 
to working with you to ensure these items are included in the nation-
wide infrastructure package. If you have any questions or would like to 
discuss this further, please contact Kerry McKittrick with Congressman 
Langevin or Nick Rockwell with Congressman Thompson.
        Sincerely,
James R. Langevin,
  Member of Congress.
Donald Norcross,
  Member of Congress.
Abby Finkenauer,
  Member of Congress.
Thomas R. Suozzi,
  Member of Congress.
Tom Emmer,
  Member of Congress.
Tom O'Halleran,
  Member of Congress.
John Yarmuth,
  Member of Congress.
Tom Malinowski,
  Member of Congress.
Tim Ryan,
  Member of Congress.
Troy Balderson,
  Member of Congress.
Anthony Brown,
  Member of Congress.
Angie Craig,
  Member of Congress.
Lori Trahan,
  Member of Congress.
TJ Cox,
  Member of Congress.
Rick Larsen,
  Member of Congress.
Susan W. Brooks,
  Member of Congress.
Henry C. ``Hank'' Johnson, Jr.
  Member of Congress.
Don Young,
  Member of Congress.
Kurt Schrader,
  Member of Congress.
Denny Heck,
  Member of Congress.
Robert E. Latta,
  Member of Congress.
Raja Krishnamoorthi,
  Member of Congress.
Andre Carson,
  Member of Congress.
Suzanne Bonamici,
  Member of Congress.
David Scott,
  Member of Congress.
Cindy Axne,
  Member of Congress.
Glenn ``GT'' Thompson,
  Member of Congress.
David B. McKinley, P.E.,
  Member of Congress.
Josh Harder,
  Member of Congress.
Roger Marshall,
  Member of Congress.
Elise Stefanik,
  Member of Congress.
Anthony Brindisi,
  Member of Congress.
Mike Thompson,
  Member of Congress.
Sean Casten,
  Member of Congress.
Seth Moulton,
  Member of Congress.
Conor Lamb,
  Member of Congress.
Darin LaHood,
  Member of Congress.
Elissa Slotkin,
  Member of Congress.
Brian Fitzpatrick,
  Member of Congress.
Rob Wittman,
  Member of Congress.
Peter Welch,
  Member of Congress.
Blaine Luetkemeyer,
  Member of Congress.
Julia Brownley,
  Member of Congress.
Pete Visclosky,
  Member of Congress.
Alma S. Adams, Ph.D.,
  Member of Congress.
Brian Higgins,
  Member of Congress.
Kendra S. Horn,
  Member of Congress.
Bryan Steil,
  Member of Congress.
Mark Pocan,
  Member of Congress.
Adam Smith,
  Member of Congress.
Cedric L. Richmond,
  Member of Congress.
  

    Mr. Langevin. Thank you, Mr. Chairman.
    With that, Chairman DeFazio and Ranking Member Graves, I 
want to thank you for the opportunity to testify, and for 
considering these sensible, bipartisan requests.
    With that, with 16 seconds left on the clock, I yield back 
the balance of my time.
    [Mr. Langevin's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. James R. Langevin, a Representative in 
                Congress from the State of Rhode Island
    Thank you, Chairman DeFazio and Ranking Member Graves, for the 
opportunity to testify today. I'd like to highlight an issue that's 
particularly important to my constituents in Rhode Island and workers 
and businesses across the country: investing in a skilled 
infrastructure workforce.
    I'm encouraged by your plans to craft robust infrastructure 
legislation to strengthen our communities and stimulate our economy. 
But rebuilding our nation's infrastructure will require more than 
investments in bridges, roads, waterways, and broadband; it will 
require a workforce that can design, build, and maintain them.
    Therefore, as the Committee works to craft its infrastructure 
agenda over the coming months, I urge you to consider investments in 
proven workforce development strategies, including career and technical 
education (CTE) and apprenticeships, to prepare our workers to realize 
these opportunities ahead of us.
    The Brookings Institution estimates that 3 million more workers 
will be needed to support the nation's infrastructure over the next 10 
years, including designing, building and operating transportation, 
housing, utilities and telecommunications. However, Georgetown 
University estimates that with a trillion-dollar federal infrastructure 
investment, we'd more than double the number of required high-skill 
workers.
    This is a great opportunity for millions of Americans who are out 
of work, underemployed, or seeking higher wages. However, without 
adequate skills training, these workers won't be prepared to fill open 
jobs and carry out high-priority infrastructure projects.
    I'm not alone in my concern. On March 6, 2018, during a hearing in 
this Committee on the President's infrastructure proposal, 
Transportation Secretary Chao testified, ``we probably will not have 
enough skilled trades workers to be able to address all the 
infrastructure needs when it finally gets all going . . . So, the 
workforce training and retraining part is important.''
    Many of these jobs do not require a bachelor's degree, but they do 
involve a significant amount of on-the-job training. CTE and 
apprenticeships are proven strategies that give individuals the 
education and work-based learning they need for success in these high-
skill, higher-wage careers fields.
    Last July, Congress recognized CTE and apprenticeships as effective 
workforce development strategies when we unanimously reauthorized the 
Carl D. Perkins Career and Technical Education Act, which the President 
subsequently signed into law. This bipartisan victory demonstrated 
Congress's renewed commitment to skills-based education in high-demand 
industries, and I hope the Committee will continue moving this trend 
forward.
    Specifically, I ask that you include in any infrastructure package 
a requirement that states devote a portion of any funds they receive to 
workforce development programs, including career and technical 
education, with the flexibility to invest in programs they deem 
appropriate through coordination with local workforce boards.
    I also request that you include incentives for infrastructure-
related businesses that invest in work-based learning, including 
apprenticeship programs, and dedicated resources for updating the 
facilities and equipment used in CTE programs that train students for 
employment in infrastructure jobs.
    Each of these components is critical to building a workforce ready 
to fill millions of high-skill jobs over the next decade, and my fellow 
co-chair of the Career and Technical Education Caucus, Representative 
``GT'' Thompson, and I will also be sending an official letter to you 
and the Ranking Member in support of these investments. And I would ask 
unanimous consent to include a copy of the letter text in the record.
    Thank you again, Chairman DeFazio and Ranking Member Graves, for 
the opportunity to testify, and for considering these sensible, 
bipartisan requests.

    Mr. DeFazio. I thank the gentleman, and I particularly 
thank him for his emphasis on the need for a skilled workforce. 
And he will be happy to know that one of the principals in the 
infrastructure meeting was Ivanka Trump, and that is a passion 
with her, is CTE. So you got an ally down there in the White 
House. So hopefully we will----
    Mr. Langevin. Sounds good. All I can get.
    Mr. DeFazio. I thank the gentleman.
    Mr. Langevin. Thank you.
    Mr. DeFazio. Next was the gentleman from Connecticut, Mr. 
Himes.

TESTIMONY OF HON. JAMES A. HIMES, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF CONNECTICUT

    Mr. Himes. Thank you, Chairman DeFazio, Ranking Member 
Graves, and members of the committee for having this hearing 
today.
    Infrastructure continues to be the single most pressing 
issue in my district in southwestern Connecticut. Every 
business leader I speak to, businesses large and small, 
identifies this as the biggest challenge they have doing 
business. And, of course, for everyday people, straphangers who 
take Metro-North into New York City, to those, including 
myself, who sit in nightmarish traffic on I-95 in the Merritt 
Parkway. At any time approximating rush hour, our transit 
systems are straining under years and years of underinvestment.
    For generations we have built our way to prosperity. But 
sadly, concerns in the last several generations about how to 
pay for infrastructure have left us in an ever more desperate 
situation. So I come here today to advocate for a discreet set 
of issues.
    But I just want to illustrate what happens in my district, 
which is a fascinating place. It is an economic powerhouse. It 
sits astride one of the true commercial arteries between New 
York and Boston, and it is crumbling. The infrastructure is 
crumbling. In the city of Bridgeport, there is a terrible story 
where a bridge that used to connect the downtown and the 
historic East Side--decades ago the bridge became inoperable. 
So the bridge is gone. And two halves of a city are not 
accessible to each other, with all of the effects that that has 
on the economy of the city of Bridgeport and of the region.
    And, by the way, that is not just Bridgeport. The American 
Road and Transportation Builders Association says that 40 
percent of our bridges need to be replaced or repaired, 47,000 
bridges are structurally deficient nationally, including 308 
bridges in Connecticut.
    We have also seen the price of inaction in my own backyard. 
In 1983, the Mianus River Bridge, which is on I-95 over a small 
river in southwestern Connecticut, collapsed, killing three 
motorists. I could go on and on, but I won't.
    The good news is our new Governor, Ned Lamont, has proposed 
a very serious focus on transportation, and at the State level 
is having a contentious but important conversation about how we 
pay for it. We are having a debate in Connecticut today over 
whether we should put tolls on our highways. We remain the last 
State in the region that doesn't have tolls on its highways.
    Governor Ned Lamont has proposed what he calls the 30-30-30 
plan, which would shorten train commutes from Hartford to New 
Haven, from New Haven to Stamford, and from Stamford into New 
York City to just 30 minutes. That sounds ambitious, but the 
Europeans are already way past that, the Asians are already way 
past that. This is something that we absolutely need to do.
    So I don't want to continue to list the challenges, and I 
am sure you are going to hear from every corner of the country 
today about the necessity of doing this. I am just going to 
close with an appeal, which is an appeal for pragmatism and 
compromise on this issue.
    I have been around long enough to know that both parties 
and all of us are tempted to let the perfect be the enemy of 
the good. We are in divided Government. Nobody is getting 
everything that they want. So I just, given the intensity and 
the urgency of this problem, appeal to every member of this 
committee and to all my colleagues and to Members of the Senate 
to let's not let the perfect be the enemy of economic survival. 
This is essential.
    On my side of the aisle we are going to need to be 
openminded to things that will be hard to be openminded about. 
On the other side of the aisle, I hope you gentlemen and other 
people in the party will realize that we do need the resources 
to pay for this investment.
    So again, just a plea for the kind of pragmatism and 
compromise that I know could lead to a truly historic piece of 
legislation here, and investment in our infrastructure that 
will improve our quality of life and help all of our economies.
    With that I will close and say thank you, Mr. Chairman.
    [Mr. Himes' prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. James A. Himes, a Representative in Congress 
                     from the State of Connecticut
    Thank you, Chairman DeFazio, Ranking Member Graves, and members of 
the Committee for having this hearing today.
    Infrastructure continues to be the single most pressing issue in my 
district in southwestern Connecticut.
    Every business leader I speak to, from businesses large and small, 
identifies this as the biggest challenge they have doing business. And, 
of course, for everyday people: straphangers who take Metro North into 
New York City and those, including myself, who sit in nightmarish 
traffic on 95 and the Merritt Parkway at any time approximating rush 
hour. Our transit systems are straining under years and years of 
underinvestment. For generations, we built our way to prosperity, but, 
sadly, concerns in the last several generations about how to pay for 
infrastructure have left us in an evermore desperate situation.
    So, I come here today to advocate for a discrete set of issues, but 
I just want to illustrate what happens in my district, which is a 
fascinating place. It's an economic powerhouse. It sits astride the two 
commercial arteries between New York and Boston, and it is crumbling. 
The infrastructure is crumbling. In the city of Bridgeport, there is a 
terrible story where a bridge that used to connect downtown and the 
historic East Side decades ago became inoperable. So, the bridge is 
gone, and the two halves of the city are not accessible to each other, 
with all of the effects that has on the economy of the city of 
Bridgeport and of the region.
    That's not just Bridgeport--the American Road and Transportation 
Builders Association says that 40% of our bridges need to be replaced 
or repaired, 47,000 bridges are structurally deficient nationally, 
including 308 bridges in Connecticut. We've also seen the price of 
inaction in my own backyard. In 1983, the Mianus River Bridge, which is 
on I-95 over a small river in southwestern Connecticut, collapsed, 
killing three motorists. I could go on and on, but I won't.
    Though the off-system bridge set-aside and BUILD grants provide a 
sizable amount of funding, the problem is just too severe and deserves 
our attention. This Committee should consider increasing the Surface 
Transportation Block Grant Program authorization in order to 
proportionately increase the amount of money going to off-system 
bridges or set up a separate and distinct grant program with robust 
funding to address this looming crisis.
    Our new governor, Ned Lamont, has proposed a very serious focus on 
transportation. At the state level, Governor Lamont has proposed the 
``30-30-30 plan,'' which would shorten the train commutes from Hartford 
to New Haven, New Haven to Stamford, and Stamford to New York City to 
just 30 minutes each.
    That sounds ambitious, but the Europeans are already way past that, 
the Asians are already way past that. This is something that we 
absolutely need to do. So, I don't want to continue to list the 
challenges, I'm sure you're going to hear it from every corner of the 
country today about the necessity of doing this.
    The plan only seeks to do what countries around the world have been 
doing for decades, connecting cities, but it would require significant 
funding to make changes to the physical infrastructure and procure more 
trains.
    Future surface transportation authorizations or freestanding 
infrastructure bills should view these kinds of transportation projects 
as what they are: the kind of investments that will catalyze regional 
economic growth in a way that more than pays their costs over time.
    I'm just going to close with an appeal, which is an appeal for 
pragmatism and compromise on this issue. I've been around long enough 
to know that both parties and all of us are tempted to let the perfect 
be the enemy of the good. We're in divided government; not anybody is 
getting everything that they want. So, given the intensity and the 
urgency of this problem, I appeal to every member of this committee and 
to all my colleagues and to members of the Senate: let's not let the 
perfect be the enemy of economic survival. This is essential on my side 
of the aisle. We're going to need to be openminded to things that will 
be hard to be openminded about on the other side of the aisle. I hope 
you all and other people in the party will realize that we do need the 
resources to pay for this investment.
    So again, just a plea for the kind of pragmatism and compromise 
that I know could lead to truly a historic piece of legislation here 
and an investment in our infrastructure that will improve our quality 
of life and help all of our economies. With that, I'll close and say 
thank you, Mr. Chairman.

    Mr. DeFazio. I thank the gentleman. I thank him in 
particular for emphasizing the fact that this is a bipartisan 
problem and a bipartisan need, and also for highlighting 
bridges--as you said, 47,000 bridges need significant work. 
They are structurally deficient. And another 235,000 need work. 
This is critical investment we can't afford not to make. So I 
thank you for your advocacy and your testimony.
    Anyone on the panel?
    Yes, Mr. Mitchell for 2 minutes.
    Mr. Mitchell. Thanks, Mr. Chair. I will be briefer than 
that.
    I would encourage my colleague and all the colleagues that 
come before us with some serious concerns on infrastructure, as 
you know, Michigan, lord knows our infrastructure is legendary. 
And it comes from--a great deal from the failure to invest in 
infrastructure during the downturn.
    So while we are talking about increased Federal investment 
in infrastructure, which was part of the meeting yesterday, we 
need to emphasize to States and communities they are also 
responsible for investing in infrastructure. We cannot end up 
in a situation where they expect the Federal coffers to totally 
fix the problems that have been neglected. There were State and 
local assets.
    So as we have this conversation, I would encourage you and 
everyone to have them also with their State legislators.
    You said the Governor is moving forward on plans there so 
that, in fact, we marry local community resources, potentially 
P3s, with Federal money to maximize infrastructure and not 
expect that we are able to solve it here because, frankly, I 
don't believe we are.
    Mr. Himes. Well, I will just comment, Mr. Mitchell. I 
couldn't agree with you more, that this is a whole-of-
government, whole-of-society problem. And yes, municipalities 
and States need to do their part.
    Where I come from, I can throw a rock and hit the State 
next door. And my State, small State of Connecticut, we are 
deeply integrated with Rhode Island, with Massachusetts, and 
with New York and New Jersey.
    We are a great country, partly because we solve these 
problems with the single-biggest instrument that this Nation 
has, which is the Federal Government. So I couldn't agree more 
that this is a whole-of-government problem. But the Federal 
Government is going to need to step up in a big way.
    Mr. DeFazio. I thank the gentleman for his testimony. I 
thank the gentleman for his observation.
    Twenty-eight States have substantially raised their user 
fees in one form or another over the last 4 years. But the 
Federal Government hasn't increased its contribution since 
1993. And it is worth about half of what it was back then. So 
we have work to do on both ends of this problem.
    So I thank the gentleman for his observation. With that, 
the gentleman--a former member of the committee, our plant on 
the Ways and Means Committee--not in terms of an herb.
    [Laughter.]
    Mr. DeFazio. But our--you know what I mean. Earl is the 
number-one advocate for infrastructure and investment on the 
Ways and Means Committee.
    With that, I recognize the gentleman from Oregon, Mr. 
Blumenauer.

TESTIMONY OF HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Blumenauer. Thank you, Mr. Chairman. And I really 
appreciate--you pointed out that the States are already moving 
forward. We have seen 35 States step up in the last 8 years. 
The Federal Government has been missing in action. They rely on 
us to do our part, not to do it all for them, but they expect 
that we will meet our part.
    I had some of my best memories, a Member of Congress, as a 
member of this committee. I left reluctantly to go to Ways and 
Means to try and work to make sure that we meet our statutory 
obligation to finance what you authorize. And that mission 
continues today.
    I am hopeful that we can take advantage of an opportunity, 
whether seemingly is a consensus about the need to spend $2 
trillion on infrastructure, but fails time after time after 
time, because people don't step up to put the money behind it, 
like we have seen at the State and local level.
    The Transportation and Infrastructure Committee should be--
and every other committee should be--laser-focused on achieving 
the $2 trillion level of investment that has been talked about. 
I look forward to being your partner on the Ways and Means 
Committee to invest in infrastructure, not just by raising the 
gas tax, indexing the gas tax, and then replacing the gas tax 
with something that is sustainable. We need to have a dedicated 
water infrastructure trust fund. We need to expand financing 
mechanisms to invest in surface transportation, airports, 
public buildings, schools, housing, Superfund cleanup, and 
more.
    The Transportation and Infrastructure Committee should work 
to unlock the full potential of the Harbor Maintenance Trust 
Fund. And I know, Mr. Chairman, you have been deeply concerned 
with that. We need to uncap the passenger facility charge to 
allow local investment in aviation needs. And we need to 
accelerate the transition to a sustainable program of road user 
charges over the course of the next 12 years to fund our system 
based on use, rather than gallons of fuels consumed.
    We are facing new challenges now dealing with climate, 
mobility options, and this uncertain funding future. We need to 
develop a forward-thinking infrastructure bill--and I know that 
you are working on that--that continues the expansion of the 
Surface Transportation System Funding Alternatives program at 
the State level while also bringing road user charges to the 
Federal level through an expanded national pilot program.
    With urban centers booming, communities need tools and 
resources necessary to make great places. But those places rely 
heavily on the rural-urban connection. Urban America relies on 
healthy cities and vice versa. We need to create more equitable 
outcomes in terms of transferring State-owned urban roads to 
local governments, and advancing complete street policies to 
lead to zero deaths for all road users.
    We can restore the bicycle and pedestrian funding to a 
percentage of the Surface Transportation Block Grant program, 
increase funding for transit capital, and meaningful investment 
in congestion mitigation and air quality.
    We must fix the destructive provision in the recent tax 
bill that damages commuter tax benefits, that commuters, 
businesses, churches, and nonprofits have relied on for 
decades.
    And finally, I hope the committee works to integrate new 
mobility options as solutions to our most vexing transportation 
problems.
    Communities should be able to support bike share and other 
mobility options to connect people in their first or last mile 
to mass transit. Policy-makers at all levels should have a 
better understanding of the secondary influence of autonomous 
vehicles that are rushing towards us, I think, faster than any 
of us expect.
    You have a unique opportunity to be at the center of a 
meaningful, fully funded transportation package and a forward-
thinking surface transportation reauthorization that looks at 
the full range of transportation choices.
    As I said, I look forward to being your partner on the Ways 
and Means Committee in providing the infrastructure investments 
communities need. You have an opportunity to produce a once-in-
a-generation piece of legislation. You have got this consensus 
from the White House and Democratic leadership in Congress to 
spend $2 trillion. We need to work with you to make sure the 
money is there to spend. Otherwise, sadly, you will be spinning 
your wheels.
    I applaud you, Mr. Chairman, for your untiring effort to 
focus on this funding crisis and the opportunities that will be 
afforded if we meet it, and I look forward to working with you 
so we do.
    [Mr. Blumenauer's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Earl Blumenauer, a Representative in 
                   Congress from the State of Oregon
    Chairman DeFazio, Ranking Member Graves, thank you for the 
opportunity to testify before this committee today. Some of my best 
memories in Congress are serving on the T&I Committee. I left this 
committee, which I loved, to go to the Ways and Means Committee to 
ensure that the federal government upholds its end of the partnership 
to fund infrastructure--that is the jurisdiction of the Ways and Means 
Committee, to fund what you authorize. Our mission continues today, and 
I am hopeful that our committees can work together to deliver the 
infrastructure investments that the American people so desperately 
need.
    It has been said there is no Democratic or Republican way to fix a 
sewer. This committee has long-exemplified that sentiment, and you have 
the opportunity to continue that tradition this year. Trump and 
congressional Democrats have made a commitment to the American people 
for at least $1 trillion for infrastructure. The T&I Committee, and 
every other committee, should be laser-focused at achieving this level 
of investment in a comprehensive infrastructure package. I look forward 
to being your partner on the House Ways and Means Committee to invest 
in infrastructure by raising the gas tax, creating a dedicated water 
infrastructure trust fund, and expanding financing mechanisms to invest 
in surface transportation, airports, public buildings, schools, 
housing, Superfund cleanup and more. At the same time, the T&I 
Committee should work to unlock the full potential of the Harbor 
Maintenance Trust Fund, uncap the Passenger Facility Charge, and 
support the transition over the next 12 years to a more stable and 
equitable transportation funding system that charges for road use 
rather than gallons of fuel consumed.
    The United States faces the same challenges as we have in the past, 
but we also face new challenges and opportunities with the climate 
crisis, new mobility options, and an uncertain funding future. Congress 
must develop a forward-thinking surface transportation bill that has 
real money behind it. I hope that this committee will endorse the 
continuation and expansion of the Surface Transportation System Funding 
Alternatives program at the state level while also bringing road user 
charges to the federal level through an expanded national pilot 
program.
    With urban centers booming, communities need the tools and 
resources necessary to make great places. Providing continued federal 
support for transportation options is critical to the continued success 
of urban areas which, as the New York Times recently highlighted \1\, 
are also key to the health of rural and small-town America. We can 
create safer streets by supporting the transfer of state-owned urban 
roads to local governments and advancing complete streets policies that 
lead to zero deaths for all road users. We can create more equitable 
outcomes by increasing assistance to all modes of transportation: 
restoring bicycle and pedestrian funding to a percentage of the Surface 
Transportation Block Grant program, increasing funding for transit 
capital investment grants, and meaningfully invest in the Congestion 
Mitigation and Air Quality Improvement Program. We must fix the 
destructive provisions in the GOP tax bill that damages commuter tax 
benefits that commuters, businesses, churches, and nonprofits have 
relied on for decades. Finally, I hope that the committee works to 
integrate new mobility options as solutions to our most vexing 
transportation problems. Communities should be able to support 
bikeshare and other mobility options to connect people in their first- 
or last-mile to mass transit; policymakers at all levels should have a 
better understanding the secondary influences of autonomous vehicles on 
transportation, municipal budgets, social equity, land use, urban 
design, and the environment.
---------------------------------------------------------------------------
    \1\ New York Times. April 23, 2019 ``The Best Way to Rejuvenate 
Rural America? Invest in Cities'' Liu and Arnosti.
---------------------------------------------------------------------------
    This committee has a unique opportunity to be in the center of a 
meaningful, fully-funded infrastructure package and a forward-thinking 
surface transportation reauthorization this Congress. I look forward to 
being your partner on the Ways and Means Committee in providing the 
infrastructure investments communities need. And I look forward to 
working with this Committee to produce a once-in-a-generation reframing 
of federal transportation policy.

    Mr. DeFazio. I thank the gentleman for his advocacy and his 
encyclopedic knowledge of the--indeed, have a better integrated 
system, recognizing all modes, and looking to the future. So 
thank you for that.
    Do any members of the committee have questions for Mr. 
Blumenauer?
    OK, seeing none, I thank you for your testimony.
    At this point I ask unanimous consent to place in the 
record a statement from Congresswoman Elissa Slotkin, who could 
not attend today, regarding her concerns, and for Congressman 
Peter Welch from Vermont, who also couldn't attend today, but 
submitted testimony with his concerns.
    [Mr. Welch and Ms. Slotkin arrived later in the hearing and 
provided testimony; their prepared statements are on pages 93 
and 130, respectively.]
    Mr. DeFazio. At this point I am going to yield the chair to 
the chair of the Subcommittee on Highways and Transit, Ms. 
Norton.
    [Pause.]
    Ms. Norton [presiding]. Mr. Newhouse, you may begin for 5 
minutes.

 TESTIMONY OF HON. DAN NEWHOUSE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Newhouse. Thank you, Chair Norton, Ranking Member 
Graves. It is never a good thing when the chairman of the 
committee walks out of the room as you are coming up.
    [Laughter.]
    Mr. Newhouse. Members of the committee, it is my distinct 
honor to be before you today as the committee continues its 
consideration of a comprehensive legislative package to address 
our Nation's chronic needs and ailing infrastructure.
    I come before you to share my earnest belief that any such 
effort absolutely must include water infrastructure, including 
vital water storage and water conservation projects in order to 
face our Nation's serious hydrological challenges.
    In recent years, particularly in the West, severe droughts 
have threatened water delivery, farm and ranch production, and 
our rural way of life. Over the last decade, even with above-
average precipitation in several regions of the United States, 
we continue to see drought conditions. Americans across the 
country demand a safe and reliable water supply.
    With the prospect before us to make serious substantial 
steps forward in addressing this chronic need, I am here before 
you to implore the committee to not pass up this opportunity to 
help serve communities both rural and urban.
    To provide a few examples for context, the Colorado River 
Basin, despite wet conditions this winter, continues to 
experience the longest dry spell in recorded history. 
Hydrological conditions in California over the past decade were 
the worst the region has seen since the 13th century, if you 
can believe that. It is true.
    In my own region in the Pacific Northwest we have seen 
severe droughts over the past 5 years. In the beginning of 
April, a declaration of drought emergency has already been 
declared for the Upper Yakima River, the Methow, and Okanagan 
Basins, which are all in my district in central Washington.
    As you have heard today, the Federal Government's lack of 
investments to address these conditions, not only in recent 
years but over the past several decades, has left communities 
to face severe water challenges essentially on their own.
    One example is the Columbia Basin Project. Authorized in 
1943, the project authorized over 1 million acres of productive 
land for investments to provide a reliable source of water for 
the basin. However, for 300,000 of these acres those 
investments have not been made. Within this region the Odessa 
subarea's groundwater is being withdrawn at a rate beyond the 
aquifer's capacity to recharge.
    And aquifers in the subarea are quickly declining. 
Groundwater is virtually depleted to such an extent that water 
must be pumped from wells as deep as 2,400 feet. Water pumped 
from such depths, as you can imagine, is hot and has 
dangerously high sodium concentrations. Municipal, 
agricultural, commercial, industrial, and domestic water 
supplies, as well as water quality levels, are so compromised 
that this is most certainly and clearly a crisis level.
    In 2016 a deep well that supplied a municipal water system 
in the city of Lind began to fail. The well pumped white foam 
with high fluoride content approximately 80 degrees in 
temperature. Other wells are at the point of drawing air. 
Irrigation wells near the city of Othello have recorded 
temperatures as high as 105 degrees and smelling of sulfur. 
High levels of sodium in groundwater used to irrigate our crops 
are posing a serious threat to our agricultural sector, and the 
city of Othello projects it will run out of water within 3 
years.
    Madam Chair, I don't say this lightly, but I think I can 
safely assume the last thing we want on our Nation's hands is 
another Flint-like water crisis for any of our communities. And 
I have got to tell you that my constituents in these rural 
towns are absolutely concerned, and rightly so, that we are not 
far off from seeing just that.
    In closing, I again respectfully urge the committee to take 
this opportunity to include water storage, conservation, and 
water delivery systems as policies and processes to streamline 
the construction and implementation of water projects in any 
comprehensive infrastructure package considered. The Federal 
Government has fallen behind in investing in our Nation's water 
infrastructure and we must prevent further crises from plaguing 
communities in the West and across the country. With 
investments in our water infrastructure we can ensure that our 
constituents, our agricultural community, and the Nation have a 
long-term and reliable water supply for generations to come.
    Madam Chair, I sincerely thank you for your consideration.
    [Mr. Newhouse's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Dan Newhouse, a Representative in Congress 
                      from the State of Washington
    Chairman DeFazio, Ranking Member Graves, Members of the Committee,
    It is an honor to be before you today as the Committee continues 
its consideration of a comprehensive legislative package to address our 
nation's chronic needs and ailing infrastructure. I come before you to 
share my earnest belief that any such effort absolutely must include 
water infrastructure, including vital water storage and water 
conservation projects, in order to face our nation's serious 
hydrological challenges.
    In recent years, particularly in the West, severe droughts have 
threatened water delivery, farm and ranching production, and our rural 
way of life. Over the last decade, even with above-average 
precipitation in several regions of the United States, we continue to 
see drought conditions. Americans across the country demand a safe and 
reliable water supply. With the prospect before us to make serious, 
substantial steps forward in addressing this chronic need, I am here 
before you to implore the Committee to not pass up this opportunity to 
help to serve communities--both rural and suburban.
    To provide you a few examples for context, the Colorado River 
Basin, despite wet conditions this winter, continues to experience the 
longest dry spell in recorded history. Hydrological conditions in 
California over the past decade were the worst the region has seen 
since the 13th century. In my own neck of the woods in the Pacific 
Northwest, we have seen severe droughts over the past five years. In 
the beginning of April, a declaration of drought emergency has already 
been declared for the Upper Yakima River, Methow, and Okanogan basins 
in my District in Central Washington.
    The federal government's lack of investments to address these 
conditions, not only in recent years but over the past several decades, 
has left communities to face severe water challenges essentially on 
their own. One example is the Columbia Basin Project. Authorized in 
1943, the project authorized over 1 million acres of productive land 
for investments to provide a reliable source of water for the Basin. 
However, 300,000 of these acres of land are underutilized. Within this 
region, the Odessa Subarea's groundwater is being withdrawn at a rate 
beyond the aquifer's capacity to recharge, and aquifers in the Subarea 
are quickly declining. Groundwater is virtually depleted to such an 
extent that water must be pumped from wells as deep as 2,400 feet. 
Water pumped from such depths is hot and has dangerously high sodium 
concentrations.
    Municipal, agricultural, commercial, industrial, and domestic water 
supplies--as well as water quality levels--are all so compromised that 
this is most certainly and clearly at crisis-level. In 2016, a deep 
well that supplied a municipal water system in the City of Lind began 
to fail. The well pumped white foam, with high fluoride content, 
approximately 80 degrees in temperature. Other wells are at the point 
of drawing air. Irrigation wells near the City of Othello have been 
recording temperatures as high as 105 degrees and smelling of sulfur. 
High levels of sodium in groundwater used to irrigate our crops are 
posing a serious threat to our agriculture sector, and Othello projects 
it will run out of water in about three years, or sooner.
    Mr. Chairman, I don't say this lightly, but I think I can safely 
assume the last thing we want on our nation's hands is another Flint-
like water crisis for any one of our communities, and I've got to tell 
you that my constituents in these rural towns are absolutely 
concerned--and rightly so--that we are not far off from seeing just 
that in these areas.
    In closing, I again respectfully urge the Committee to take this 
opportunity to include water storage, conservation, and water delivery 
systems--as well as policies and processes to streamline the 
construction and implementation of water projects--in any comprehensive 
infrastructure package considered. The federal government has fallen 
behind in investing in our nation's water infrastructure and we must 
prevent further crises from plaguing communities in the West and across 
the country. With investments in our water infrastructure, we can 
ensure that our constituents, our agricultural community, and the 
nation have a long-term and reliable water supply for generations to 
come. I sincerely thank you for your consideration.

    Ms. Norton. Thank you very much for that testimony--very 
troubling in many ways.
    Does any member of the committee wish to question?
    Yes?
    Mr. Garamendi. Madam Chair, if I might?
    Ms. Norton. You have 2 minutes.
    Mr. Garamendi. Mr. Newhouse, your point about water 
infrastructure is absolutely correct, in my view. Could you 
expand a little bit on water storage systems, the kinds of 
things that we need to do and how we might accomplish those 
water storage systems, both surface as well as aquifer?
    Mr. Newhouse. Well I can tell you--and thank you, Mr. 
Garamendi, for your question. I can tell you in my own district 
we have--we rely on the snowpack in the Cascade Mountains for 
our irrigation and domestic industrial use of water. We have 
five reservoirs on the Yakima River Basin. We have not built 
additional storage since 1933.
    And, as you can imagine, populations have increased since 
then, demands for the use of water have increased, 
environmental needs for fish and other things have increased. 
We have just not kept pace. We need additional storage, 
additional delivery systems, be able to take more conservation 
practices more seriously, all kinds of things that have to be 
accomplished in order for us to meet a growing demand for water 
in an ever-increasing frequency of droughts in our area.
    Mr. Garamendi. I would like to draw the attention of the 
committee to a bill that we passed 3 years ago called The WIIN 
legislation, water infrastructure legislation. In that 
legislation, there has been the authorization for significant 
surface and aquifer storage facilities. It needs to be updated 
and renewed, and I would hope this committee would take that up 
as we go forward. I look forward to working with you, Mr. 
Newhouse, on making that possible so that we can continue to 
build the storage systems that are necessary.
    Mr. Newhouse. Thank you very much for that observation.
    Ms. Norton. Thank you, Mr. Garamendi. Are there any other 
questions?
    If I may say so, Mr. Newhouse, there is about to be more 
time for climate change. I wonder if you think some of the 
extreme results you are seeing have anything to do with changes 
in climate in your State.
    Mr. Newhouse. Well, I would say that, for instance in the 
State of Washington, I think our precipitation levels are 
relatively stable, but the form of that precipitation is coming 
more in rain instead of snow. And like I said, for our part of 
the State we would rely on that snowpack. For a lot of 
different reasons that is happening. Rising temperatures is one 
of those.
    Ms. Norton. Warming. Thank you very much for that 
testimony.
    Mr. Wittman of Virginia?

   TESTIMONY OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Wittman. Thank you, Chairwoman Norton and Ranking 
Member Graves. Thank you for the opportunity today. And I 
represent the First Congressional District of Virginia, which 
is home to some of the most unique transportation challenges in 
the country.
    The First Congressional District spans the I-95 corridor in 
northern Virginia, which includes the worst traffic hotspot in 
the Nation, all the way down to the Northern Neck and Middle 
Peninsula, which includes some of the most neglected rural 
roads and bridges in the State of Virginia. The National 
Capital Region is also home to one of the most strained public 
transportation networks in the country, which includes the 
Virginia Railway Express, Metro, Amtrak, Ronald Reagan 
International and Dulles International airports. Also right 
outside of my district is the Port of Virginia, which serves 
all 48 contiguous States and faces an urgent need for 
expansion.
    I would like to take this time to highlight transportation 
and infrastructure issues important to my district and to the 
Commonwealth of Virginia.
    Addressing the congestion issue along the I-95 corridor is 
essential. I believe Congress can and should do more to provide 
adequate resources to leverage the State's investment to 
address the issues on I-95. Congress must prioritize public-
private partnerships and innovative modern-day technologies.
    An important component to reducing traffic congestion in 
northern Virginia is commuter rail. Long Bridge, which spans 
the Potomac River between Virginia and DC, is a critical 
gateway between southeast and northeast rail networks. 
Constituents in my district rely on the services of Amtrak and 
the Virginia Railway Express, better known as VRE, to commute 
throughout DC and northern Virginia. The current Long Bridge 
structure is the primary constraint limiting the VRE's ability 
to operate more passenger trains that could significantly 
reduce traffic in northern Virginia. Healthy investments in 
Federal formula programs will support the VRE's ongoing and 
future investments to expand their service.
    My constituents, as well as Members of Congress, rely on 
the services provided by the Ronald Reagan International 
Airport and Dulles International Airport. The region and Nation 
benefit from the successes of DCA and IAD. Congress should 
support sustainable funding mechanisms to allow these airports 
to make critical investments in safety, security, and 
efficiency. Also, maintaining the current slot and perimeter 
allotment at DCA is important to the stability of the region.
    The Port of Virginia, located right outside of my district, 
is one of the largest and busiest ports on the eastern 
seaboard. It manages cargo that is shipped to all 48 contiguous 
States, and increased shipping traffic and larger vessels are 
straining the port's current capacity. At its current depth and 
width, the port is experiencing an urgent need to deepen and 
expand its channels. I would like to thank the committee for 
its work on WRDA 2018, which fully authorized the port to 
deepen the Norfolk Harbor to 55 feet and widen the Thimble 
Shoals Channel to 1,400 feet. Continued Federal resources are 
needed to support the over $350 million invested by the State 
of Virginia for navigation improvements already underway at the 
port.
    Lastly, expanding access to high-speed internet is critical 
to economic development and growth in our entire Nation, but 
very important also to Virginia and to the areas within the 
First Congressional District. As cochair of the House Rural 
Broadband Caucus I have made expanding broadband access in 
rural areas a top priority. Currently, burdensome regulations 
are hindering shovel-ready projects from providing broadband 
access to unserved populations throughout the country. By 
streamlining our Federal permitting processes, the committee 
can help better connect the more than 23 million Americans with 
little or no access to broadband to our digital economy. This 
helps our local economies, helps our education system, and also 
helps in healthcare access in these underserved areas of the 
Nation.
    I would like to thank both you, Chairwoman Norton, Chairman 
DeFazio, and Ranking Member Graves, and members of the 
committee for the opportunity to testify today. As you can see, 
my district faces a number of unique and substantial 
infrastructure challenges. And I look forward to working with 
you to solve these issues to grow our economy and to promote 
jobs and to identify sources of funding for the continual 
effort to build and to rebuild our Nation's transportation and 
infrastructure.
    [Mr. Wittman's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Robert J. Wittman, a Representative in 
               Congress from the Commonwealth of Virginia
                                 Intro
    Chairman DeFazio and Ranking Member Graves,
    I represent the First District of Virginia, which is home to some 
of the most unique transportation challenges in the country. The First 
District spans the I-95 Corridor in Northern Virginia, which includes 
the worst traffic hot spot in the nation, all the way down to the 
Northern Neck and Middle Peninsula, which includes some of the most 
neglected rural roads and bridges in the State of Virginia. The 
National Capital Region is also home to one of the most strained public 
transit networks in the country, which includes the Virginia Railway 
Express (VRE), METRO, Amtrak, Ronald Reagan International (DCA) and 
Dulles International Airports (IAD). Also, right outside of my district 
is the Port of Virginia, which services all 48 contiguous states and 
faces an urgent need for expansion.
    I would like to take this time to highlight transportation and 
infrastructure issues important to my district and Virginia.
    Addressing the congestion issue along the I-95 corridor is 
essential. I believe Congress can and should do more to provide 
adequate resources to leverage the state's investments to address the 
issues on I-95. Congress must prioritize public-private partnerships 
and innovative modern-day technologies.
    An important component to reducing traffic congestion in Northern 
Virginia is commuter rail. Long Bridge, which spans the Potomac River 
between Virginia and DC, is a critical gateway between southeast and 
northeast rail networks. Constituents in my district rely on the 
services of Amtrak and the Virginia Railway Express (VRE) to commute 
throughout D.C. and Northern Virginia.
    The current Long Bridge structure is the primary constraint 
limiting VRE's ability to operate more passenger trains that could 
significantly reduce traffic in Northern Virginia. Healthy investments 
in federal formula programs will support VRE's ongoing and future 
investments to expand their service.
    My constituents as well as Members of Congress rely on the services 
provided by Ronald Reagan International (DCA) and Dulles International 
Airport (IAD). The region and nation benefit from the successes of DCA 
and IAD. Congress should support sustainable funding mechanisms that 
allow these airports to make critical investments in safety, security 
and efficiency. Also, maintaining the current slot/perimeter allotment 
at DCA is important to the stability of the region.
    The Port of Virginia, located right outside of my district, is one 
of the largest and busiest ports on the eastern seaboard. It manages 
cargo that is shipped to all 48 contiguous states. Increased shipping 
traffic and larger vessels are straining the Port's current capacity. 
At its current depth and width, the Port is experiencing an urgent need 
to deepen and expand its channels.
    I want to thank the committee for its work on WRDA 2018, which 
fully authorized the port to deepen the Norfolk Harbor to 55 feet and 
widen the Thimble Shoals Channel to 1400 feet. Continued federal 
resources are needed to support the over $350 million invested by the 
state of Virginia for navigation improvements already underway at the 
Port.
    Lastly, expanding access to high-speed internet is critical to 
economic development and growth in our nation. As Co-Chair of the House 
Rural Broadband Caucus I have made expanding broadband access in rural 
areas a top priority. Currently, burdensome regulations are hindering 
shovel-ready projects from providing broadband access to unserved 
populations throughout the country. By streamlining our federal 
permitting processes, the committee can help better connect the more 
than 23 million Americans with little or no access to broadband, to the 
digital economy.
    I want to thank Chairman DeFazio, Ranking Member Graves, and 
Members of the committee for this opportunity to testify today. As you 
can see, my district faces unique and substantial infrastructure 
challenges. I look forward to working with you to help solve these 
issues, continue to grow our economy, and promote jobs.

    Ms. Norton. Thank you very much for that testimony.
    Does any Member have questions for Mr. Wittman?
    Mr. Palmer?
    Mr. Palmer. Thank you, Madam Chairwoman.
    Congressman Wittman, when you talk about the permitting 
issues and the delays, is it just a permitting issue or is it 
other delays that come about because of actions taken once a 
project has started?
    Mr. Wittman. It is actually a combination of both. Some of 
them are the multiple levels of permitting processes that have 
to go through that, instead of occurring simultaneously, have 
to occur one upon the other. So it takes a longer period of 
time.
    So one agency has to finish their approval process before 
another one can start, instead of all of it being done 
concurrently. That is one place where you could fix things 
immediately.
    The other is sort of the back-and-forth, what I call the 
tennis match between the applicant and the reviewer. Instead of 
doing it all at one time and saying, here, all the feedback and 
requirements that we look at with your plans, and making that 
at one time, what happens is it is a series of back and forth, 
which can add months and sometimes years to these projects.
    So I would say those areas are the places where we can most 
easily streamline the process: have a concurrent review process 
among all agencies, and then require a single opportunity for 
feedback and adjustments to a plan or an application in order 
for approval.
    Mr. Palmer. One of the things that I have come across--and 
prior to running a think tank for 25 years I worked for two 
international engineering companies, and have been involved at 
the State level--is having to go to multiple locations to get 
permits, where if we can work out an agreement with the Federal 
Government and State and local governments so that you--it is a 
one-stop shop----
    Mr. Wittman. Exactly.
    Mr. Palmer. The costs there are a little harder to 
calculate, but what you are dealing with is lost opportunity 
cost.
    The other side of the coin, though, is once a project 
starts, having something that interferes with it, that halts 
the construction, leaves contractors in the field, and you are 
having to pay for that. That is an enormous expense. We have 
seen this in a number of cases.
    A couple that I cite on a regular basis, our--Texas, there 
was a State road that was 2\1/2\ miles, and they were widening 
the road. It was delayed for 33\1/2\ months. It had added 
almost $4 million, just in delay costs.
    There was U.S. Highway 59, 2.7 miles, I think it was. They 
were adding two more lanes--and it is a very short distance, 
2.7 miles--delayed for 5 years that added almost $18 million.
    And the last one was an interstate project, they were 
adding an interchange, it was 1\1/2\ miles, it was delayed for 
11 months, but the delay costs were $447,000.
    You are seeing that across the board with everything from 
roads and bridges to expanding broadband to mass transit, which 
really eats up our infrastructure money because all of that is 
money that should be going to infrastructure.
    I appreciate your coming to the committee today, and I 
yield back.
    Ms. Norton. The gentleman points out a real problem. And to 
the extent that some of these reviews can be done 
simultaneously, and the notion of loss of money, particularly 
considering the Congress has been reluctant to put money up in 
the first place, is, I agree, egregious and shameful.
    Are there any other questions?
    I want to say, Mr. Wittman, I listened closely to your 
testimony because I am, indeed, at the center of your region, 
so I took everything you said personally, and I thank you for 
coming.
    Mr. Wittman. Thank you, Madam Chairwoman.
    Ms. Norton. Thank you very much. I am pleased to hear next 
from Ms. Shalala from Florida.

    TESTIMONY OF HON. DONNA E. SHALALA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Shalala. Thank you very much, Madam Chairwoman, Mr. 
Palmer, committee members. Thank you for the invitation to 
testify on the issues of importance to my constituents as the 
Transportation and Infrastructure Committee develops its 
legislative agenda.
    I want to begin by giving you some numbers. Since 1950 the 
sea level in south Florida has risen 8 inches. It is only 
speeding up. By 2030 the sea level in south Florida is 
projected to rise up to 12 inches, and by 2100 perhaps 80 
inches. According to U.N. projections the average temperature 
of the planet will rise 5 to 9 degrees Fahrenheit by the end of 
the century. This will cause a sea level rise that will 
virtually submerge all of south Florida. If we continue to do 
nothing on climate change, my community, as we know, will 
disappear. Actually, my district will disappear.
    We have a moral obligation to mitigate and adapt 
immediately, as we are already seeing the effects of climate 
change and sea level rise. It no longer takes a strong 
hurricane to flood our streets. They now flood just from a 
particularly high tide, such as the king tides. In fact, tidal 
flooding has become three times as common in south Florida in 
just the past 19 years, causing so-called sunny day flooding.
    When people can't get to work because the streets are under 
water, when tourists can't walk around to shops and 
restaurants, when children can't go to school, our economy and 
our futures suffer. This flooding is putting even our most 
basic human necessities at risk.
    Ninety percent of south Florida's drinking water comes from 
the underground Biscayne aquifer. Because of Florida's porous 
limestone bedrock and the diversion of fresh waterways as sea 
levels rise, salt water reaches further inland and our drinking 
water is seriously threatened. If we do not address sea level 
rise through infrastructure, this saltwater intrusion will 
destroy our only source of drinking water long before Miami is 
under water.
    And with hurricane season around the corner, we are already 
bracing for the worst, with the most powerful storms causing 
more destruction than ever before. Category 4 and 5 hurricanes 
are projected to be at least 45 percent more common because of 
rising ocean temperatures. Combined with higher sea levels when 
these storms make landfall, they don't just flood roads and 
stop traffic; they destroy homes and lives. Hurricane Irma 
caused $50 billion of damage to south Florida. Hurricane Maria 
caused the deaths of 3,000 Puerto Ricans. But through 
legislation from this committee we can combat rising sea levels 
and be more prepared for looming threats.
    Clearly, climate change and sea level rise are 
environmental issues. Clearly, they are public health issues. 
And today I will make the case that climate change and sea 
level rise are infrastructure issues at the most basic level.
    What is the point of investing in infrastructure that will 
be underwater in 10 years? We have a real opportunity to use 
climate-smart infrastructure to prepare for higher sea levels, 
mitigate the effects of climate change, and protect our 
communities. So I ask my colleagues on this committee to make 
sea level rise and climate resilient infrastructure a 
fundamental component of their infrastructure legislation.
    We have already had success designing effective 
infrastructure projects in Miami that are actionable and 
scalable to the national level. In my district, the city of 
Miami Beach has raised much of its public roads by 2 feet, and 
are considering zoning adjustments to raise base flood level 
elevations for new construction.
    Miami Beach has spent $500 million installing massive water 
pumps that can move 30,000 gallons of water a minute from the 
streets into the ocean, draining over 7 inches of water a day. 
Combining these projects with natural green infrastructure can 
result in even better and more environmentally friendly 
results.
    Miami Beach completed a dune restoration project along the 
beach's dunes which are beachside habitats for flora and fauna, 
minimize coastal erosion, and help protect against storm 
surges. Similar, dune restoration projects across the coast 
would provide substantial protections from storm surges.
    Public parks are also effective green infrastructure 
projects, as they can absorb many times more water than 
concrete, helping to prevent flooding, while providing green 
spaces for communities.
    In addition to raising or reinforcing sea walls, 
constructing natural sea walls from coral or oyster reefs is 
often even more effective as a solution, as these barriers only 
grow stronger over time. And south Florida's mangroves and 
other marine flora, which are similarly at risk by rising sea 
levels, can be effective ways of lessening wave impacts on 
coastlines.
    Restoring fresh waterways to the ocean such as the diverted 
rivers and canals from central Florida can combat saltwater 
intrusion into the drinking water in Florida and other coastal 
communities.
    Ultimately, this committee has the opportunity to address 
sea level rise and protect communities across the country by 
integrating projects such as these into your infrastructure 
bills. We can't wait.
    My district and many others are already seeing the 
disastrous effects of sea level rise, as homes and lives are 
destroyed by flooding and storms. I hope you will address sea 
level rise with the seriousness it demands. Thank you.
    [Ms. Shalala's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Donna E. Shalala, a Representative in 
                   Congress from the State of Florida
    Chairman DeFazio, Ranking Member Graves, and Committee members, 
thank you for the invitation to testify on the issues of importance to 
my constituents as the Transportation and Infrastructure Committee 
develops its legislative agenda.
    I want to begin by giving you some numbers:
    Since 1950, the sea level in South Florida has risen 8 inches, and 
it is only speeding up. By 2030, the sea level in South Florida is 
projected to rise up to 12 inches, and by 2100, perhaps 80 inches.
    According to UN projections, the average temperature on the planet 
will rise by 5 to 9 degrees Fahrenheit by the end of the century. This 
will cause a sea level rise that will virtually submerge all of South 
Florida.
    If we continue to do nothing on climate change, my community, as we 
know it, will disappear.
    We have a moral obligation to mitigate and adapt immediately, as we 
are already seeing the effects of climate change and sea level rise.
    It no longer takes a strong hurricane to flood our streets; they 
now flood just from a particularly high tide--such as the King tides. 
In fact, tidal flooding has become three times as common in South 
Florida in just the past 19 years, causing so-called sunny day 
flooding.
    When people can't get to work because the streets are underwater, 
when tourists can't walk around shops and restaurants, when children 
can't go to school, our economy and our future suffer.
    This flooding is putting even our most basic human necessities at 
risk.
    90 percent of South Florida's drinking water comes from the 
underground Biscayne Aquifer.
    Because of Florida's porous limestone bedrock and the diversion of 
fresh waterways, as sea levels rise, salt water reaches further inland 
and our drinking water is seriously threatened.
    If we do not address sea level rise through infrastructure, this 
salt water intrusion will destroy our only source of drinking water 
long before Miami is underwater.
    And with hurricane season around the corner, we are already bracing 
for the worst, with more powerful storms causing more destruction than 
ever before.
    Category 4 and 5 hurricanes are projected to be at least 45% more 
common because of rising ocean temperatures.
    Combined with higher sea levels, when these storms make landfall, 
they don't just flood roads and stop traffic, they destroy homes and 
lives.
    Hurricane Irma caused $50 billion of damage to Florida.
    Hurricane Maria caused the deaths of 3000 Puerto Ricans.
    But with thorough legislation from this Committee, we can combat 
rising sea levels and be more prepared for these looming threats.
    Clearly, climate change and sea level rise are environmental 
issues. Clearly, they're public health issues. And today, I will make 
the case that climate change and sea level rise are infrastructure 
issues.
    At the most basic level, what is the point of investing in 
infrastructure that will be underwater in 10 years?
    We have a real opportunity to use climate-smart infrastructure to 
prepare for higher sea levels, mitigate the effects of climate change, 
and protect our communities.
    So I ask my colleagues on the Committee on Transportation and 
Infrastructure to make sea level rise and climate resilient 
infrastructure a fundamental component of their infrastructure 
legislation.
    We have already had success designing effective infrastructure 
projects in Miami that are actionable and scalable to the national 
level.
    In my district, the City of Miami Beach raised many of its public 
roads by two feet and is considering zoning adjustment to raise base 
flood elevations for new construction.
    Miami Beach spent $500 million installing massive water pumps that 
can move 30,000 gallons of water a minute from streets into the ocean, 
draining over 7 inches of water a day.
    Combining these projects with natural ``green'' infrastructure can 
result in even better--and more environmentally friendly--results.
    Miami Beach completed a dune restoration project along the beaches. 
Dunes, which are beach side habitats for flora and fauna, minimize 
coastal erosion and help protect against storm surges. Similar dune 
restoration projects across the coasts would provide substantial 
protections from storm surges.
    Public parks are also effective green infrastructure projects, as 
they can absorb many times more water than concrete, helping to prevent 
flooding while providing green spaces for communities.
    In addition to raising or reinforcing sea walls, constructing 
natural sea walls from coral or oyster reefs is often an even more 
effective solution, as these barriers only grow stronger with time.
    And South Florida's mangroves and other marine flora, which are 
similarly at risk by rising sea levels, can be effective ways of 
lessening wave impacts on coastlines.
    Restoring fresh waterways to the ocean, such as the diverted rivers 
and canals from central Florida, can combat saltwater intrusion into 
drinking water in Florida and other coastal communities.
    Ultimately, this Committee has the opportunity to address sea level 
rise and protect communities across the country by integrating projects 
such as these into your infrastructure bills.
    We cannot wait. My district, and many others, are already seeing 
the disastrous effects of sea level rise, as homes and lives are 
destroyed by flooding and storms.
    I hope you will address sea level rise with the seriousness it 
demands.

    Ms. Norton. Thank you very much, Congresswoman Shalala. I 
must say that I have seen pictures of the--you described that 
never goes away in parts of Florida. In a real sense it seems 
to me that your State is on the front lines of climate change. 
Are there other areas of Florida like your district that will 
disappear if we do not move more aggressively on climate 
change?
    Ms. Shalala. Yes, there is no question about it. And you 
know, there are no climate deniers in south Florida. Our very 
conservative Republican Governor is very much focused on 
protecting the Everglades and some of the other elements of 
this.
    And so what we are simply saying is that, as part of the 
infrastructure bill, we have to consider these issues.
    Ms. Norton. Thank you. Are there any questions from Members 
for this witness, the gentlelady from Florida?
    Ms. Wilson. Thank you. Thank you, Madam Chair. And thank 
you, Representative Shalala, for bringing this issue to the 
committee. I am sure that this will be one of our main targets.
    And the question was asked will other parts of the State 
disappear. And we know that Key West, which has a member on 
this committee, she has already approached us about climate 
change in Key West. And it will disappear, Madam Chair, it will 
disappear, just like parts of Miami Beach.
    And I want to really commend the mayors of Miami Beach and 
the commissions of Miami Beach that have taken this so 
seriously, and have invested millions of dollars reinforcing 
Miami Beach and making it harder and taller and stronger 
against flooding, and spending their own money that they 
brought forth.
    So it should be incumbent upon this committee and Congress 
to match that, and not only match that, but match all the needs 
of the State of Florida and other places. I am sure that 
California has some concerns about climate change.
    But this is great that you came here today to put this on 
our radar, and your presentation was taken very seriously. 
Thank you.
    Ms. Shalala. Thank you very much.
    Ms. Norton. I thank the gentlelady. Are there any other 
questions from members of the committee?
    At this time, I would like to ask Mr. Larsen to assume the 
chair.
    Mr. Larsen [presiding]. Oh, thanks. The Chair recognizes 
Mr. Peters for 5 minutes.

TESTIMONY OF HON. SCOTT H. PETERS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Peters. Thank you, Mr. Chairman and Mr. Ranking Member, 
for hosting this day. I would like to highlight four issues 
that affect my district in the country, as a whole: ongoing 
sewage spills along the U.S.-Mexico coastal border; disaster 
preparedness and resiliency; issues of public transportation; 
and then the transportation of spent nuclear waste.
    First, cross-border pollution. Since at least 1944 the 
Federal Government has tried and failed to stop flows of 
treated and untreated sewage in the United States from the 
Tijuana River in Mexico. And it has not been for lack of 
trying. I want to thank the committee for its past efforts in 
2000 and 2004, and a hearing in 2007 to address the problem. 
However, we are still dealing with the problem now at 
unprecedented levels: over 143 million gallons of raw sewage 
was discharged in one spill alone.
    Mexico's sewer and infrastructure cannot keep pace with 
Tijuana's fast-growing population. And until it does, we are 
going to keep experiencing these spills. This week I cosigned a 
letter with the San Diego delegation and Senators Feinstein and 
Harris urging the International Boundary and Water Commission, 
BWIP, the EPA, the Army, the Secretary of State, and Customs 
and Border Protection to coordinate their efforts to find a 
permanent solution that addresses the root cause of both 
immediate and long-term pollution issues along the border.
    Advances in water resource technology allow us to think 
about wastewater as a commodity. We can use it to generate 
renewable energy, fertilizers, and other valuable byproducts.
    And, as you know, BWIP is unique among Federal funding 
programs because it is the only Federal program that can fund 
projects on both sides of the border. Since the program began 
in 1997 it has provided hundreds of thousands of U.S. 
households along the border with adequate drinking water and 
wastewater infrastructure. And BWIP was initially funded with 
$100 million per year. However, it had been reduced to zero 
over the past 20 years to less than $10 million. We need to 
make substantial investments in projects along the U.S. and 
Mexico border, investments commensurate with the seriousness of 
the problem.
    The San Diego delegation stands ready to work with you to 
finally eliminate the transboundary sewage pollution problem.
    The second pressing issue for my district and the country 
is natural disasters, particularly wildfires, as they have 
become more common as climate change wreaks havoc on the 
environment. I have offered two bills under this committee's 
jurisdiction to help communities prepare for future natural 
disasters.
    I introduced the bipartisan Strengthening the Resiliency of 
our Nation on the Ground, or the STRONG Act, with Congresswoman 
Elise Stefanik. The STRONG Act would establish a central agency 
and information center to combine the expertise of local, 
State, and Federal agencies in developing short- and long-term 
resiliency best practices for communities. We know that for 
every dollar invested in preparedness and resiliency we save $6 
in restoration following a disaster. This bill will give 
communities the tools they need to plan ahead and increase 
their resiliency, which will save lives and reduce costs in the 
long run.
    I also introduced the DISASTER Act with my colleague, 
Congressman Mark Meadows. This bill would require the OMB to 
use data it already has to produce an annual report quantifying 
the disaster-related assistance provided by the Federal 
Government each year. Currently we don't bother to do that. It 
is important to do.
    Third, I want to stress the importance of investing in 
public transportation that actually prioritizes decongesting 
our roads, increases sustainability, and supports regional 
housing planning. I urge the committee to continue to improve 
transit infrastructure to encourage more commuters to take 
public transportation and reduce vehicle-miles traveled.
    The Federal Government can only support a limited number of 
new projects. We have to prioritize those projects that will 
generate the ridership that will demonstrably offer automobile 
alternatives and minimize greenhouse gas emissions. To this 
end, we need to ask local and State governments, in exchange 
for the massive Federal investments we are making in local 
communities, to commit to increasing density and to build 
housing and other origins and destinations near and along the 
transit quarters that we build.
    Finally, a priority of ours is the proper interim and 
permanent storage of spent nuclear fuel. In San Diego we have 
new spent nuclear waste sitting within 100 miles of the Pacific 
Ocean, near a fault line, on a military base in one of the most 
populated areas in America. While identifying where the waste 
will go is at the Energy and Commerce Committee, on which I 
serve, the repository will be useless without the proper 
transportation planning and execution. So I want to say that I 
look forward to working with this committee in the near future 
to identifying the safest ways to transport this waste to its 
ultimate resting place.
    Thank you again for your time and consideration in these 
matters, and I look forward to working with the committee on 
these and other issues.
    I yield back.
    [Mr. Peters' prepared statement follows:]
                                 <F-dash>
    Prepared Statement of Hon. Scott H. Peters, a Representative in 
                 Congress from the State of California
    Chairman DeFazio and Ranking Member Graves:
    Thank you for hosting ``Member Day'' for your colleagues like me 
who have important requests for the Transportation and Infrastructure 
Committee.
    I'm here to highlight a few problems that affect my district and 
the country as a whole, including ongoing sewage spills along the U.S.-
Mexico coastal border; disaster preparedness and resiliency; and issues 
of public transportation, density, and housing.
    First, we have the issue of cross border pollution. Since at least 
1944, the federal government has tried, and failed, to stop flows of 
treated and untreated sewage in the US from the Tijuana river in 
Mexico. It has not been for lack of trying. I want to thank the 
Committee for its past efforts in 2000, 2004, and a hearing in 2007 to 
address the problem. However, we are still dealing with the problem, 
now at unprecedented levels--over 143 million gallons of raw sewage was 
discharged in a matter of weeks in February of 2017. Mexico's sewer 
system infrastructure in Mexico cannot keep pace with Tijuana's fast-
growing population, and until it does, we will keep experiencing these 
spills.
    Just this week, I signed on to a letter with the San Diego 
delegation and Senator Harris and Feinstein, urging the IBWC, EPA, the 
Army, Secretary of State and Customs and Border Protection to 
coordinate their efforts to find a permanent solution that address the 
root causes of both immediate and long-term pollution issues along the 
border. The rupture of the Collector Poniente, in southeast Tijuana on 
December 10th 2018, is only the most recent example. At the time of the 
break, it was leaking roughly seven million gallons per day. Yet we 
don't know the current status of repairs. This is just one example of 
many urgent problems we must fix.
    But we must ensure that all relevant agencies are working together 
towards a comprehensive regional solution. Advances in water resource 
technology allow us to think about wastewater as a commodity; we can 
use it to generate renewable energy, fertilizers, and other valuable 
byproducts. As you know, BWIP is unique among federal funding programs 
because it's the only federal program that can fund projects on both 
sides of the border. Since the program began in 1997, it has provided 
hundreds of thousands of U.S. households along the border with adequate 
drinking water and wastewater infrastructure. BWIP was initially funded 
with $100 million per year, however it has been reduced over the last 
20 years to less than $10 million. We need to make substantial 
investments in projects along the US-Mexico border--investments 
commensurate with the seriousness of the problem.
    The San Diego delegation stands ready to work with you, and welcome 
your ideas and suggestions to finally eliminate the transboundary 
sewage pollution problem.
    A second pressing issue for my district and the country is natural 
disasters, particularly wildfires, as they have become more common as 
climate change wreaks havoc on the environment. I have introduced two 
bills under this Committee's jurisdiction to help communities prepare 
for future natural disasters.
    Earlier this year, I re-introduced the bipartisan ``Strengthening 
the Resiliency of Our Nation on the Ground Act'' or the STRONG Act, 
with Congresswoman Elise Stefanik.
    The STRONG Act would do this by establishing a central agency and 
information center to combine the expertise of local, state, and 
federal agencies in developing short- and long-term resiliency 
strategies for communities.
    We know that for every dollar invested in preparedness and 
resiliency, six dollars are saved in restoration following a disaster. 
This bill will give communities the tools to plan ahead and increase 
their resiliency, which will save lives and reduce costs in the long 
run.
    I also introduced the DISASTER Act with my colleague, Congressman 
Mark Meadows. This bipartisan bill would require the OMB to use data it 
already has to produce an annual report quantifying the disaster-
related assistance provided by the federal government each year.
    Currently, the government does not produce a single estimate of how 
much we spend on disaster-related assistance. This bill will make sure 
our constituents know how tax dollars are spent on disaster relief.
    Finally, I would like to stress the importance of investing in 
public transportation that prioritizes decongesting our roads, 
increases sustainability, and supports regional housing planning.
    I urge the Committee to continue to improve transit infrastructure 
to encourage more commuters to take public transportation and reduce 
vehicle miles traveled. Since the federal government can only support a 
limited number of projects, I would encourage prioritizing projects 
that will connect or improve service in densely populated areas to 
minimize greenhouse gas emissions.
    Along the same vein, the federal government needs to coordinate 
with local and state governments to ensure federal transit investments 
are met with a commitment to increase density and build housing along 
transit corridors. Large and small cities across the country struggle 
to build enough housing and keep rents affordable for families.
    Thank you for your time and consideration of these matters. I look 
forward to continuing to work with you on these and other issues.

    Mr. Larsen. Thank you, Mr. Peters.
    Does the committee have any questions?
    I just have one. You noted in your testimony on page 2 that 
you don't know yet the current status of repairs to the 
Collector Poniente. Do you anticipate getting an answer soon?
    Mr. Peters. You know, part of this, Mr. Larsen--thank you 
for the question--has to do with the communication, quality of 
communication among the two countries, Mexico and the United 
States. For 25 years we have had such good relationships with 
Mexico. And today we are concerned that some of the rhetoric 
coming out of the White House has interfered with that.
    In San Diego, we recognize that our border is an 
opportunity, not a threat. We want to maintain good 
relationships with Mexico. We are trying to keep the quality of 
information exchange high between the two countries. But I 
don't have a timeline for when we will get that back.
    Mr. Larsen. Yes.
    Mr. Peters. Thank you.
    Mr. Larsen. Thank you, thank you.
    Any other questions?
    Thank you, Mr. Peters.
    I now recognize Mr. Davis of Illinois for 5 minutes.

TESTIMONY OF HON. DANNY K. DAVIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Davis. Thank you, Mr. Chairman, Ranking Member, and 
members of the committee. I thank you for the opportunity to 
highlight my hopes for any transportation and infrastructure 
package.
    As the chair of the Subcommittee on Worker and Family 
Support within the Committee on Ways and Means I am 
particularly interested in ensuring that any Federal investment 
in transportation and infrastructure includes underrepresented 
and vulnerable workers. There are multiple communities of 
vulnerable workers who could benefit from inclusion of a 
priority within infrastructure work programs, including former 
foster youth, youth Job Corps, and Youth Build trainees, 
disconnected youth, noncustodial parents involved with child 
support, returning citizens, and workers in the SNAP Able-
Bodied Adults Without Dependents program.
    Aiding these vulnerable workers and connecting to 
infrastructure programs will help set them on a quality career 
path and increase their involvement with the labor force. For 
example, the Department of Transportation has had the Ladders 
of Opportunity Initiative to improve the apprenticeship and 
training opportunities for underrepresented or disadvantaged 
workers seeking careers in transportation, engineering, or 
construction.
    Perhaps the committee could prioritize this or other 
similar programs to include vulnerable workers in contracts or 
cooperative agreements so that they too can benefit from any 
Federal investment in infrastructure.
    In addition, I ask the committee's consideration for 
protecting funds to help low-income workers get to jobs. In my 
city of Chicago many low-income workers have trouble getting 
from the city to jobs in the suburban communities. There often 
are not buses to these jobs. Or, if there are buses, they can 
have long travel times and leave before a working parent can 
make use of them.
    I worked closely with United Parcel Service to set up a 
program to help Chicago residents get to Hodgkins, Illinois, 
about 30 miles away. These programs are a lifeline for my 
constituents so that they can access quality jobs. I am very 
interested in funds to provide transportation for low-income 
rural and urban workers getting to where the jobs are. I know 
that the Job Access and Reverse Commute program, or JARC, was 
designed to do just that. But these funds were folded into 
other broader programs that have likely decreased their 
dedication to help commuters.
    I hope that the committee will consider protecting some 
funds to help workers get to the jobs, perhaps by pulling JARC 
back out, or by establishing a floor or different approach to 
dedicate funds to these commuter assistance efforts that are 
flexible to meet workers' needs.
    Furthermore, as you all know, local areas have multiple 
infrastructure needs, including school construction. I know 
there is an annual State and local spending gap of $46 billion 
a year on school facilities as of December 2015. Chicago Public 
Schools reported $3.4 billion in total need, with $1.8 billion 
in critical need. I hope that the committee will consider a 
broad definition of infrastructure to accommodate school 
construction.
    And finally, we have this unique opportunity to invest and 
develop cleaner technologies through direct investment or using 
the tax code. I look forward to working with the committee to 
improve our infrastructure.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Mr. Danny K. Davis of Illinois 
follows:]

                                 <F-dash>
Prepared Statement of Hon. Danny K. Davis, a Representative in Congress 
                       from the State of Illinois
    Chairman DeFazio, Ranking Member Graves, and Members of the 
Committee, thank you for the opportunity to highlight my hopes for any 
transportation and infrastructure package.
    As the Chair of the Subcommittee on Worker and Family Support 
within the Committee on Ways and Means, I am particularly interested in 
ensuring that any federal investment in transportation and 
infrastructure includes underrepresented and vulnerable workers. There 
are multiple communities of vulnerable workers who could benefit from 
inclusion of a priority within infrastructure work programs, including: 
former foster youth; youth Job Corps and Youth Build trainees; 
disconnected youth; non-custodial parents involved with the child 
support enforcement system; returning citizens; and workers in the SNAP 
Able-Bodied Adults without Dependents program. Aiding these vulnerable 
workers in connecting to infrastructure programs will help set them on 
a quality career pathway and increase their involvement with the labor 
force. For example, the Department of Transportation has had the 
Ladders of Opportunity Initiative to improve the apprenticeships and 
training opportunities for underrepresented or disadvantaged workers 
seeking careers in transportation, engineering or construction. Perhaps 
the Committee could prioritize this or similar programs to include 
vulnerable workers in contracts or cooperative agreements so that they 
too can benefit from any federal investment in infrastructure.
    In addition, I ask the Committee's consideration for protecting 
funds to help low-income workers get to jobs. In the City of Chicago, 
many low-income workers have trouble getting from the City to jobs in 
the suburbs. There often are not buses to jobs that our 15 to 30 miles 
away. If there are buses, they can have long travel times and leave 
before a working parent can make use of them. I worked closely with UPS 
to set up a program to help Chicago residents get to Hodgkins, IL, 
about 30 miles away. These programs are a lifeline for my constituents 
so that they can access quality jobs, and I am very interested in funds 
to provide transportation for low-income rural and urban workers 
getting to where the jobs are. I know that the Job Access and Reverse 
Commute program--or JARC--was designed to do just that, but these funds 
were folded into other broader programs. I understand that GAO found 
that the vast majority of the study respondents indicated that the JARC 
activities had difficulty competing against the other transit needs. I 
hope that the Committee will consider protecting some funds to help 
workers get to the jobs, perhaps by pulling JARC back out or by 
establishing a floor or different approach to dedicate funds to these 
commuter assistance efforts that are flexible to meet workers' needs.
    Furthermore, as you all know, local areas have multiple 
infrastructure needs, including school construction. I know there is an 
annual state and local spending gap of $46 billion a year on school 
facilities. As of December 2015, Chicago Public Schools reported $3.4 
billion in total need, with $1.8 billion in critical needs. I know that 
my communities and the City of Chicago could greatly benefit from 
additional school infrastructure projects, and I hope that the 
Committee will consider a broader definition infrastructure to 
accommodate these multiple needs.
    Finally, we have this unique opportunity to invest and develop 
cleaner technologies through direct investment or using the tax code. 
In this new era of technological advances, the U.S. should be the world 
leader in electrification of infrastructure and expansion in urban 
areas, government building and also rural America and the greater 
farming community. New innovation equals new job creation. We have seen 
this from 2007 and 2009, when the Congress passed legislation to usher 
in new renewable industries, from solar, wind, battery development and 
electric vehicles. And yet today, we are seeing close to a million 
electric vehicles on the roads while we lack the charging 
infrastructure to drive battery electric vehicle from New York to 
California without range anxiety. In 2017, only 17% of our electric 
generation comes from renewable energy. We should encourage greater 
investment in long term storage battery capacity to produce a reliable 
smart grid. Mr. Chairman, I look forward to working with you and my 
colleagues on pushing these initiatives this Congress.

    Mr. Larsen. Thank you, Mr. Davis.
    Any questions for Mr. Davis?
    No questions. Thank you very much. The Chair recognizes Mr. 
Gottheimer for 5 minutes.

TESTIMONY OF HON. JOSH GOTTHEIMER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Gottheimer. Thank you, Mr. Chairman and Mr. Ranking 
Member, thank you so much. And to the members of the committee, 
I really appreciate you hosting this important hearing and for 
having us here today.
    I am here to discuss the most pressing infrastructure need 
in the country: the Gateway Project, which is the literal 
passage to nearly the entire Northeast regional economy.
    Currently, the North River Tunnel, which is more than a 
century old, is the only way in and out of Manhattan for the 
200,000 daily passengers that commute between New Jersey and 
New York City. This tunnel connects a region that makes up 20 
percent of America's GDP.
    But here is the problem--and I have seen this with my own 
eyes in the tunnel, and I am hopefully going to go back again 
Thursday night--the 110-year-old tunnels into New York City are 
literally crumbling. There is one track in and one track out. 
The chairman of Amtrak said himself that one of the tunnels 
would likely have to be shut down within the next 5 years. If 
one tunnel does shut down, America would lose $100 million 
every single day, according to the Northeast Corridor 
Commission. That is a significant impact on the national 
economy.
    That is why I introduced my bipartisan legislation with 
Representative Peter King from New York requiring the U.S. 
Department of Transportation to outline their plan for a 
doomsday contingency scenario if one of the tunnels under the 
Hudson has to shut down. I hope the committee will have a 
hearing on H.R. 1667, the Preventing Doomsday Act, so we can 
hear from the Department of Transportation on whether it even 
has a plan to minimize economic and national security impacts 
to the Northeast region by keeping the Gateway Project on 
track.
    How will people get in and out of New York City every day 
who come from my district of northern New Jersey? And how will 
they get home at night to see their families?
    As you can see from our bipartisan interstate cooperation 
on this issue, New York and New Jersey have a long historic 
relationship, working relationship, on all matters, especially 
those involving transportation and infrastructure. So it was 
quite my surprise when last month the New York State 
Legislature announced a budget deal that would include a new 
congestion tax targeting New Jersey commuters, many people in 
my district, who, by the way, already pay New York quite a bit 
of income tax for the time they work there.
    Under this new plan, when commuters go across the George 
Washington Bridge and drive into midtown Manhattan, they will 
be whacked, not just with bridge tolls, but now with an 
additional congestion tax when they drive south of 60th Street. 
That is absurd, double taxation at its finest.
    Even more galling, unlike the shared Port Authority 
resources from bridge tolls that help New York and New Jersey 
together, each nickel of the new congestion tax will go to New 
York, to their MTA, to help fix their subways. Nothing to 
Jersey, nothing for our shared cooperative relationship.
    That is why I introduced bipartisan legislation with 
Republican Chris Smith to encourage New York to reconsider 
their new outrageous congestion tax on New Jersey commuters. 
The Anti-Congestion Tax Act, or, as I like to also call it, the 
``Manhattan Moocher Prevention Act,'' takes two concrete 
actions.
    First, the anti-congestion tax will prohibit the Secretary 
of Transportation from awarding any new Capital Investment 
Grants to the MTA projects in New York until drivers from all 
three New Jersey crossings into Manhattan receive exemptions 
from this outrageous congestion tax.
    Second, the legislation will amend the Internal Revenue 
Code to offer drivers a Federal tax credit at the end of the 
year equal to the amount paid in congestion taxes entering 
Manhattan from any of the three New Jersey crossings. This will 
protect New Jersey drivers from double taxation and help make 
things more affordable.
    When we work together, New Jersey and New York are a tough 
combination to beat. But we need real concrete action to save 
our residents' hard-earned money. Today I respectfully ask the 
committee, the members of the Transportation and Infrastructure 
Committee, to do everything in your power to address these 
pressing issues, ensure that our economy stays on track and 
stops the congestion tax that is being proposed.
    Thank you so much for having me.
    [Mr. Gottheimer's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Josh Gottheimer, a Representative in 
                 Congress from the State of New Jersey
    Thank you, Chairman DeFazio, Ranking Member Graves, and members of 
the Committee, for hosting this important for hearing and for having me 
here today. I am here to discuss the most pressing infrastructure need 
in the country, Gateway, which is the literal passage to nearly the 
entire Northeast Regional economy.
    Currently, the North River Tunnel, which is more than a century 
old, is the only way in and out of Manhattan for the 200,000 daily 
passengers that commute between New Jersey and New York City. This 
tunnel connects a region that makes up 20% of America's GDP.
    But here's the problem: the 110-year-old tunnels into New York City 
are literally crumbling. There is one track in and one track out. The 
Chairman of Amtrak said himself that one of the tunnels would likely 
have to be shut down within the next 5 years.
    If the tunnels shut down, America would lose $100 million every 
day, according to the Northeast Corridor Commission. According to the 
Regional Plan Association, the national economy would lose $16 billion 
over a four-year span, equivalent to the loss of 33,000 jobs. If you 
are a New Jersey homeowner, a tunnel failure will cost our state $22 
billion in property values.
    If just one of the tubes in the tunnel goes down, we would 
immediately go from 24 trains an hour to six, grinding our busiest 
national center of commerce to a halt. This goes without saying: our 
trains are critical to New Jersey's economy, to our region's economy, 
and to the national economy.
    That's why I introduced my bipartisan legislation with 
Representative Peter King from New York requiring the US Department of 
Transportation to outline their plan for a ``Doomsday'' contingency 
scenario if one of the tunnels under the Hudson shuts down. I hope the 
Committee will have a hearing on H.R. 1667 so it can hear from the 
Department of Transportation on whether it even has a plan to minimize 
economic and national security impacts to the Northeast region by 
keeping the Gateway Project on track.
    Part-time fixes--scotch tape and band-aids--are not enough. It's 
time we consider seriously what will happen if we fail to fix them.
    I recently had a front-row seat to this problem when touring the 
North River Tunnels. I could see every crack and exposed wire. Every 
effect of Hurricane Sandy. And there were plenty.
    So, here's what I want to know from the DOT, which somehow 
downgraded this project to a moderate-to-low priority: What's their 
contingency plan when we have to shut one or both tunnels down? It's 
likely that the Gateway project won't be built by then, despite our 
pleading with the Administration to help get it under way. If the 
tunnels are shuttered, how will we deal with this blow to our 
region's--and America's--economy? How will people get to work and home?
    When 200,000 people move from trains to roads and planes--what will 
happen to the transit options which are already congested, overtaxed, 
and crumbling.
    The RPA anticipates 38,000 additional crashes, and--with increased 
smog and pollutants from cars parked on the bridges--100 additional 
deaths.
    This is a grim picture. America must avoid this Doomsday, and, here 
in the greatest country in the world, we all have a responsibility, and 
the ability, to do whatever we can, at all levels of government to fix 
this tunnel and our crumbling infrastructure. We can't afford delay a 
day longer.
    Today, I respectfully call on you, the Members of the 
Transportation and Infrastructure Committee, to do everything in your 
power to address this pressing issue, and ensure that our economy stays 
on track.

    Mr. Larsen. Thank you, Mr. Gottheimer.
    Are there any questions from the committee for Mr. 
Gottheimer?
    None. Thank you very much.
    Mr. Gottheimer. Thank you, sir.
    Mr. Larsen. I appreciate your testimony. Next--and just in 
order right now we have Representative Khanna, Representative 
Haaland, and Representative Cline, in that order.
    So the Chair recognizes Representative Khanna for 5 
minutes.

TESTIMONY OF HON. RO KHANNA, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Khanna. Thank you, Mr. Chairman. Thank you to the 
ranking member and members of the Transportation and 
Infrastructure Committee for the opportunity to appear before 
you.
    In 2017 the American Society of Civil Engineers gave our 
Nation's infrastructure a rank and grade of a D+. These poor 
rankings underscore, as all of you know, how infrastructure is 
woefully lacking. And it is a daily inconvenience for residents 
and citizens of my district in Silicon Valley, one of the 
places that is at the heart of our Nation's innovation.
    Transportation is about more than getting from one place to 
another. It is about job creation, economic growth, clean air, 
and clean water. Our Silicon Valley needs better transportation 
and infrastructure if we are going to continue the innovative 
work that we are doing.
    I support a bold, robust, and comprehensive infrastructure 
package along the lines discussed by the Speaker, the 
President, and Majority Leader Schumer yesterday, a $2 trillion 
level that will make America competitive.
    To put this in perspective, members of the committee, China 
has built almost 18,000-plus miles of high-speed rail. We have 
about 500 miles. China is putting nearly $30 billion in making 
sure that everyone in their country is connected to the high-
speed internet. We should, in our country, make sure that we 
are staying competitive and providing broadband across this 
country.
    Those of us in California know that we need sustained 
investments. I have a plan that I will offer for a $300 billion 
investment in high-speed rail that will connect the major 
cities in this country and have hubs to rural America that will 
make us competitive with the Chinese.
    There is no reason that America shouldn't lead when it 
comes to the next generation of technology. We are the only 
nation that has landed someone on the moon. We are the only 
nation that has put some vehicles on Mars. We should be the 
leader when it comes to the next generation of technologies.
    Here is how funding could also be spent in my district. We 
could establish a mass transit system on Highways 85, 101, and 
237 to go where the jobs are. We could have a rapid bus transit 
lane in municipalities, and invest in state-of-the-art buses, 
and more routes to provide options. We can expand BART to loop 
not just to San Jose and Santa Clara, but around the entire 
peninsula. We can have additional lanes at the intersection of 
Highways 680, 880, and 237, and Mission Boulevard, so that we 
aren't congested when people are going to work to Apple, 
Google, Tesla, or Facebook, or many of the other companies. We 
can continue expanding Amtrak's Capitol Corridor service from 
San Jose to get more people to skip the traffic and parking 
hassles, and we can build out a truly high-speed rail to 
connect our cities and our regions.
    Infrastructure, Mr. Chairman and Ranking Member, are not 
partisan issues. This is about making sure America wins the 
21st century. I will work with the committee in any way 
possible to support your work in making this critical 
investment.
    [Mr. Khanna's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Ro Khanna, a Representative in Congress from 
                        the State of California
    Chairman DeFazio, Ranking Member Graves, and members of the T&I 
Committee, thank you for the opportunity to appear before you.
    The United States was once among the world leaders in quality 
infrastructure. Now, we rank just 11th according to the World Economic 
Forum. In the 2017 report by the American Society of Civil Engineers, 
the overall assessment of our nation's infrastructure ranked the U.S. 
at a D+. These poor rankings underscore how our infrastructure is 
woefully lacking and a daily inconvenience to the citizens of Silicon 
Valley and other regions across our nation.
    I want to be clear that I am talking about infrastructure in its 
broadest sense--including not only transportation infrastructure but 
also funding for our energy grid, broadband and school buildings. In my 
remarks today, I will focus within the jurisdiction of this Committee, 
which goes well beyond just highways, bridges, and transit, to also 
include aviation, federal buildings, high speed rail, ports, heavy 
rail, and our water and sewer systems.
    Transportation is about more than getting from one place to 
another. It's job creation, economic growth, revitalizing 
neighborhoods; improving public health through cleaner air and water; 
making our transportation systems safer, redundant, and resilient; 
cutting commuter frustration in gridlock, and improving the quality of 
life for all Americans while positioning our country to compete and win 
in the 21st Century global economy.
    Unfortunately, we have not provided adequate funding of our 
transportation infrastructure to meet those goals. The Highway Trust 
Fund (HTF), which is used to fund the Highway and Mass Transit 
Accounts, derives roughly 85 to 90 percent of its revenue from the 
``gas tax.'' Without raising it in almost 30 years, these shortfalls 
have been filled by transfers from our Treasury's general fund while 
the Harbor Maintenance Trust Fund goes under-utilized.
    Federal investment must leverage state, local, and private 
investment, not simply replace these other sources of infrastructure 
funding as has been proposed.
                      National Infrastructure Plan
    I support a bold, robust, comprehensive, and bipartisan 
infrastructure package along the lines of the trillion dollar proposal 
proposed by both House and Senate Democrats last Congress. Such a 
package would make real investment in our infrastructure and create 
millions of good-paying jobs in every district and state. For example, 
under the Senate proposal, transportation infrastructure investment 
would include:
    <bullet>  $140 billion to ensure Highway Trust Fund solvency over 
the next decade;
    <bullet>  an additional $140 billion to repair our nation's roads 
and bridges;
    <bullet>  $115 billion to repair and improve public transportation;
    <bullet>  $50 billion to modernize and improve our rail 
infrastructure;
    <bullet>  $40 billion for a new Vital Infrastructure Program (VIP) 
to support new transportation infrastructure megaprojects which greatly 
improve transportation networks;
    <bullet>  $30 billion to promote innovative transportation;
    <bullet>  $40 billion to improve our airports and even address 
airplane noise, a large problem in the 17th Congressional District of 
California;
    <bullet>  $25 billion for resilient community development; and
    <bullet>  $20 billion in innovative financing tools.
    <bullet>  $10 billion for TIGER program expansion;

    Such a sustained and large investment would also allow us to 
provide:
    <bullet>  $115 billion to modernize the nation's drinking water and 
wastewater infrastructure systems, along the lines of the Water 
Affordability, Transparency, Equity, and Reliability (WATER) Act I co-
led with Rep. Lawrence (D-MI); and
    <bullet>  $30 billion for our ports and inland waterways.

    These costs are substantial but necessary for this transformation 
to make a difference in the lives of almost all Americans. How do we 
pay for this investment? There are a variety of responsible ways, 
including the following measures:
    <bullet>  Returning the top individual tax rate to 39.6%;
    <bullet>  Restoring the individual alternative minimum tax to 2017 
law;
    <bullet>  Restoring the estate and gift taxes primarily benefitting 
multi-millionaires and billionaires;
    <bullet>  Closing the carried interest loophole; and
    <bullet>  Raising the corporate tax rate to 25%.

    This should not be a partisan issue. Championing American 
competitiveness and success in the 21st Century should be a bipartisan 
issue. When people drive over a bridge, they don't think ``Is this a 
Republican bridge or is this a Democratic bridge?'' What they are 
expecting is ``I can drive over this waterway safely?''
    We must remember that we look at a bridge and see the steel beams, 
those steel beams are manufactured by people right here in the U.S.
              Benefits to the 17th Congressional District
    Those of us from California know we desperately need increased and 
sustained investments. The Bay Area population has grown twice as fast 
in the last five years than it did in the previous ten. Traffic will 
only get worse. Within 10-15 years, experts predict complete gridlock 
if we don't make substantial investments in mass transit.
    I continue to advocate for a multi-modal transportation system, 
including mass transit, new buses and more bus routes, ride-sharing 
services, and the expansion of the Bay Area Rapid Transit (BART) 
system. Here is how such additional funding could be spent in my 
district:
    1.  Establish a mass transit system on Highways 85, 101 and 237 to 
go to where the jobs are;
    2.  Build a rapid-bus transit lane in municipalities and invest in 
state-of-the-art buses and more routes to provide an option for 
everybody and not just those who work at companies with private bus 
service;
    3.  Use ride-sharing plans that make mass transit easily 
accessible;
    4.  Expand the BART loop to San Jose, Santa Clara, and as far as 
possible;
    5.  Add additional lanes at the intersection of Highway 880 and 
Highway 237 to make it easier for commuters headed to the peninsula.

    Do we want ours to be a legacy of congestion and deteriorating 
infrastructure? Or do we want it to be about increased productivity and 
additional good-paying jobs?
    These solutions, if executed well as part of a responsible national 
economic development policy, could make an immediate impact on our 
lives by expanding critical infrastructure, growing the local economy, 
and bringing good paying jobs to regions all across our nation.
    Thank you, Mr. Chairman and Ranking Member, for the opportunity to 
testify before you today. That concludes my statement and am happy to 
take any questions you might have.

    Mr. Larsen. Thank you, Representative Khanna, very much for 
your comments. Do you have any questions from the committee at 
this point?
    Hearing none, thank you very much.
    The Chair recognizes Representative Haaland from the great 
State of New Mexico.

    TESTIMONY OF HON. DEBRA A. HAALAND, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Ms. Haaland. Thank you very much, Chairman, Ranking Member, 
and members of the committee. Thank you for the opportunity to 
discuss infrastructure priorities for my district--the First 
Congressional District of New Mexico--the State of New Mexico, 
Indian country, and our Nation's public lands.
    My Albuquerque area district needs a Federal commitment to 
infrastructure to support local investment and economic 
development. We need improvements to Paseo Del Norte and Unser 
Boulevard, and to replace the Tijeras Arroyo Bridge to support 
our booming film industry, which brings thousands of jobs to my 
district.
    Improvements to roads around the Albuquerque International 
Sunport and runways and taxiways will support the Sunport 
Economic Development Investment District and connect it to 
local universities.
    Water infrastructure needs include stormwater management in 
Santa Fe Village, the Montano levee on the Rio Grande, and 
expanding the storage capacity of Abiquiu Reservoir.
    And New Mexicans depend on railroads through reliable long-
haul Amtrak service and the Rail Runner Express, which will 
benefit from Positive Train Control investments. I have a more 
detailed list that I will submit for the record.
    The State of New Mexico is concerned about the Highway 
Trust Fund solvency, and I urge you to find a sustainable long-
term solution.
    Also, the rapid increase in oil and gas drilling is 
creating dangerous conditions on roads throughout our State. I 
have a letter from our department of transportation cabinet 
secretary about several State priorities that I will submit for 
the record.
    As one of the first Native American women elected to 
Congress and cochair of the Native American Caucus, I urge you 
to address the infrastructure needs in Indian country to fully 
honor the Federal Government's unique Government-to-Government 
relationship with Tribes. The over $50 billion backlog of 
Indian country's infrastructure needs is more extreme than off-
reservation communities.
    For example, 40 percent of housing on reservations or 
Indian communities is deemed substandard, compared to only 6 
percent of housing nationwide. Less than half of Indian 
country's homes are connected to public sewer systems, and 16 
percent lack indoor plumbing.
    The infrastructure needs in Indian country also include 
$634 million in repairs at dilapidated BIE schools, $392 
million in deferred maintenance for a BIA road system that is 
still 60 percent dirt and unpaved earth, and the IHS sanitation 
facilities construction program, which requires an 80 percent 
increase to provide clean drinking water and waste disposal.
    And near my district the San Felipe Pueblo needs a bridge 
across the Rio Grande, and that is a safety issue. I would like 
to submit for the record the Tribal infrastructure report 
produced by the National Congress of American Indians, and an 
additional list of Indian country infrastructure needs.
    Infrastructure funding must also be coupled with financing 
mechanisms to establish and strengthen Tribal governmental 
infrastructure, private-sector partnerships, and outside 
investment in infrastructure on Tribal lands. Tribes lack 
parity with States and local governments when it comes to 
investing in infrastructure because they are unable to levy 
property taxes due to the trust status of their land. I urge 
you to address this fundamental injustice so that Native 
Americans no longer face the public health and safety hazards 
that are prevalent on Indian trust lands today.
    As chairwoman of the Subcommittee on National Parks, 
Forests, and Public Lands, I know these national treasures have 
significant infrastructure needs. I urge you to invest in 
roads, trails, marinas, and other infrastructure in our 
national forests and parks which support the outdoor recreation 
economy through a recreation title in an infrastructure 
package.
    Finally, I encourage you to address climate change through 
infrastructure investments. Native American communities and 
those of us in the Southwest face threatened water supplies, 
more severe wildfires, and changes to the natural resources we 
rely on. I urge you to work with committees across 
jurisdictions to ensure that an infrastructure plan reduces 
greenhouse gas emissions while creating jobs and economic 
opportunities.
    Thank you again for the opportunity to testify.
    [Ms. Haaland's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Debra A. Haaland, a Representative in 
                 Congress from the State of New Mexico
    Chairman DeFazio, Ranking Member Graves, and members of the 
Committee, thank you for the opportunity to discuss infrastructure 
priorities for my district, the State of New Mexico, Indian Country, 
and our nation's public lands.
                     District and State Priorities
    My Albuquerque-area district needs a federal commitment to 
infrastructure to support local investment in economic development. We 
need improvements to Paseo Del Norte and Unser Boulevard and to replace 
the Tijeras Arroyo Bridge to support our booming film industry. 
Improvements to roads around the Albuquerque International Sunport and 
runways and taxiways will support the Sunport Economic Development 
Investment District and connect it to local universities. Water 
infrastructure needs include storm water management in Santa Fe 
Village, the Montano Levee on the Rio Grande, and expanding the storage 
capacity of Abiquiu Reservoir. And New Mexicans depend on railroads, 
through reliable long-haul Amtrak service and the Rail Runner Express, 
which will benefit from Positive Train Control investments. I have a 
more detailed list to submit for the record.
    The State of New Mexico is concerned about the Highway Trust Fund's 
solvency, and I urge you to find a sustainable long-term solution. I 
have a letter from our Department of Transportation Cabinet Secretary 
about this and other priorities to submit for the record.
                       Indian Country Priorities
    As one of the first Native American women elected to Congress and 
Co-Chair of the Native American Caucus, I urge you to address the 
infrastructure needs in Indian Country to fully honor the federal 
government's unique government-to-government relationship with Tribes.
    The over $50 billion backlog of Indian Country's infrastructure 
needs is more extreme than off-reservation communities. For example, 40 
percent of housing on reservations is deemed ``substandard'' compared 
to only 6 percent of housing nationwide. Less than half of reservation 
homes are connected to public sewer systems and 16 percent lack indoor 
plumbing.
    The infrastructure needs in Indian Country also include: $634 
million in repairs at dilapidated BIE schools; $392 million in deferred 
maintenance for a BIA road system that is still 60 percent dirt and 
unpaved earth; and the IHS Sanitation Facilities Construction Program, 
which requires an 80 percent increase to provide clean drinking water 
and waste disposal. I would like to submit for the record the Tribal 
Infrastructure report produced by the National Congress of American 
Indians and an additional list of Indian Country infrastructure needs.
    Infrastructure funding must also be coupled with financing 
mechanisms to establish and strengthen tribal governmental 
infrastructure, private sector partnerships, and outside investment in 
infrastructure on tribal lands. Tribes lack parity with states and 
local governments when it comes to investing in infrastructure because 
they are unable to levy property taxes due to the trust status of 
reservation lands. I urge you to address this fundamental injustice so 
that Native Americans no longer face the public health and safety 
hazards that are prevalent on reservations today.
                    Public Lands and Climate Change
    As Chairwoman of the Subcommittee on National Parks, Forests, and 
Public Lands, I know these national treasures have significant 
infrastructure needs. I urge you to invest in roads, trails, marinas, 
and other infrastructure in our national forests and parks, which 
support the outdoor recreation economy, through a recreation title in 
an infrastructure package.
    Finally, I encourage you to address climate change through 
infrastructure investments. Native American communities and those of us 
in the Southwest face threatened water supplies, more severe wildfires, 
and changes to the natural resources we rely on. I urge you to work 
with committees across jurisdictions to ensure that an infrastructure 
plan reduces greenhouse gas emissions while creating jobs and economic 
opportunities.
    Thank you again for the opportunity to testify. I look forward to 
working with you on these important issues.

    Mr. Larsen. Thank you. For the record, and without 
objection, the committee will enter into the record the reports 
that you cited in your testimony.
    [The information follows:]
                                 <F-dash>
    Current Priority Infrastructure Projects in New Mexico's First 
   Congressional District, Submitted for the Record by Hon. Debra A. 
   Haaland, a Representative in Congress from the State of New Mexico
 Current Priority Infrastructure Projects in New Mexico's 1st District
City of Albuquerque ($150 million on listed projects )
    (1)  Paseo Del Norte and Unser Boulevard Improvements:  Design, 
construction and purchase of right of way for improvements to Paseo Del 
Norte from Calle Nortena to Rainbow Boulevard and Unser Boulevard from 
Kimmick Road to Paradise Road. $22 million
    (2)  UNM-CNM-Sunport Transit Corridor: A high frequency transit 
line on Yale, Avenida Cesar Chavez, and University Boulevards between 
the Albuquerque International Sunport and the intersection of 
University and Menaul. $65 million (Cost from 2014 study)
    (3)  Albuquerque International Airport and Double Eagle II Airport 
Infrastructure: Implement runway, taxiway and aircraft apron 
improvements at the Albuquerque International Airport and the Double 
Eagle Two Airport. $63 million (projects between 2019 and 2023)
    (4)  Santa Fe Village Stormwater Management: Construct a stormwater 
Interceptor channel in the boundary area of the Petroglyph National 
Monument and the Santa Fe Village Neighborhood.
    (5)  Rio Grande Levee Construction--Montano Levee: Construction of 
a levee by the City of Albuquerque, the County of Bernalillo and the 
Albuquerque Metropolitan Flood Control District on the west side of the 
Rio Grande. $7.2 million
    (6)  Tijeras Arroyo Bridge Replacement The bridge on Mesa Del Sol 
needs to be replaced to accommodate the increased commercial and 
residential traffic generated by increased film production and 
additional housing. The current bridge structure has been affected by 
heavy vehicle traffic and stormwater. $8 million
Bernalillo County ($79.7 million interchanges, roads and levees)
    (1)  Three interchanges that are key to the Sunport Economic 
Development Investment District: 
      (A)  I-25 and Bobby Foster--$22.52 million
      (B)  Los Picaros Road/University Boulevard $9.1 million
      (C)  I-25 and Mesa del Sol Boulevard--$38 million
         The three interchanges provide the connectivity between a 
developing regional business center and growing residential area 
located south of Albuquerque Sunport International Airport. The 
interchanges will improve the area's freight and logistics capacity and 
provide better connections to the established technology businesses.
    (2)  Sunport Boulevard Extension Bernalillo County requires $3 
million to complete funding for the Sunport Boulevard extension. This 
road construction is critical to the County's economic development 
program and mobility advantages it will provide between I-25, 
Albuquerque International Sunport, Broadway Boulevard and Rio Bravo 
Boulevard. The extension of Sunport Boulevard west completes the road 
way from the I-25 Exit 221 interchange west to Broadway Boulevard. The 
extension facilitates efficient and safe flow of traffic to and from 
Albuquerque International Sunport.
    (3)  Rio Grande Levee Construction--Montano Levee: (Listed under 
City of Albuquerque) Construction of a levee by the City of 
Albuquerque, the County of Bernalillo and the Albuquerque Metropolitan 
Flood Control District on the west side of the Rio Grande. $7.2 million
Mid-Region Council of Governments (MRCOG) ($30 million)
    (1)  Positive Train Control (PTC) New Mexico Rail Runner Express 
The Rail Runner received a $29 million grant from the Federal Railroad 
Administration (FRA) in August of 2018 to deploy positive train control 
features. The total cost of PTC for the nearly 100-mile corridor from 
Belen to Santa Fe is $60 million. MRCOG has a plan for raising the 
other funding ($30 million) but additional FRA grant funding would be 
of significant help.
Albuquerque Bernalillo County Water Utility Authority ($300 million 
        next 5 yrs)
        The current federal priorities are the expansion of Abiquiu 
Reservoir to store more San Juan-Chama and native Rio Grande water. 
There is no federal funding required to store the additional water at 
the reservoir. The Army Corps of Engineers will have to update the 
water management book for the Abiquiu Dam and Reservoir. The WUA expect 
expects to expand its water reuse/recycling program starting in late 
2019 or 2020. Federal funding for the project comes from the Bureau of 
Reclamation's WaterSMART program (Title XVI). In 2017, the WUA 
estimated it would invest nearly $300 million on infrastructure between 
2019 and 2023.

                                 <F-dash>
Letter of April 26, 2019, from Michael R. Sandoval, Cabinet Secretary, 
 New Mexico Department of Transportation, Submitted for the Record by 
 Hon. Debra A. Haaland, a Representative in Congress from the State of 
                               New Mexico
                                                    April 26, 2019.
Representative Deb Haaland,
1237 Longworth House Office Building,
Washington, DC.

    Dear Representative Haaland:
    The New Mexico Department of Transportation has been reviewing 
funding and policy priorities that we would like included in the next 
surface transportation legislation. It is our understanding that the 
House Transportation and Infrastructure Committee is beginning to craft 
the replacement of the Fixing America's Surface Transportation (FAST) 
Act and is requesting member input by April 30, 2019.
    New Mexico relies on the funding provided in the FAST Act in order 
to improve our transportation system; however, we are concerned with 
having a replacement for the FAST Act enacted prior to expiration of 
the FAST Act on September 30, 2020 as well as a long-term funding 
source for the Highway Trust Fund (HTF). We are concerned that if a 
long-term solution for the HTF is not identified, New Mexico may have 
to postpone projects due to a slow-down in reimbursements from the HTF. 
II is important that formula-based federal funding provided to states 
is increased and continues. It also important to enact a long-term, 
sustainable revenue solution for the Highway Trust fund.
    We have been working with the American Association of State Highway 
and Transportation Officials and we recommend the issues in the 
attachment be addressed using the suggested Legislative Text in the 
replacement of the FAST Act.
        Sincerely,
                                       Michael R. Sandoval,
        Cabinet Secretary, New Mexico Department of Transportation.
                               attachment
ISSUE 1: Stability of the Highway Trust Fund
    <bullet>  Current Federal Policy: N/A
    <bullet>  Issue: The Highway Trust Fund (HTF) does not currently 
allow for continuity and consistency in the Federal-Aid program, and 
solvency is the root of this issue. The HTF needs to become robust 
enough that it no longer struggles and threatens the transportation 
funding that so many states depend upon. This program needs to grow to 
continue providing transportation projects that result in great 
benefits to our nation. A larger and more stable HTF will provide for 
the transportation system that our citizens need.
      <bullet>  The challenges resulting from the continued threat of 
insolvency are many. In the short-term, continuing resolutions release 
obligation limitation piecemeal throughout the year, causing State DOTs 
to have difficulty: obligating projects in monthly lettings, leading to 
lettings with state funds and the build-up of large AC balances; and 
having enough state funds to let projects and make progress payments 
while awaiting obligation limitation to become available for federal 
reimbursement. In addition, having state funds unnecessarily tied up 
while waiting for federal funds delays the ability to begin more 
projects using state dollars. In the long term, long-range 
transportation planning is difficult when future funding levels in the 
HTF are unknown because the DOTs must guess at the level of general-
fund transfers that may be approved. Additionally, State DOTs may be 
unnecessarily conservative in funding projects to avoid over-obligating 
funds that might have to be covered by the state in the event future 
federal reimbursement levels drop.
      <bullet>  The HTF is funded through fees assessed to the users of 
the highway system, but the fee has not increased in over 25 years, and 
thus is not nearly large enough to cover current costs, let alone the 
massive reconstruction efforts needed across our country. With more 
robust and reliable funding, State DOTs would not have to set aside 
state funds to temporarily cover the federal share and could more 
strategically utilize available state and federal funding.
      <bullet>  AASHTO has provided Congress with numerous alternative 
methods to fund transportation at the federal level. Between 2013 and 
2018, 56 percent of the states passed legislation to increase their 
state gas taxes; we feel the time is right to take this action on a 
federal level to shore-up the HTF. It is in the nation's best interest 
to provide funding through the HTF to cover our surface transportation 
infrastructure needs and ensure that the program becomes a dependable 
source of revenue for the next decade.
    <bullet>  Recommendation: Stabilize the HTF. Fund the HTF through 
long-term solutions that provide funding at levels that meet the demand 
of the economic and mobility needs of our citizens. Such solutions 
would eliminate the need to use general fund monies to supplement the 
HTF.
ISSUE 2: Federal Funding Apportionment Should Not Be Tied to Target 
        Achievement
    <bullet>  Current Federal Policy: The Federal-aid Highway Program 
is a Federally-assisted state program that is rooted in Article 1, 
Section 8 of the United States Constitution and confirmed by 23 U.S.C 
145. Currently, approximately 90 percent of the Federal highway program 
funds are distributed to the states by formula. This approach of 
emphasizing formula funds has a decades-long track record of success in 
supporting long-term capital improvements across the United States. 
This approach enables funds to be distributed to states in a stable and 
predictable manner and allows the Federal program to efficiently 
deliver projects that have been identified and prioritized through the 
statewide and metropolitan planning processes.
    <bullet>  Issue: 23 CFR 490 implemented the new performance 
management statute so that state DOTs are required to establish 
performance targets for federal performance measures and report on how 
they have made progress on achieving those targets. Current performance 
management regulations--correctly--do not require making substantial 
progress towards meeting the federal performance management targets to 
federal funding apportionment.
    <bullet>  Recommendations: While New Mexico Department of 
Transportation supports the use of performance management to improve 
the transportation system, we remain opposed to using performance 
measures and the achievement of federal performance management targets 
as the basis for apportioning or allocating federal funds among the 
state DOTs. We recommend the federal performance management regulations 
be clarified to make clear that a principal purpose of the requirements 
is to provide an authoritative source to communicate with decision-
makers and the public on the condition of the national highway system 
as a whole and be part of a larger story to communicate the unmet 
transportation needs.
ISSUE 3: Emergency and Tow Vehicles
    <bullet>  Current Federal Policy: FAST Act, Sec. 1410, Interstate 
Weight Limits; 23 USC 127, Vehicle Weight Limitations--Interstate 
System, subsections (m) and (r)
    <bullet>  Issue: The FAST Act increased the maximum gross vehicle 
weight allowance of an emergency vehicle on the Interstate System (and 
routes that provide reasonable access to the Interstate System) to 
86,000 pounds and exempted heavy-duty tow and recovery vehicles 
(regardless of weight) from Federal Interstate weight limits. These 
vehicles can create greater load effects in certain bridges than the 
previous legal loads. If not appropriately rated and posted (i.e., 
restricted), bridge safety, serviceability, and durability may be 
compromised by these vehicles. States recognize the safety and mobility 
benefits of facilitating prompt movement of emergency and tow vehicles. 
However, these two new weight-limit exemptions are not subject to state 
permit authority and are considered ``unrestricted'' exceptions; thus, 
every state is now required to re-evaluate the load rating for all 
Interstate bridges (and those that provide access to the Interstate) 
and post restrictions on those bridges that cannot safely carry these 
new maximum unrestricted vehicle loads.
         An unintended consequence of the FAST Act is that hundreds--or 
potentially thousands--of bridges in each state now must be load-rated 
for the higher limits and ``posted'' with any applicable load 
restrictions. Furthermore, while the provision for emergency vehicles 
includes a stated maximum gross vehicle weight of 86,000 pounds and 
requirements as to axle limits, the heavy-duty tow and recovery vehicle 
provision does not state a weight limit and allows for the unspecified 
weight of a towing and towed vehicle combined, making it impossible for 
states to determine how to load rate the bridges and determine which 
ones must be posted. The unexpected additional costs associated with 
load-rating and posting thousands of bridges will cause financial 
burdens on state and local transportation agencies. Additionally, 
posting load restrictions on thousands of bridges on the nation's 
Interstate System (and reasonable access roads) will likely create 
confusion among drivers that could affect the safety of the traveling 
public and operators of said emergency and heavy-duty tow and recovery 
vehicles. If these vehicles were to be subject to state permit 
authority, states would be able to designate appropriate routes, 
reducing the number of posted bridges, reducing costs for state and 
local governments, protecting bridges, and continuing to facilitate 
prompt movement of emergency vehicles to the scenes of emergencies and 
prompt clearance of disabled vehicles from roads.
    <bullet>  Recommendation: Rescind the FAST Act provisions 
concerning emergency vehicles and heavy-duty tow vehicles (23 USC 
127(m) and (r)) and allow states to accommodate these vehicles as they 
have done successfully prior to the FAST Act, through real-time 
permitting or other methods. Another option is to modify 23 U.S.C. 127 
(m) and (r) to allow states to apply for FHWA authority to use a permit 
system for subsection (m) and subsection (r) vehicles over 80,000 lbs 
gross vehicle weight.
    <bullet>  Legislative Text:

Section 127 of title 23, United States Code is amended by repealing 
subsection (m)(1) and inserting:
``(1) IN GENERAL.--Notwithstanding any other provision of this section, 
a State may issue special permits to overweight covered heavy-duty tow 
and recovery vehicles through real-time permitting or similar methods 
if such permits are issued in accordance with State law.

Section 127 of title 23, United States Code is amended by repealing 
subsection (r) and inserting:
``(r) Emergency Vehicles
    (1)  In General.--Notwithstanding any other provision of this 
section, a State may issue special permits to overweight emergency 
vehicles through real-time permitting or similar methods if such 
permits are issued in accordance with State law.
    (2)  Emergency vehicle defined.--In this subsection, the term 
``emergency vehicle'' means a vehicle designed to be used under 
emergency conditions--
      (A)  to transport personnel and equipment; and
      (B)  to support the suppression of fires and mitigation of other 
hazardous situations.
ISSUE 4: Adoption of Public Rights-of-Way Accessibility Guidelines 
        (PROWAG)
    <bullet>  Current Federal Policy: 28 CFR 36, Nondiscrimination on 
the Basis of Disability by PublicAccommodations and in Commercial 
Facilities
    <bullet>  Issue: The Americans with Disabilities Act (ADA) strives 
to ensure access to the built environment for people with disabilities. 
To facilitate this access, the US Access Board is responsible for 
developing and updating design guidelines known as the ADA 
Accessibility Guidelines (ADAAG), which focus primarily on facilities 
on sites. These guidelines are currently used by the US Department of 
Justice and the US Department of Transportation in setting enforceable 
standards that the public must follow. However, sidewalks, street 
crossings, and other elements in the public right-of-way can pose 
different challenges to accessibility. While the current ADAAG 
addresses certain features common to public sidewalks, such as curb 
ramps, the Access Board determined more than a decade ago that 
additional guidance was necessary to address conditions and constraints 
unique to public rights-of-way.
         Thus, the Access Board has been collaboratively developing 
guidelines for facilities within the public rights-of-way--the Public 
Rights-of-Way Accessibility Guidelines (PROWAG)--which address 
transportation-specific issues, including access for blind pedestrians 
at street crossings, wheelchair access to on-street parking, and 
various constraints posed by space limitations, roadway design 
practices, slope, and terrain. Once these guidelines are adopted by the 
US Department of Justice, they will become enforceable standards under 
Title II of the ADA. Unfortunately, since the current ``officially 
adopted'' guidance is still the ADAAG, which is intended more for 
vertical than horizontal construction, there has been uncertainty in 
transportation agencies regarding what is or is not acceptable. In 
addition, several agencies are being required, as the result of 
litigation, to implement suboptimal accessibility solutions that were 
truly intended for buildings, not transportation facilities. Adoption 
of the PROWAG would provide transportation agencies with solid, 
researched solutions for accessibility within their transportation 
corridors.
    <bullet>  Recommendation: Official adoption of the Public Rights of 
Way Accessibility Guidelines (PROWAG) is needed to ensure consistency 
across the country in the application of accessibility features within 
the streetscape. Adoption would also ensure that the horizontal 
construction guidelines are used by transportation agencies instead of 
the vertical construction guidelines.
    <bullet>  Legislative Text:

Section __. ADOPTION OF PUBLIC RIGHTS OF WAY ACCESSIBILITY 
GUIDELINES.--
(a) The U.S. Department of Justice and U.S. Department of 
        Transportation shall adopt the Public Rights of Way 
        Accessibility Guidelines developed by the U.S. Access Board.
(b) The guidelines adopted under subsection (a) shall become 
        enforceable standards under Title II of the Americans with 
        Disabilities Act of 1990.

                                 <F-dash>
 Report entitled ``Tribal Infrastructure: Investing in Indian Country 
for a Stronger America,'' by the National Congress of American Indians, 
Submitted for the Record by Hon. Debra A. Haaland, a Representative in 
                 Congress from the State of New Mexico
    The 36-page report is retained in committee files and is available 
online at: http://www.ncai.org/NCAI-InfrastructureReport-FINAL.pdf.
                                 <F-dash>
 List of Indian Country Infrastructure Needs, Submitted for the Record 
 by Hon. Debra A. Haaland, a Representative in Congress from the State 
                             of New Mexico
 Indian Country Infrastructure: Address Longstanding Safety Needs and 
                       Unlock Economic Potential
    The lack of infrastructure on Indian lands poses a public health 
and safety hazard to Indian reservation residents and visitors. 
Infrastructure deficiencies and absences also comprise the largest and 
longest standing barrier to economic opportunity in Indian Country. 
Investing in infrastructure on Indian lands will unlock significant 
economic potential, spurring short-term job creation through 
construction-related jobs and fostering long-term economic development 
by opening doors for Native entrepreneurs. Without working 
infrastructure--tribal government economies will continue to lag behind 
the rest of America.
    Federal infrastructure revitalization proposals must address the 
significant unmet infrastructure needs of Indian Country. Direct 
federal investments in Indian Country infrastructure should be coupled 
with innovative financing mechanisms to establish and strengthen tribal 
government-private sector partnerships and outside investment on Indian 
lands.
Indian Country Infrastructure Needs
    Indian Country's infrastructure backlog exceeds $50 billion, 
covering the entire range of basic structures and systems from schools, 
housing, and public safety facilities, to roads and bridges, to 
telecommunications and water systems. The following items provide some 
additional details on the most prolific infrastructure deficiencies 
that threaten the health and safety of Indian Country residents and 
serve as barriers to economic development.
Indian School Construction
    BIE Schools. There are 183 BIE schools and dormitories that serve 
48,000 students from K through 12th grade. In 2016, the Office of the 
Inspector General at the DOI found that it would cost $430 million to 
address immediate facilities repairs in the BIE system. By February 
2018, the maintenance backlog in BIE schools had ballooned to over $634 
million. The estimated cost for new and replacement construction at BIE 
schools stands at $1.3 billion.
    See NIEA testimony before the House Interior Appropriations 
Subcommittee (Mar. 7, 2019): https://docs.house.gov/meetings/AP/AP06/
20190307/109014/HHRG-116-AP06-Wstate-CournoyerD-20190307.pdf
    Impact Aid School Construction. The original Impact Aid statute 
authorized school construction funding because the circumstances of 
school districts located on or near nontaxable Federal property--such 
as military installations, Indian Trust and Treaty lands, or national 
parks--make it difficult to generate revenue for capital projects, due 
to minimal property or assessed property value, limited bonding 
capacity, or lack of taxpayers. Federal funding for Impact Aid School 
Construction are narrowly targeted and inadequate.
    More than $4.2 billion in projects were identified as ``the most 
pressing construction need.'' The Impact Aid Construction line item has 
hovered under $18 million in annual appropriations over the last 
decade, alternating year-to-year between a formula for heavily impacted 
districts and an emergency grant program that supports only six-to-
eight grants per cycle.
    See NAFIS, ``Foundations for Learning: The Facilities Needs of 
Federally Impacted Schools'', August 2017: https://www.nafisdc.org/wp-
content/uploads/2017/07/2017-school-construction-report.pdf
Reservation Roads
    The National Tribal Transportation Facility Inventory consists of 
over 161,000 miles of public roads that cross multiple jurisdictions 
(tribal, federal, state and local), including: 31,500 of BIA roads; 
27,000 miles of tribal roads; and the remaining 101,500 miles of roads 
rely on maintenance from federal agencies and state and local 
governments.
    Unsafe reservation road conditions present an obvious inequity 
between Native and non-Native communities and a significant barrier to 
economic development and efforts to improve living conditions on 
reservations. For example, more than 60 percent of the Reservation 
roads system is unimproved earth and gravel, and approximately 24 
percent of tribal bridges are classified as deficient or dangerous. 
State governments spend $4,000-$5,000 per road mile on state road and 
highway maintenance. In contrast, road maintenance spending in Indian 
Country is less than $500 per road-mile.
    For FY18 the BIA distributed approximately $32.6 million in Tribal 
Priority Allocation (TPA) funding for the administration and the 
performance of the road maintenance program. The FY15 deferred 
maintenance for reservation roads was $289 million. The FY18 deferred 
maintenance for BIA roads was estimated at $392 million.
    See example FHA-USDOT testimony before SCIA (Oct. 15, 2010): 
https://www.indian.senate.gov/sites/default/files/upload/files/
JohnBaxtertestimony.pdf
Indian Housing
    Indian Country faces a decades old housing crisis. Over 90,000 
American Indian families are homeless or under-housed. More than 30% of 
American Indian families live in overcrowded housing--a rate six times 
the national average. In 2017, HUD reported that it would take 33,000 
new units to alleviate overcrowded housing on Indian lands and an 
additional 35,000 to replace existing housing units in grave condition. 
To meet the total need of approximately 68,000 housing units (new and 
replacement), with the average development cost of a three-bedroom 
home, the total cost is in excess of $33 billion.
    See HUD, ``Housing Needs of American Indians and Alaska Natives in 
Tribal Areas'', Executive Summary at xix, (Jan. 2017): https://
www.huduser.gov/portal/sites/default/files/pdf/HNAIHousingNeeds.pdf
Tribal Justice Facilities
    Violent crime rates in Indian country are more than 2.5 times the 
national rate and some reservations face more than 20 times the 
national rate of violence. The lack of working public safety and 
justice infrastructure handcuffs the under-funded and under-staffed 
tribal justice officials (law enforcement, tribal court officials, and 
corrections staff), preventing them from doing their job effectively. 
In some cases, tribal or BIA jails have not been upgraded since they 
were built many decades ago.
    With the exception of the 2009 American Recovery and Reinvestment 
Act, Congress appropriated approximately $38.2 million for maintenance/
repair and new and replacement construction of tribal justice 
facilities from FY09-FY14. As of FY14, the Department of Justice-Bureau 
of Justice Assistance ``no longer provides funding for the construction 
of new tribal justice facilities. . . .'' DOJ came to this 
determination without consulting impacted Indian tribes. At the same 
time, the Bureau of Indian Affairs continues to condemn tribal jails, 
police and courts facilities that no longer remain safe for occupancy.
    See example, DOJ IG, ``Audit of the OJP's Tribal Justice Systems 
Infrastructure Program, at 3 and fn8 (Jan. 2017): https://
oig.justice.gov/reports/2017/a1710.pdf
Indian Reservation Drinking Water and Waste Water Systems
    The IHS Sanitation Facilities Construction Program is critical to 
preventing disease and providing clean drinking water and waste 
disposal systems to Native communities. The Sanitation Deficiency 
System reports that the total sanitation facility need in Indian 
Country increased from $1.86 billion in 2005 to $3.39 billion in 2015--
an increase of more than 80%.
    See FY17 IHS Budget Justification at CJ-170. https://www.ihs.gov/
budgetformulation/includes/themes/responsive2017/documents/
FY2017CongressionalJustification.pdf
Indian Water Settlements--Water Delivery Systems
    In addition to safe drinking water, waste water, and irrigation and 
dam maintenance, Indian Country lags far behind in the most basic water 
infrastructure need of water delivery systems.
    Tribes have pursued quantification of their water rights through 
decades of litigation and negotiated settlements. The settlements 
involve negotiation between tribes, the federal government, states, 
water districts, and private water users, among others. Many 
stakeholders note that these negotiated agreements are more likely to 
allow tribes not only to quantify their water rights on paper but also 
to procure access to resources in the form of infrastructure and other 
related expenses.
    After being negotiated, approval and implementation of Indian water 
rights settlements require federal action. As of 2019, 36 Indian water 
rights settlements had been federally approved. After being 
congressionally authorized, federal projects associated with approved 
Indian water rights settlements are implemented by the Bureau of 
Reclamation or the Bureau of Indian Affairs (both within the Department 
of the Interior), pursuant to congressional directions.
    Tribal governments and Indian Country residents are forced to wait 
additional decades to implement these long fought settlements. The 
delivery of wet water (as opposed to paper water) to tribal governments 
that have enacted settlement agreements often requires significant 
financial resources and long-term federal funding investments, often in 
the form of new projects and infrastructure.
    In early 2019, DOI estimated that Reclamation had a backlog of $1.3 
billion in ``authorized but unfunded'' Indian water rights settlements. 
This is the estimated discretionary funding requirement to complete 
authorized settlements, after mandatory funds and other authorized 
funding streams are taking into account. Bureau of Reclamation, 
``FY2020 President's Budget Stakeholder's Briefing,'' March 19, 2019.
    Any federal infrastructure package must include funding to provide 
closure to these tribal governments in the form of funding for water 
delivery systems to ``make good'' on these dozens of Indian water 
rights settlements.
    See CRS, Indian Water Rights Settlements @ https://fas.org/sgp/crs/
misc/R44148.pdf
Indian Country's Digital Divide: The Least Connected People in America
    As of year-end 2016, 92.3 percent of the overall population had 
high-speed broadband access, up from 90 percent in 2015 and 81.2 
percent in 2012. However, over 24 million Americans still lack fixed 
terrestrial broadband at adequate speeds. The gap ``in rural and Tribal 
America remains notable: 30.7 percent of Americans in rural areas and 
35.4 percent of Americans in Tribal lands lack access to fixed 
terrestrial 25 Mbps/3 Mbps broadband, as compared to only 2.1 percent 
of Americans in urban areas.''
    See FCC Broadband Deployment Report at 22 (Feb. 2, 2018): https://
www.fcc.gov/document/fcc-releases-2018-broadband-deployment-report
    See also Politico, ``The Least Connected People in America'' (Feb. 
7, 2018): https://www.politico.com/agenda/story/2018/02/07/rural-
indian-reservations-broadband-access-000628
Tax Proposals: Investing in Reservation Infrastructure
    Federal infrastructure revitalization proposals must combine 
significant direct federal investments in Indian Country infrastructure 
with common sense tax reforms to aid infrastructure financing, help 
strengthen tribal government-private sector partnerships, and align 
federal tax policy with the longstanding policy supporting tribal 
government self-determination.
    The Tax Code provides a number of tools and incentives for the 
construction of state and local government infrastructure and economic 
development projects. Too often, these same programs are not available 
to Indian tribal governments.
    To address this glaring oversight, Congress should amend the Tax 
Code to provide tribal governments with direct access to the Low Income 
Housing Tax Credit and New Markets Tax Credit programs, ease 
regulations to build affordable Native veterans' housing on Indian 
lands (See Tribal HUD-VASH program), ensure that Build America Bonds 
and similar programs and proposals include direct investments in Indian 
Country, and clarify that tribal governments can issue tax-exempt and 
private equity / activity bonds for on-reservation projects on par with 
state and local governments.
    Direct access to these and other federal tax incentive programs 
will spur public-private partnerships to help rebuild Indian Country 
infrastructure, small business development, and help address 
longstanding housing needs on Indian lands.
    The LIHTC program is a prime example of a federal-investment 
program that is successfully funding the infrastructure needs of state 
and local governments, but failing to address the significant unmet 
needs on Indian lands.
    Congress enacted the LIHTC Program in 1986 to provide the private 
market with greater incentives to invest in affordable rental housing. 
The LIHTC gives states, U.S. possessions, and several cities the 
authority to competitively issue tax credits to developers who 
construct, rehabilitate, or acquire rental housing for lower-income 
households. State Housing Finance Agencies (HFAs) issue tax credits to 
developers based on the HFA's IRS-approved Qualified Allocation Plan 
(QAP), which outlines a state's affordable housing priorities and 
ranking and selection process for projects.
    Originally, each state was granted a tax-credit allocation of $1.25 
per capita. The allocation has been adjusted to inflation. The housing 
credit ceiling for each state for calendar year 2015 was the greater of 
$2.30 multiplied by the state's population or $2,680,000. In 2014, the 
annual expense credits for the LIHTC program was $6.7 billion, making 
the program one of the largest corporate tax programs administered by 
the federal government.
    A state's population for any calendar year is determined by 
reference to the most recent census estimate (whether final or 
provisional) released by the Bureau of the Census before the beginning 
of the calendar year for which the housing credit ceiling is set.
    The IRS and state HFAs administer the LIHTC. All 50 states, the 
District of Columbia, Puerto Rico, American Samoa, Guam, the Northern 
Mariana Islands, and the U.S. Virgin Islands have HFAs that receive 
LIHTC allocations. Indian tribal governments are the only 
constitutionally recognized sovereign to not receive a direct LIHTC 
allocation.

    Mr. Larsen. And are there any questions for Representative 
Haaland?
    All right. Thank you very much, Representative.
    Ms. Haaland. Thank you.
    Mr. Larsen. Next will be Representative Cline, then Welch, 
then Jayapal, in that order.
    Representative Cline, you are recognized for 5 minutes.

TESTIMONY OF HON. BEN CLINE, A REPRESENTATIVE IN CONGRESS FROM 
                  THE COMMONWEALTH OF VIRGINIA

    Mr. Cline. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify today as this committee looks at ways to 
repair our Nation's crumbling infrastructure. I represent a 
district in the Commonwealth of Virginia that is in dire need 
of resources to modernize its aging infrastructure and relieve 
the congestion bottlenecks that afflict our highways.
    Most notable for the region that I represent is Interstate 
81, a road that spans six States with over 300 miles of it in 
Virginia, and stretches the entirety of my district, from Front 
Royal in the north to Roanoke in the south. It truly is the 
economic backbone of the Sixth Congressional District.
    Thanks to America's strong economy, a growing number of 
people and businesses are utilizing our roadways every day. 
This includes not only folks on their way to work, but also 
trucks transporting goods through Virginia to the west, north, 
and south. This has been especially true since NAFTA was passed 
in 1993. As a regular driver on I-81 myself, I share my 
constituents' frustrations regarding constant delays and 
backups on I-81 that have plagued the region for years.
    I-81 is no longer a road that passes through simply scenic 
farmland and rural communities at the foot of the Blue Ridge 
Mountains. It now stretches along vibrant cities and growing 
towns filled with booming agri-business, technology companies, 
manufacturers, tourist destinations, and much more. While these 
strong local economies are a sign that I-81 is bringing jobs 
and prosperity to our region, the aging road has not kept up 
with the demands of users since it was first constructed over a 
half century ago.
    In 2018 Virginia released the I-81 Corridor Improvement 
Plan, which revealed what daily users know all too well: I-81 
needs to be improved to meet growing demands. It is clear that 
the entire Virginia section of I-81 needs to be widened to 
three lanes, along with interchange improvements to help with 
traffic flows.
    Furthermore, while I believe that the States are best 
positioned to decide which projects should be allocated limited 
resources to repair and restore our roadways, we must ensure 
that our Federal interstate highways get the Federal funding 
that is necessary to support interstate commerce and economic 
growth.
    Each year there are nearly 2,000 crashes on I-81, with over 
25 percent involving heavy trucks, and over 45 major crashes a 
year causing delays greater than 4 hours. Current conditions 
are not only a frustration, but a grave public safety concern. 
People are dying on this road, and the failure to keep 
America's infrastructure up to par is costing lives.
    We must act to get America's roads moving again with public 
safety at the forefront of our agenda. The I-81 Improvement 
Plan also highlighted that in the years to come travel will 
continue to increase and road conditions will degrade further.
    Moreover, by 2040 it is expected that there will be nearly 
20 million truck trips moving three-quarters of 1 trillion 
dollars' worth of goods each year along the I-81 corridor 
alone. This shows just how vital repairing our roadways is to 
the continued economic success of our Nation: if people are 
unable to depend on our roadways to get to work and to 
transport goods, both our economy and our Nation as a whole 
will suffer.
    While Virginia has made significant efforts to fund 
improvements during this recent General Assembly session, 
additional options to direct Federal resources toward I-81 
should be on the table. Failure to act is not an option, and I 
stand ready to work with my colleagues to advance solutions to 
repair and rebuild our infrastructure to ensure America's next 
century is its greatest yet.
    Thank you again for the opportunity to appear before you 
today, and I look forward to working with this committee as it 
moves forward with legislation.
    [Mr. Cline's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Ben Cline, a Representative in Congress from 
                      the Commonwealth of Virginia
    Chairman DeFazio and Ranking Member Graves, thank you for the 
opportunity to testify today as this committee looks at ways to repair 
our nation's crumbling infrastructure. I represent a district in the 
Commonwealth of Virginia that is in dire need of resources to modernize 
its aging infrastructure and relieve the congestion bottlenecks that 
afflict our highways. Most notable for my region is Interstate 81--a 
road that spans six states, with over 300 miles of it in Virginia, and 
stretches the entirety of my district from Front Royal in the North to 
Roanoke in the South.
    Thanks to America's strong economy, a growing number of people and 
businesses are utilizing our roadways every day. This includes not only 
folks on their way to work, but also trucks transporting goods through 
Virginia to the west, north, and south. This has been especially true 
since NAFTA was passed in 1993. As a regular driver on I-81 myself, I 
share my constituents' frustrations regarding constant delays and 
backups on I-81 that have plagued the region for years.
    I-81 is no longer a road that passes through only scenic farmland 
and rural communities at the foot of the Blue Ridge mountains. It now 
stretches along vibrant cities and small towns filled with booming 
agribusinesses, technology companies, manufacturers, tourist 
destinations, and much more. While these strong local economies are a 
sign that I-81 is bringing jobs and prosperity to our region, the aging 
road has not kept up with the demands of users since it was first 
constructed over half a century ago.
    In 2018, Virginia released the I-81 Corridor Improvement Plan, 
which revealed what daily users know all too well. I-81 needs to be 
improved to meet growing demands. It is clear to me that the entire 
Virginia section of I-81 needs to be widened to three lanes along with 
interchange improvements to help with traffic flows. Furthermore, while 
I believe that the states are best positioned to allocate resources for 
projects to repair and restore our roadways, we must ensure that they 
get the federal funding that is appropriate for these Federal 
Interstate highways.
    Each year there are nearly 2,000 crashes on I-81, with over 25% 
involving heavy trucks, and over 45 major crashes a year causing delays 
greater than four hours. Current conditions are not only a frustration, 
but a grave public safety concern. People are dying on this road and 
the failure to keep America's infrastructure up to par is costing 
lives. We must act to get America's roads moving again with public 
safety at the forefront of our agenda.
    The I-81 improvement plan also highlighted that in the years to 
come travel will continue to increase and road conditions will degrade 
further. Moreover, by 2040 it is expected that there will be nearly 20 
million truck trips moving three quarters of a trillion dollars' worth 
of goods each year along the I-81 corridor alone. This shows just how 
vital repairing our roadways is to the continued economic success of 
our nation. If people are unable to depend on our roadways to get to 
work and to transport goods, both our economy and our Nation as a whole 
will suffer.
    While Virginia has made significant efforts to fund improvements, 
additional options to direct federal resources toward I-81 should be on 
the table. Failure to act is not an option, and I stand ready to work 
with my colleagues to advance solutions to repair and rebuild our 
infrastructure to ensure America's next century is its greatest yet.
    Thank you again for the opportunity to be here today, and I look 
forward to working with this committee as it moves forward with 
legislation.

    Mr. Larsen. Thank you, Representative Cline.
    Any questions from the committee?
    None? Well, thank you very much. Next the Chair will 
recognize Representative Welch from Vermont.

  TESTIMONY OF HON. PETER WELCH, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VERMONT

    Mr. Welch. Mr. Chairman, first of all, thank you very much 
for this. It is a disgrace, what has happened to our 
infrastructure in this country. And it is going to be up to 
this Congress to finally address it. It is a mess, you know. 
Our roads and bridges are crumbling. Public transit rail 
programs remain underfunded, our water infrastructure is 
antiquated, and potholes don't fix themselves. We are going to 
have to have a sustainable funding source, and I will support 
that.
    You know, we have got the American Society of Civil 
Engineers giving Vermont a C in infrastructure, and that makes 
us better than the grade it gives to our whole country, which 
is D+. There is no excuse for that: 299 bridges in Vermont are 
structurally deficient; 29 percent of our roads are in poor or 
very poor condition.
    And Vermont, like other small and rural States, relies 
heavily on Federal transportation funding. It is about 50 
percent of our budget. We have made progress, as many States 
have, by investing, going to their taxpayers, but we can't do 
it without a Federal transportation and infrastructure policy.
    I had a chance to meet with our local officials, mayors in 
the largest cities in Vermont, with the Vermont Legislature, 
and the transportation committees, and with local officials, 
and I want to outline what it is they conveyed to me were their 
priorities.
    Number one, identify a stable and reliable funding source 
and maintain current funding ratios among the States. Otherwise 
it is going to be a Band-Aid solution. Recently we were passing 
transportation bills on a 3-month basis. You can't plan a 
bridge, let alone build a bridge, in 3 months. And we have got 
to bite the bullet on funding. I will be supportive of any 
practical approach that raises the revenue so that we can meet 
our obligations to our States and our communities.
    Number two, fund discretionary grant programs. There is an 
enormous amount of leadership in local communities, where there 
is a huge investment in trying to get it right so they can 
build a transportation system and an infrastructure system that 
helps their local communities. That drives down decisionmaking 
to the local level. Let's continue that.
    Next, let's invest in water infrastructure. We have water 
systems that go back to the Civil War in Rutland, Vermont, and 
this is a situation that exists throughout our communities in 
Vermont and around the country. And local property taxpayers 
aren't going to be able to do that on their own.
    We need airport improvement. Vermont has 10 State-owned 
airports and they provide a vital connector to rural 
communities. We want full funding of the Airport Improvement 
Program. That will help get us the money that we need for major 
repairs and improvements.
    We want to increase rail funding for bridge and track 
rehabilitation. You know, we have legacy rail lines and the 
tracks just are there, but they are not in good enough shape to 
take enormous advantage of that infrastructure that we once 
were very proud of and now is withering. So we want funding for 
programs like the consolidated rail infrastructure and safety 
improvement bill that provides flexible funding necessary for 
us in Vermont to meet our needs.
    Next, invest in alternative sources of transportation. 
Public transit and other alternative forms of transportation 
are very important in places like Vermont. We would benefit 
significantly from an increase in the rural formula operating 
funds. We have received $4 million annually from the program, 
which is three times less than what we need to fully fund our 
obligations.
    And finally, let's prioritize climate change resiliency. We 
don't have to argue about climate change. We all see what has 
happened in our own communities. And we all know, when we talk 
to local officials, we have to have more resilient systems, and 
that has to be organically ingrained in the legislation that 
will come out of this committee.
    I want to thank my colleagues. You are the tip of the spear 
for us in Congress. But you have support from Republicans and 
Democrats to do something bold and big, and we know our Nation 
needs it.
    [Mr. Welch's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Peter Welch, a Representative in Congress 
                       from the State of Vermont
    Chairman DeFazio and Ranking Member Graves,
    America's roads and bridges are crumbling, public transit and rail 
programs remain underfunded, and our water infrastructure is 
antiquated. It is vital that Congress enact a robust and fully funded 
infrastructure investment package. As your Committee begins the 
difficult task of writing this bill, I seek your support for inclusion 
of the following Vermont priorities.
 Identify a Stable and Reliable Funding Source; Maintain Current State 
                             Funding Ratio
    Like all rural states, Vermont relies heavily on federal 
transportation funding which makes up half of our transportation 
budget. Safe infrastructure requires a stable and reliable funding 
source. While Vermont has made progress investing in our 
infrastructure, that progress is at risk due to a shortfall in federal 
funding that has placed a heavy burden on state and local taxpayers to 
fund essential infrastructure improvements. Municipal governments are 
under significant financial pressure to maintain their highways and 
bridges. State funding for Vermont highway aid programs is 
insufficient. I pledge to work with you to identify and pass a 
sustainable federal revenue source that will ensure essential Vermont 
infrastructure projects are completed. I also urge you to maintain the 
existing apportionment formulae for states that recognizes the unique 
challenges in rural communities, like Vermont.
                   Fund Discretionary Grant Programs
    Federal discretionary grant programs fund critical local, regional, 
and national infrastructure projects. These programs directly address 
critical transportation needs and encourage states to compete to 
develop improved transportation systems. The Surface Transportation 
Block Grant Program is the most flexible of all the federal highway 
funding programs and allows Vermont to undertake any project necessary 
on the federal aid highway system. Increasing funding to this and other 
discretionary programs will allow Vermont to take on more highway, 
bridge, bike and pedestrian projects, as well as replace more transit 
buses.
                     Invest in Water Infrastructure
    Aging water infrastructure systems and related repairs have placed 
a heavy financial burden on towns and cities across Vermont. Local 
governments are ill-equipped to take on stormwater, wastewater, and 
drinking water upgrades necessary to ensure our water is safe to drink, 
the environment is protected, and communities are safeguarded from 
catastrophic flooding. In recent years, our cities and towns have been 
overwhelmed with water main breaks and sewage overflows into rivers and 
lakes. The cost to maintain, replace, and upgrade this infrastructure 
has fallen to water users who have experienced a sharp rise in 
unaffordable rates. Flexible and sufficient federal funding for water 
infrastructure is essential.
                           Invest in Airports
    Vermont must invest in infrastructure at our ten state-owned 
airports that serve as a vital connector in our rural communities. 
Nearly $50 million is needed to reconstruct and extend runways, repair 
taxiways, lights and beacons, obstructions, terminal buildings, and 
improve firefighting equipment. Increased funding for the Airport 
Improvement Program, would assist rural states like Vermont in 
maintaining our vital small airports.
           Invest in Railroad Bridge and Track Rehabilitation
    Vermont has nearly 305 miles of state-owned rail that is plagued 
with poor track conditions and bridges, causing significant delays that 
hamper freight operations. Rail is the only transportation mode that 
does not have dedicated federal funding. As a result, states rely 
almost exclusively on competitive grants that too often disadvantage 
rural states. The Consolidated Rail Infrastructure and Safety 
Improvements (CRISI) program is the most flexible program, allowing 
funds to be used for both freight improvements and intercity passenger 
rail. Increased funding for CRISI would help Vermont to rehabilitate 
our railroad tracks and bridges.
            Invest in Alternative Sources of Transportation
    Alternative sources of transportation are important in rural states 
like Vermont. Our public transit providers deliver approximately 5 
million trips annually, most in rural areas. While use of Vermont's 
transit systems has increased significantly in recent years, operating 
funds have not. Vermont receives approximately $4 million annually in 
Rural Formula Operating funds, three times less than what is needed to 
fully-fund the transit program. Increased funding to the Section 5311 
Transit Program would allow Vermont to replace more buses and provide 
operating funds for more bus routes. Vermont has also prioritized 
funding for bicycle and pedestrian projects to ensure safe and 
convenient transportation alternatives, including bike paths, bike 
lanes, and sidewalks. Last year, we benefited from $300,000 in federal 
funding for these projects through the Transportation Alternatives 
Program which must be fully funded and administered consistent with its 
intended purpose.
                  Prioritize Climate Change Resiliency
    An increase in harsh winters and severe storms is a major challenge 
for Vermont's cities and towns. Our state is still recovering from 
Tropical Storm Irene which devastated our transportation infrastructure 
in 2011. It is essential that your bill contemplate the impact of an 
increase in natural disasters attributable to climate change. Vermont's 
state highway system needs additional funding for repairs due to 
increasingly harsh winter conditions as well as for the deterioration 
of aging bridges which has accelerated due to more severe winters. 
Federal funding must be provided to help ensure that our infrastructure 
is resilient to withstand increasingly powerful weather events.
    I look forward to working with you to include Vermont's priorities 
in your bill and to assist you in any way I can to ensure its 
expeditious enactment.

    Mr. Welch. Mr. Chairman, with your permission I would like 
to introduce into the record a letter that I wrote to your 
committee, and make it part of the record.
    Thank you very much for all that you have done to help us.
    Mr. Allred [presiding]. Without objection, and thank you.
    [The information follows:]

                                 <F-dash>
Letter of May 1, 2019, from Hon. Peter Welch, Submitted for the Record 
  by Hon. Peter Welch, a Representative in Congress from the State of 
                                Vermont
                                                       May 1, 2019.
The Honorable Peter DeFazio,
Chairman,
Committee on Transportation and Infrastructure, 2165 Rayburn House 
        Office Building, Washington, DC.
The Honorable Sam Graves,
Ranking Member,
Committee on Transportation and Infrastructure, 2164 Rayburn House 
        Office Building, Washington, DC.

    Dear Chairman DeFazio and Ranking Member Sam Graves,

    America's roads and bridges are crumbling, public transit and rail 
programs remain underfunded, and our water infrastructure is 
antiquated. It is vital that Congress enact a robust and fully funded 
infrastructure investment package. As your Committee begins the 
difficult task of writing this bill, I seek your support for inclusion 
of the following Vermont priorities.
 Identify a Stable and Reliable Funding Source; Maintain Current State 
                             Funding Ratio
    State funding for Vermont transportation programs is insufficient. 
Vermont relies heavily on federal transportation funding which makes up 
half of our transportation budget. While Vermont has made progress 
investing in our infrastructure, those gains are at risk due to a 
shortfall in federal funding that has placed a heavy burden on state 
and local taxpayers to fund essential infrastructure improvements. Long 
overdue investments in infrastructure require a stable and reliable 
federal funding source.
    Rural municipal governments are under significant financial 
pressure to maintain their highways and bridges. It is essential that 
funding be included in the bill for rural municipal transportation 
networks. To the maximum extent possible, bureaucratic requirements 
that too often prevent cities and towns from taking advantage of 
federal transportation funds should be minimized.
    Finally, it is essential that existing apportionment formulae that 
recognize the unique challenges in rural states be maintained.
                   Fund Discretionary Grant Programs
    Federal discretionary grant programs fund critical local, regional, 
and national infrastructure projects. These programs directly address 
critical transportation needs and encourage states to compete to 
develop improved transportation systems. The Surface Transportation 
Block Grant Program is the most flexible of all the federal highway 
funding programs and allows Vermont to undertake any project necessary 
on the federal aid highway system. Increasing funding to this and other 
discretionary programs will allow Vermont to take on more highway, 
bridge, bike and pedestrian projects, as well as replace more transit 
buses.
                     Invest in Water Infrastructure
    Aging water infrastructure systems and related repairs have placed 
a heavy financial burden on towns and cities across Vermont. Local 
governments are ill-equipped to take on stormwater, wastewater, and 
drinking water upgrades necessary to ensure our water is safe to drink, 
the environment is protected, and communities are safeguarded from 
catastrophic flooding. In recent years, our cities and towns have been 
overwhelmed with water main breaks and sewage overflows into rivers and 
lakes. The cost to maintain, replace, and upgrade this infrastructure 
has fallen to water users who have experienced a sharp rise in 
unaffordable rates. Flexible and sufficient federal funding for water 
infrastructure is essential.
                           Invest in Airports
    Vermont must invest in infrastructure at our ten state-owned 
airports that serve as a vital connector in our rural communities. 
Nearly $50 million is needed to reconstruct and extend runways, repair 
taxiways, lights and beacons, obstructions, terminal buildings, and 
improve firefighting equipment. Increased funding for the Airport 
Improvement Program would assist rural states like Vermont in 
maintaining our vital small airports.
           Invest in Railroad Bridge and Track Rehabilitation
    Vermont has nearly 305 miles of state-owned rail that is plagued 
with poor track conditions and bridges, causing significant delays that 
hamper freight operations. Rail is the only transportation mode that 
does not have dedicated federal funding. As a result, states rely 
almost exclusively on competitive grants that too often disadvantage 
rural states. The Consolidated Rail Infrastructure and Safety 
Improvements (CRISI) program is the most flexible program, allowing 
funds to be used for both freight improvements and intercity passenger 
rail. Increased funding for CRISI would help Vermont to rehabilitate 
our railroad tracks and bridges.
            Invest in Alternative Sources of Transportation
    Alternative sources of transportation are important in rural states 
like Vermont. Our public transit providers deliver approximately 5 
million trips annually, mostly in rural areas. While use of Vermont's 
transit systems has increased significantly in recent years, operating 
funds have not. Vermont receives approximately $4 million annually in 
Rural Formula Operating funds, three times less than what is needed to 
fully-fund the transit program. Increased funding to the Section 5311 
Transit Program would allow Vermont to replace more buses and provide 
operating funds for more bus routes. Vermont has also prioritized 
funding for bicycle and pedestrian projects to ensure safe and 
convenient transportation alternatives, including bike paths, bike 
lanes, and sidewalks. Last year, we benefited from $300,000 in federal 
funding for these projects through the Transportation Alternatives 
Program which must be fully funded and administered consistent with its 
intended purpose.
                  Prioritize Climate Change Resiliency
    An increase in harsh winters and severe storms is a major challenge 
for Vermont's cities and towns. Our state is still recovering from 
Tropical Storm Irene which devastated our transportation infrastructure 
in 2011. It is essential that your bill contemplate the impact of an 
increase in natural disasters attributable to climate change. Vermont's 
state highway system needs additional funding for repairs due to 
increasingly harsh winter conditions as well as for the deterioration 
of aging bridges which has accelerated due to more severe winters. 
Federal funding must be provided to help ensure that our infrastructure 
is resilient to withstand increasingly powerful weather events.
    I look forward to working with you to include Vermont's priorities 
in your bill and stand ready to assist you in any way I can to ensure 
its expeditious enactment. I pledge to work with you to identify and 
pass a sustainable federal revenue source that will ensure essential 
infrastructure projects in Vermont and across the country are 
completed.
        Sincerely,
                                               Peter Welch,
                                                Member of Congress.

    Mr. Allred. Do any members of the committee wish to ask any 
questions?
    Thank you, sir.
    I would now like to recognize our next witness, the 
gentlewoman from the great State of Washington, Representative 
Jayapal, for 5 minutes.

TESTIMONY OF HON. PRAMILA JAYAPAL, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Ms. Jayapal. Thank you, Mr. Chairman. Thank you, Ranking 
Member. I appreciate the opportunity to be before you and share 
how an investment in infrastructure will benefit the people and 
economy of our country in the context of my district.
    Washington's Seventh Congressional District is growing very 
rapidly. We are booming with innovation, people, and industry, 
which is wonderful. But the downside of that success is that 
our region must address increasing traffic, the decreasing 
affordability of housing, and the growing effects of climate 
change. In my district residents have several times voted to 
tax themselves to create a regional mass transit system that is 
helping to ameliorate traffic, and allowing working people to 
live farther afield where housing is more affordable.
    This is my hope for the committee, that the Federal 
Government match that commitment to mass rapid transit systems 
for our rapidly growing urban cities. I strongly believe that 
this is an important piece of what our transportation 
infrastructure package should include.
    I also come to you with three specific additional elements 
that I hope will be included in the infrastructure bill.
    First, it is time to reform the Harbor Maintenance Tax, or 
the HMT. The HMT is the single largest source of Federal 
funding for coastal ports and waterways. But, unfortunately, it 
is just not working as it should. By fixing the HMT we can 
drive additional investment to our coastal ports without any 
new taxes. I applaud the committee's focus on making sure that 
annual HMT revenues are fully spent, putting the trust back 
into the Harbor Maintenance Trust Fund. Shippers pay the HMT 
when they use the ports, and the tax is intended to support 
infrastructure at ports, and this investment is critically 
needed. Fully using the tax is a no-brainer.
    However, if we only address full use without solving other 
ports' concerns, we would be leaving some behind. There is 
broad agreement among policymakers and the ports that they 
represent that a change in the distribution of the HMT funds 
will drive additional investment to our coastal ports without 
any additional new taxes.
    As an example of the current inequity, the six donor ports 
that are identified in the 2014 WRRDA bill generated 53 percent 
of HMT collections in 2017, but received only 3 percent in 
return. That means that the Ports of Seattle and Tacoma receive 
only pennies for every HMT dollar generated--some years even 
less than a penny. Not only is that distribution unfair, but 
the added cost of the HMT also contributes to the loss of cargo 
from the Puget Sound ports to nearby ports in Canada, a 
phenomenon that the Federal Maritime Commission has validated. 
Congress should pass comprehensive HMT reform legislation that 
resolves the wide range of concerns that the Nation's ports 
have about the Harbor Maintenance Tax.
    Second, we must direct more Federal funding to the needs of 
our smaller communities. In my district Seattle is booming, but 
so are the cities that surround Seattle. While the USDOT is now 
setting aside 50 percent of BUILD grants for rural areas, this 
leaves small cities like Burien, Normandy Park, and Edmonds 
behind.
    For instance, the cities of Shoreline and Lake Forest Park 
are currently working on the redevelopment of 145th Street, a 
thoroughfare that will be a major conveyor of bus, bike, and 
pedestrian traffic to and from Interstate 5 and Sound Transit's 
light rail system. But making this road accessible to heavier 
and multimodal traffic requires investment. And the tax bases 
in these communities--communities, by the way, that have 
already voted to tax themselves to support regional light 
rail--is simply not large enough for investments of this size. 
The Federal Government's dollars would be well repaid, as these 
thriving communities contribute to our economy.
    Third, it is time for the Federal Government to invest in 
green infrastructure. Green infrastructure not only addresses 
the impacts of climate change, but works with nature and 
reduces the use of fuels and resources that contribute to 
climate change. Research suggests that the Washington Seventh 
Congressional District--and indeed, the entire Pacific 
Northwest--will see more intense rain events in the coming 
years.
    At the same time, we are rife in our State with outdated 
culverts that neither adequately move stormwater nor allow the 
passage of fish. A successful infrastructure bill will make 
much-needed improvements to those roads, bridges, energy grid, 
and water systems, and take into account what we know about 
climate and nature.
    In closing, I commend the chairman and this committee for 
taking up the cause of infrastructure, and I offer parting 
thoughts in the context of the FAST Act.
    Our highway system alone has suffered greatly since we 
stopped raising the gas tax--extremely efficient and cost 
effective to collect. So to that end of an alternative, the 
Washington State Transportation Commission has been researching 
and assessing a road usage charge, or RUC system, since 2011. 
It creates equity, as it is assessed on miles driven, 
regardless of fuel source or efficiency. I hope that we can 
consider the RUC in this committee.
    Thank you, Mr. Chairman. I appreciate the opportunity to 
testify.
    [Ms. Jayapal's prepared statement follows:]
                                 <F-dash>
    Prepared Statement of Hon. Pramila Jayapal, a Representative in 
                 Congress from the State of Washington
    Mr. Chairman, I appreciate the opportunity to share how an 
investment in infrastructure will benefit the people and economy of the 
country in the context of my district.
    Washington's 7th district is growing rapidly, booming with 
innovation, people and industry. The downside of this success is that 
our region must address increasing traffic, the decreasing 
affordability of housing, and the growing effects of climate change.
    In my district, residents have several times voted to tax 
themselves to create a regional transit system that is helping to 
ameliorate traffic and allowing working people to live farther afield 
where housing is more affordable. The federal government should match 
that commitment. For that reason, I come to you with three elements 
that I strongly urge the committee to include in its infrastructure 
bill.
    First, it is time to reform the Harbor Maintenance Tax, or HMT. The 
HMT is the single largest source of federal funding for coastal ports 
and waterways. Unfortunately, it is not working as it should. By fixing 
the HMT we can drive additional investment to our coastal ports without 
any new taxes. I applaud the Committee's focus on making sure annual 
HMT revenues are fully spent, putting the trust back in the Harbor 
Maintenance Trust Fund.
    Shippers pay the Harbor Maintenance Tax when they use ports; the 
tax is intended to support infrastructure at ports, and this investment 
is critically needed. Fully using the tax is a no brainer. However, if 
we only address full use without solving other ports' concerns, we 
would be leaving some behind.
    There is broad agreement among policymakers and the ports they 
represent that a change in the distribution of HMT funds will drive 
additional investment to our coastal ports without any new taxes. As an 
example of the current inequity, the six donor ports identified in the 
2014 WRRDA bill generated 53% of HMT collections in 2017 but received 
only 3% in return. That means that the ports of Seattle and Tacoma 
receive only pennies for every HMT dollar generated; some years even 
less than a penny. Not only is this distribution unfair, but the added 
cost of the HMT also contributes to the loss of cargo from Puget Sound 
ports to nearby ports in Canada, a phenomenon that the Federal Maritime 
Commission has validated.
    Congress should pass comprehensive HMT reform legislation that 
resolves the wide range of concerns the nation's ports have about the 
HMT.
    Second, we must direct more federal funding to the needs of our 
smaller communities. In my district, Seattle is booming, but so are the 
cities that surround Seattle. While the USDOT is now setting aside 50 
percent of BUILD grants for rural areas, this leaves small cities like 
Burien, Normandy Park, and Edmonds, Washington behind.
    For instance, the cities of Shoreline and Lake Forest Park are 
currently working on the redevelopment of 145th Street, a thoroughfare 
that will be a major conveyor of bus, bike and pedestrian traffic to 
and from Interstate-5 and Sound Transit's Light Rail system. But making 
this road accessible to heavier and multi-modal traffic requires 
investment. The tax base in these communities--communities that have 
already voted to tax themselves to support regional light rail--is not 
large enough for investments of this size. The federal government's 
dollars would be well repaid as these thriving communities contribute 
to the economy.
    Third, it is time for the federal government to invest in green 
infrastructure. Green infrastructure not only addresses the impacts of 
climate change, but it works with nature and reduces the use of fuels 
and resources that contribute to climate change. Research suggests that 
Washington's 7th District, and indeed, the entire Pacific Northwest 
will see more intense rain events in the coming years. At the same 
time, Washington state is rife with outdated culverts that neither 
adequately move stormwater nor allow the passage of fish.
    A successful infrastructure bill will make needed improvements to 
roads, bridges, our energy grid, and water systems, and will take into 
account what we know about climate and nature. This means that we use 
estuaries and wetlands to filter pollutants, clean water and provide 
habitat for salmon and forage fish. It means that we increase permeable 
surfaces, replace lead pipes, use wind and solar power, and expand bus 
and rail systems to get people out of their cars. And if we make these 
investments at the right levels, we will also create jobs.
    In closing, I commend the chairman and this committee for taking up 
the cause of infrastructure, something that has been chronically and 
tragically underfunded, and I offer these parting thoughts especially 
in the context of the upcoming reauthorization of the Fixing America's 
Surface Transportation, or FAST Act.
    Our highway system alone has suffered greatly since we stopped 
raising the gas tax, which is extremely efficient and cost-effective to 
collect. While, thankfully for our environment, the energy efficiency 
of vehicles is improving and more people are turning to vehicles fueled 
by alternative sources, this means that the gas tax will decline in 
value over time. We need an alternative.
    To that end, the Washington State Transportation Commission has 
been researching and assessing a Road Usage Charge, or RUC system since 
2011. The RUC creates equity as it is assessed on miles driven 
regardless of fuel source or efficiency. So, like my other 
recommendations, the RUC is an idea that better fits the realities of 
the world we live in and the needs of our people. Thank you.

    Mr. Allred. Thank you for your testimony.
    Does any member of the committee wish to question Ms. 
Jayapal?
    Mr. Larsen?
    Mr. Larsen. Thank you. Thank you, Representative Jayapal, 
and thanks for your service to the Seventh Congressional 
District that borders the great Second Congressional District 
of Washington State, as well.
    To your point about the smaller communities and the bill 
grants, in the last several Congresses we had the TIGER grants, 
and I had a bill called the TIGER CUBS Grant----
    Ms. Jayapal. TIGER CUBS, yes.
    Mr. Larsen [continuing]. To help small and medium-sized 
cities with TIGER. So we are going to take that same approach 
now with the bill, we are just trying to find the right acronym 
for it.
    Ms. Jayapal. I was going to mention that when you were 
sitting in the chair's seat. So thank you for that.
    Mr. Larsen. Sure, that is fine. Can you let me know--so on 
the 145th, are the communities there in Normandy and Shoreline, 
Lake Forest, are they getting good response out of Sound 
Transit? And are they getting good response out of the city of 
Seattle, as well?
    Ms. Jayapal. Yes.
    Mr. Larsen. They border the city there at 145th.
    Ms. Jayapal. They are, but I think it is the overall issue 
of where does this investment come from.
    So they are--you know, we have finally worked to bring all 
of the partners to the table, which, as you know, was not an 
easy process. That is now happening. I think they are quite 
united on the needs of what has to happen there, but they 
really do need some additional funds.
    And you know the threshold of where we draw the line for 
small cities, even in TIGER CUBS, is an issue.
    Mr. Larsen. Yes.
    Ms. Jayapal. And so we need to find a way to funnel 
investments to some of these smaller cities that simply don't 
have the ability. But our big connectors--you know our region 
very well--those cities are getting more and more pressure as 
Seattle expands. There is not enough housing there. People are 
being pushed out.
    So I think there is--they are working well with Sound 
Transit, but we need to help them.
    Mr. Larsen. Thank you. Thank you, Mr. Chairman.
    Mr. Allred. Thank you, Ms. Jayapal.
    I would now like to recognize our next witness, the 
gentlewoman from Virginia, Mrs. Luria, for 5 minutes.

TESTIMONY OF HON. ELAINE G. LURIA, A REPRESENTATIVE IN CONGRESS 
               FROM THE COMMONWEALTH OF VIRGINIA

    Mrs. Luria. Thank you, Mr. Chairman, and thank you to my 
colleagues for the opportunity to address your committee today. 
I would like to bring a few issues to the committee's attention 
that are critical, not only for coastal Virginia, but for all 
of America.
    One key thing is the Chesapeake Bay. It is one of our 
Nation's greatest natural resources. It generates $33 billion 
in economic value annually, and hosts one of the most important 
sites for ecological diversity in North America. Thanks to 
innovative partnerships across the State and at the Federal 
level, great progress has been made in preserving, protecting, 
and restoring this critical ecosystem.
    The Chesapeake Bay Program Reauthorization Act, H.R. 1620, 
will fully fund the Chesapeake Bay program for the next 5 
years, ensuring that States get the resources they need to 
comply with their obligations to protect the Chesapeake Bay. 
The vast majority of funding for this program will go directly 
towards States within the Chesapeake Bay watershed to help them 
control pollution and manage runoff in the tributaries that 
feed into the Chesapeake Bay.
    This bipartisan bill that I introduced with my colleague 
Congressman Rob Wittman from Virginia's First Congressional 
District will help ensure the bay remains a vibrant and 
beautiful destination for the next generation. I urge the 
committee to take up consideration for the Chesapeake Bay 
Program Reauthorization Act this month.
    I also encourage the committee to act on climate 
resiliency. For coastal Virginians and residents of all coastal 
communities throughout the U.S., sea level rise and recurrent 
flooding aren't the basis of political talking points or 
challenges for the future, they are problems we face today.
    For example, a heavy rain and a high tide prevents tens of 
thousands of sailors from accessing Naval Station Norfolk. On a 
similar day I am unable to drive into the parking lot on 
occasion to pick my daughter up from school. So these are 
challenges that we face on a daily basis, based on rising sea 
levels. As the committee develops an infrastructure package, 
please ensure we are providing communities the resources they 
need to adapt to rising sea levels.
    Another issue the committee must prioritize in 
infrastructure bills is expanding rural broadband. Access to 
high-speed internet is essential to participating in the modern 
economy. Reliable, fast internet access can connect people to 
other communities, health providers, jobs, and even allow them 
to start their own businesses. Although we have made progress 
in connecting rural areas to broadband, more work needs to be 
done.
    On Virginia's Eastern Shore in my district, that estimated 
cost is approximately $30 million to adequately expand 
broadband access to all areas, and I know that this is a 
similar investment necessary in many parts of the rural areas 
of this country. The committee must act to ensure we make the 
necessary investments in critical infrastructure so that no 
Americans, especially in rural areas, are left behind.
    Other essential investments in infrastructure cannot be 
forgotten for rural America. This includes projects such as 
expanding and modernizing our sewer systems, specifically on 
Virginia's Eastern Shore, which will provide a much-needed 
backbone for economic development. Directing Federal money to 
prioritize basic infrastructure needs like this would help 
economic growth, improve the health of our community, and raise 
the quality of life across America.
    Finally, I encourage the committee to fund investments in 
America's waterways, and specifically the Port of Virginia. 
Nearly 10 percent of Virginia's working residents work in port-
related jobs, and our port enjoys unique advantages with its 
deep water, central location, and access to rail. The 
administration's budget did not include funding for important 
dredging projects, so Congress must come to the rescue, as even 
larger ships are carrying record amounts of goods that benefit 
both Virginia and America as a whole. It makes sense to make 
room in the Federal budget for these investments in our ports 
which will further promote nationwide economic growth.
    In addition to the importance of large dredging projects 
such as the Port of Virginia, it is also equally pivotal for 
secondary channels to be dredged. For example, the Little 
Machipongo River is a primary aquaculture hub on Virginia's 
Eastern Shore, producing some of the largest number of 
shellfish and clams in the country. The navigability of this 
small waterway is vital to the region's aquaculture industry, 
which helps employ hundreds of Virginians.
    Thank you again for this opportunity to highlight the 
importance of investing in infrastructure in our districts. I 
ask members of this committee on both sides of the aisle to 
come together and address critical infrastructure needs of 
coastal communities like mine. The American people are counting 
on us, and future generations are depending on the investments 
that we make in this Congress. Thank you again for the 
opportunity to testify today.
    [Mrs. Luria's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Elaine G. Luria, a Representative in 
               Congress from the Commonwealth of Virginia
    Thank you, Chairman DeFazio, Ranking Member Graves, and to my 
colleagues on the Committee for giving me this opportunity. I would 
like to bring a few issues to the Committee's attention that are 
critical not only for Coastal Virginia, but for America.
    The Chesapeake Bay is one of our nation's greatest natural 
resources. It generates $33 billion in economic value annually and 
hosts one of the most important sites for ecological diversity in North 
America. Thanks to innovative partnerships across the state and federal 
level, great progress has been made in preserving, protecting, and 
restoring this crucial ecosystem.
    The Chesapeake Bay Program Reauthorization Act (H.R. 1620) will 
fully fund the Chesapeake Bay Program for the next five years, ensuring 
that states get the resources they need to comply with their 
obligations to protect the Bay. The vast majority of funding for this 
Program will go directly toward states within the Chesapeake Bay 
Watershed to help them control pollution and manage runoff into the 
tributaries that feed into the Bay. This bipartisan bill will help 
ensure that the Bay remains a vibrant and beautiful destination for the 
next generation. I urge the committee to take up the consideration of 
the Chesapeake Bay Program Reauthorization Act this month.
    I also encourage the Committee to act on climate resiliency. For 
Coastal Virginians and residents of coastal communities throughout the 
U.S., sea level rise and recurrent flooding aren't the basis of 
political talking points or challenges for the future. They are 
problems we are dealing with right now, today, this very moment. As the 
Committee develops an infrastructure package, please ensure we are 
providing communities the resources they need to adapt to rising sea 
levels.
    Another issue the Committee must prioritize in any infrastructure 
bill is expanding rural broadband. Access to high-speed internet is 
essential to participate in the modern economy. Reliable, fast internet 
access can connect people to other communities, health providers, jobs, 
and even allow them to start their own businesses. Although we have 
made progress in connecting rural areas to broadband, more work needs 
to be done. On Virginia's Eastern Shore in my district, it will cost an 
estimated $30 million to adequately expand broadband access. The 
Committee must act to ensure we make the necessary investments in this 
critical infrastructure so rural Americans are not left behind.
    Other, essential investments in infrastructure cannot be forgotten 
for rural America. This includes projects such as expanding and 
modernizing our sewer systems on Virginia's Eastern Shore, which will 
provide a much-needed backbone for economic development. Directing 
federal money to prioritize basic infrastructure needs like this would 
help economic growth, improve the health of our community, and raise 
quality of life across America.
    Finally, I encourage the Committee to fund investments in America's 
waterways, and specifically the Port of Virginia. Nearly 10 percent of 
Virginia's working residents work port-related jobs, and our port 
enjoys unique advantages with its deep waters, central location, and 
access to rail. The administration's budget did not include funding for 
important dredging projects, so Congress must come to the rescue. Ever-
larger ships are carrying record amounts of goods that benefit both 
Virginia and America as a whole. It makes sense to make room in the 
federal budget for these investments which will further promote 
nationwide economic growth.
    In addition to the importance of dredging for the Port of Virginia, 
it is as equally pivotal for secondary channels. For example, the 
Little Machipongo River is a primary aquaculture hub on Virginia's 
Eastern Shore, producing some of the largest numbers in shellfish in 
the county. The navigability of this waterway is vital to the region's 
aquaculture industry, which helps employ hundreds of Virginians.
    Thank you again for this opportunity to highlight the importance of 
investing in infrastructure to our districts, our constituents, and our 
nation. I ask members of this committee on both sides of the aisle to 
come together to address the critical infrastructure needs of coastal 
communities like mine. The American people are counting on us and 
future generations are depending on the investments we make in this 
Congress. I have faith that my colleagues will put partisanship aside 
and I stand ready to assist with finding common ground to address this 
imperative challenge.

    Mr. Allred. Thank you for your testimony.
    Does any member of the committee wish to question Mrs. 
Luria?
    Thank you, Mrs. Luria.
    I would like to recognize our next witness, the gentleman 
from Massachusetts, Mr. Keating, for 5 minutes.

   TESTIMONY OF HON. WILLIAM R. KEATING, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Keating. Now I know why you weren't in the Foreign 
Affairs Committee hearing earlier. Thank you for taking time to 
listen to a few comments I have to say. And also, I urge you to 
touch base with the chair of the committee, Mr. DeFazio, who is 
originally from Massachusetts, and will know specifically what 
I am talking about.
    In southeastern Massachusetts, the Bourne and Sagamore 
Bridges support the only two roads for crossing the Cape Cod 
Canal by car. As with so many bridges around the country, these 
critical pieces of infrastructure have long reached the end of 
their working lives.
    In fact, the Army Corps of Engineers has spent millions of 
dollars to keep these bridges at a minimal level of operation 
and keep regular flow of traffic moving.
    And, of course, the traffic is an issue with all our 
communities, but it also becomes a matter of heightened concern 
during large-scale emergencies. In fact, it is down to one lane 
right now, and hopefully we will get this done by Memorial Day. 
But it is a constant area--when these two bridges were built in 
the early 1930s.
    Thankfully, the residents of Cape Cod have not faced a 
catastrophic event in recent years, but we have had several 
near misses. For example, Hurricane Sandy, which devastated New 
York and New Jersey in 2012, and Hurricane Jose, which brought 
tropical storm conditions to Martha's Vineyard in Nantucket in 
2017. We have also been hit by several Nor'easters over the 
last few years, storms that have caused widespread wind and ice 
damage, and even death.
    Increasingly, it appears my area is due for a major direct 
hit. It is also in the regional vicinity, as well, of a nuclear 
powerplant, one that is soon going to be facing 
decommissioning, but will still be a site of storage.
    For these reasons it is important that we recognize the 
canal bridges and other critical evacuation infrastructure 
across the Nation play fundamental roles in providing for the 
safety of countless Americans.
    In Massachusetts, I am relieved to report that much of the 
State and local work required to shore up the long-term safety 
of the canal bridges is already underway. I have also been 
working closely with the Army Corps leadership, both in New 
England and in Washington, to ensure the safest and most 
resilient evacuation routes remain a priority.
    We know we are capable of success in this effort, and I 
appear before the committee to encourage similar effects and 
efforts to be secured for evacuation routes around the country.
    Last year I partnered with our two State senators from my 
home State, as well as Mr. Garamendi from California, who sits 
in the committee, to introduce the Enhancing the Strength and 
Capacity of America's Primary Evacuation Routes Act--don't you 
love these acts, the titles--or the ESCAPE Act, which would 
authorize dedicated public infrastructure funding to construct, 
maintain, and protect designated emergency evacuation routes.
    Passage of the ESCAPE Act would be an important step in 
securing the safety of all communities in times of natural 
disaster.
    I look forward to partnering with Mr. Garamendi to 
reintroduce this legislation again soon. As I know the members 
of this committee, I am sure, agree, we cannot risk the public 
safety by neglecting our vital roadways. We have got to provide 
necessary Federal resources to support safe passage in times of 
emergency, and we must eliminate any doubt that the 
infrastructure might not meet the challenge.
    I thank you for having this opportunity to emphasize the 
necessity of safe evacuation routes, and increased Federal 
funding in this respect.
    I am confident the committee is well equipped to meet our 
Nation's infrastructure needs, both in my district and across 
our entire country, and I hope to continue this dialogue with 
any questions you might have or any further information I can 
supply.
    [Mr. Keating's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. William R. Keating, a Representative in 
            Congress from the Commonwealth of Massachusetts
    Chairman DeFazio, Ranking Member Graves, and the distinguished 
Members of this Committee, thank you for the opportunity to testify 
about infrastructure issues of the utmost importance to my district.
    In Southeastern Massachusetts, the Bourne and Sagamore bridges 
support the only two roads for crossing the Cape Cod Canal by car. As 
with so many bridges around the country, these critical pieces of 
infrastructure have long reached the end of their working lives. In 
fact, the Army Corps of Engineers has spent millions of dollars to keep 
the bridges at their minimum level of operation and keep the regular 
flow of traffic moving. Of course, traffic is an issue in all our 
communities, but it becomes a matter of heightened concern during 
large-scale emergencies.
    Thankfully, the residents of Cape Cod have not faced a catastrophic 
event in recent years, but we have had several near-misses--for 
example, Hurricane Sandy, which devastated New York in 2012, and 
Hurricane Jose, which brought Tropical Storm conditions to Martha's 
Vineyard and Nantucket in 2017. We have also been hit by several 
Nor'easters the last few winters, storms that have caused widespread 
wind and ice damage--and even death. Increasingly, it appears my region 
is due for a major direct hit.
    For these reasons, it is important that we recognize that the Canal 
Bridges, and other critical evacuation infrastructure across the 
nation, play fundamental roles in providing for the safety of countless 
Americans. In Massachusetts, I am relieved to report that much of the 
state and local work required to shore up the long-term safety of the 
Canal Bridges is already underway. I have also been working closely 
with Army Corps leadership, both in New England and in Washington, to 
ensure the safest, most resilient evacuation routes remain a priority. 
We know we are capable of success in this effort, and I appear before 
this Committee to encourage similar efforts to secure evacuation routes 
around the country.
    Last year, I partnered with Senators Markey and Warren from my home 
state, as well as Mr. Garamendi from California, who sits on this 
Committee, to introduce the Enhancing the Strength and Capacity of 
America's Primary Evacuation Routes Act, or the ESCAPE Act, which would 
authorize dedicated public infrastructure funding to construct, 
maintain, and protect designated emergency evacuation routes. Passage 
of the ESCAPE act would be an important step in securing the safety of 
all communities in times of natural disaster. I look forward to 
partnering with Mr. Garamendi to reintroduce this legislation again 
soon.
    As I know the Members of this Committee agree, we cannot risk the 
public safety by neglecting our vital roadways. We must provide the 
necessary federal resources to support safe passage in times of 
emergency, and we must eliminate any doubt that our infrastructure 
might not meet the challenge.
    Again, thank you for the opportunity to emphasize the importance of 
safe evacuation routes and the need for increased federal support. I am 
confident this Committee is well equipped to meet our nation's 
infrastructure needs, both in my district and across the United States. 
I hope to continue this dialogue as Congress considers upcoming 
infrastructure legislation, and I yield back.

    Mr. Allred. Thank you for your testimony, Mr. Keating.
    Does any member of the committee wish to question Mr. 
Keating?
    Thank you sir.
    Mr. Keating. Thank you.
    Mr. Allred. Now I would like to recognize our next witness, 
the gentlewoman from New York, Ms. Meng, for 5 minutes.

TESTIMONY OF HON. GRACE MENG, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF NEW YORK

    Ms. Meng. Thank you, Mr. Chairman. Chairman DeFazio, 
Ranking Member, and distinguished members of this committee, 
thank you for this opportunity to discuss H.R. 2403, the 
Menstrual Hygiene Products in Federal Buildings Act, and H.R. 
1882, the Menstrual Equity for All Act of 2019.
    Before I get to my legislation I want to also thank this 
committee for your continued support of the critical issue of 
combating aviation noise, an issue that is so important in my 
district of Queens. As a founding member and former cochair of 
the Quiet Skies Caucus, I have worked on numerous initiatives, 
many with your committee, to mitigate the deafening airplane 
noise that has plagued my district for way too long.
    I thank the committee staff and your leadership on these 
issues, and look forward to continuing this work as I look to 
reintroduce legislation such as the Quiet Communities Act and 
the Airplane Noise Research and Mitigation Act.
    I am here today to specifically discuss the issue of 
menstrual equity and the importance of accessing and affording 
feminine hygiene products. To note, the Menstrual Hygiene 
Products in Federal Buildings Act is a standalone measure of my 
larger comprehensive Menstrual Equity for All Act.
    Mr. Chair and Mr. Ranking Member, I know menstrual hygiene 
products is not the first thing that comes to mind when we talk 
about transportation and infrastructure, but it is a relevant 
issue and an important one. Access to safe, affordable 
menstrual hygiene products is a basic need and a healthcare 
right for 51 percent of the U.S. population.
    It is estimated that a woman will use up to 16,000 tampons 
in her life, which equates to at least $7,000 over the course 
of her life. One might think these products are ubiquitous and 
cheap, but many women face difficulty when it comes to 
affording and accessing them. I know this because I have heard 
heartbreaking testimonies from countless girls and women from 
across our Nation and around the world. No girl, no one, should 
have to choose between their dignity or their education.
    As a matter of fact, I am proud that since July 2018 all 
public schools in New York State provide free menstrual hygiene 
products. In addition, just because someone is incarcerated or 
homeless they should not be deprived of their dignity. And no 
family should have to choose between buying these products or 
groceries. To address the many hardships that different women 
and girls face in affording and accessing these products, my 
bill seeks to address this issue holistically.
    Specifically, as it relates to this committee and the 
Subcommittee on Economic Development, Public Buildings and 
Emergency Management, H.R. 2403 and the relevant section of 
H.R. 1882 would require all public Federal buildings to provide 
free menstrual hygiene products in the restrooms.
    As of a few months ago, right here in the people's House, 
menstrual products are now available in the House office supply 
store, and these items are purchasable using our Members 
Representational Allowance. I was proud to have worked with my 
colleagues, Congressman Sean Patrick Maloney, a member of this 
committee; Congressman Debbie Wasserman Schultz; and 
Congresswoman Norma Torres to make this positive change for our 
staff and visitors.
    I am also thankful to the Committee on House 
Administration's chairwoman, Ms. Lofgren, and ranking member, 
Mr. Davis, also a member of this committee, for their swift 
support on this issue.
    The U.S. Government is the largest employer in the country. 
It is estimated that there are 2.1 million Federal civilian 
workers. This number doesn't even include the millions of 
contractors, grant employees, and others that make up our 
entire Federal workforce. The issue of affordability and 
accessibility is everywhere.
    As we saw and heard during the Government shutdown, there 
were countless Federal employees and their families who were in 
desperate need of feminine products such as pads, tampons, even 
diapers and baby formula. It is time that our Government 
finally walks the walk and sets an example by providing 
products in all Federal buildings, just as they do toilet 
paper, paper towels, and hand soap. Doing so will help 
alleviate the real-life barriers in accessing and affording 
these everyday products, while normalizing this monthly 
necessity and basic human right.
    Thank you again for this opportunity to come before your 
committee. I am especially grateful to the seven members of 
this committee who have cosponsored H.R. 1882, including 
Chairwoman Titus. As Members of Congress we should ensure that 
women and girls have access to safe, quality, and affordable 
feminine hygiene products, however and wherever we can, period.
    Thank you, I yield back.
    [Ms. Meng's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Grace Meng, a Representative in Congress 
                       from the State of New York
    Chairman DeFazio, Ranking Member Graves, Chairwoman Titus and 
Ranking Member Meadows, and distinguished members of this Committee, 
thank you for this opportunity to discuss H.R. 1882--the Menstrual 
Equity for All Act of 2019. Before I get to my legislation, I want to 
also thank this committee for your continued support of the critical 
issue of combatting aviation noise--an issue that is so important in my 
district of Queens.
    As a founding member and former co-chair of the Quiet Skies Caucus, 
I have worked on numerous initiatives--many with your committee--to 
mitigate the deafening airplane noise that has plagued my district for 
way too long. I thank the committee staff and your leadership on these 
issues--and look forward to continuing this work, as I look to 
reintroduce legislation such as the Quiet Communities Act.
    I am here today to specifically discuss the Menstrual Equity for 
All Act of 2019, and to share the importance of accessing and affording 
feminine hygiene products.
    Chairman DeFazio and Ranking Member Graves, Chairwoman Titus and 
Ranking Member Meadows, I know menstrual hygiene products is not the 
first thing that comes to mind when we say: ``Transportation and 
Infrastructure.'' But it IS a relevant issue--and an important one.
    Access to safe, affordable menstrual hygiene products is a basic 
need and a health care right for 51 percent of the U.S. population. It 
is a human right.
    It is estimated that a woman will use up to 16,000 tampons in her 
lifetime, which equates to at least $7,000 over the course of her life.
    One might think these products are ubiquitous and cheap, but many 
women face difficulty when it comes to affording and accessing them. I 
know this because I have heard the heartbreaking testimonies from 
countless girls and women from across our nation. No girl--no one--
should have to choose between their dignity or their education.
    That is why I am also proud to share that since July 2018, all 
public schools in New York State provides free menstrual hygiene 
products.
    To address this issue holistically and widely, Menstrual Equity for 
All Act seeks to help the variety of individuals who are impacted by 
accessibility and affordability issues. For instance, this legislation 
aims to:
    <bullet>  Give states the option to use federal grant funds to 
provide students with free menstrual hygiene products in schools;
    <bullet>  Ensure that incarcerated individuals and detainees in 
federal, state, and local facilities have access to these products;
    <bullet>  Allow homeless assistance providers to use grant funds 
that cover shelter necessities to also use those funds to purchase 
these products; and
    <bullet>  Direct large employers with 100 or more employees to 
provide free menstrual hygiene products for their employees.

    Most notably, as it relates to this committee, and specifically the 
Subcommittee on Economic Development, Public Buildings, and Emergency 
Management, my bill would require all public federal buildings to 
provide free menstrual hygiene products in the restrooms.
    The U.S. government is the largest employer in the country. It is 
estimated that there are 2.1 million federal civilian workers. This 
number does not even include the millions of contractors, grant 
employees, and others that make up our entire federal workforce. The 
issue of affordability and accessibility is everywhere--even within 
this workforce. As we saw and heard during the recent partial 
government shutdown, there were countless federal employees and their 
families who were in desperate need of feminine products--such as pads 
and tampons, plus diapers and formula.
    It is time that our government finally walks the walk and sets an 
example by providing free menstrual hygiene products in all federal 
buildings. Doing so will help alleviate the real-life barriers in 
accessing and affording these everyday products--while normalizing this 
monthly necessity and basic human right.
    Thank you again for this opportunity to come before your committee. 
As Members of Congress, we should ensure that women and girls have 
access to safe, quality and affordable feminine hygiene products, 
however--and wherever--we can. Period.

    Mr. DeFazio [presiding]. Thank you, Representative Meng, 
for that testimony. And, you know, the Federal Government is 
the largest lessor of commercial space in the country, and your 
ideas on the Government leading the way through our leased 
Federal properties and GSA is excellent and well taken. So I 
thank you for your advocacy. Thanks for your testimony.
    Any questions?
    Apparently not. Thank you.
    In order of arrival next would be Representative King from 
Iowa.

TESTIMONY OF HON. STEVE KING, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF IOWA

    Mr. King. Thank you, Mr. Chairman, and I appreciate the 
opportunity to testify before your committee. And Ranking 
Member Pence, as well.
    The number of things on infrastructure that came to mind 
when I saw the announcement that came out--I think a handshake 
on approaching this infrastructure in a more aggressive way 
than we have in the past.
    And things I wanted to point out to the to the committee, 
16 years ago I signed on to support the Lewis and Clark Rural 
Water System, and that addresses some 20 communities in South 
Dakota, Minnesota, and Iowa. We have always fallen short on the 
funding for that, and so we have limped along.
    But what has happened is the local governments' commitment 
have all been paid upfront, they paid it all upfront, and it is 
the Federal Government that is dragging along here, trying to 
catch up. So I wanted to emphasize how important it is to 
complete and finish Lewis and Clark Rural Water.
    And then the next piece that I wanted to address was the 
locks and dams. I represent the Missouri River side of Iowa, 
but the locks and dams on the Mississippi River have fallen 
into disrepair, we have had high waters that make it even 
worse.
    And I would note to the committee that we built those locks 
and dams back during the Great Depression, when America was 
limping along with a terrible economy, and now we are in a 
place where we have a 3-percent-plus GDP growth, and we need to 
restore the locks and dams, and we need to expand them for the 
size of river traffic that we do have. And it is very energy 
efficient, going up and down the river. And it is 
environmentally friendly to do that.
    So I focus on the locks and dams, and make another point 
also, that in 2011 we had more water come down the Missouri 
River than ever before.
    The Pick-Sloan program, which built six dams in the upper 
Missouri River to protect us from flooding, the primary purpose 
of it was designed to accommodate the largest runoff ever. When 
they designed it, it was 1888 that the largest runoff came 
down.
    Now it is 2011, and we saw more water below those dams this 
spring than ever before.
    And I have great sympathy for my neighbors across to the 
west in Nebraska, who probably took the hit three or four times 
worse than we did in Iowa. And, of course, it was bad enough in 
Iowa. So that is some resources that--we will know how to put 
them to work.
    And also we have got 41 breaches in our levees along that 
stretch, just on the Iowa side of the Missouri River, that were 
created this spring.
    And then I want to mention the utilities that were focused 
on roads and bridges and transportation with the announcement--
as I just quickly reviewed it, Mr. Chairman. And there is 
another component to this, and that is the utility side, the 
wastewater, stormwater, that entire infrastructure that is 
necessary to keep our towns and cities up and functioning.
    And if it is going to be only a transportation approach to 
this, then we are going to have trouble addressing the 
utilities side of it, the infrastructure on our utilities.
    But here is the real point that I have not raised before 
this committee or raised, I don't think, as effectively as I 
should have done in the time I have been in this Congress.
    So I am going to take you back to some numbers from about 
2003 or so, when Mr. Don Young was the chairman of the 
Transportation and Infrastructure Committee. And I put it 
together that--a pie chart of what happened with our road use--
we call it road use tax dollar, or user fee is a happier term 
to use, and I support that.
    But when people put the nozzle in the tank, they expect to 
be paying that for roads and bridges, which is the focus of 
this infrastructure discussion.
    And so I broke that dollar down for each dollar coming in. 
Old numbers, I admit. They probably haven't changed that much. 
There was--according to the committee then, as much as 28 
percent of that dollar was going to pay for environmental and 
archeological--that sounds pretty high to me, but that was the 
number that I recall from back then; 17 percent went to mass 
transit; 3 percent went to trails.
    You know that I have been one who has worked diligently to 
repeal Davis-Bacon. That might be our disagreement point, Mr. 
Chairman, but that is about 20 percent, by our numbers.
    Now, this pie chart, when you look at it in your mind's 
eye, leaves only one-third of each dollar that goes actually to 
roads and bridges. And we are paying for the balance of this 
out of the general fund and going into debt.
    So I would suggest that we get the maximum amount of 
dollars out of that road use fund, however we negotiate that, 
however we define it, and bring this down to where, if we have 
to go outside that fund for other things, let's go out of the 
general fund for the pieces that are not roads and bridges, 
rather than keeping it all together. Because the public wants 
to pay the user fee for roads and bridges with their gas tax. 
And I would ask let's change that formula.
    I see my clock has run out. I appreciate your attention, 
and I would yield back the imbalance of my time.
    [Mr. King did not submit a prepared statement.]
    Mr. DeFazio. I thank the gentleman for his testimony. I 
think you will be pleased to hear that, during the discussion 
with President Trump yesterday, that water--clean water, 
wastewater, and the inland waterways were all subject to the 
discussion.
    There was no significant discussion on how this is going to 
be paid for. I expect, for transportation, we would be looking 
at some combination of bonding and user fees. Some of the other 
areas I am not so certain. We are going to have a subsequent 
meeting to have those discussions, and hopefully can come to 
some agreement. This should be a paid-for package, as we move 
forward.
    So I appreciate your concern and want you to know that 
those things were raised, so--and you are not the first person 
today to talk about the inland waterways, which are kind of an 
afterthought a lot of the time.
    Mr. King. Yes.
    Mr. DeFazio. And they shouldn't be, because of the critical 
nature of their contribution to commerce.
    Do any members of the committee have questions?
    OK. With that, I thank the gentleman.
    Mr. King. Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you.
    Tom O'Halleran from Arizona was the next arrived, so I 
recognize him for 5 minutes.

TESTIMONY OF HON. TOM O'HALLERAN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. O'Halleran. Thank you, Chairman DeFazio and Ranking 
Member Pence, for scheduling this Members' Day and sitting up 
there listening so much. I appreciate that very much.
    I don't have water on my list, but I do want to mention 
water very briefly. We have a little bit of a problem on the 
Colorado River, and would appreciate--all of the seven basin 
States would like to see some of that addressed through this 
process.
    I would like to highlight one of the problems impacting 
Arizona's First Congressional District. In the past this 
committee has addressed many of the infrastructure issues 
impacting my district, and I thank you for that--and other 
parts of the country. And I hope we can continue that work in a 
bipartisan effort.
    In Arizona the Indian School Bus Route Maintenance Program 
has enabled young students to receive educational opportunities 
that were once unavailable. The program was funded at only $1.8 
million, annually. More than 9,000 miles of road, or two-thirds 
of public roads on the Navajo Reservation, are unpaved. These 
roads can become impassable during snowy and rainy weather.
    In fact, it is frequent that it happens. We can't get the 
elderly folks to hospitals without helicopters. We can't get 
the school kids to school safely. And it takes a long time--up 
to a week, sometimes--for them to be able to get to school. 
This poses many challenges for the families and the children in 
the Navajo Nation. When road conditions are poor, school buses 
simply cannot bring kids to school safely. Navajo children 
repeatedly find themselves stranded without any way to get to 
their classroom.
    GAO found evidence of this problem in 2017. The report 
found that road conditions can be a barrier to attendance, and 
that the Department of Education data shows that Native 
American children have a chronic absence rate that is 9 percent 
higher than non-Native children.
    I ask this committee, as part of the transportation 
reauthorization bill, to reauthorize the Indian School Bus 
Route Maintenance Program, and help to get Native American 
children back to school.
    Second, I strongly support this committee providing a 
multiyear reauthorization bill that addresses the pending 
insolvency with the Highway Trust Fund. In its current state, 
the Highway Trust Fund will run out of money in 2021, which 
will force Arizona to severely cut its expenditures and 
negatively impact its ability to respond to emerging needs in 
2022. A long-term reauthorization measure will allow Arizona 
and other States to strategically plan critical infrastructure 
projects, which are critical not only because of need, but 
because of the need for long-range planning on almost all of 
these projects.
    I also support bringing back flexibility to Highway Safety 
Improvement Program funds, and also the law currently requires 
that program funds can only be spent on infrastructure 
construction projects, which is, again, problematic. However, 
allowing the funds to be used on education and safety 
enforcement programs will also help reduce highway injuries and 
fatalities.
    Additionally, I support allowing State highway departments 
to transfer funds between programs to meet emerging needs. This 
would give States another tool when meeting budget constraints.
    Finally, I would like to express my support for a change in 
the law which prohibits commercial activities on interstates 
built after 1960. This unfair prohibition negatively affects 
highway systems in Western States more because their highways 
developed later in time than in the East.
    I would be remiss if I didn't mention broadband, and the 
need for that, and the continuing lack of broadband throughout 
rural America. And, in fact, as G5 starts to become more 
prevalent, the gap between rural areas and urban areas is going 
to increase significantly if we don't address the problem. By 
fixing this problem--this and other problems--Congress puts all 
States on equal footing, and creates another tool to help meet 
the construction and maintenance needs of our States and our 
country.
    Thank you for the time. I look forward to working with this 
committee in the future. Thank you very much.
    [Mr. O'Halleran's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Tom O'Halleran, a Representative in Congress 
                       from the State of Arizona
    Chairman DeFazio and Ranking Member Graves:
    Thank you for scheduling this Member Day for the Transportation and 
& Infrastructure Committee.
    Today, I would like to highlight one of the problems impacting 
Arizona's First Congressional District.
    In the past, this Committee has addressed many of the 
infrastructure issues impacting my District and other rural parts of 
the country, and I hope we can continue that work.
    In Arizona, the Indian School Bus Route Maintenance Program has 
enabled young students to receive educational opportunities once 
thought unavailable.
    Unfortunately, in 2012, this program expired, and since then Navajo 
children have struggled.
    More than 9000 miles--or about two-thirds of public roads on the 
Nation--are unpaved.
    These roads can become impassable during rainy or snowy weather.
    This poses many challenges for the families and children on the 
Navajo Nation.
    When road conditions are poor, school buses simply cannot bring 
kids to school safely. Navajo children repeatedly find themselves 
stranded without a way to get to the classroom and their teachers.
    GAO found evidence of this problem in a 2017 study. The report 
found that road conditions can be a barrier to attendance and that 
Department of Education data shows that Native American children have a 
chronic absence rate that is 9 percent higher than non-Native children.
    I ask this Committee, as part of the transportation reauthorization 
bill, to reauthorize the Indian School Bus Route Maintenance Program 
and help to get Native American children back in school.
    Second, I strongly support this Committee providing a multi-year 
reauthorization bill that addresses the pending insolvency with the 
Highway Trust Fund.
    In its current state, the Highway Trust Fund will run out of money 
in 2021, which will force Arizona to severely cut its expenditures and 
negatively impact its ability to respond to emerging needs in 2022.
    A long-term authorization measure will allow Arizona and other 
states to strategically plan critical infrastructure projects.
    I also support bringing back flexibility to Highway Safety 
Improvement Program Funds. As the law requires, program funds can only 
be spent on infrastructure construction projects.
    However, allowing the funds to be used on education and safety 
enforcement programs will also help reducing highway injuries and 
fatalities.
    Additionally, I support allowing State highway departments to 
transfer funds between programs to meet emerging needs. This would give 
states another tool when meeting budget constraints.
    Finally, I would like to express my support for changing the law 
which prohibits commercial activities on interstates built after 
January 1, 1960.
    This unfair prohibition negatively affects highway systems in 
Western States more because their highways were developed later in time 
than in the East.
    By fixing this problem Congress puts all States on equal footing 
and creates another tool to help meet the construction and maintenance 
needs of rest areas.
    Thank you for the time. I look forward to working with this 
Committee in the future.

    Mr. DeFazio. I thank the gentleman for his testimony.
    You will be pleased to hear that broadband was a consensus 
item yesterday during the infrastructure discussions with the 
President. And issues of rural equity, and even in urban areas, 
were raised very, very much by Representative Lujan and 
Representative Clyburn, and everyone agreed to the need.
    On Indian country, in the last surface transportation bill 
I put in authority to allow self-governance by Tribes. I grant 
you that the amount of money flowing to the Tribes is 
inadequate, and we will try and rectify that, especially if we 
get additional revenues.
    DOT has been remiss in consulting with the Tribes and 
writing the regulations. I think we got them back on track, and 
I have been told by Tribal members that they are fairly 
optimistic we will get a good rule, and we will have self-
governance for anything that relates to their transportation 
infrastructures--they will be better able to target what they 
know is their need, as opposed to what the State DOT or the 
Feds think are their needs.
    Mr. O'Halleran. Thank you, Chairman.
    Mr. DeFazio. So thank you for your advocacy.
    Does anyone have any questions?
    OK. All right. Thank you, I appreciate it. And next is 
Representative Tony Cardenas from California, recognized for 5 
minutes.

 TESTIMONY OF HON. TONY CARDENAS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Cardenas. Thank you very much, Mr. Chairman, and I look 
forward to seeing your picture on the wall here, your portrait. 
There is not much room after Mr. Young's big portrait.
    Well, thank you for this opportunity to present, and I 
would like to take a point of personal privilege at the moment 
to recognize one of our former colleagues, Howard Berman, 
Congressman Howard Berman, who is present with us, a great 
Member of Congress, and a great Member from the State of 
California. I stand on his shoulders and the shoulders of many.
    Thank you for hosting this event and providing a platform 
for Members to speak out about their priorities in your 
committee.
    Yesterday my colleagues and I reintroduced the National 
Museum of the American Latino Act. This bill is bipartisan and 
bicameral, and would act on the commission's report by 
initiating the process of establishing a new Smithsonian Museum 
on the National Mall dedicated to highlighting the 
contributions of American Latinos to the world. As one of the 
overseeing committees, we urge you to consider this bill for a 
hearing and markup in the session of this Congress.
    This is something that has been talked about and worked on 
for many decades, and including the Smithsonian, which has 
failed to act on most of its own recommendations made in a 1994 
report that has yet to cooperate with Congress to launch a new 
Latino museum. That is a report that is 25 years old, and they 
have yet to act on those items that they actually admit they 
need to improve when it comes to Latino inclusion in their 
Smithsonian organization.
    These facts have been documented in the UCLA's Latino 
Policy and Politics Initiative report, which is called 
``Invisible No More,'' released on September 10, 2018. To add, 
in 2008 a Presidential commission created by President George 
W. Bush--his administration established a commission to study 
the creation of a national museum of the American Latino. The 
23-member commission issued its final report in 2011, 
recommending that the museum should be built near the Capitol, 
and that the museum be part of the Smithsonian Institution.
    Highlighting in the report, I quote, ``The Mall, more than 
any other public space in our country does indeed tell the 
story of America, and yet that story is not complete. There 
must also be a living monument that recognizes that Latinos 
were here well before 1776 and that in this new century, the 
future is increasingly Latino, more than 50 million and 
growing.''
    Well, actually, ladies and gentlemen, today, at 58 million, 
Latinos are the Nation's largest ethnic group in America. We, 
Latinos, have played a positive and dynamic part in weaving the 
fabric of the United States of America's past and present. The 
Latino contribution has always been and always will be a 
positive and beautiful force in our country.
    Again, we encourage the committee's consideration of the 
National Museum of the American Latino Act, which will 
establish the first Smithsonian Institution museum dedicated to 
the history and contributions of Latinos in America.
    I also want to point out that Latinos' contributions are in 
science and art, and with the labor force, and the economics of 
this great country. Being the number-one economic engine 
country in the world, I would like to point out as a 
representative of California, California has the fifth largest 
economy, if it were its own country. However, I point out that 
when my father and when my grandfather came to this country to 
work in the fields, they were working in the number-one economy 
of the State of California, agriculture, using their backs to 
be the backbone of that industry. And that is still the number-
one economy of the great State of California to this day. And 
in large part, the major backbone of the workforce of that 
community are immigrants, mainly Latinos.
    I also point out that the stories are even more beautiful 
than that. I went to college with a buddy of mine, Jose 
Hernandez. We were both engineering students. He grew up in the 
Central Valley, I grew up in Los Angeles. We met on that 
university campus, and we graduated together as engineering 
students. And I didn't know at the time, but I found out later 
that when he was a young boy he used to actually work in the 
fields to help his family on his way to go to school as a 
little boy. Later on he ended up going to that university, and 
dreamed of being an astronaut. He has orbited the earth, and he 
has become the second Latino astronaut in the history of the 
United States to go into space.
    I am very privileged and honored to call him my friend and 
my colleague, but also at the same time I think the rest of 
America needs to know of his contribution and the fact that he 
and his family are an integral part of this great country.
    Thank you very much, Mr. Chairman. I yield back.
    [Mr. Cardenas' prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Tony Cardenas, a Representative in Congress 
                      from the State of California
    In September 2018, the UCLA Latino Policy and Politics Initiative 
released a report called Invisible No More. The report highlighted the 
Smithsonian Institution's failure in implementing seven of the ten 
recommendations it put forth to improve representation of Latinos in 
its 25 year old, 1994 report, Willful Neglect.
    In 2008, a Presidential commission created by President George W. 
Bush's administration established a Commission to Study the creation of 
a National Museum of the American Latino. The 23-member commission 
issued its final report in 2011 recommending that the Museum be built 
near the Capitol and that the museum be part of the Smithsonian 
Institution. Taken from the report, ``The Mall, more than any other 
public space in our country does indeed tell the story of America, and 
yet that story is not complete. There must also be a living monument 
that recognizes that Latinos were here well before 1776 and that in 
this new century, the future is increasingly Latino, more than fifty 
million people and growing.''
    In 2019, Latinos make up 58 million of the population, 18%, and are 
the nation's largest ethnic group in America. To this day, the 
Smithsonian has not publicly presented a plan to build a Smithsonian 
Institution Museum dedicated to the history and contributions of 
Latinos in America.
    Yesterday, my colleagues and I reintroduced The National Museum of 
the American Latino Act. This bill is bipartisan and bicameral and 
would act on the Commission's report by initiating the process of 
establishing a new Smithsonian museum on the National Mall dedicated to 
highlighting the American Latino experience to the world--from serving 
in all American wars to influencing our economy, the arts, and sports.
    In its current form, this bill would be referred primarily to House 
Administration, with additional referrals to Natural Resources and 
Transportation & Infrastructure. I ask for all overseeing committees to 
consider this bill and as one of the overseeing committees we urge the 
Committee's consideration of the National Museum of the American Latino 
Act in this session of Congress.

    Mr. DeFazio. Thank you very much for your testimony. I will 
tell you how subterranean the commission report is. It is the 
first I have heard of it, to tell the truth, and I have been on 
this committee a long time. So I will bring it up with 
Representative Titus, who chairs the relevant subcommittee. And 
I grant you it is a long-overdue recognition.
    Just one quick question--have they designated a spot? That 
is usually the most difficult part of it, is siting.
    Mr. Cardenas. Yes. Yes, it is. And as a former real estate 
broker myself, I am excited to actually be part of that 
analysis and those discussions to try to figure out what the 
most appropriate spot is on the Smithsonian grounds.
    Mr. DeFazio. OK. Well, we will look forward to hearing more 
about that. Thank you very much.
    Anyone--you have any questions? No? OK.
    Thanks, I appreciate it.
    Mr. Cardenas. Thank you very much.
    Mr. DeFazio. Thank you. Representative Lofgren was next, 
also from California.
    Ms. Lofgren. Thank you.
    Mr. DeFazio. A large part of our Congress is from 
California.
    Ms. Lofgren. Well, that is--you know, we are helping out.

  TESTIMONY OF HON. ZOE LOFGREN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Lofgren. Thank you, Chairman DeFazio and Ranking 
Member. I chair the California Democratic congressional 
delegation, and I am the cochair of the California High-Speed 
Rail Caucus, along with Representatives Jim Costa and Lou 
Correa. And I would like to reaffirm the delegation's support 
for the California high-speed rail project.
    The high-speed rail project is the largest and most 
ambitious infrastructure endeavor currently underway in 
America. When completed, it will move people swiftly between 
California's economic centers and will ease congestion and 
improve air quality in California, while creating thousands of 
jobs. With the support of about $19 billion in State funding 
and $3.5 billion in Federal funding, construction is well 
underway in the Central Valley on the first segment of the 
Nation's only true high-speed rail project.
    Governor Gavin Newsom recently reaffirmed his commitment to 
completing the ``Valley to Valley'' project. Environmental 
reviews on this and all other planned segments, spanning from 
San Francisco to Los Angeles and Anaheim, are underway and 
expected to be completed within the next 2 years. The project 
has also provided $713 million towards the electrification of 
the Caltrans between--high-speed rail between San Jose and San 
Francisco.
    I encourage the committee to maintain support for this 
path-breaking high-speed rail project, and to help California 
accelerate the completion of the ``Valley to Valley'' project 
that is connecting the Central Valley of California to Silicon 
Valley, where I live. High housing costs and traffic congestion 
has sharply increased the demand for a Silicon Valley to 
Central Valley high-speed rail line in California, since voters 
approved the $9 million initial downpayment in 2008.
    We in San Jose know firsthand the traffic congestion and 
affordable housing challenges in the bay area. We are among the 
top five gridlocked cities in the United States, and the 
congestion is just going to grow, as California is projected to 
grow 30 percent to 51.1 million people by 2060.
    According to the High-Speed Rail Authority, a trip from San 
Jose to Fresno, which today takes more than 3 hours, or can 
take more than 3 hours, would be reduced to about an hour. The 
high-speed rail project will absolutely transform economic 
functions in the State of California, and will improve not only 
the Silicon Valley, where I live, but the Central Valley, which 
has higher unemployment, higher pollution, and is disconnected 
from the job-rich Silicon Valley.
    It is estimated that to provide the equivalent mobility, 
California would need to build 4,000 new freeway lane-miles and 
115 airport gates, just to keep up with population growth.
    As to home prices, the median price of a house in the San 
Francisco Bay area--$845,000 last month was the median. In 
Fresno it is $250,000. Obviously, opening up housing 
opportunities for people who work in the Silicon Valley and 
would like to live in a beautiful place like Fresno will be 
made possible through high-speed rail.
    And I would urge the committee to consider taking the 
following four steps this Congress to help us with this 
``Valley to Valley'' segment: first, maintain the rail title 
first established in the FAST Act; two, create a new passenger 
rail trust fund and identify new long-term funding to increase 
Federal investment in high-speed and high-performance intercity 
passenger rail; three, make improvements to the Railroad 
Rehabilitation and Improvement Financing program to better 
leverage private-sector investment; and finally, four, allow 
for the advance acquisition of railroad right-of-way, which 
would help so much on this project, as is permitted for highway 
and public transit projects.
    I want to thank the committee for allowing Members who 
aren't on your committee to come and give you our hopes and 
dreams about projects that benefit our State. I thank you for 
the hard work you do. And I know that if this high-speed rail 
project is completed successfully, it is going to transform the 
economy of the State of California. Out of all the jobs created 
in California, something like 80 percent last year were created 
in the Silicon Valley. We need to make that prosperity 
available to other segments of our State. And this project will 
help allow that to occur.
    And I thank both of you for your courtesy in listening to 
me.
    [Ms. Lofgren's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Zoe Lofgren, a Representative in Congress 
                      from the State of California
    Thank you Chairman DeFazio and Ranking Member Graves for allowing 
me to participate in today's hearing.
    As the Chair of the California Democratic Congressional Delegation 
and Co-Chair of the California High-Speed Rail Caucus along with Reps. 
Jim Costa and Lou Correa, I would like to reaffirm the Delegation's 
strong support for the California High Speed Rail Project.
    The California High Speed Rail project is the largest and most 
ambitious infrastructure endeavor of our time. When completed, it will 
move people swiftly between California's economic centers and it will 
immediately ease congestion and improve air quality in California while 
creating thousands of jobs.
    With the support of about $19 billion in state funding and $3.5 
billion in federal funding, construction is well underway in the 
Central Valley on the first segment of the nation's only true high-
speed rail project.
    I encourage the committee to maintain support for this pathbreaking 
project and to help California accelerate the completion of the 
``Valley to Valley'' project connecting the Central Valley segment to 
Silicon Valley and San Francisco.
    High housing costs and traffic congestion have sharply increased 
demand for a Silicon Valley to Central Valley high-speed rail line in 
California since voters approved $9 billion as an initial down payment 
in 2008.
    As a resident of San Jose, I know firsthand the traffic congestion 
and affordable housing challenges in Bay Area. San Jose, along with Los 
Angeles, and San Francisco, rank among the top five most gridlocked 
cities in the nation. And congestion will only become more of a problem 
in the future as California's population is projected to grow 30 
percent to 51.1 million by 2060.
    According to the High-Speed Rail Authority, a trip from San Jose to 
Fresno will be reduced from three or more hours to about one hour. This 
will transform how the California economy functions and develop 
linkages between parts of the state that are disconnected today.
    It is estimated that to provide equivalent mobility, California 
would need to build more than 4,000 new freeway lane miles, 115 airport 
gates and four new runways just to keep up with population growth.
    Home prices in the Bay Area have continued to set records. In 
October 2018, the median Bay Area home price was $845,000. Meanwhile, 
the median in Fresno was below $250,000. A shortened commute between 
Silicon Valley and the Central Valley will open an affordable housing 
market for those working in the Bay Area and create much needed 
economic growth in the Central Valley.
    Governor Gavin Newsom recently reaffirmed his commitment to 
completing the Valley to Valley project. Environmental reviews on this 
and all other planned segments spanning from San Francisco to Los 
Angeles and Anaheim are underway and are expected to be completed 
within the next two years. The state has also provided for $713 million 
towards the electrification of the Caltrain Corridor to carry Caltrain 
and high-speed trains from San Jose to San Francisco.
    I urge the committee to consider taking the following four steps 
this Congress to help California accelerate the completion of the 
Valley to Valley segment and to help accelerate high-speed rail 
projects throughout the United States:
    1)  Maintain the Rail Title first established in the FAST Act.
    2)  Create a new Passenger Rail Trust Fund and identify new, long-
term funding to increase federal investment in high-speed and high-
performance intercity passenger rail.
    3)  Make improvements to the Railroad Rehabilitation and 
Improvement Financing (RRIF) program to better leverage private sector 
investment.
    4)  Allow for advance acquisition of railroad right of way as is 
permitted for highway and public transit projects.

    I'd like to thank the committee again for this opportunity. I look 
forward to working with you to ensure the next transportation 
reauthorization keeps builds on our success in California and paves the 
way for the next phase of the project.
   Rep. Lofgren Transportation and Infrastructure Committee Requests
    <bullet>  Maintain the Rail Title first established in the FAST 
Act.
    <bullet>  Create a separate Passenger Rail Trust Fund and identify 
new, long-term, dedicated revenues to significantly increase federal 
investment in high-speed and high-performance intercity passenger rail.
      <bullet>  Prior to the last Reauthorization, the American Public 
Transportation Association (APTA) recommended no less than $60 billion 
over six (6) years. Unfortunately funding for passenger rail under the 
FAST Act has been extremely limited.
    <bullet>  Make improvements to the Railroad Rehabilitation and 
Improvement Financing (RRIF) program. The Governor's plan envisions 
that that private sector investment will play a major role in financing 
the remaining segments between San Francisco and Los Angeles. 
Authorizing funds for the credit risk premium in RRIF, as is done for 
the TIFIA program, would allow states to better leverage private 
investments. Further, RRIF loans should expressly be treated as local 
share when used together with federal grants.
    <bullet>  The Committee should also consider extending the 
eligibility of TOD projects for RRIF financing. As we look at the 
extraordinary development around rail stations such as the Transbay 
Terminal in San Francisco, Google's investment next to the Rod Diridon 
Station in San Jose, and similar project planned for Fresno, Los 
Angeles and elsewhere, the link between these projects and the rail 
systems that spark them, more than justifies eligibility for federal 
rail financing.
    <bullet>  Ensure that any value capture tax credits authorized 
should also apply to equity investments in intercity passenger rail 
projects so that they may benefit from increased property values their 
projects bring to surrounding communities.
    <bullet>  Make new intercity and high-performance passenger rail 
projects eligible for advance acquisition of railroad right of way like 
that permitted for highway and public transit projects. This will 
permit projects to quickly enter into construction once environmental 
approvals are obtained, without the delays due to failure to obtain 
essential property rights in advance of contract approval that has 
hampered the start-up of the Central Valley Segment.

    Mr. DeFazio. I thank the gentlelady, and in particular 
thank you for the suggestions regarding how we can better 
facilitate this high-speed rail project and future projects.
    I just want to opine that I traveled to Spain a number 
times over the years. And when they built their first leg of 
true high-speed rail down to the coast, it was--you know, 
everybody is like--and then, after a lot of people in Spain got 
to ride, they said, ``Wait a minute, why did they get that?''
    And now they have gone all the way around the country, and 
it has transformed things there. People do travel very long 
distances very dependably to work in Madrid because of the 
high-speed rail. So you are exactly right in how that could 
facilitate in spreading a little more job opportunity and 
wealth to Jim's district and elsewhere in the State. So thanks 
for your advocacy, I appreciate that.
    You have any questions?
    OK, no questions. Thank you. OK, Mary Gay Scanlon arrived 
next, so I recognize her for 5 minutes.

    TESTIMONY OF HON. MARY GAY SCANLON, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Ms. Scanlon. OK. Thank you, Chairman DeFazio and members of 
the Transportation and Infrastructure Committee. It is a 
privilege to testify before you today on a range of issues of 
concern to my district.
    So the Fifth Congressional District of Pennsylvania is not 
only a major transportation quarter for the Northeast United 
States, having the I-95 corridor, Amtrak, et cetera, but it is 
also home to large transportation and infrastructure entities, 
such as the Philadelphia International Airport, the 
Philadelphia Port, Southeastern Pennsylvania Transportation 
Authority, the Philadelphia Shipyard, and the Philadelphia Navy 
Yard. Thousands of my constituents work in these industries and 
rely on continued investment in them in order to provide for 
their families and support their businesses.
    Two weeks ago I hosted a bipartisan transportation 
infrastructure forum with Members from our regional delegation 
at the Philadelphia Navy Yard. We were able to bring together 
many interested parties to discuss the needs of our region that 
would benefit from a substantial Federal infrastructure 
package. Participants included the CEO Council for Growth, a 
consortium of major industry leaders in Philadelphia, as well 
as labor leaders, policymakers, and other local groups.
    The hearing touched on many aspects of infrastructure 
improvements, from improving roads and bridges and rail 
service, to providing funding for public school infrastructure, 
and ensuring that we have a trained workforce ready to get to 
work as soon as possible.
    We saw strong bipartisan interest in getting infrastructure 
done, and heard repeated expressions of hope that all Members 
of Congress and the administration would work together to get 
an infrastructure bill across the finish line: a hope that I 
share.
    As you consider passing an infrastructure bill, I ask you 
to consider Pennsylvania's experience with infrastructure in 
2013. Our State legislature was able to work in a bipartisan 
manner to address our most pressing infrastructure needs 
because that is what was best for all of our communities.
    Act 89 resulted in the advancement of 2,600 transportation 
projects across the State, including rebuilding a railroad 
bridge that dated back to Grover Cleveland's administration 
just a few blocks from my house. These projects didn't just 
improve our roads, they provided jobs to thousands of 
Pennsylvanians and reduced costs for businesses.
    We know that for every dollar spent on infrastructure we 
see somewhere in the neighborhood of $3 in return. 
Infrastructure is truly one of the smartest investments we can 
make as a Nation, and will benefit every single community.
    Among the many concerns I hear from my district are the 
need to properly fund the Highway Trust Fund and Harbor 
Maintenance Trust Fund; to reauthorize the FAST Act; and to 
adjust the cap on the passenger facility charge; as well as to 
ensure that any repairs or construction are completed by a 
well-trained local workforce and in an environmentally 
sustainable manner.
    I am heartened by the preliminary discussions between the 
administration and congressional leadership to pursue a 
substantial bipartisan infrastructure package. But the longer 
we wait, the more our communities will continue to erode. The 
American Society of Civil Engineers rated Pennsylvania's 
infrastructure at a C-, only slightly better than the Nation's 
overall grade of D+, but not enough to assure our constituents 
that we are doing all we can to help fix these problems.
    Also, it is not enough to rebuild our infrastructure in the 
way that we have in the past. We have learned a lot about 
environmentally sustainable building practices, and it is 
critical that we use these technologies, and that they are 
prioritized in an infrastructure package.
    I am hopeful that any infrastructure bill that comes out of 
this House has significant direct Federal investment in our 
communities and provides the ability to leverage private 
dollars to make necessary improvements.
    In the case of airports, I support adjusting the passenger 
facility charge so that our airports can raise revenue to make 
necessary improvements and increase competition. Adjusting the 
cap on the PFC would allow airports to grow and to invest 
billions in our airports without laying the burden on 
taxpayers.
    Grant programs such as INFRA and BUILD also have been 
useful tools for funding infrastructure initiatives in my 
district, and I would encourage the committee to continue to 
fund programs like these.
    Having visited a number of schools during our recent 
district week, I want to urge that the most important 
investment that we can make is in our people, and particularly 
in our youth. I believe school infrastructure investments 
should be included in any infrastructure package, including 
projects such as those in Representative Bobby Scott's Rebuild 
America's Schools Act, that would help make long-term 
improvements to our public schools, alleviating overcrowding, 
decay, and inadequate learning conditions so that we can 
prepare students for 21st-century jobs.
    Again, thank you all very much for your time today. I wish 
you the best of luck as you take on this necessary and 
ambitious challenge.
    [Ms. Scanlon's prepared statement follows:]
                                 <F-dash>
   Prepared Statement of Hon. Mary Gay Scanlon, a Representative in 
             Congress from the Commonwealth of Pennsylvania
    Chairman DeFazio, Ranking Member Graves, and members of the 
Transportation and Infrastructure Committee, it is a privilege to 
testify before you today on a variety of issues of concern to my 
district.
    The Fifth District of Pennsylvania, my district, is a major 
transportation corridor for the Northeast United States and is also 
home to large transportation and infrastructure entities such as the 
Philadelphia International Airport, PhilaPort, Southeastern 
Pennsylvania Transportation Authority, the Philly Shipyard, and the 
Philly Navy Yard. Thousands of my constituents work in these industries 
and rely on continued investment in them in order to provide for their 
families.
    In April, I hosted a Transportation and Infrastructure forum in my 
district, bringing together many interested parties to discuss the 
needs of our region that would come out of a large federal 
infrastructure package. These included the CEO Council for Growth--a 
major industry consortium in Philadelphia--as well as labor leaders, 
engineering firms, and other local groups.
    The hearing touched on all aspects of infrastructure improvements, 
from improving roads and bridges to providing funding for public school 
infrastructure and ensuring we have a trained workforce ready to get to 
work as soon as possible.
    When you're looking at all of the ways to write this bill, I 
encourage you to take a look at how Pennsylvania dealt with 
infrastructure in 2013. Pennsylvania is a prime example of how we can 
work together in a bipartisan manner to address our most pressing 
infrastructure needs. When Act 89 was signed into law in 2013, it 
provided a roadmap for what the federal government can achieve if both 
sides come together to do what's best for all of our communities.
    Act 89 resulted in the advancement of 2,600 transportation projects 
across the state. These projects didn't just improve Pennsylvania's 
roads, they invested in local economies across the state and provided 
thousands of jobs to Pennsylvanians.
    We know that for every dollar spent on infrastructure, we see 
somewhere in the neighborhood of three dollars in return. 
Infrastructure is truly one of the smartest investments we can make as 
a nation and will benefit every single community in the United States.
    Among the many concerns I hear from my district are the need to 
properly fund the Highway Trust Fund and Harbor Maintenance Trust Fund, 
reauthorize the FAST Act, remove or adjust the cap on the Passenger 
Facility Charge, and ensure that any repairs or construction is 
completed by a well-trained local workforce.
    I am heartened by the preliminary discussions by the Administration 
and Congressional leadership, but the longer we wait the more our 
communities will continue to erode. The American Society of Civil 
Engineers rated Pennsylvania's infrastructure at ``C Minus,'' slightly 
better than the nation's overall grade of ``D Plus,'' but not enough to 
assure our constituents that we are doing all we can to help fix these 
problems.
    But it is not enough to rebuild our infrastructure the way we had 
done it decades before. We have learned a lot about environmentally-
sustainable building practices, and it is critical that these 
technologies are prioritized in an infrastructure package.
    I am hopeful that any infrastructure bill that comes out of this 
House has significant direct federal investment into our communities, 
and the ability to leverage private dollars to make necessary 
improvements. I would further urge the Committee to allow major 
transportation entities such as airports to come up with infrastructure 
funding parallel to a federal plan. In the case of airports, one such 
way that airports can raise revenue to make necessary improvements is 
by adjusting the cap on the Passenger Facility Charge.
    Adjusting the cap on the PFC would allow airports like PHL to grow, 
to be economic drivers, to increase competition, and to invest billions 
in our airports without laying the burden on taxpayers.
    Given how fraught discussions have already been with regards to 
raising revenues to pay for infrastructure investments, it would be in 
all of our best interest to allow responsible entities that are able to 
raise revenues for infrastructure improvements to do so without 
artificial federal caps.
    Grant programs such as INFRA and BUILD have also been useful tools 
for funding infrastructure initiatives in my district, and I would 
encourage the Committee to continue to fund these programs.
    The most important investment that we can make is in our people and 
particularly, in our youth. That is why I believe school infrastructure 
investments should be included in any infrastructure package--including 
language, such as that in Representative Bobby Scott's Rebuild 
America's Schools Act, that would help provide long-term improvements 
to our public schools, alleviating overcrowding and inadequate learning 
conditions and helping prepare students for a 21st century jobs.
    Thank you all very much for your time today, and I wish you the 
best of luck as you take on this necessary and ambitious challenge.

    Mr. DeFazio. I thank the gentlelady for her testimony. The 
things you mentioned were all brought up with the President 
yesterday. He was particularly interested in the Harbor 
Maintenance when I mentioned that there was a large, unspent 
balance. And he turned to his staff and said, ``Fix that.'' So 
I am going to get some hope with that, I hope.
    And then I appreciate your raising PFCs. We are in a 
titanic battle with the airlines. They would have you believe 
if your passenger facility charge to have more gates and planes 
not waiting on the tarmac and people not jammed into inadequate 
space--that if you pay a couple bucks more, you never fly 
again. But they will charge another $10 for your bag next week, 
and you are going to thank them and smile. So it will be a fun 
debate.
    So thanks very much, I appreciate your testimony.
    Next? OK. Back to California, the Honorable Jim Costa. We 
are doing it in order of arrivals.

TESTIMONY OF HON. JIM COSTA, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Costa. Thank you very much, Mr. Chairman and Ranking 
Member. I want to thank this committee for providing the 
opportunity for Members to make their presentations on 
important priorities and projects, not only for our districts, 
but for the entire country.
    I think that one of the most important things that we can 
do in this Congress on a bipartisan effort would be a major 
infrastructure package. And I know the chair is very keen on 
this, as well as many other Members.
    I am somewhat more hopeful, I think, today, after the 
meeting that was reported yesterday that the Chair participated 
in with other Members of the Democratic leadership. I think the 
investment of $2 trillion in America's infrastructure is 
probably on point, it is probably actually greater than that. 
Testimony last month between business and labor before Ways and 
Means Committee estimated a similar number. We have at least a 
$1 trillion backlog, just to rehabilitate existing 
infrastructure. And when we talk about the kind of investments 
we need to be making for the future in the 21st century, that 
is at least another $1 trillion.
    And the reality is that we are living off the investments 
our parents and our grandparents made a generation and two ago. 
And when we go to Europe and when we go to Asia and we see the 
wonderful infrastructure that is there, guess what? It is there 
because they paid for it. They made the investment.
    Now, while we can all agree that Republicans and Democrats 
alike want to invest in infrastructure, we know where the big 
obstacle has been recently, and that is how you fund it.
    This can't happen unless we can agree upon real money. I 
was in some of the initial conversations last year in the White 
House, and they had a framework, but they had no meat on the 
bone. And the meat on the bone is how do you fund this, because 
it doesn't become real.
    We have almost 30 States, including California, that have 
come up to the plate, so to speak. In California we have passed 
a 10-year program for $50 billion in investment, and over 20 
States have done similarly that are Republican-controlled 
legislatures. So this could be bipartisan.
    We haven't increased the gas tax since 1994. I don't think 
there is one single funding formula to deal with it. I think we 
have to look at a menu of funding formulas that will work that 
will invest it.
    So where do we go? We need to look at water. Our 
infrastructure is aging, not only in clean drinking water, but 
in water supply.
    In terms of climate change, clearly we need to understand 
that the food that goes on America's dinner table every night 
doesn't happen unless we have a reliable water supply. And with 
climate changing out in the West and other parts of the 
country, we know how critical that water resource is. But we 
have many communities that are suffering from not having 
adequate clean drinking water, as well.
    We have boating and harbors that also need to be invested 
in.
    Let's talk about transportation. Clearly, this is the focus 
of this committee, and our roadways are aging, our bridges and 
such. This will be key. Having carried multibillion-dollar 
measures in California to fund our transportation system, I can 
tell you that it is a mix of using all the transportation 
modes, because there is no single one mode that is going to 
deal with commerce, deal with moving people back and forth, and 
using 21st-century technologies.
    As a cochair, along with Congresswoman Lofgren and 
Congressman Lou Correa, for the high-speed rail effort in 
California, having carried the original high-speed rail measure 
that would provide multibillion-dollar funding at the State 
level, we need the Feds to step up to the plate. We have 
corridors in Florida, Texas, California and other parts of the 
country.
    And guess what? When you look at those marvelous high-speed 
rail systems in Europe and in Japan and in China, it wasn't 
rocket science in how they built them. They built them because 
the national governments decided that they wanted to make a 
commitment, and they would make it happen. And they have made 
that long-term commitment.
    You know, I wonder today, when we talk about high-speed 
rail, if President Lincoln had been posed with the same 
question during the Civil War, during inflation, during perhaps 
the most divisive time in our country's history, and they said, 
``Gee, Abe, why don't you wait until your second term?'' I mean 
it happens when you put real money to make it happen.
    And so I think matching funds, I think we should reward 
States in all modes, whether we are talking about high-speed 
rail, whether we are talking about roadways, freeways, bridges. 
For States and local governments that have skin in the game, we 
ought to reward them.
    And with that, Mr. Chairman, I commit to helping this 
committee and this Congress pass this bipartisan infrastructure 
package because it is not only our future, but it is jobs, and 
it will improve the economy, and we should not forget that. 
Thank you.
    [Mr. Costa's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Jim Costa, a Representative in Congress from 
                        the State of California
    Thank you very much, Mr. Chairman and Ranking Member. I want to 
thank this committee for providing the opportunity for Members to 
present on our priorities and projects, not only for our respective 
districts but also for our country.
    I think one of the most important things we can do in this Congress 
would be a major, bipartisan infrastructure package. I know that the 
Chair, and many other members, are keen on the idea. I am more hopeful 
after yesterday's meeting with the Chair and other Democratic 
Leadership. An investment of 2 trillion dollars in America's 
infrastructure is on point. Testimony last month before the Ways and 
Means Committee between business and labor estimated a similar figure. 
We have at least a trillion dollars dedicated to rehabilitating 
existing infrastructure. In addition to that, the necessary future 
investment will be at least another trillion dollars.
    The reality is that we are living off the investments that our 
parents (and our grandparents) made a generation (or two) ago. Look at 
the success Asian or European infrastructure renewal. Guess what? It's 
only there because they paid for it. They made the investment. We can 
all agree that Democrats and Republicans all want to invest in 
infrastructure. But we can also all recognize the main obstacle to that 
goal: how to fund it. This can't happen unless we can agree upon real 
money. The White House put forward a framework last year, but it had no 
meat-on-the-bone. They didn't put forward any funding plan. Without it, 
it an infrastructure plan cannot become real.
    Many states--including my home state of California--have come up to 
the plate. In California, we passed a 10-year program for $50 billion 
dollars in investment. Over 20 other states, many with Republican-
controlled legislatures, have passed similar measures. We haven't 
increased the gas since 1994. I don't think that there is one single 
funding formula. Instead, we should look at a menu of choices. So where 
do we go?
    We need to look at water. Our water infrastructure is aging. We 
absolutely need to invest in clean drinking water. At the same time, we 
also need to invest in our overall water supply. The food on American 
tables every night depends on a reliable water supply. The reality of 
climate change has made reliable water reserves even more critical.
    On transportation, our roadways and bridges are aging. 
Transportation infrastructure renewal will be key. Having carried 
multi-billion dollar measures in California to fund our transportation 
system, I can tell you it's a mix of using all modes of transportation. 
There is no single mode of transportation that addresses all needs. 
Furthermore, we need to update and invest in 21st-century technologies. 
Along with co-chairs Congresswoman Zoe Lofgren and Congressman Lou 
Correa, I have worked to provide billions of dollars of state money for 
High Speed Rail in California. But now we need the Federal Government 
to step up to the plate.
    And guess what? It's no mystery how Europe, Japan, and China built 
their high-speed rail system. It's not rocket science. They were able 
to build them because their national governments decided to make a 
commitment. They made it happen; they made a long-term commitment. I 
wonder how President Lincoln would have reacted, posed with the 
question of the transcontinental rail road during the Civil War, to 
critics who said, `Abe, why don't you wait until your second term?'
    It happens only when you put real money on the table to make it 
happen. I think we should reward states for investing in all modes of 
transportation--whether that's high speed rail, roadways, freeways, or 
bridges. I think we should match funds and reward states and local 
governments that have skin in the game.
    With that, Mr. Chairman, I commit to helping this committee and 
this Congress to pass this bipartisan infrastructure package because 
it's not just our future, it is also jobs, and it will improve our 
economy. I look forward to working with you on this critical issue. We 
have our work cut out for us. I believe with the right attitude--and 
real money--we can make it happen.

    Mr. DeFazio. I thank the gentleman. I thank him for his 
advocacy on the Ways and Means Committee, and look forward to 
working with you on funding mechanisms. We didn't come to 
resolution of that part yesterday, but we are committed to 
discussing that in the next meeting. And I remain hopeful that 
we can move forward.
    And also your point about self-help is well taken. Last 
year's proposal by the administration would have rewarded 
future self-help, and I said, ``Well, wait a minute. You are 
going to have to do a little bit of a look-back for those 
States that already did a heavy lift,'' because a State that 
hasn't done anything in 20 years, won't be too hard for them to 
actually do something. But States that have already made a 
major contribution shouldn't be penalized. So that is going to 
be a tricky part of the bill, but I am definitely going to work 
on that.
    Mr. Costa. And I look forward to working with you on it. It 
is critical, and we have our work cut out for us. But I think 
if we have the right attitude and we put the real money there, 
we can make it happen.
    Mr. DeFazio. Thank you. I thank the gentleman. If there are 
no questions, thank you.
    And next? OK. Nydia Velazquez from New York would be next 
in order of arrival.
    Nydia?
    Ms. Velazquez. Chairman.
    Mr. DeFazio. Chairwoman of the Small Business Committee.

   TESTIMONY OF HON. NYDIA M. VELAZQUEZ, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Velazquez. Thank you. Thank you. Mr. Chairman and 
Ranking Member, thank you for the opportunity to testify about 
a very important piece of oversight legislation, H.R. 229, a 
bill to create a 9/11-style commission to investigate the 
Federal response to the aftermath of Hurricane Maria.
    As you all know, Hurricane Maria devastated Puerto Rico. It 
took more than 2 years to fully restore power, 
telecommunication services, and potable water. These services 
remain spotty in many areas.
    The islands suffered over $90 billion in damage, and an 
estimated 3,000 people lost their lives, far exceeding the 
official numbers reported by the local and Federal Governments 
at the time.
    My legislation, H.R. 229, will create a nonpartisan 
commission to look at how the administration's response to this 
disaster was shaped by the artificially low death toll. It will 
also examine the adequacy of the steps taken by the Federal 
Government to prepare for the hurricanes and what went wrong 
with the Federal response in the weeks after the storms made 
landfall.
    Equally as important, the commission will be tasked with 
examining any potential disparities in the Federal response to 
Puerto Rico compared with 2017 mainland disasters.
    As we have seen, the response in Puerto Rico was slower and 
less effective than in places like Texas after Hurricane 
Harvey.
    Compounding a lackluster Federal response was the series of 
botched FEMA contracts that delayed delivery of crucial 
supplies such as tarps and meals.
    Frustratingly, the Puerto Rican Government continues to 
fight FEMA for adequate funding to repair or replace damaged 
hospitals, schools, and infrastructure. It is critical that we 
get answers to why this administration keeps moving the goal 
posts on permanent work projects, while the communities of 
Puerto Rico continue to suffer nearly 2\1/2\ years later.
    Thousands of our fellow American citizens perished in this 
catastrophe. We need an independent, nonpartisan panel to fully 
investigate and bring to light all the facts. We also need 
recommendations on ways to prevent such a humanitarian 
catastrophe from happening again on American soil.
    I am confident that H.R. 229 will provide the forum and the 
opportunity to get to the bottom of reasons for the abject 
failure of the Federal response to the 2017 natural disasters 
in Puerto Rico.
    And with that I thank the chairman and the ranking member.
    [Ms. Velazquez's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Nydia M. Velazquez, a Representative in 
                  Congress from the State of New York
    Members of the Committee, thank you for the opportunity to testify 
about a very important piece of oversight legislation--H.R. 229, a bill 
to create a ``9/11-style'' commission to investigate the federal 
response to the aftermath of Hurricane Maria.
    As you all know, Hurricane Maria devastated Puerto Rico. It took 
more than two years to fully restore power, telecommunications 
services, and potable water. These services remain spotty in many 
areas.
    The island suffered over $90 billion in damage, and an estimated 
3,000 people lost their lives--far exceeding the official numbers 
reported by the local and federal governments at the time.
    My legislation, H.R. 229, would create a non-partisan commission to 
look at how the administration's response to this disaster was shaped 
by the artificially low death toll. It would also examine the adequacy 
of the steps taken by the federal government to prepare for the 
hurricanes, and what went wrong with the federal response in the weeks 
after the storms made landfall.
    Equally as important, the Commission would be tasked with examining 
any potential disparities in the federal response to Puerto Rico 
compared with 2017 Mainland disasters. As we have seen, the response in 
Puerto Rico was slower and less effective than in places like Texas 
after Hurricane Harvey. Compounding a lackluster federal response was a 
series of botched FEMA contracts that delayed delivery of crucial 
supplies such as tarps and meals.
    Frustratingly, the Puerto Rican government continues to fight with 
FEMA for adequate funding to repair or replace damaged hospitals, 
schools, and infrastructure.
    It is critical that we get answers to why this administration keeps 
moving the goal posts on permanent work projects, while the communities 
of Puerto Rico continue to suffer nearly 2 and a half years later.
    Thousands of our fellow American citizens perished in this 
catastrophe. We need an independent, nonpartisan panel to fully 
investigate and bring to light all the facts. We also need 
recommendations on ways to prevent such a humanitarian catastrophe from 
happening again on American soil.
    I'm confident that H.R. 229 will provide the forum and the 
opportunity to get to the bottom of reasons for the abject failure of 
the federal response to the 2017 natural disasters in Puerto Rico.
    Thank you.

    Mr. DeFazio. I thank the gentlelady for her testimony. I 
visited Puerto Rico last year and saw what incredible 
devastation there was, and intend to get the committee down 
there again to see what little progress we have made. And I 
look forward to working with her on that issue.
    So thank you.
    Ms. Velazquez. Thank you.
    Mr. DeFazio. We have 10 minutes 22 seconds to--well, 
theoretically--a vote. And so I will recognize Representative 
Takano.
    For Joe and Elissa, we will reconvene after votes and hear 
your testimony then.
    So, Mark, go right away. The chairman of the Veterans' 
Affairs Committee.

  TESTIMONY OF HON. MARK TAKANO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Takano. Thank you, Chairman DeFazio, Ranking Member 
Graves, and members of this committee for the opportunity to 
testify today.
    This is a watershed moment for this Congress, as we 
contemplate the clearest path forward to address the investment 
deficit facing our Nation's infrastructure. Our highways, 
airways, and waterways form the arteries that drive our Nation 
and its economy forward, and it will be critical that any 
infrastructure priorities to move out of this committee truly 
reflect our values as a Nation.
    And while most of the debate around infrastructure is 
largely dominated by talks of funding, I am here to discuss an 
even more important element in the debate: the human element. 
This committee is about moving people, goods, and services 
safely and efficiently across the country. But without a 
vigorous and organized workforce we could do none of these 
things. And that is why I am here today to share an experience 
from my district that undermined our workforce, and the lessons 
I have learned going forward.
    As members of this committee may know, Amtrak used to 
maintain a reservation call center in my congressional 
district, in Riverside, California, before outsourcing those 
jobs to a foreign-owned call center in Florida. In just a few 
weeks' time, nearly 500 highly paid unionized jobs were traded 
for low-paying contract work. It was a clear union-busting 
maneuver that forced the attrition of hardworking employees 
with good salaries and good benefits.
    Hundreds of my constituents and their families had just 60 
days' notice before deciding whether to uproot their lives and 
accept another Amtrak job across the country in Philadelphia, 
or accept a relatively meager severance package and keep their 
families rooted in the community they grew up in and love. 
These practices should have no place in our country, and 
certainly not at Amtrak, an American corporation that is 
majority owned by the Federal Government and receives billions 
of tax dollars to subsidize their service.
    That is why, as the committee develops its legislative 
agenda, I am urging my colleagues to take greater steps to 
protect American workers and mitigate Amtrak's ability to 
further undermine our workforce and its national network of 
passenger rail service. And we can achieve this by requiring 
Amtrak to provide at least 6 months' notice to union 
stakeholders, employees, and Members of Congress before making 
any major staffing decisions; considering stronger anti-
outsourcing provisions in future surface transportation 
reauthorizations; and closing loopholes that Amtrak has since 
used to adhere to the letter, but not the spirit, of the law.
    Now, I hope this committee will consider language that 
works toward this end, not only out of respect for the families 
impacted in Riverside, but also the families who may find 
themselves facing a similar situation in other parts of the 
country at the hands of Amtrak.
    Thank you, and I yield back, Mr. Chair.
    [Mr. Takano's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Mark Takano, a Representative in Congress 
                      from the State of California
    Chairman DeFazio, Ranking Member Graves, and Members of the 
Committee, thank you for the opportunity to testify today.
    This is a watershed moment for this Congress as we contemplate the 
clearest path forward to address the investment deficit facing our 
nation's infrastructure.
    Our highways, airways, and waterways form the arteries that drive 
our nation and its economy forward--and it will be critical that any 
infrastructure priorities to move out of this committee truly reflect 
our values as a nation.
    While most of the debate around infrastructure is largely dominated 
by talks of funding, I am here to discuss an even more important 
element in the debate--the human element.
    This committee is about moving people, goods, and services safely 
and efficiently across the country. But without a vigorous and 
organized workforce, we could do none of those things.
    That is why I am here today to share an experience from my district 
that undermined our workforce and the lessons I've learned going 
forward.
    As the members of this committee may know, Amtrak used to maintain 
a reservation call center in my Congressional district in Riverside, CA 
before outsourcing those jobs to a foreign-owned call center in 
Florida.
    In just a few weeks' time, nearly 500 highly-paid unionized jobs 
were traded for low-paying contract work.
    It was a clear union-busting maneuver that forced the attrition of 
hard-working employees with good salaries and good benefits.
    Hundreds of my constituents and their families had just 60 days' 
notice before deciding whether to uproot their lives and accept another 
Amtrak job across the country in Philadelphia--or accept a relatively 
meager severance package and keep their families rooted in the 
community they grew up in and love.
    These practices should have no place in our country, and certainly 
not at Amtrak--an American corporation that is majority owned by the 
federal government and receives billions of tax dollars to subsidize 
their service.
    That is why as the committee develops its legislative agenda, I am 
urging my colleagues to take greater steps to protect American workers 
and mitigate Amtrak's ability to further undermine our workforce and 
its national network of passenger rail service.
    We can achieve this by:
    <bullet>  Requiring Amtrak to provide at least 6 months' notice to 
union stakeholders, employees, and Members of Congress before making 
any major staffing decisions;
    <bullet>  Considering stronger anti-outsourcing provisions in 
future surface transportation reauthorizations;
    <bullet>  And closing loopholes that Amtrak has since used to 
adhere to the letter, but not the spirit, of the law.

    I hope this committee will consider language that works toward this 
end, not only out of respect for the families impacted in Riverside but 
also the families who may find themselves facing a similar situation in 
other parts of the country at the hands of Amtrak.
    Thank you and I yield back.

    Mr. DeFazio. Well, I thank the gentleman for his strong 
advocacy for the hardworking people in his district who lost 
their jobs at Amtrak under disturbing circumstances. And I look 
forward to working with him.
    I do expect that we will, in all probability, include 
Amtrak in our infrastructure package. That wasn't decided 
yesterday, but I am hopeful, and that would give us an 
opportunity to make some changes to address some of your 
concerns. So thank you.
    Mr. Takano. Yes, Mr. Chairman, I thank you for your 
consideration, I really do. Thank you.
    Mr. DeFazio. Thanks. OK, the committee will stand in recess 
until the votes are concluded.
    [Recess.]
    Mr. DeFazio. And in the order of arrival, we will first 
hear from the Honorable Elissa Slotkin from Michigan. Five 
minutes.

TESTIMONY OF HON. ELISSA SLOTKIN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Ms. Slotkin. Thank you, sir. I appreciate the opportunity. 
Thank you for having those of us who couldn't make it out of 
the committee come and testify in front of you. And to the 
ranking member, when he returns, thank you, sir.
    Infrastructure, particularly when it comes to the State of 
Michigan's roads, is one of our most critical and most 
bipartisan issues in Michigan's Eighth Congressional District 
and across our State. In Michigan and perhaps in many States, 
we desperately need once-in-a-generation Federal investment in 
our roads and water infrastructure to be able to accomplish the 
hard work of repairing these systems to last.
    In these times of deep political division and partisanship, 
no matter where you stand politically, the disastrous state of 
our roads in Michigan is something everyone can agree on. 
Michigan drivers spend, on average, $539 per year to repair 
their automobiles, due to the state of our roads. Thirty-eight 
percent of our State's urban roads are in poor condition, and 
roughly one-third of fatal traffic accidents are the result of 
hazardous roadways, roadway features like potholes. I have got 
901 bridges in my district; 115 are classified as structurally 
deficient, so 1 out of 9.
    But addressing our roads and bridges literally scratches 
the surface of the infrastructure challenges we are facing in 
Michigan. It is also the infrastructure that we can't see, our 
water infrastructure, that really is the subject of my comments 
today.
    I live 15 minutes from Flint, Michigan, and I just want to 
put on the record that I think Michigan is going to be the 
first State in the country to have to grapple with the 
existential question of whether clean water out of our taps is 
a right or a privilege. And I believe it is a right. We have 
contaminated systems; we have corroded pipes. It is directly 
threatening the safety and security of our families.
    We also, in addition to lead, have a PFAS contamination 
problem. For those who don't know what PFAS is, everyone will 
soon know what it is. In Michigan and in other industrial 
Midwestern States, high levels of PFAS have been detected in 
thousands of sites--in my district, 34 sites. It is a chemical 
that is found in municipal drinking water serving more than 2 
million people across my State, in 54 schools, including 5 
schools in my district.
    And last summer the Michigan Department of Health and Human 
Services issued an emergency do-not-eat advisory for the fish 
from the Huron River, a big river in my district. And then, 
just before hunting season, announced that you couldn't eat the 
venison that forage around the river.
    To me, the issue of security of our water--we literally 
need to start thinking of environmental security the way we 
think of homeland security. It is about the safety and security 
of our families, and the preservation of our way of life. And I 
consider that--our water systems, in particular, a security 
threat.
    So luckily, investing in our infrastructure enjoys broad 
support. Both parties know we have to do something about our 
infrastructure.
    I will urge everyone on the committee to please do more 
than what we did last Congress, which was to explain how we are 
going to pay for it. The people in my State are really tired of 
the good words. They really want to understand, and are willing 
to sacrifice in order to pay for infrastructure. But having 
another bill that does not explain the clear payment, I 
believe, means we have abrogated our responsibility as a 
Congress.
    Private investors will only commit real resources to build 
or maintain projects where they expect to get investment. If we 
lean too much on States or private investments, States like 
mine just won't be able to adequately address the security 
challenges from the infrastructure.
    I would ask this committee, as well as our senior 
leadership here in Washington, to consider Michigan as you 
undergo your appropriations and your work moving forward. Our 
residents in the Eighth Congressional District are counting on 
you all, and I really appreciate the opportunity to speak.
    [Ms. Slotkin's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Elissa Slotkin, a Representative in Congress 
                       from the State of Michigan
    Thank you Mr. Chairman and Ranking Member for the opportunity to 
share my transportation and infrastructure priorities.
    Mr. Chairman and Ranking Member, infrastructure, particularly when 
it comes to the state of Michigan's roads, is one of the most 
critical--and the most bipartisan--issues in Michigan's 8th district, 
and across our state.
    My home state of Michigan, perhaps more than most states, 
desperately needs a once-in-a-generation federal investment in our 
roads and water infrastructure to be able to accomplish the hard work 
of repairing these systems to last.
    In these times of political partisanship and division, no matter 
where you stand politically, the disastrous state of our roads is 
something everyone in Michigan can agree on.
    <bullet>  Michigan drivers spend an average of $539 annually in 
automobile repair costs.
    <bullet>  38% of our state's urban roads and 32% of its rural roads 
are in poor condition.
    <bullet>  Of the 901 bridges in my district, 115, or 12.8%, are 
classified as structurally deficient. We have seen in this country the 
tragedies that can occur when bridges aren't properly built or 
maintained. Repairing Michigan's bridges will cost an estimated $205.1 
million.
    <bullet>  What's more, roughly 1/3 of fatal traffic accidents are 
the result of hazardous roadway design or features, like potholes.

    But addressing our roads and bridges literally scratches the 
surface of the infrastructure challenges facing our state.
    It is also the infrastructure that we can't see: our water 
infrastructure systems are contaminated and corroded, and directly 
threatening the safety and security of our families.
    <bullet>  Flint is a 20-minute drive from my district, and 
communities in the 8th district have begun to test their water, but 
don't have the resources to upgrade their systems in response.
    <bullet>  Michigan is also confronting widespread PFAS 
contamination in our water--chemicals that we know are linked to cancer 
and other diseases.
    <bullet>  In Michigan alone, high levels of PFAS have been detected 
at 34 sites, including at Diamond Chrome Plating in my district in 
Howell.
    <bullet>  In addition, these chemicals have been found at some 
level in the municipal drinking water serving more than 2 million 
people around the state. PFAS has been detected in 54 Michigan schools, 
including five schools in the 8th Congressional District.
    <bullet>  Last summer, the Michigan Department of Health and Human 
Services issued an emergency ``do not eat'' advisory regarding all fish 
from the Huron River, from Milford in Oakland County to Base Line and 
Portage Lakes at the Livingston and Washtenaw county border, after fish 
from Kent Lake were discovered to have very high levels of PFOS.

    Let me be clear: I believe that access to clean water out of your 
tap is a right, not a privilege. And I believe it's an issue of 
environmental security that we need to treat for what it is: a homeland 
security issue.
    And when Michigan families can't be confident that the water they 
are giving their children to drink may make them sick or give them a 
learning disability; when they can no longer fish in the rivers or hunt 
in the areas they have hunted for years with their family--that is a 
threat to families' security, and to our way of life in Michigan.
    In other words, our infrastructure in Michigan has become a 
security threat. So what do we do to fix it?
    Luckily, we know that investing in our infrastructure enjoys broad 
bipartisan support. Both parties have said the right things on 
infrastructure--it's time to back that up with real federal dollars 
that can help states like mine.
    That means explaining to people how we're going to pay for that 
investment. If we don't establish a clear ``pay-for,'' I believe we 
will have abrogated our responsibility to solve this issue.
    Private investors will only commit resources to build or maintain 
projects where they expect to get their investment, plus some profits, 
back. If we lean too much on the states or private investments, states 
like mine just won't be able to adequately address the security 
challenges that infrastructure poses.
    I ask that this committee, as well as our senior leadership here in 
Washington, consider Michigan as you undergo your appropriations and 
your work on this issue moving forward.
    8th district residents are counting on you to provide real federal 
investment in our national infrastructure.
    Thank you.

    Mr. DeFazio. I thank the gentlelady for her testimony.
    You will be happy to know that yesterday, in fact, Michigan 
was raised specifically in regards to water infrastructure 
needs. This committee has jurisdiction over wastewater, in an 
odd way we do things around here. The Committee on Energy and 
Commerce has drinking water. I think they kind of go together, 
but we are trying to work together. But both were substantively 
agreed to in the infrastructure discussion.
    So now all I have to do is figure out how we pay for it, 
which I know you didn't want to hear, but that is our next step 
when we meet again with the President. And he wanted to meet 
when his Secretary of Treasury could be there, who is over in 
China, negotiating with the Chinese.
    So anyway, thanks for your testimony. And my invisible 
ranking member doesn't have any questions, and I have no 
questions, so thank you.
    Ms. Slotkin. Thank you, sir.
    Mr. DeFazio. OK. Is Joe next? OK, the Honorable Joe Neguse 
is next, from Colorado.

TESTIMONY OF HON. JOE NEGUSE, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF COLORADO

    Mr. Neguse. Thank you, Mr. Chairman. Thank you to the 
visible ranking member, as well, for the opportunity to have 
Members testify in front of this committee today. We very much 
appreciate it, and I know particularly my freshman colleagues 
appreciate the opportunity to be able to visit with you, Mr. 
Chair. And I want to thank you for your leadership. I very much 
appreciate your willingness and ability to lead with respect to 
potentially--an infrastructure package that would address the 
crumbling roads and bridges and highways across our country.
    As you know, Mr. Chair, I represent the great Second 
Congressional District of the State of Colorado: Boulder, Fort 
Collins, northern Colorado, and many mountain communities. And 
my constituents are certainly looking to leaders in Washington 
and representatives of this committee to prioritize much-needed 
investments in our infrastructure.
    At the heart of my district we are in need of investments 
for the critical transportation corridors of Interstate 70, 
U.S. 36, and Interstate 25 that stretch across our State. 
Investment in our highway system would reduce hazardous 
congestion and provide economic development through jobs, and 
accessibility for our local businesses.
    In our mountain communities, in particular in Summit and 
Eagle Counties, which I am proud to represent, as well as Clear 
Creek County and the cities of Idaho Springs and Breckenridge 
and Frisco, we are in need of significant infrastructure 
investment to meet the need of population growth and heavy 
tourist traffic. And that includes, as well, investment in 
rural housing, rural broadband, and, yes, transportation.
    With respect to transportation infrastructure, improvements 
to Floyd Hill westbound I-70 mountain corridor, it is one of 
the most congested, from Floyd Hill to the Veterans Memorial 
Tunnel. And investment by this Congress and this committee 
would certainly go a long way to alleviating those challenges.
    In addition, the I-25 northern corridor, it is the primary 
north-south interstate highway into northern Colorado, 75,000 
vehicles per day. And over the past 20 years there has been a 
425-percent population increase in that area of our State. And, 
of course, the infrastructure has not kept up with those needs. 
As members of this committee might be aware, our region and our 
State in Colorado has grown very rapidly, and our current 
infrastructure is simply no longer able to meet the needs of 
the population.
    And so we want to ensure that our municipalities are 
equipped with infrastructure that is sustainable and green, as 
I know the chairman has often discussed in the past, and moves 
our communities closer to our goals for addressing climate 
change, as well. Many communities in my district have pledged 
to go green, and are looking for opportunities to benefit the 
region's rapid growth, while staying true to their 
environmental principles and goals.
    Finally, I want to encourage the committee--and I know--I 
heard the comments made by several of my colleagues already on 
this issue--to include education and school buildings when 
considering a comprehensive infrastructure package.
    Just last week, during the congressional recess, I had the 
opportunity to visit a number of schools in my district in 
Larimer County and Thompson School District, Loveland, Fort 
Collins. And you know, there are a lot of building needs, areas 
where the buildings are dilapidated and in need of funding, and 
it is simply unacceptable that our country's students are 
expected to learn in buildings that are, in many cases, not 
simply just falling apart, but unsafe to inhabit.
    And so I am proud to cosponsor Chairman Bobby Scott's 
Rebuilding America's Schools Act, and I would strongly urge its 
inclusion in the infrastructure package.
    And with that, again, I appreciate, Mr. Chair, the 
opportunity to testify today, and for your work and your 
leadership on this issue.
    [Mr. Neguse's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Joe Neguse, a Representative in Congress 
                       from the State of Colorado
    Across the 2nd District of Colorado, my constituents are looking to 
leaders in Washington and representatives of this Committee, to 
prioritize much needed investments in our infrastructure.
    At the heart of my district, we are in need of investments for the 
critical transportation corridors of I-70, US-36 and I-25 that stretch 
across our state. Investment in our highway system would reduce 
hazardous congestion, and provide economic-development through jobs and 
accessibility for our local businesses.
    In our mountain communities, in Summit and Eagle Counties, we are 
in need of significant infrastructure investment to meet the need of 
population growth and heavy tourist traffic, this includes investment 
in rural housing, rural broadband and transportation. These investments 
would have wide-reaching benefits including providing businesses with 
much needed revenue, workers the ability to access jobs across our 
region and the housing they need.
    Our region has grown rapidly, and our current infrastructure is no 
longer able to meet the needs of the population. We want to ensure our 
municipalities are equipped with infrastructure that is sustainable and 
green, and moves our communities closer to our goals for addressing 
climate change. Many of our cities have pledged to ``go green'' and are 
looking for opportunities to benefit the region's rapid growth while 
staying true to their environmental principles and goals.
    Further, I encourage the committee to include education and school 
buildings when considering a comprehensive infrastructure package. Just 
last week, I visited schools in my district where buildings are 
literally crumbling. It's simply unacceptable that our country's 
students are expected to learn in buildings that are not only falling 
apart, but in many cases unsafe to inhabit. I'm a proud cosponsor of 
Chairman Bobby Scott's Rebuilding America's Schools Act and strongly 
encourage its inclusion in an infrastructure package.
    I implore the Committee to take into consideration the needs of my 
district as they look to an infrastructure package. This is a 
fundamental area that we need to be focusing on, and a chief priority 
across my district and one I believe one that we can get done even with 
a divided government.

    Mr. DeFazio. Well, thanks for those kind words, Joe. We 
will see if we get to an end point here on how we raise the 
money and pay for these infrastructure, writ large. But I 
appreciate your testimony, thank you.
    Now--Buddy is next, right? Yes, OK, the Honorable Buddy 
Carter, Georgia. Five minutes.

TESTIMONY OF HON. EARL L. ``BUDDY'' CARTER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Carter. Thank you, Mr. Chairman, and thank you for 
hosting us today. I appreciate it very much, the opportunity to 
testify in front of the Transportation and Infrastructure 
Committee for Members' Day.
    Mr. Chairman, like many of the Members here, I believe that 
it is pertinent to raise infrastructure priorities that will 
address many of the problems facing our Nation. For that 
reason, I would like to submit the following testimony on 
issues in your jurisdiction.
    First of all, I would like to mention the importance of 
updating the passenger facility charge, which is important for 
many airports across the country. In my district alone, I have 
a number of airports that have stressed how critical it is that 
they are provided additional flexibility under the passenger 
facility charge to make improvements.
    Mr. Chairman, while the United States once led in aviation 
and the structures to make it commercially viable, we are now 
being left behind as those airports age. By addressing the caps 
for the passenger facility charge, we can give airports in 
nearly every congressional district the opportunity to 
modernize and meet their constituents' needs.
    One thing to remember is those charges are locally spent 
and locally imposed.
    Second, it would be beneficial to augment the Airport 
Improvement Program for small, medium, and nonhub airports. 
This program is essential in providing grants for the planning 
and development of commercial airports. Smaller airports are 
often an economic engine for communities that don't have access 
to large commercial airports, and they provide an important 
link. As we see more traffic moving to a hub-and-spoke model, 
these smaller, nonhub airports are critical to ensuring that 
people can continue to access these communities they serve.
    Finally, infrastructure needs include airports, but they 
also go much further. I am honored to represent two major 
seaports, Savannah and Brunswick, which are growing at an 
incredible speed. Much of that is due to great management, 
local investment, and a continued working model of a public-
private partnership with the Federal Government. As we continue 
to look towards the Nation's infrastructure needs, I believe it 
is pertinent to look at these projects delivering a high 
benefit-to-cost ratio, and to examine how those successes can 
be utilized in the larger scheme of infrastructure funding.
    I know this committee will work diligently under your 
leadership, Mr. Chairman, to address the Nation's 
infrastructure needs. And I thank you for the opportunity to 
provide this testimony today.
    [Mr. Carter's prepared statement follows:]
                                 <F-dash>
 Prepared Statement of Hon. Earl L. ``Buddy'' Carter, a Representative 
                 in Congress from the State of Georgia
    Mr. Chairman and Ranking Member, thank you for the opportunity to 
testify in front of the Transportation & Infrastructure Committee for 
Members' Day. Mr. Chairman, like many of the members here, I believe 
that it is pertinent to raise infrastructure priorities that will 
address many of the problems facing our nation. For that reason, I 
would like to submit the following testimony on issues in your 
jurisdiction.
    First, I'd like to mention the importance of updating the passenger 
facility charge which is important for many airports across the 
country. In my district alone, I have a number of airports that have 
stressed how critical it is that they be provided additional 
flexibility under the passenger facility charge to make improvements. 
Mr. Chairman, while the United States once lead in aviation and the 
structures to make it commercially viable, we are now being left behind 
as those airports age. By addressing the caps for the passenger 
facility charge, we can give airports in nearly every congressional 
district the opportunity to modernize and meet their customers' needs. 
One thing to remember is those charges are locally spent and locally 
imposed.
    Second, it would be beneficial to augment the Airport Improvement 
Program for small, medium, and non-hub airports. This program is 
essential in providing grants for the planning and development of 
commercial airports. Smaller airports are often an economic engine for 
communities that don't have access to large, commercial airports and 
they provide an important link. As we see more traffic moving to a hub 
and spoke model, these smaller and non-hub airports are critical to 
ensuring that people can continue to access these communities they 
serve.
    Finally, infrastructure needs include airports, but they also go so 
much further. I'm honored to represent two commercial ports, Savannah 
and Brunswick, which are growing at an incredible speed. Much of that 
is due to great management, local investment, and a continued working 
model of a public-private partnership with the federal government. As 
we continue to look towards the nation's infrastructure needs, I 
believe it is pertinent to look at these projects delivering a high 
benefit-to-cost ratio and to examine how those successes can be 
utilized in the larger scheme of infrastructure funding.
    I know this committee will work diligently to address the nation's 
infrastructure needs and I thank you for the opportunity to provide 
testimony today.

    Mr. DeFazio. Well, thanks, Buddy. You will be happy to 
hear, in reference to harbors, that when I told the President 
we had collected $9 billion in taxes for harbor maintenance 
that was sitting somewhere over in the Treasury, he pointed to 
his staff and said, ``Fix that.'' So I think maybe we are going 
to finally get that one done, and that will help with your 
ports and other ports around the country.
    Mr. Carter. Thank you. That is good news.
    Mr. DeFazio. Yes.
    Mr. Carter. And I appreciate your efforts.
    Mr. DeFazio. And on the PFC I appreciate your support. You 
know it is the most cost-effective way to deal with airport 
needs for security and capacity. And I have got--the airports 
this year have provided really good documentation showing how 
much enplanement costs or interest costs would go up if they 
don't have access to a PFC. And, you know, I think that we are 
going to pursue that route, also. So I appreciate your support 
in that.
    Mr. Carter. Thank you very much.
    Mr. DeFazio. Thank you for your testimony.
    Mr. Carter. Yes, sir.
    Mr. DeFazio. Thank you. OK. We will now--5 minutes for the 
Honorable Dean Phillips.

 TESTIMONY OF HON. DEAN PHILLIPS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Phillips. Thank you, Mr. Chairman. I have the great 
honor of representing Minnesota's Third Congressional District, 
which includes the western Twin Cities metro area, and home to 
the Mall of America, Paisley Park Studios, and historic Lake 
Minnetonka.
    Our community is a microcosm of our State and entire 
region. We are suburban, exurban, and rural. We are wonderfully 
diverse, highly educated, and home to some of the most 
successful businesses in America, from Cargill to CH Robinson 
to United Health Group. Districts like ours have the tools and 
talent to solve the problems of the world, but we need the 
infrastructure to do so.
    In order for the United States to build a competitive 21st-
century economy, Congress needs to pass a 21st-century 
infrastructure plan. This must be a top priority of the 116th 
Congress, and would make a huge difference for our community in 
Minnesota and our entire country.
    Since taking office in January, my staff and I have visited 
with officials from nearly all of the 36 cities and towns we 
represent. And whether it is a city of 371 or 84,000, the 
conversation quickly turns to infrastructure, from roads, to 
bridges, to transit, and broadband, wastewater, and energy.
    Coming from a State that sends far more of our hard-earned 
dollars to Washington than we get back in Federal funding, we 
are in dire need of investment in infrastructure. It is time 
for the Federal Government to invest in Minnesota's future and, 
in doing so, America's future.
    That begins with two key Capital Investment Grant projects 
in my district: the green line extension and the blue line 
extension that are critical for expanding transit options for 
the Twin Cities metro area. These projects will connect people 
to jobs, reduce traffic congestion, and spark economic 
development, which is why they have overwhelming support from 
the businesses and communities of our region.
    For that reason, I ask the committee to support full 
funding for the Federal Transit Administration's Capital 
Investment Grant program at the FAST Act-authorized level of 
$2.3 billion. Full funding for this program is key to advancing 
projects in the CIG pipeline, which includes the two projects I 
just mentioned.
    Also among the top concerns of my constituents is the 
condition and safety of Minnesota's roads and bridges, as 
evidenced by the I-35W Bridge collapse in 2007 that took a 
number of lives. There are numerous highways in need of funding 
to repair crumbling roads, add necessary lanes, and update 
safety measures.
    Perhaps the most urgent of those projects awaiting funding 
is the Highway 12 corridor, commonly known as the corridor of 
death, as it is one of the most dangerous highways in our 
entire State. Just last month I was saddened when a young 21-
year-old man lost his life on Highway 12 when he lost control 
of his car and crossed the center median. Unfortunately, 
stories like this are far too common, unacceptable, and 
preventable. Congress needs to stop being paralyzed by partisan 
politics and work to fund an infrastructure bill.
    The need for this legislation encompasses more than our 
roads, bridges, and ground transportation. We also need to 
expand reliable broadband to every community in America.
    We need investments in water infrastructure to ensure clean 
drinking water, and safe and reliable wastewater systems for 
every community in America.
    We need enhanced rail safety to ensure our first responders 
can race to an incident without being stuck on the wrong side 
of a train, and that our communities are safe.
    We need airport infrastructure. The reasonable choice is to 
do so through raising the passenger facility charge, which does 
not impact the Federal budget, and allows airports to address 
their needs. The status quo is simply not working.
    And we need investments in our electrical grid energy 
storage and transmission to ensure that the clean power of the 
future can reach the communities and consumers who need it the 
most.
    In this year's State of the Union Address, President Trump 
said he knew that the need for an infrastructure package was 
real, and eager to work with the Congress, and we must hold him 
to this. It is time to come together and take concrete action. 
We need to modernize our infrastructure, find alternative 
funding streams to pay for those improvements, and pass 
legislation to send to the President's desk.
    I am hosting a community conversation in my district about 
infrastructure on May 30th, and would love to extend an 
invitation to the chairman, ranking member, and members of the 
committee to join us. The snow should have melted in Minnesota 
by that time.
    Thank you, Mr. Chairman, and I yield my time.
    [Mr. Phillips' prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Dean Phillips, a Representative in Congress 
                      from the State of Minnesota
    Thank you, Chairman DeFazio, Ranking Member Graves, and members of 
the Committee for the invitation to speak with you all today.
    I have the great honor of representing Minnesota's Third 
Congressional District, which includes the western Twin Cities metro 
area and is home to the Mall of America, Paisley Park and historic Lake 
Minnetonka.
    Our community is a microcosm of our state and region. We are 
suburban, exurban and rural. We are wonderfully diverse, highly 
educated and home to some of the most successful businesses in America, 
from Cargill to CH Robinson to UnitedHealthGroup. Districts like ours 
have the tools and talent to solve the problems of the world, but we 
need the infrastructure to do so.
    In order for the United States to build a competitive 21st century 
economy, Congress needs to pass a 21st century infrastructure plan. 
This must be a top priority of the 116th Congress. And it would make a 
huge difference for our community in Minnesota.
    Since taking office in January, my staff and I have visited with 
officials from nearly all of the 36 cities and towns we represent. And 
whether it's a city of 371 or 84,000, the conversation quickly turns to 
infrastructure--from roads, bridges and transit to broadband, 
wastewater and energy.
    Coming from a state that sends far more of our hard-earned tax 
dollars to Washington than we get back in federal funding, we are in 
dire need of investment in infrastructure. It's time for the federal 
government invest in Minnesota's future--and in doing so, America's 
future.
    That begins with two key Capital Invest Grant projects in my 
district--the Green Line extension and the Blue Line extension--that 
are critical for expanding transit options for the greater Twin Cities 
metro area. These projects will connect people to jobs, reduce traffic 
congestion and spark economic development--which is why they have 
overwhelming support from the businesses and communities of our region.
    For that reason, I ask the committee to support full funding for 
the Federal Transit Administration's Capital Investment Grant Program 
(CIG) at the FAST Act authorized level of $2.3 billion. Full funding 
for this program is key to advancing projects in the CIG pipeline which 
includes the two projects I just mentioned.
    Also, among the top concerns of my constituents is the condition 
and safety of Minnesota's roads and bridges. There are numerous 
highways in need of funding to repair crumbling roads, add necessary 
lanes, and update safety measures.
    Perhaps the most urgent of those projects awaiting funding is the 
Highway 12 corridor, commonly known as the corridor of death, as it is 
one of the most dangerous highways in our state. Just last month, I was 
deeply saddened when a young 21-year-old man lost his life on Highway 
12 when he lost control of his car and crossed the center median.
    Unfortunately, stories like this are far too common, unacceptable, 
and preventable. Congress needs to stop being paralyzed by partisan 
politics and work to fund an infrastructure bill.
    The need for this legislation encompasses more than our roads, 
bridges, and ground transportation.
    We also need to expand reliable broadband to every community in 
America.
    We need investments in water infrastructure to ensure clean 
drinking water and safe and reliable wastewater systems for every 
community in America.
    We need enhanced rail safety, to ensure our first responders can 
race to an incident without being stuck on the wrong side of a train, 
and that our communities are safe.
    We need airport infrastructure. The reasonable choice is to do so 
through PFCs, which doesn't impact the federal budget and allows 
airports to address their needs. The status quo is just not working for 
our airports.
    And we need investments in our electrical grid, energy storage and 
transmission, to ensure that the clean power of the future can reach 
the communities and consumers who need it.
    In this year's State of the Union address, President Trump said 
that he knew the need for an infrastructure package and was eager to 
work with the Congress. Congress must hold him to this.
    It's time to come together and take concrete action. We need to 
modernize our infrastructure, find alternative funding streams to pay 
for these improvements, and pass legislation to send to the President's 
desk.
    I am hosting a community conversation in my district about 
infrastructure on May 30th. I would like to extend an invitation to the 
Chairman, Ranking Member and members of the committee to join us.
    Thank you.

    Mr. DeSaulnier [presiding]. Thank you, Mr. Phillips. I 
would just comment when I was in the California Legislature one 
of the places we looked at was the Minnesota Department of 
Transportation for performance standards. They and Washington 
and Massachusetts were really doing some innovative things, in 
spite of your challenges, as you mentioned in your comments. So 
I think the committee would be very supportive of your efforts.
    Mr. Phillips. Thank you sir.
    Mr. DeSaulnier. I appreciate it.
    Our next witness is the much-esteemed chairwoman of the 
Financial Services Committee from the great State of 
California, Ms. Waters.

 TESTIMONY OF HON. MAXINE WATERS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Waters. Thank you very much, Mr. Chairman and 
distinguished members of the committee. I am very pleased to 
have the opportunity to testify before you today about how 
robust investment into affordable housing infrastructure should 
be included in any infrastructure spending package. Congress 
must recognize that our Nation's infrastructure extends beyond 
making investments in our roads, bridges, ports, and airports. 
It also includes our Nation's affordable housing.
    Yesterday the Committee on Financial Services held a 
hearing entitled, ``Housing in America: Assessing the 
Infrastructure Needs of America's Housing Stock.'' We heard 
from a variety of witnesses, including representatives from 
real estate industry, a low-income housing advocacy group, and 
the public housing authority association on the need to 
preserve and build the Nation's affordable housing stock.
    We are in the midst of a housing affordability crisis. 
According to the National Low-Income Housing Coalition, there 
is a shortage of more than 7.2 million rental housing units 
that are affordable and available to the lowest income 
families. In fact, no State in America has an adequate supply 
of affordable housing for the lowest income renters.
    For example, California has a deficit of over 1 million 
affordable and available units. Wisconsin has a deficit of 
nearly 140,000 units. Mississippi has a deficit of nearly 
50,000 units. New York has a deficit of over 600,000 units. 
Rising rents and gentrification are a part of this problem.
    For example, in my district the city of Inglewood is 
experiencing economic development, which, while it offers many 
benefits for the community, has also resulted in higher rents 
and led to displacement of residents. Affordable housing must 
be a part of any solution, or long-time and often lower income 
residents will lose their homes.
    During yesterday's hearing the National Low-Income Housing 
Coalition highlighted the importance of funding Federal 
programs such as the National Housing Trust Fund, and how they 
can serve as a tool for equitable development, and keep 
neighborhoods affordable for extremely low-income individuals.
    Our public housing system, which houses 2.6 million 
Americans, is also in dire need of investment to repair 
kitchens, elevators, baths, doors, windows, and roofs. In their 
testimony, the National Association of Housing and 
Redevelopment Officials noted that the public housing capital 
fund and public housing operating fund have endured deep 
funding cuts, forcing housing agencies to forgo critical 
maintenance. Our public housing developments need energy-
efficient systems, repaired elevators, new sprinkler systems, 
lead-based paint remediation, and other structural improvements 
to improve residents' health and safety.
    As a result of the chronic underfunding and disinvestment 
in America's public housing infrastructure, there is a public 
housing capital needs backlog of $70 billion, and around 10,000 
units are lost each year.
    Neglecting our housing infrastructure also hurts our 
economy. Studies have found that the lack of affordable housing 
hurts economic productivity and wages. At our hearing, the 
National Association of Home Builders testified that building 
100 affordable rental units generates $11.7 million in local 
income, $2.2 million in taxes, and other revenues for local 
governments, and 161 local jobs.
    For all of these reasons I have put forth a discussion 
draft that would make the investments we need in our housing 
infrastructure and create jobs across the country. The bill 
contains $1 billion to fully fund the backlog of capital needs 
for the section 515 and 514 rural housing stock; $5 billion to 
support mitigation efforts that can protect communities from 
future disasters and reduced post-disaster Federal spending; $5 
billion for the Housing Trust Fund to support the creation of 
hundreds of thousands of new units of housing that would be 
affordable to the lowest income households; $100 million to 
help low-income elderly households in rural areas age in place; 
and $1 billion for the Native American Housing Block Grant 
program to address substandard housing conditions on Tribal 
lands; $10 billion for a CDBG set-aside to incentivize States 
and cities to eliminate impact fees, and responsibly streamline 
the process for development of affordable housing; and $70 
billion to fully address the public housing capital backlog.
    Any infrastructure package should also consider ways to 
incentivize developers to reduce the energy cost of affordable 
housing, and to create housing that accommodates generations of 
families living under one roof.
    We must make big, bold investments in affordable housing. 
Speaker Pelosi and Leader Schumer agree. This week they sent a 
letter to the President calling for a broad, comprehensive 
infrastructure package that includes investment in housing.
    And thank you so much for your consideration of this 
important proposal.
    [Ms. Waters' prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Maxine Waters, a Representative in Congress 
                      from the State of California
    Chairman DeFazio, Ranking Member Graves, and distinguished Members 
of the Committee, I am very pleased to have the opportunity to testify 
before you today about how robust investment into affordable housing 
infrastructure should be included in any infrastructure spending 
package.
    Congress must recognize that our nation's infrastructure extends 
beyond making investments in our roads, bridges, ports, and airports. 
It also includes our nation's affordable housing. Yesterday, the 
Committee on Financial Services held a hearing entitled ``Housing in 
America: Assessing the Infrastructure Needs of America's Housing 
Stock''. We heard from a variety of witnesses including representatives 
from the real estate industry, a low-income housing advocacy group, and 
the public housing authority association on the need to preserve and 
build the nation's affordable housing stock.
    We are in the midst of a housing affordability crisis. According to 
the National Low-Income Housing Coalition, there is a shortage of more 
than 7.2 million rental housing units that are affordable and available 
to the lowest income families. In fact, no state in America has an 
adequate supply of affordable housing for the lowest income renters. 
For example, California has a deficit of over a million affordable and 
available units. Wisconsin has a deficit of nearly 140,000 units. 
Mississippi has a deficit of nearly 50,000 units. New York has a 
deficit of over 600,000 units.
    Rising rents and gentrification are part of this problem. For 
example, in my district, the City of Inglewood is experiencing economic 
development which, while it offers many benefits for the community, has 
also resulted in higher rents and led to displacement of residents. 
Affordable housing must be part of any solution, or long-time--and 
often lower income--residents will lose their homes. During yesterday's 
hearing, the National Low-Income Housing Coalition highlighted the 
importance of funding federal programs such as the National Housing 
Trust Fund and how they can serve as tool for equitable development and 
keep neighborhoods affordable for extremely low-income individuals.
    Our public housing system, which houses 2.6 million Americans, is 
also in dire need of investment to repair kitchens, elevators, baths, 
doors, windows, and roofs. In their testimony, the National Association 
of Housing and Redevelopment Officials noted that the Public Housing 
Capital Fund and Public Housing Operating Fund have endured deep 
funding cuts, forcing housing agencies to forgo critical maintenance. 
Our public housing developments need energy efficient systems, repaired 
elevators, new sprinkler systems, lead-based paint remediation, and 
other structural improvements to improve resident's health and safety. 
As a result of the chronic underfunding and disinvestment in America's 
public housing infrastructure, there is a public housing capital needs 
backlog of $70 billion and around 10,000 units are lost each year.
    Neglecting our housing infrastructure also hurts our economy. 
Studies have found that the lack of affordable housing hurts economic 
productivity and wages. At our hearing, the National Association of 
Homebuilders testified that building 100 affordable rental apartments 
generates $11.7 million in local income, $2.2 million in taxes and 
other revenues for local governments, and 161 local jobs.
    For all of these reasons, I have put forth a discussion draft that 
would make the investments we need in our housing infrastructure and 
create jobs across the country.
    The bill contains:
    <bullet>  $1 billion to fully fund the backlog of capital needs for 
the Section 515 and 514 rural housing stock;
    <bullet>  $5 billion to support mitigation efforts that can protect 
communities from future disasters and reduce post-disaster federal 
spending;
    <bullet>  $5 billion for the Housing Trust Fund to support the 
creation of hundreds of thousands of new units of housing that would be 
affordable to the lowest income households;
    <bullet>  $100 million to help low income elderly households in 
rural areas age in place; and,
    <bullet>  $1 billion for the Native American Housing Block Grant 
Program to address substandard housing conditions on tribal lands;
    <bullet>  $10 billion for a CDBG set-aside to incentivize states 
and cities to eliminate impact fees and responsibly streamline the 
process for development of affordable housing; and
    <bullet>  $70 billion to fully address the public housing capital 
backlog.

    Any infrastructure package should also consider ways to incentivize 
developers to reduce the energy costs of affordable housing and to 
create housing that accommodates generations of families living under 
one roof. We must make big, bold, investments in affordable housing. 
Speaker Pelosi and Leader Schumer agree. This week, they sent a letter 
to the President, calling for a broad, comprehensive infrastructure 
package that includes investment in housing.
    Thank you for your consideration of this important proposal.

    Mr. DeSaulnier. Thank you, Ms. Waters. I just--since we 
have three Californians in the room right now, the importance 
of the hearing yesterday. I tried to watch as much of it as I 
could.
    You and I have had a conversation. I have talked to Chair 
Cleaver about this, about the intersection between 
transportation and housing. In the State of California, we did 
a lot of this, and we found in the bay area, in Sacramento, in 
Los Angeles, as you know, we have some of the longest exurban 
trips, Inland Empire people who are mismatched, people who are 
making good money, can't afford the housing. I have two sons 
who live in Culver City. So this is one of the really important 
things, I think, for your committee and our committee to work 
together on.
    I will shamelessly mention a bill I have. In transportation 
funding--we fund the transportation research schools to help us 
come up with innovative ideas, as transportation changes. We 
have a similar bill that would help with HUD doing the same 
things. It is not very much money, but we have learned a lot 
from the transportation schools about how to adapt.
    But this intersection between jobs, housing, homelessness, 
and transportation, as you know, is very crucial. In the bay 
area we have got some studies that show the number-one thing--
and it is worse in Los Angeles--that drops people into 
homelessness is a car repair of $400 or more, where they have 
to make the choice between paying for that to get to work, so--
and, for the rest of the country, it is important because 65 
percent of the GDP comes from these urban areas that are 
struggling with this.
    So I appreciate the work you are doing, and look forward--I 
know Chairman DeFazio and I have had extended discussions, and 
I know other Members have, as well as--the importance of this, 
and I know you have. So, personally, I look forward to working, 
and I know the chairman does, with your committee and your 
jurisdictional responsibilities, to cooperate.
    Ms. Waters. Thank you so very much. You are absolutely 
correct. And I look forward to the work that we could do, as 
you say, understanding the intersection between transportation 
and housing.
    Mr. DeSaulnier. And lastly, that you are so good at it, in 
particular, is inequality that contributes.
    The next speaker is another revered Californian, Ms. 
Matsui.

TESTIMONY OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you, Mr. Chairman. I have never been 
called ``revered,'' but that is--I will take that. But thank 
you for the opportunity to come before the committee and lay 
out my key infrastructure priorities.
    As cochair of the House Sustainable Energy and Environment 
Coalition, which we all SEEC, I want to emphasize how much of 
an opportunity we have here to meaningfully act on climate 
change through sustainable infrastructure policies. A broad, 
forward-thinking infrastructure plan, such as the one SEEC put 
forward last Congress, should focus on sustainability, healthy 
communities, and environmental protection.
    One area where we can really engage with communities, 
businesses, and advocates to find innovative solutions is 
electrification of both our transportation sector and 
buildings. My local utility in Sacramento, the Sacramento 
Municipal Utility District--or SMUD, as we call it--has already 
done some excellent work to set ambitious goals to electrify 
the building and transportation sectors. These forward-thinking 
utilities can serve as a model at the Federal level. To this 
end, additional Federal tax incentives and grants would help 
communities deploy strategies that will lead to a faster 
transition to cleaner and more efficient buildings.
    Additionally, we must support cleaner transportation 
policies, such as my Clean and Efficient Cars Act, to enforce 
robust fuel economy and greenhouse gas emission standards. We 
can also include further incentives for broad deployment 
electric vehicles, or EV, charging technology, and for the 
purchase of zero emission and EVs and upgrades to heavy-duty 
vehicles.
    For example, I introduced the Diesel Emissions Reduction 
Act to reauthorize a popular program that provides grants to 
upgrade old diesel engines with cleaner technologies, which 
leads to significant emissions reductions. It is grants and 
other incentives like these that will help us move away from 
older, heavy-use equipment that is inefficient and harmful to 
air quality.
    Unfortunately, Sacramento ranks the fifth worst city in the 
country for air pollution. The health and well-being of my 
constituents depends on policy solutions that would transition 
our transportation to clean-vehicle technologies. My State of 
California and the city of Sacramento have undertaken great 
efforts to address some of these issues, but a sweeping 
infrastructure plan should incorporate comprehensive Federal 
standards and incentives for businesses and consumers alike 
that support American ingenuity and leadership in this space.
    And, as you are aware, the Capital Investment Grant program 
is the Federal Transit Agency's primary mechanism for providing 
capital funding to transit projects. A continued commitment to 
protecting funds provided by this program will assist in 
Sacramento's downtown revitalization efforts. Funds that have 
been made available for these projects stand to be the catalyst 
for growth in Sacramento, and promise to reduce congestion, 
while facilitating connection to the region's business center.
    Finally, we must also take this opportunity to address the 
risks our communities are already facing, including the 
catastrophic flooding and extreme weather events that are 
exacerbated by climate change. Sacramento is one of the most 
flood-prone cities in the United States. We have already 
undertaken great efforts to build out sound infrastructure to 
protect our residents from flood events. And while I have 
worked tirelessly to secure funding for these projects, more 
work and funding is needed to have a complete system in place.
    I would also like to work with the committee to address 
remaining flood protection needs in Sacramento, West 
Sacramento, and the surrounding region as you begin to 
formulate a WRDA 2020.
    Furthermore, I am looking to how to address longer term 
flood-control needs for the greater Sacramento region through a 
comprehensive, multipurpose, multiagency study. I believe this 
comprehensive watershed-based approach is the way of the 
future, and offers a means to look at a broader spectrum of 
water resource needs.
    Many of the challenges that communities across America 
face, including those of my home district, can be addressed in 
a comprehensive infrastructure package. Supporting policies to 
complement the innovative work in so many communities across 
the country is a top priority of mine, and I hope it would be 
one in any upcoming infrastructure proposal.
    Thank you again for the opportunity to testify today, and I 
look forward to working with the committee on these issues in 
the months ahead. Thank you very much.
    [Ms. Matsui's prepared statement follows:]
                                 <F-dash>
    Prepared Statement of Hon. Doris O. Matsui, a Representative in 
                 Congress from the State of California
    Thank you . . . Mr. Chairman, for the opportunity to come before 
the Committee and lay out key infrastructure priorities that are of 
high importance to my district and to this country.
    As Co-Chair of the House Sustainable Energy and Environment 
Coalition (SEEC), I want to emphasize how much of an opportunity we 
have here to meaningfully act on climate change through sound and 
sustainable infrastructure policies.
    A broad, forward-thinking infrastructure plan, such as the one SEEC 
put forward last Congress, should focus on sustainability, healthy 
communities, and environmental protection . . . which will ultimately 
best serve our districts and constituents.
    One area where we could really engage with communities, businesses, 
and advocates to find innovative solutions is electrification, of both 
our transportation sector and buildings.
    My local utility in Sacramento, the Sacramento Municipal Utility 
District, or SMUD, has already done some excellent work in this space . 
. . these forward-thinking utilities can serve as a model for policies 
we can advocate for at the federal level.
    SMUD has set ambitious goals to electrify the building and 
transportation sectors in the Sacramento area.
    To this end, improving building codes and supplementing their work 
with additional federal tax incentives and grants would help 
communities across the country deploy these strategies, ultimately 
leading to a faster transition to cleaner and more efficient buildings.
    Additionally, our infrastructure package should advocate for 
cleaner transportation policies, such as my Clean and Efficient Cars 
Act, to enforce robust fuel economy and greenhouse gas emissions 
standards.
    We can also include further incentives for broad deployment of both 
electric vehicle--EV--charging technology and for the purchase of zero-
emission and electric vehicles.
    But it isn't just passenger and light-duty vehicles where we can 
make an impact within our transportation sector. Further initiatives 
within the heavy-duty vehicle space are needed.
    For example, I introduced the Diesel Emissions Reduction Act this 
Congress to reauthorize a popular program that provides grants to help 
upgrade old diesel engines with cleaner technologies . . . which leads 
to significant emissions reductions in vehicle fleets across the U.S.
    It's grants and other incentives like these that will help us move 
away from older heavy-duty equipment that is inefficient and harmful to 
air quality.
    Unfortunately, Sacramento ranks the 5th worst city in the country 
for air pollution . . . and it is the most vulnerable communities 
within the city that are hit the hardest--low-income and minority 
families that live near major traffic corridors.
    It is absolutely imperative to the health and well-being of my 
constituents that we continue to advocate for policy solutions that 
will transition our transportation sector from fossil fuels to clean 
vehicle technologies.
    The state and City of Sacramento have undertaken great efforts to 
address some of these issues, but a sweeping infrastructure plan could 
incorporate policies such as comprehensive federal standards and 
incentives for businesses and consumers alike would complement these 
efforts and demonstrate American ingenuity and leadership in this 
space.
    And as you are aware, the Capital Investment Grant Program is the 
Federal Transit Agency's primary mechanism for providing capital 
funding to transit projects.
    These projects are planned, implemented, and operated by local 
government, which often would not be able to fund the projects without 
a federal investment.
    A continued commitment to protecting funds provided by this program 
will assist in Sacramento's downtown revitalization efforts.
    Sacramento's urban core has been undergoing significant development 
and redevelopment. Funds that have been made available for these 
projects stands to be a catalyst for growth in Sacramento and promises 
reduce congestion while facilitating connections to the region's 
business center.
    Finally, while it is important to think proactively on how we can 
prevent further warming of our planet, we must also take this 
opportunity to address the risks our communities are already facing, 
including the catastrophic flooding and extreme weather events that are 
exacerbated by climate change.
    Sacramento is particularly vulnerable to these problems, being one 
of the most flood-prone cities in the U.S. We have already undertaken 
great efforts to build out sound infrastructure to protect our 
residents from flood events.
    While I have worked tirelessly to secure funding to make these 
projects possible, more work and funding is needed to have a complete 
system in place.
    Over the past couple of years, hurricanes and intense storms have 
devastated cities and communities throughout the U.S., from Texas to 
North Carolina to the Midwest. A broad infrastructure package is a 
chance to strengthen existing safeguards and build out additional 
protections to prevent loss of life, injuries, and millions of dollars 
of damage to property.
    Many of the challenges that communities across America face, 
including those in my home district, could be addressed in a 
comprehensive infrastructure package.
    For years, we have allowed our nation's critical infrastructure to 
fall behind and have consistently failed to invest in a plan that 
embraces proactive policies that advance the best interests of the 
American people.
    While there are many opportunities within an infrastructure package 
to support our constituents, electrification is truly an area that cuts 
across a myriad of sectors, cities, and states.
    Supporting policies to complement the innovative work of so many 
communities across the country is a top priority of mine, and I hope it 
will be one in any upcominginfrastructure proposal.
    Thank you again for the opportunity to testify today and I look 
forward to working with the Committee on these issues in the months 
ahead.

    Mr. DeSaulnier. Thank you, Ms. Matsui. And I think the 
committee--I speak for the committee--that we are keenly aware 
of your leadership on renewables and alternative fuel vehicles, 
and the intersection with the importance of infrastructure in 
the committee.
    And having spent some of the best years of my youth in your 
district, in Sacramento, it is a wonderful city that benefits 
from your leadership, but also the amenities, and the cultural 
amenities, the economic amenities, including the State 
government. But it is a beautiful place that is struggling with 
its own growth issues and we need to provide that 
infrastructure so it will continue to be the amazing place that 
it is.
    Ms. Matsui. Thank you, and I look forward to working with 
the committee. Thank you.
    Mr. DeSaulnier. Thank you.
    If no other Members are here, then I will ask unanimous 
consent that the record of today's hearing remain open and 
until such time as our witnesses have provided answers to any 
questions that may be submitted to them in writing, and 
unanimous consent that the record remain open for 15 days for 
any additional comments and information submitted by Members or 
witnesses to be included in the record of today's hearing.
    Without objection, so ordered.
    I would like to thank our witnesses again for their 
testimony today. And if no other Members have anything to add, 
the committee stands adjourned.
    [Whereupon, at 3:02 p.m., the committee was adjourned.]



                       Submissions for the Record

                              ----------                              


  Prepared Statement of Hon. Jodey C. Arrington, a Representative in 
                    Congress from the State of Texas
    Thank you for providing members the opportunity to share our 
thoughts and priorities for the 116th Congress. As you continue to 
develop your proposal to rebuild our nation's infrastructure, I'd like 
to take this Member's Day hearing as an opportunity to highlight the 
issues of importance to the constituents of TX-19 and rural America.
    To provide prosperity to every part of the country, any future 
infrastructure initiative must recognize the essential role America's 
small towns and rural communities play in feeding, fueling, and 
clothing America's cities and urban areas. With jurisdiction over 
issues like highways, airports, water resources, and other critical 
infrastructure areas, this committee has a unique opportunity to set 
the stage for the future of rural America. Access and upgrades to 
adequate rural infrastructure not only promote the wellbeing and 
quality of life for people living in rural communities, but also 
ensures the safe and efficient transportation of food, fuel and fiber 
throughout the country.
    According to the U.S. Department of Agriculture's Rural Taskforce 
Report, investing in rural transportation infrastructure is needed to 
carry more ``Made in America'' products to markets at home and abroad, 
thereby boosting our country's global competitiveness. In my district 
and rural districts stretching from the Mexican to the Canadian 
borders, the Ports-to-Plains Alliance has been doing their part to 
plant the seeds for a major north-south reliever corridor. If 
implemented, this corridor would stretch across nine states in a swath 
of 500 miles where there are currently no major north-south interstate 
highways (I-25 and I-35 being the closest).
    The Ports-to-Plains region includes states which lead our nation's 
energy economy with seven of the top ten states in oil production and 
eight of the top ten states in wind energy generation in the country, 
producing over $44 billion in agriculture goods, or 22 percent of total 
U.S. agriculture production. The Ports-to-Plains corridor generates 
over $166 billion annually in trade with Canada and Mexico, accounting 
for almost 20 percent of all U.S.-North American trade. Simply put, 
Middle America provides the food, fuel, and fiber that strengthens and 
protects our nation.
    The nation's rural transportation network provides the first and 
last link in the supply chain from farm to market, while also driving 
tourism, enabling the production of energy, and supporting military 
movements. As you continue to develop your proposal to rebuild our 
nation's infrastructure, I urge you to consider products as well as 
people in the equitable balance between urban and rural America.
    I look forward to working with you this Congress on these critical 
issues. Please reach out to my office if we can be of any help.

                                 <F-dash>
 Prepared Statement of Hon. Tim Burchett, a Representative in Congress 
                      from the State of Tennessee
    Members of the committee. Thank you for holding this hearing. The 
district I represent is home to the Tennessee Valley Authority 
headquarters. The TVA was established by the enactment of the Tennessee 
Valley Authority Act, which was signed into law by President Franklin 
Roosevelt in 1933.
    The TVA helped bring economic prosperity throughout the Tennessee 
Valley during the Great Depression. Many of my constituents' ancestors 
benefitted from the economic development initiatives the TVA still 
provides.
    Though the TVA has a strong historical presence in my region, there 
is still room for improvement in their daily operations.
    TVA is a government-created entity that, at times, resembles a 
private corporation. For example, the CEO of the TVA makes more than $8 
million per year. I can't think of another government created entity 
that pays that well.
    Decisions by its board are held in secret and are not open to the 
rate payers of the Valley. There have been numerous plant closings in 
the Valley; most recently Bull Run and Paradise power plants in 
Tennessee and Kentucky, respectively. Coal ash residue, which contains 
toxic chemicals like arsenic, has been found in bodies of water from 
east to west Tennessee. I fear the cost of the cleanup has been passed 
on to the rate payers of the Valley.
    A primary goal of the TVA is to keep rates low, which is why 
Congress has yet to sell off any of the Authority's transmission assets 
to private companies. There's a problem when a public authority is not 
transparent to the people who are affected the most by its actions.
    That is why I have introduced the Tennessee Valley Authority 
Transparency Act. This bill would open all board and subcommittee 
meetings to the public.
    I have always been an advocate of government transparency, and this 
bill is a common-sense measure to make sure rate payers throughout the 
Tennessee Valley are best served. Many people throughout this nation do 
not trust government. In my view, government is already too big and 
burdensome. Let's start now to regain the American people's trust. The 
Tennessee Valley is a good place to start. Thank you and I look forward 
to any questions the committee may have.

                                 <F-dash>
Principles To Include in an Infrastructure Proposal, Submitted for the 
  Record by Hon. Cheri Bustos, a Representative in Congress from the 
                           State of Illinois
    There is bipartisan consensus that the United States needs 
significant investment in our infrastructure to build a strong 
foundation for a successful economy. This is particularly true in the 
Heartland, where road, water infrastructure, broadband and community 
facility investments are needed. These investments would support local 
businesses, help get goods to market and improve quality of life all 
while creating good-paying jobs. We can make these investments in a 
fiscally responsible manner.
    To realize the benefits of an infrastructure proposal in all parts 
of the country, any proposal should:
    1)  Direct federal investment to areas with demonstrated need
    2)  Strengthen programs that target support to rural areas and 
small towns, including technical assistance
    3)  Maintain and expand policies that support America's 
manufacturers and workers, including Buy American, Davis-Bacon 
prevailing wage requirements and the use of project labor agreements
                             Locks and Dams
    More than 600 million tons of goods are shipped along our inland 
waterway system annually. But most locks and dams have far exceeded 
their designed lifespan, and the failure of a single lock could shut 
down traffic up and down the river system. By increasing federal 
support to the existing public-private partnership--the Inland Waterway 
Trust Fund--we can:
    <bullet>  Prioritize funding the $8.75 billion backlog of inland 
waterway projects
    <bullet>  Fund the Navigation and Ecosystem Sustainability Program 
and upgrade to 1200, locks on the Upper Mississippi River
                                 Water
    Clean drinking water and safe wastewater disposal are requirements 
for communities of any size, but maintaining the necessary 
infrastructure can be a significant financial burden for small 
communities. More than 94% of drinking water utilities in the United 
States supply communities smaller than 10,000 people, and the EPA 
projects $655 billion in water infrastructure needs nationwide over the 
next 20 years. The need to eliminate lead exposure through drinking 
water is only adding to the demand for federal resources. We can help 
address the needs of rural communities and small towns if we:
    <bullet>  Fund the USDA Water and Waste Water program's $2.5 
billion project backlog
    <bullet>  Reauthorize and boost funding for the EPA's Clean Water 
and Drinking Water State Revolving Funds
                               Broadband
    Access to high-speed internet is a necessity for today's students, 
families, farmers and businesses. But 23 million rural Americans don't 
have access to internet of adequate speed. Right now, the United States 
is ranked 16th in the world in terms of broadband access. To help 
change that, the federal government can:
    <bullet>  Provide sufficient direct support for programs to close 
the ``last mile'' gap and deploy sustainable broadband that will meet 
rural consumers' needs now and in the future
    <bullet>  Encourage local officials to ``dig once'' to upgrade 
broadband as they build and repair roads
                               Healthcare
    Hospitals are the economic drivers of many rural communities, 
employing an average of 195 people with a payroll of $8.4 million. Yet 
nearly 700 rural hospitals are at risk of closure, putting 236,000 jobs 
on the line. Hospital closures have devastating impacts on rural 
economies and feed health disparities between rural and urban 
residents. Not only do rural residents tend to be older and sicker, 
they often have to travel further for care and only one-tenth of the 
nation's physicians practice in rural areas. To support rural economies 
and improve access to care, we must:
    <bullet>  Improve access to capital for health facilities' 
construction and modernization, such as purchasing new equipment to 
promote telehealth
    <bullet>  Test new ways to deliver care that will allow hospitals 
in small towns and rural areas to keep their doors open without 
compromising patients' access to critical health services
    <bullet>  Make investments to recruit physicians and other health 
professionals to practice in rural areas
    <bullet>  Fund the backlog of construction and maintenance at 
Department of Veterans Affairs medical facilities
                           Roads and Bridges
    More than seven of every ten miles of public roads and bridges 
across America are in rural areas, and travel on these roads is 
increasing. Everyday use and freight traffic has resulted in growing 
maintenance needs. In 2015, more than 35% of major rural roads across 
the country were rated in poor or mediocre condition. To boost local 
economies and promote public safety, the federal government should:
    <bullet>  Provide a sustainable funding source for the Highway 
Trust Fund
    <bullet>  Provide robust funding for the BUILD grant program
    <bullet>  Continue safety investments for improvements to High Risk 
Rural Roads
                                Airports
    America's non-hub airports help spur investment in our local 
economies, but these airports have critical maintenance and 
infrastructure needs. The Federal Aviation Administration estimates 
that over the next five years, $32.5 billion in airport projects will 
be eligible for federal Airport Improvement Program funds nationwide, 
while far less funding will be available. To address these needs, the 
federal government should:
    <bullet>  Support funding for airport infrastructure projects, 
including the Airport Improvement Program
    <bullet>  Maintain the Essential Air Service program that preserves 
access to smaller airports in rural areas
                                  Rail
    An efficient rail network is important for the transport of goods 
through rural areas and the success of passenger rail. However, federal 
investments in passenger rail infrastructure have lagged behind even 
while ridership on long-distance passenger rail routes that serve the 
Heartland is growing. These routes stop in many rural communities 
without commercial airports or other intercity transportation. To 
invest in rural rail, we must:
    <bullet>  Fund passenger rail investments, including long-distance 
service, the Consolidated Rail Infrastructure and Safety Improvement 
Program and Restoration and Enhancement Grants
    <bullet>  Continue incentives for maintaining freight rail 
infrastructure
    <bullet>  Extend the short line ``45G'' rehabilitation tax credit
                                 Energy
    Connecting rural customers to stable and cost-effective 
electricity--and harnessing the energy that's generated in rural 
areas--remains a challenge today. Nationwide, our economy loses more 
than $25 billion annually due to avoidable power failures. To bring our 
energy generation and electricity into the 21st Century, an 
infrastructure plan should:
    <bullet>  Support Rural Utility Service loan programs that help 
accelerate grid modernization and protection
    <bullet>  Maintain incentives for energy sources like wind, solar 
and biofuels that promote our energy independence and strengthen rural 
economies
                         Education and Research
    Beyond their role in education, rural schools are also major 
employers and community centers. But while four in every ten American 
students attend rural schools, those schools receive less than a 
quarter of federal education funding. Nationwide, America's schools 
need repairs, renovations and modernizations totaling nearly $200 
million. In addition, the Association of Public and Land-grant 
Universities identified $8.4 billion in deferred maintenance for 
buildings and infrastructure used for agricultural research. To help 
rural America compete, we should:
    <bullet>  Invest in improvements to rural K-12 facilities
    <bullet>  Invest in agricultural research capacity, including those 
that fund facilities improvements
                    Housing and Community Facilities
    Housing affordability is a growing concern for rural communities. 
Since 2000, housing costs in rural areas have increased five percent 
and one in four rural households pays more than 30% of their income on 
housing. Further, compared with the typical urban unit, housing in non-
metro areas is two times more likely to have incomplete plumbing, 
inadequate wastewater treatment or unsafe drinking water. In addition, 
too many communities struggle to adequately support first responders' 
infrastructure needs to keep their communities safe. To bolster rural 
communities, we must:
    <bullet>  Support federal programs geared towards addressing 
housing and homelessness in rural areas, such as the USDA Section 502 
Single Family Housing Direct and Guaranteed Loan Programs and Multi-
Family Housing Programs
    <bullet>  Bolster programs at USDA, EPA and HUD to address public 
health concerns posed by unsafe conditions in housing
    <bullet>  Increase support for USDA's Community Facility grant 
programs to help support first responders and other community 
facilities

                                 <F-dash>
    Prepared Statement of Hon. Matt Cartwright, a Representative in 
             Congress from the Commonwealth of Pennsylvania
    Chairman DeFazio, Ranking Member Graves, and members of the 
Committee:
    As you know, the Motor Carrier Act of 1980 served to deregulate the 
trucking industry by reducing the barriers of entry into the industry. 
Congress believed that federal regulators alone could not adequately 
oversee trucking activities and sought to cut red tape to increase 
efficiency, produce jobs, and deliver lower prices for consumers. 
Congress also sought to engage private insurance companies to ensure 
that the trucking industry operates in a safe manner. One of the 
significant provisions in the 1980 Act is that motor vehicle carriers 
must maintain a liability insurance policy of no less than $750,000 for 
trucks carrying typical freight and no less than $5 million for trucks 
carrying hazardous materials.
    Congress intended for the minimum liability insurance coverage to 
provide incentives to the trucking industry to operate safely. 
Insurance companies and their underwriting process would ``regulate'' 
the trucking industry--so the thinking went--by requiring safety 
standards for the equipment and drivers as part of the insurance 
application and coverage process. The theory was that insurance 
companies would not insure trucking companies that do not adequately 
follow safety practices. The intended result was that the minimum 
liability insurance requirement would ``weed out'' the trucking 
companies that operated in unsafe manners--ones that caused or 
threatened property damage, injury, or death.
    Congress also provided a key provision in the 1980 Motor Carrier 
Act that permits the Secretary of Transportation to raise the minimum 
level of liability insurance to achieve the intended purpose of the 
Act. As you all also know, things have changed significantly in the 
nearly 40 years since passage of the Motor Carrier Act. The number of 
authorized motor carriers has risen enormously, doubling in just the 
first decade after the Act. The number of large trucks registered with 
the U.S. Department of Transportation (DOT) was reported to be over 11 
million in an estimate calculated just over two years ago. The 
permitted tractor trailer length has risen as well--first to 48 feet 
and now to 53 feet. Truck weight also increased significantly over this 
same time. The costs of lost wages and medical expenses resulting from 
truck crashes have simultaneously increased with the rates of general 
inflation and medical inflation, respectively. According to all DOT 
reports, our highways are more congested, drivers are more distracted, 
and truck fatalities are increasing. The conditions of freight-bearing 
trucks on our highways that existed in 1980 are now long gone.
    During this same time period, however, the various Secretaries of 
Transportation did not increase the minimum liability insurance 
coverage requirement at all. Not one increase of any amount. If one 
were to adjust the $750,000 amount for inflation, it would more than 
quadruple the minimum coverage level. Adjustment factoring in the even 
greater average inflation in medical expenses, which victims of 
accidents face, would require a minimum liability insurance coverage 
level of over five million in today's dollars.
    The result of nearly four decades of inaction is that victims of 
truck accidents that cause injury or death are often unable to recover 
needed, adequate, just compensation from motor carriers who only carry 
the minimum requirement of $750,000.
    Consequences of the gap between today's actual costs of accidents 
and the original minimum liability level amount reach beyond the 
trucking industry itself. Courts are frequently forced to deal with 
interpleader actions by the insurance industry, a practice that permits 
insurance companies to sue all parties involved in a truck accident and 
then submit only the minimum level policy amount to the court, leaving 
the parties to fight or interplead among themselves as to who should 
receive what level of compensation from the policy. Appellate case law 
has been that the minimum liability policies cover only a per accident 
liability limit and not a per victim limit. In cases where there are 
multiple victims with claims exceeding $750,000, the victims then have 
no chance of recovering adequate compensation from the policy if the 
motor carrier has only the minimum coverage.
    There are also known instances where trucking companies with 
minimal assets engage in the practice of establishing ``reincarnation'' 
companies after significant accidents involving serious injury or 
death. Reincarnation occurs when trucking companies close or enter 
bankruptcy to avoid payment beyond the insurance policy limit. Many of 
these companies later rename themselves and simply move assets to a 
different company or another person to avoid judgment exposure. The 
result is that parties who do receive judgments exceeding the minimum 
liability level frequently have no recourse because they are unable to 
recover damages from companies that either do not exist anymore or have 
no assets.
    The costs associated with accident damages caused by the trucking 
industry are therefore not borne by the trucking industry but instead 
are exported to the victims themselves, other entities not responsible 
for the accident, or the public at large.
    On the latter point, uncompensated and undercompensated truck 
accident victims who are forced to self-pay for their injuries often 
turn to Medicaid, Social Security disability compensation, and other 
government programs to provide for their expenses, lost wages, or basic 
necessities after a personal bankruptcy at some level occurs. In 
effect, then, taxpayers subsidize the trucking industry by covering 
many of the full costs of accidents involving underinsured trucks.
    It is important to note that not all trucking and insurance 
companies are responsible for this problem of underinsured motor 
carriers. Many larger and better-funded trucking companies obtain 
higher liability insurance policy limits to protect their relatively 
greater assets from exposure to a lawsuit. Large-truck-company crash 
victims are, therefore, better able to recover damages to pay their 
medical bills. Many insurance companies also maintain self-imposed 
minimum policy limits which further ensure that crash victims receive 
compensation.
    The Trucking Alliance, a coalition of freight and logistics 
companies that advocates for safety reforms in the motor carrier 
industry, seems to understand the issues facing the industry and takes 
a responsible position with respect to liability insurance. The 
Alliance advocates that ``Motor carriers should be sufficiently self-
insured or, if fully insured, maintain liability insurance that fully 
compensates the medical expenses of large truck crash victims, as 
Congress intended in 1980 when it passed this requirement.'' The 
Trucking Alliance supports an official increase in the minimum 
insurance requirement for operating on U.S. highways in order to 
maintain the public's trust and to cover medical costs faced by truck 
crash victims.
    In support of their position, the Alliance voluntarily tracked 
8,692 accident settlements involving member companies between 2005 and 
2011. It reported that 42% of the trucking companies' monetary exposure 
from these settlements would have exceeded their insurance coverage if 
all of the companies in the study had maintained only the minimum 
$750,000 insurance requirement.
    For a number of compelling reasons, therefore, I urge the Committee 
to finally pass legislation to raise the required insurance minimum for 
motor carriers. The best policy result would be to tie the minimum 
coverage requirement to inflation or, more accurately, medical 
inflation, since the compensation is used to pay medical expenses. Such 
a new law would protect the American public as well as trucking 
companies themselves by ensuring that insurance coverage is available 
to cover the total costs of their accidents.
    Congress never intended the 1980 Motor Carrier Act to leave 
accident victims in dire financial straits. Advocacy groups such as the 
Truck Safety Coalition, industry members such as the Trucking Alliance, 
and even the Federal Motor Carrier Safety Administration all understand 
this and agree that action is needed to protect motorists. The 
Committee should move to correct the unintended and unfair situation 
that currently exists on our nation's highways.

                                 <F-dash>
 Prepared Statement of Hon. Ed Case, a Representative in Congress from 
                          the State of Hawaii
    Chairman DeFazio, Ranking Member Graves and members of the 
Transportation and Infrastructure Committee,
    Thank you for allowing me to share my thoughts with the Committee 
on issues of importance to my constituents and Hawai'i.
    While your committee focuses on the implementation of the 2018 
Federal Aviation Administration (FAA) Reauthorization Act, I would like 
to advocate for the FAA to have the authority to regulate commercial 
tour helicopters for reasons other than safety only.
    Communities throughout the nation, and particularly in my home 
state of Hawai'i, are dealing with the intrusion from noise and visual 
impacts, as well as safety risks and other negative consequences of 
excessive helicopter and small aircraft commercial tour operations. 
Around Hawai'i national parks alone, 16,520 commercial air tours were 
reported over the Hawai'i Volcanoes National Park and 4,839 were 
reported over the Haleakala National Park in 2017. That averages out to 
dozens of flights a day flying directly over communities in Hawai'i.
    Tragically, on Monday, April 29, 2019, a tour helicopter crashed 
onto a residential street in Kailua, O'ahu. The pilot and two 
passengers were killed and we were very lucky that no one else was hurt 
as it crashed in the middle of a densely populated suburban area. This 
was the second time in six months that the same company had a tour 
helicopter crash land on O'ahu. It is time we reevaluate the FAA's role 
in regulating this industry.
    These tours impact our national, state and county parks and natural 
resources; cemeteries and memorial sites; military installations; 
harbors and other government infrastructure; visitor industry 
locations; commercial and industrial areas; nearshore waters and 
recreational areas; and throughout our residential neighborhoods.
    As I understand from discussions with the FAA and my own review of 
existing laws and regulations, these air tour operations are virtually 
unregulated at the federal level. The FAA does not consider noise 
emission, time and place of operation, and altitude. The only real 
federal interest or authority at present is strictly operational safety 
and national airspace efficiency. With the recent crash and deaths in 
Hawai'i, we must look into the way safety is being regulated. And as 
the federal government largely claims exclusive jurisdiction over 
airspace, state and local governments are not authorized to legislate 
or regulate any mitigating restrictions.
    This current situation is not acceptable. Commercial air tour 
operators are not or should not be entitled to exact widespread and 
virtually unlimited disruption and risk as a result of their 
operations. There has been no material effort by operators to mitigate 
disruption and risk on a voluntary basis, and none can be reasonably 
expected. My commitment is therefore to pursue legislative and/or 
regulatory solutions, and I would appreciate you working with me and 
others in doing so.
    Additionally, I would like to ask the committee to work with me and 
other interested members to request the FAA and the National Park 
Service to take the necessary steps to implement the decades-old 
National Parks Air Tour Management Act and promulgate air tour 
management plans for our national parks. As a member of the Natural 
Resources Committee, I have asked the National Park Service to commit 
to getting these done and would like to work with you on bringing the 
FAA to the table as well.
    Finally, I want to briefly highlight and ask for your continued 
support for federal mass transit assistance generally and to Hawai'i 
specifically for environment and traffic concerns. In 2018, Honolulu 
area drivers spent about 92 hours per year in traffic congestion, among 
the very worst in our country. There is a direct negative effect along 
a whole range of metrics, from economy to efficiency to health, family 
and quality of life. Additionally, the impact on all those drivers 
sitting in traffic producing carbon emissions could be lessened if we 
have more effective mass transit options in Honolulu and around the 
country. As Honolulu works to expand its mass transition alternatives, 
my state needs your continued support.
    Thank you, please let me know if you have questions, and do not 
hesitate to contact me or my office to further discuss these topics.

                                 <F-dash>
 Prepared Statement of Hon. Kathy Castor, a Representative in Congress 
                       from the State of Florida
    Chairman DeFazio and Ranking Member Graves,
    Thank you for the opportunity to highlight important transportation 
priorities that will improve the lives of my neighbors in Tampa, 
Hillsborough County, Florida. Significant investments in transportation 
and infrastructure are vital to the economic well-being of my neighbors 
and small businesses in Tampa and directly tied to the ability to lift 
wages and boost higher-paying jobs. In addition to the infrastructure 
priorities in my district, I have included a few recommendations as 
Chair of the U.S. House Select Committee on the Climate Crisis. I am 
grateful to Chairman DeFazio for his focus on reducing carbon pollution 
and implementing clean and green transportation improvements. I urge 
the Committee to be bold and strategic in crafting a modern and 
thoughtful transportation package that tackles the climate crisis.
    Hillsborough County, which includes Tampa, has a $9 billion backlog 
of transportation needs and is projected to grow by nearly 600,000 
people by 2040. In November 2018, county voters approved a one-cent 
surtax to improve transportation. The ``All For Transportation'' 
revenue will provide important matching funds to draw down federal 
monies for mobility projects. I urge the Committee to support 
communities, such as mine, that are investing in efficient 
transportation systems and modern infrastructure. Here are some 
specific priorities:

    1.  The overriding priority for my growing community is to improve 
mobility and reduce congestion through a multi-modal strategy, 
particularly through expanded transit. The Hillsborough Area Regional 
Transit Authority (HART) covers an area of approximately 1,000 square 
miles with a fleet of only 200 buses. With the passage of the one-cent 
surtax, HART is poised to expand to fixed guideway transit (a plan that 
has been studied for decades), substantially expand bus service, extend 
the popular Tampa Streetcar and move the Cross Bay Ferry from a pilot 
project to consistent transit service. We need a robust partnership 
with the Congress and Federal Transit Administration (FTA) to move 
these projects from the planning stages to implementation.

    2.  While my community is poised to improve transit, we need a 
committed federal partner to do so. Therefore, I urge the Committee to 
oppose President Trump's proposed cut of over $1 billion from Capital 
Investment Grants which fund major rail and transit projects. While the 
Congress rejected President Trump's 2018 budget that sought to 
dramatically cut new transit projects and eliminate grants, the 
administration has impeded such projects through unnecessary 
bureaucratic hurdles. According to Transportation for America, since 
2017, the administration awarded just two full-funding grant agreements 
for new, multi-year transit projects even though Congress directed the 
U.S. Department of Transportation to distribute approximately $3.8 
billion for expanded transit systems. More awards were made only after 
pressure from the media, public outrage and congressional oversight. 
Nevertheless, the Trump administration has yet to fulfill its promises 
to advance investments in transportation and infrastructure. 
Communities like mine have a high expectation and need for a timely and 
clear process for federal matching dollars.

    3.  Tampa International Airport (TIA) also is growing by leaps and 
bounds, while maintaining its high-quality and customer-friendly 
experience as one of America's best airports. Behind the scenes, 
however, I am very concerned with the poor state of the Federal 
Aviation Administration (FAA) air traffic control tower. The tower was 
built in 1972 and has had serious issues with asbestos, poor plumbing, 
structural deficiencies, fire protection systems, roof leaks, cracked 
windows, and more. It needs to be replaced. In addition to the 
crumbling tower, TIA and other airports can only maintain their high 
quality if they have the resources to do so. Last Congress, I 
introduced an amendment to the FAA reauthorization bill to increase the 
modest passenger facility fee and cap airline baggage fees. Airline 
baggage fees and the uncertainty they generate among the traveling 
public are out of control. For more than a decade, airlines have 
dramatically hiked the cost of baggage fees--forcing consumers to pay 
higher fees while U.S. airlines have profited to the tune of billions 
of dollars--$4 billion in baggage fees alone in 2016. Baggage fees are 
not subject to the same federal tax as airfares that help fund the 
Airport and Airway Trust Fund and support the FAA. Instead, the costs 
go directly to airlines' profits. I encourage the Committee to rein in 
exorbitant baggage fees and make travel more affordable for everyone, 
while helping to keep our airports modern and up-to-date.

    4.  Safety enhancements for bicycles and pedestrians are a high 
priority for the Tampa Bay area. My community unfortunately ranks high 
in the number of pedestrian and bicyclist deaths. We need expertise and 
resources to redesign streets and expand trails to make it safer and 
more convenient for people to walk and bike. In addition, with an 
increasing population of transportation disadvantaged neighbors, we 
must expand paratransit services. More sidewalks and trails increase 
safety and support all users with a multi-modal transportation options, 
including persons with disabilities, the elderly and economically 
disadvantaged.

    5.  The Better Utilizing Investments to Leverage Development 
(BUILD) initiative (formerly known as TIGER grants) is vitally 
important to my community as it provides flexible funding for creative 
transportation projects. For example, I helped secure a grant for 
expansion of Tampa's Riverwalk that has helped create a major 
redevelopment and more walkable downtown Tampa and, another grant for 
the Tampa-Hillsborough Expressway Authority downtown greenway that 
provides a shaded pedestrian travel way.

    6.  Port Tampa Bay is Florida's largest port and serves West and 
Central Florida and the Southeastern United States. Ship repair and 
bulk cargo jobs are invaluable to us. Rail connections to the port move 
freight efficiently and will be in need of expansion in the future as 
the port grows with access for ships transiting the Panama Canal and 
Caribbean transshipment facilities. It is critically important the 
Committee continues to authorize the MARAD Port Infrastructure 
Development initiatives which ensure resources are available to make 
port landside and waterside improvements. Recently Port Tampa Bay 
completed its Big Bend dredging project ahead of schedule and under 
budget; however, the port needs additional resources to ensure the 
dredged materials are disposed in a thoughtful and sustainable fashion. 
I encourage the Committee to explore ways to support sustainable 
practices for dredge disposal.

    7.  More than 47,000 bridges across the United States are 
structurally deficient according to a new report released this year 
from the American Road and Transportation Builders Association. Bridge 
repair and replacements must be addressed. In the Tampa area, 
increasingly severe storms are washing out our bridges, coastal 
highways and stormwater drainage systems. Federal funds are necessary 
to tackle the problem. Plus, with more than 1,000 miles of shoreline 
and 39 percent of the population of the greater Tampa area living in 
flood zones, a new Climate Vulnerability Assessment will further guide 
transportation planning and aid in building a more resilient community.

    As Chair of the Select Committee of the Climate Crisis, I urge the 
Committee to enact legislation that dramatically reduces carbon 
emissions from sources throughout the transportation sector and assists 
communities across the country that are facing the increasing 
challenges due to climate change. Every congressional district has 
unique needs, but the Transportation and Infrastructure Committee is 
uniquely situated to develop overarching national infrastructure 
policies that reduce carbon pollution and ensure greater resiliency. 
While I list a few recommendations below, the Select Committee intends 
to make many more extensive proposals in the months ahead:

    1.  America should lead the world in decarbonizing the 
transportation sector now. We have improved the efficiency of vehicles, 
but must go much farther in boosting electric cars and buses and 
expanding transportation options that help achieve a 100% clean energy 
economy as soon as possible. Doing so has tremendous upsides for 
improved public health, air quality and the competitive edge for 
American industries in the years to come.

    2.  Your committee holds the keys for more resilient transit, air, 
port, water, and wastewater infrastructure--and it is time to be bold 
and use every scientific tool we have to protect communities across 
America. To protect people and taxpayers' dollars, federal agencies 
should ensure that construction projects they are funding be built to 
higher safety standards if located in flood-prone areas. President 
Trump rescinded Executive Order 13690 that directed agencies to address 
flooding risks. Despite promises to replace the previous executive 
order, the administration has not taken action to put in place guidance 
for new construction. Infrastructure legislation is an opportunity to 
write this commonsense measure into law.

    3.  Investment to protect clean water also is critical to 
responding to the climate crisis. We should ensure that improvements to 
water infrastructure, like those undertaken by the Army Corps of 
Engineers, incorporate the latest climate science and are built to deal 
with the impacts of a rapidly warming world. Including a permanent 
green reserve as part of revolving fund capitalization grants and 
providing grants to increase the resilience of wastewater facilities 
are ways to improve the long-term resilience of critical infrastructure 
for communities.

    4.  Finally, environmental review and permitting processes are 
crucial to ensure that climate, environmental and community impacts are 
considered before finalizing federal decisions. Infrastructure 
legislation should protect the ability for the public to have a voice 
in government actions through the National Environmental Protection Act 
(NEPA) and other environmental laws. We can ensure public participation 
and advance projects that decarbonize the transportation sector and 
expand renewable and clean energy.

    Thank you for the opportunity to share my priorities. I look 
forward to a bold and forward-thinking transportation and 
infrastructure package that rebuilds America in a clean, green and 
sustainable way. If you have any questions or comments, please do not 
hesitate to contact me or my chief of staff.

                                 <F-dash>
  Prepared Statement of Hon. David N. Cicilline, a Representative in 
                Congress from the State of Rhode Island
    Dear Chairman DeFazio and Ranking Member Graves:
    As you know, my home state of Rhode Island was recently ranked 
among the lowest in the nation for our infrastructure needs, according 
to U.S. News and World Report.\1\ The American Society of Civil 
Engineers estimates that 24.9% of Rhode Island's bridges are 
structurally deficient. These challenges present an urgent 
responsibility to repair and rebuild our roads, bridges, ports, and 
transit systems in order to create jobs, invest in local economies, and 
enhance the safety of our citizens.
---------------------------------------------------------------------------
    \1\ https://www.usnews.com/news/best-states/rankings
---------------------------------------------------------------------------
    As you continue to develop legislation to address our 
transportation and infrastructure needs, it is my hope that you will 
consider including the following priorities in any future proposals to 
rebuild our nation's crumbling infrastructure. I thank you for your 
continued advocacy on these issues and appreciate your consideration.
                  IMAGINE Act and Innovative Materials
    As you know, studies from the Government Accountability Office 
(GAO) and National Academies have concluded that the employment of 
innovative materials in transportation infrastructure has proven to be 
cost effective and provide long lasting durability compared to other 
conventional materials. For example, the National Academies' recent 
report, ``Performance of Bridges That Received Funding Under the 
Innovative Bridge Research and Construction Program,'' found that usage 
of these materials in highway projects reduce construction costs and 
overall project time, due to simpler installation procedures.
    The bipartisan Innovative Materials for America's Growth and 
Infrastructure Newly Expanded (IMAGINE) Act would encourage the 
development and employment of materials such as high-performance 
asphalt mixtures and concrete formulations, geosynthetic materials, 
advanced polymers, reinforced polymer composites, advanced alloys and 
metals, and aggregate materials. This bill would also create a task 
force to examine standards and methods used to assess the federal 
government's approval of materials for infrastructure projects, promote 
research into new materials and building technologies, and increase 
federal investment in vital bridge projects that utilize innovative 
materials.
                       Wastewater Infrastructure
    As you know, the Clean Water Act requires water and sewage 
treatment plants to maintain federally mandated standards to keep our 
water supply safe and sustainable. About 76% of the population is 
served by sewage treatment plants, but 4.1 million of those people are 
served by facilities providing less than secondary treatment, which is 
a basic requirement by federal law. Often, the financial burden to meet 
these requirements falls on state and local governments. This can leave 
communities experiencing financial distress with outdated 
infrastructure and facing down huge costs to bring them in line with 
requirements. This affects all of us, as aging wastewater management 
systems discharge billions of gallons of untreated sewage into U.S. 
surface waters each year.
    Federal assistance has not kept pace with the needs of wastewater 
treatment systems, even though authorities agree that funding needs 
remain very high. The Environmental Protection Agency estimates that 
the country will need to invest $271 billion over the next 20 years to 
replace existing systems and build new ones to meet demand. It is 
critical that we ensure wastewater improvement projects are 
sufficiently funded and are prioritized to reflect the needs of the 
community.
    I urge the committee to establish a new grant program directed 
specifically to address the needs of wastewater infrastructure in 
financially distressed municipalities to prevent untreated sewage from 
contaminating U.S. surface waters.
           Update and Fund the National Scenic Byways Program
    The National Scenic Byways Program was created with bipartisan 
support by Congress in 1991 to recognize historic, scenic and 
culturally important roads around the country by creating an official 
designation as a ``National Scenic Byway,'' an honor which helps bring 
economic development and tourism from around the world, focusing on 
rural and suburban communities and expanding upon the benefits of the 
infrastructure program.
    I support both updating and funding the program in any 
reauthorization process. While 150 National Scenic Byways have been 
designated, the program has not been funded since 2012, stifling their 
ability to realize the full potential as drivers of economic 
development and job creation.
    Fund the Program. I support funding the program at prior levels 
adjusted for inflation which would be $50 million annually for the life 
of a reauthorization bill to allow the 1,000 existing state scenic 
byways, and states seeking to attain a designation, to compete for the 
funds. In 2012, the last year grants were awarded, 125 byways in 44 
states were awarded grants to complete projects ranging from installing 
new interpretative and directional signs to the building of visitors 
centers and rest areas. Scenic byways are stewarded by local 
stakeholder groups who volunteer countless hours in support of their 
byways, and these grants are often combined with local public and 
private investment to improve the byway experience, increasing the draw 
to visitors and creating a large return on investment. U.S. DOT should 
also reopen the nomination process for new scenic byways. A recent 
survey showed that 44 state scenic byways in 24 states are prepared to 
seek national designation as soon as the program is reopened. In the 
meantime, the largely rural communities along these byways are missing 
out on the economic development opportunities provided by a road's 
designation as a National Scenic Byway.
    Update the Program to Include the Quality Assistance Program. To 
ensure the success of the program, I support the creation of a Quality 
Assistance Program with designated funding of $3 million per year to 
support the upkeep of the Byways themselves. FHWA can contract the 
oversight of this program to nonprofit entities to monitor the byways 
and ensure the designees continue to meet the criteria and basis for 
the Secretary's original designation; conduct research to advance the 
understanding of scenic byways' economic benefits; and provide 
customized technical assistance including mapping, fact sheets and 
training to improve a scenic byway's performance.
    Gateway Communities Economic Development: Amend the FLAP Program
    I support amending the criteria for the Federal Land Access Program 
(FLAP) to add opportunities for gateway communities to promote local 
character through efforts such as the creation of interpretive panels, 
contextual wayfinding markers, landscaping, access-related enhancement 
and cooperative mitigation of visual blight. Additionally, it expresses 
a preference, but not a requirement, for the use of native plants and 
designs that minimize runoff and heat generation.
         The Protecting Public Trees Act within Reauthorization
    Decisions regarding state land, including publicly-owned trees, 
shrubs and greenery should be decisions made by the state for 
substantive reasons, not solely for purposes of privately-owned 
billboard visibility. Maintaining roadside trees provides economic 
benefits to protect against flooding and pollution benefits by limiting 
runoff, absorbing auto emissions and shielding nearby homes from the 
impacts of traffic. The Protecting Public Trees Act will guard publicly 
owned trees from unnecessary destruction, maiming, or alteration solely 
for the purpose of billboard visibility and allows state DOT's to 
preserve their rights to cut trees in any other scenarios.

                                 <F-dash>
Prepared Statement of Hon. Gilbert Ray Cisneros, Jr., a Representative 
                in Congress from the State of California
                                 Intro
    Chairman DeFazio, Ranking Member Graves, and members of the House 
Transportation and Infrastructure Committee, thank you for allowing me 
this opportunity to provide input on infrastructure priorities on 
behalf of the residents of California's 39th Congressional District. 
For the benefit of my district and communities nationwide, I urge you 
to work together in a bipartisan fashion to provide increased funding 
for transportation projects while supporting sustainable energy and 
environmental policies to address climate change.
                            Roads & Transit
    The condition of California's roads is among the worst in the 
nation, ranking 49th according to the latest US News & World Report 
Ranking. And our transit systems, which are needed to reduce congestion 
on our highways and improve air quality, received a C minus rating by 
American Society of Civil Engineers' most recent report card. Federal 
funding is necessary to fill the gaps and allow our state to address 
infrastructure backlogs. And sustained funding levels is not sufficient 
to address these severe backlogs. Rather, I urge you to put together an 
infrastructure package that authorizes higher funding levels above what 
is needed to account for inflation.
    For example, I urge you to increase the authorized funding 
available for the INFRA discretionary grant program. Stakeholders in my 
district have been working to advance the 57/60 Confluence Chokepoint 
Relief Project along State Routes 57 and 60 for over a decade to 
improve freight mobility, relieve congestion, and enhance passenger 
safety in our region. This year, I led a bipartisan letter in support 
of the community's second application for an INFRA grant to cover just 
six percent of the projects' total funding after their application was 
rejected last year. I have met with local officials who highlighted 
that in the year that has lapsed since their grant application was 
denied, the total cost of the project has increased due to the delayed 
start date and recent changes in trade policies. Clearly, this program 
fulfills a nationwide need and current funding levels are not enough to 
support even the smallest of federal matching requests from state and 
local officials in my district.
    Further, I encourage you to authorize and make permanent the 
Transit Oriented Development (TOD) pilot program. The City of Placentia 
in my district is proceeding with site planning and has secured local 
and state funding for a new MetroLink station. Federal funds through 
the TOD program would allow for strategic planning to support economic 
development plans. Making this successful program permanent would 
reassure communities like Placentia that federal support will remain 
available for development planning.
                             Climate Change
    I believe a successful infrastructure package should not only 
address transportation and transit infrastructure backlogs and support 
jobs nationwide but will also enhance infrastructure resilience and 
prioritize investments that result in a reduction of climate pollution. 
Like many states, California has been directly impacted by the 
devastating natural disasters exacerbated by climate change. For my 
region, climate change drives up temperatures and increases wildfire 
risks. Integrating sustainability and resiliency policies into your 
infrastructure package now will help mitigate temperatures increases, 
limiting the length and damage of wildfire seasons and ensuring 
communities are prepared for the growing risks of wildfires.
    For instance, I urge you to authorize higher funding levels for the 
Low or No Emission Vehicle Program under the Federal Transit 
Administration. California has set a statewide goal for public transit 
agencies to gradually transition to 100 percent zero-emission bus 
fleets by 2040. This requirement is expected to reduce greenhouse gas 
emissions by 19 million metric tons, the equivalent of taking 4 million 
cars off the road. Transit entities across my district are working hard 
to meet this goal, but federal support is needed to ensure full and 
timely implementation. The so-called ``Low-No'' bus program will help 
transit systems in my district transition their fleets to the lowest 
polluting and most energy efficient vehicles.
                               Conclusion
    Thank you again for your time and consideration. I know you have a 
tough job ahead of you and I hope you will keep these stories in mind 
as you craft a bold infrastructure package for the benefit of 
communities nationwide.

                                 <F-dash>
    Prepared Statement of Hon. Emanuel Cleaver, a Representative in 
                  Congress from the State of Missouri
    Good Morning and thank you, Chairman DeFazio and Ranking Member 
Graves, for holding this hearing and giving Members the opportunity to 
participate in this process and share our priorities with the 
committee. As I'm sure you are aware, our nation's infrastructure is in 
dire need of upgrades. According to the 2017 report from the American 
Society of Civil Engineers (ASCE), American infrastructure received a 
D+ grade, the same grade we received from the ASCE's report in 2013. 
Essentially, this means that the United States is barely treading water 
when it comes to meeting our infrastructure needs. I don't know about 
you, but if one of my four children had received even one D on their 
report card, let alone two in a row, we'd be having a serious sit-
down--a sit down much less cordial than the one we're currently having 
today.
    For a nation as wealthy as ours--a nation that claims to have the 
best economy in the world--I find it perplexing that we have even 
reached this point. Congress should take it personally and be 
embarrassed that we have allowed the state of our national 
infrastructure to degrade to the point where the World Economic Forum's 
Basic Requirement Index ranks the U.S. outside of the top 10 developed 
nations. The U.S. should not be ranked outside the top10 of any index, 
yet here we are, consistently coming up short when it comes to national 
infrastructure needs.
    And make no mistake, our shortsightedness when it comes to 
investing in our nation's infrastructure is undoubtedly going to cost 
American taxpayers in the long term. Currently, the poor state of our 
infrastructure is costing our citizens roughly $200 billion a year. 
That's $200 billion just to maintain a D+ rating. Though the price of 
new roads, or bridges, or levees may be costly, the status quo is 
simply unsustainable.
    The cure to all our nation's infrastructure woes is to simply 
invest in our nation's infrastructure. I know, crazy right? If you want 
something to improve, you simply need to invest time and resources into 
it. According to a recent study by the Business Roundtable, for every 
dollar spent restoring our infrastructure, it produces nearly four 
dollars in economic benefits. Now, who wouldn't take four times their 
return on investment? It would be foolish not to. So, what's stopping 
us from reestablishing America as a global leader with world-class 
infrastructure that also brings back significant return on investment?
    Much like a shot of cough syrup, an infrastructure bill may be a 
tough political pill to swallow, but the benefits will make our economy 
feel much better down the line. If we do not find a way a way to treat 
our nation's degrading infrastructure, we will see more roads 
crumbling, bridges failing, and cities struggling to meet budgetary 
needs. Let me relay some of the symptoms my congressional district is 
facing.
    In Missouri, the ASCE gave us an infrastructure grade of C-. 
Slightly better than the national average, but still nothing to write 
home about.
    As I'm sure you're aware, I know Ranking Member Graves is very 
aware, Missouri was one of the Midwestern states hit hard by recent 
storms and the severe flooding that came with. Over 168,000 acres of 
land was flooded when the Missouri River overtopped and broke through 
levees. In response, the Governor has requested a federal disaster 
declaration for the affected counties. I have personally toured the 
devastation in my district, seeing firsthand the impact of our 
deficient levee infrastructure. If we are to mitigate damage from 
future floods, which we will see more of thanks to climate change as 
well as the disaster funding required to repair that damage, more 
attention and funding is needed.
    When it comes to Missouri's roads and bridges, we aren't faring 
much better. Missouri has the 7th most bridges and miles of road in the 
nation, yet we maintain them with the 4th lowest gasoline tax. It's no 
wonder that 12.5% of bridges in Missouri are structurally deficient, 
almost 4 points higher than the national average. And these 
deficiencies have a real-world negative economic impact on the 
constituents I represent. On average, Missouri residents spend $604 
annually on vehicle repairs and operating costs, roughly $75 more than 
the national average.
    The Buck O'Neil bridge, spanning the Missouri River in Kansas City, 
was declared deficient in 2017. With a lot of coordination, the State 
agreed to a $200 million replacement of the bridge. The City and 
regional partners pledged to cover half the cost and MODOT earmarked 
$51 million. The project also received a $25 million BUILD grant. This 
bridge sees 44,000 vehicles pass each day, and yet is still about $60 
million short of the total needed to complete the replacement over the 
next several years.
    Federal funding, such as the BUILD grants (formerly TIGER Grants), 
are extremely important to help cities and states implement large 
infrastructure projects. Additionally, more attention should be focused 
on rural areas, which do not always have the capacity to compete for 
competitive federal grants. Though they do not have the hefty price 
tags of urban capital projects, rural infrastructure projects are 
crucial to the rural economy and livelihood of small towns.
    The last major sector of infrastructure that I believe Congress 
must address is our stormwater and drinking water infrastructure. In 
2012, Missouri and the EPA estimated that the state needs $9.6 billion 
to address the needs of our water infrastructure over the next 30 
years. Kansas City, the largest city in Missouri, is currently under a 
consent decree to spend $2.5 billion to separate stormwater and 
wastewater systems over 25 years. The city is doing everything it can 
to meet the targets set by the federal government, but continues to run 
into challenges, mostly due to lack of help from the federal 
government. Because of this, the city utility has been forced to raise 
water rates to over $100 per household, which is unaffordable for most 
city residents. Thankfully, the city is renegotiating with the EPA on 
the structure of the consent decree, but federal funding would have 
saved my constituents from paying exorbitant water rates for the last 
several years.
    Thank you for the opportunity to speak here today about the 
infrastructure needs of Missouri's Fifth Congressional District.

                                 <F-dash>
  Prepared Statement of Hon. Gerald E. Connolly, a Representative in 
               Congress from the Commonwealth of Virginia
    Thank you to Chairman DeFazio and Ranking Member Graves for hosting 
a Member Day to hear from Members on their transportation and 
infrastructure priorities.
    One of the top transportation priorities for the National Capital 
Region and my district in northern Virginia is the safety and 
reliability of the Washington Metropolitan Area Transit Authority 
(WMATA) Metrorail system. WMATA is a $40 billion asset to the National 
Capital Region and is essential to the operation of the federal 
government, with federal employees representing approximately 40 
percent of Metrorail's peak period customers. More than one-third of 
all Metrorail stations are located on federal property, serving federal 
facilities. Unlike other transportation networks in the nation, the 
WMATA system serves a unique vital national security role for the 
federal government, providing transportation for thousands of federal 
employees traveling to and from the Pentagon, Department of Homeland 
Security facilities, and the Federal Bureau of Investigation 
headquarters. On multiple occasions, the system has demonstrated it is 
vital during times of crisis, including evacuation for weather events 
and national emergencies. For all these reasons, Congress has 
consistently appropriated dedicated federal funding for WMATA, 
recognizing the special responsibility the federal government must help 
``America's Subway'' fulfill these functions safely and reliably.
    These appropriations have been made pursuant to the Passenger Rail 
Investment and Improvement Act of 2008 (PRIIA, PL 110-432), which 
established a successful federal-state partnership under which the 
federal government provides $150 million in capital funding for WMATA 
each year. The three WMATA jurisdictions--Virginia, Maryland, and 
Washington, D.C.--collectively match this federal investment with an 
additional $150 million. Without continued federal participation this 
successful funding partnership would unravel, leaving a massive 
shortfall in WMATA's budget.
    That is why I have introduced, along with members of the DC-area 
delegation, the Metro Accountability and Investment Act (MAIA).
    MAIA would reauthorize PRIIA funding of $150 million in annual 
capital funding for ten years. This funding would remain subject to a 
$150 million match by the jurisdictions. In addition to the capital 
funding, the federal government would provide a new, additional $50 
million contribution to WMATA's operating costs--$10 million of which 
would be provided to the WMATA Office of the Inspector General (OIG). 
The federal government is represented on the WMATA Board of Directors 
and its representatives help make operating decisions for the system. 
However, the federal government contributes nothing to WMATA's $2 
billion annual operating budget. The jurisdictions, on the other hand, 
contribute a combined $1.2 billion in local operating subsidies with 
the balance of the budget coming from fares. The Federal Transit 
Administration (FTA) contributes to operating budgets for some transit 
agencies through FTA's 5307, 5310, and 5311 programs. Given WMATA's 
myriad federal contingencies, it is past time for the federal 
government to have skin in the game on the system's operating costs.
    This $200 million in annual capital and operating funding, would be 
conditional upon certain reforms that strengthen the WMATA OIG. WMATA 
would be required the provide the OIG with independent budget, 
procurement and hiring authorities, make independent legal advice 
available to the OIG, and improve transparency for OIG corrective 
actions. The OIG is a source of accountability for the system. The OIG 
has brought to light serious problems with WMATA's track inspection 
program and has issued reports that have led to the prosecution of 
fraud. The OIG in any organization must be pure as the driven snow, and 
the reforms outlined in MAIA help ensure that the work of the OIG is 
above reproach and beyond the reach of the transit system the OIG is 
tasked with overseeing.
    MAIA would also authorize a second tranche of dedicated federal 
capital funding--$100 million per year for 20 years. This new 
contribution would represent a long-term commitment to the safety and 
reliability of Metro. It would also be contingent upon two sets of 
conditions. First, the system would have to make progress towards 
certain metrics on safety, reliability, and operating cost efficiency. 
These metrics would be established through a collaboration between the 
Department of Transportation and the jurisdictions. WMATA is not 
without its challenges, and this funding would help incentivize the 
kind of reforms and performance we expect from this vital transit 
system. Second, the funding would be contingent upon the jurisdictions 
establishing and sustaining a dedicated funding source--something every 
other major transit system in America uses to meet capital funding 
needs. As the chairman of the Metropolitan Washington Council of 
Governments I convened a blue-ribbon panel on WMATA funding, and that 
panel recommended that the jurisdictions establish a dedicated funding 
source in order to meet the capital investment needs of the system. The 
jurisdictions took this important step last year, and in FY2020 the 
funding source is expected to produce $384 million in capital funding 
for WMATA. That number is expected to climb to $692 million by FY2025. 
With the jurisdictions stepping up their contributions to capital costs 
by as much as an additional $200 million per jurisdiction per year, we 
should expect the federal government to take commensurate steps 
contingent upon WMATA improving system performance.
    We cannot afford a death spiral of disinvestment and declining 
service for the transit system that gets our federal workforce to work 
each day. This bill uses a carrot and stick approach to both invest in 
this essential transit system as well hold the system accountable to 
providing safer, more reliable service. I want to thank the Committee 
for its consideration of this legislation and the federal 
responsibility to our national capital transit system.

                                 <F-dash>
 Prepared Statement of Hon. TJ Cox, a Representative in Congress from 
                        the State of California
    Thank you, Chairman DeFazio and Ranking Member Graves, for giving 
members the opportunity to share their priorities as the Committee 
begins to tackle infrastructure legislation.
    I appreciate the chance to highlight the needs of and major 
challenges facing the Central Valley, in particular, the dire need to 
increase investments in California's water infrastructure.
    Many of you may know that California's Central Valley, the source 
of over half of our nation's fruits and vegetables, is stressed by a 
lack of water supply reliability. Valley communities depend on the dams 
and canals of the federal Central Valley Project not only to deliver 
water for irrigation, but also as a source of drinking water for small 
and rural communities. It is also essential for managing floods and 
preserving fish and wildlife habitats across iconic working landscapes.
    The Friant-Kern Canal, which runs 152 miles from Millerton Lake to 
the Kern river, provides critical conveyance of drinking and irrigation 
water supply for rural communities on the east side of the San Joaquin 
Valley. The canal relies entirely on gravity to deliver water to 
communities and over 1 million acres of farmland.
    Because of subsidence, the Friant-Kern canal has lost roughly 60% 
of its carrying capacity, as the canal has literally sunk into the 
ground creating pinch points upstream of some of the largest users of 
water, causing severe economic impacts.
    The Delta-Mendota Canal provides agricultural, refuge, and drinking 
water supplies to communities and farmers throughout California, 
including 1.2 million acres of irrigated agriculture in the San Joaquin 
Valley, approximately 2 million people in Silicon Valley, and over 
200,000 acres of managed habitat of critical importance to the to the 
Pacific Flyway and various endangered species. This canal carries water 
from the Sacramento-San Joaquin Delta 116.5 miles, delivering water to 
the federal San Luis Reservoir along the way, and eventually connecting 
with the San Joaquin River near Mendota, California.
    Funding to repair and upgrade these vital arteries in the Central 
Valley will improve surface water deliveries and increase the 
efficiency and utility of current water supply.
    In absence of reliable water supply, farmers and residents depend 
on groundwater, which has led to land subsidence from overdraft of the 
groundwater aquifers. Through groundwater recharge initiatives, Valley 
communities are working diligently to counteract subsidence and reduce 
over pumping that has damaged conveyance infrastructure managed by the 
State of California and federal Bureau of Reclamation.
    More federal support for groundwater recharge and storage projects 
to replenish the groundwater basins and prevent additional subsidence 
will be beneficial. In addition, federal support will help to reduce 
groundwater contamination through improved wastewater treatment 
capabilities.
    As the state of California moves toward implementation of the 
Sustainable Groundwater Management Act (SGMA), the inability to 
efficiently move water through the Friant-Kern canal creates 
significant hurdles as it limits the ability to move water from 
Millerton Lake through to the southern end of the Friant service area. 
This part of the San Joaquin Valley has significant groundwater 
recharge potential, but it can only be fully realized if the 
infrastructure exists to deliver water during times when excess flows 
are in the system.
    Drinking water and wastewater treatment for rural and small 
communities is essential to their livelihood and ensures that all 
Americans have an affordable, safe, and reliable food supply. There are 
families in my district that cannot drink the water out of their taps 
due to poor water quality and contamination issues. According to recent 
reports, as many as one million Californians lack drinking water that 
meets federal standards. American consumers, including our hardworking 
farmworker communities that break their backs to put food on our 
tables, deserve the security of a high-quality, clean drinking water 
supply.
    Thank you for considering the needs of my constituents and I hope 
to see Congress prioritize funding for these initiatives, which will 
improve the lives of residents of the Central Valley and increase the 
food security of our nation.

                                 <F-dash>
Prepared Statement of Hon. Joe Cunningham, a Representative in Congress 
                    from the State of South Carolina
    Mr. Chairman DeFazio, Ranking Member Graves and distinguished 
Members of the Committee, thank you for the invitation to submit 
testimony. I have the great honor of representing South Carolina's 
First Congressional District, which includes Charleston, Beaufort, 
Berkeley, Colleton, and Dorchester counties.
    As I'm sure the Members of this Committee would agree, the United 
States is urgently in need of significant investments in its crumbling 
infrastructure if we intend to continue to be competitive in the 21st 
century. As co-chair of the Blue Dog Coalition's Infrastructure Task 
Force, I stand ready to assist this committee in passing a bipartisan 
infrastructure plan that improves our roads and bridges, modernizes our 
nation's electrical grids, revitalizes our ports and waterways, and 
creates well-paying jobs across the country.
    There's very little that is more important to the future of our 
nation than fixing our crumbling infrastructure--and that's 
particularly true in the Lowcountry. In the last few years, South 
Carolina has been inundated with historic flooding, unprecedented high 
tides, erosion, harsh storm surges, and hurricanes. As we continue to 
face the impacts of climate change, we know these problems will only 
get worse.
    In Charleston, flooding threatens to compromise our medical 
district. During hurricanes and heavy rains, access to our hospitals, 
including Ralph Johnson VA Medical Center, can be cut off when the 
community needs them the most. First responders are forced to grapple 
with flooded facilities and streets as they make rescues. Sea level 
rise and recurrent flooding also threaten nearly every military 
installation in the district. Parris Island, Marine Corps Air Station 
Beaufort, and Joint Base Charleston are not only critical to our 
national security but are also indispensable to our local economy.
    To build a flood-resistant South Carolina we first need enhanced 
collaboration and partnership. That is why I will soon be introducing 
legislation to allow the Department of Veterans Affairs to work with 
the surrounding community to mitigate recurrent flooding. Our flooding 
problems do not have jurisdictional bounds, so we must work together to 
solve this problem on the municipal, regional, state, and federal 
levels.
    Likewise, the US Coast Guard needs similar authority to work with 
local partners to ensure they are not cut off when we need them the 
most. The area surrounding Coast Guard Sector Charleston, based 
downtown, is highly susceptible to flooding, which can prevent 
personnel from being relieved and severely limit search and rescue 
operations during natural disasters.
    As we near the beginning of another hurricane season, the Coast 
Guard is at the frontlines of the Lowcountry's response efforts to 
natural disasters and I am grateful for their contributions to response 
and recovery efforts. So, I ask that this committee continue to support 
the Coast Guard by ensuring they have the resources they need to save 
lives.
    As legislation is developed, the Committee should ensure local 
communities are made part of the process by allowing them direct access 
to federal funding. Legislation should also encourage the efficient use 
and leveraging of federal funds by establishing a program to provide 
federal funding to local communities that have implemented a dedicated 
revenue stream for transportation investment and can independently fund 
at least 70 percent of a project seeking federal aid. A program such as 
this will incentivize more local transportation investment and will 
avoid penalizing local communities that have taken the necessary, and 
sometimes politically tough, steps to provide dedicated funding for 
transportation improvements.
    As you continue formulating the committee's policy agenda for the 
116th Congress, I look forward to working with each of you all on each 
of these issues. Thank you for the opportunity to submit my testimony.

                                 <F-dash>
Prepared Statement of Hon. Madeleine Dean, a Representative in Congress 
                 from the Commonwealth of Pennsylvania
    Thank you, Chairman DeFazio and the members of the Committee, for 
holding this member day hearing--allowing us to discuss the needs and 
priorities of our constituents.
    As the Committee lays out its agenda for the 116th Congress and 
begins to craft a new, comprehensive transportation bill, I would like 
to highlight the needs and opportunities in my district, PA-04--which 
will benefit from strong investments in our infrastructure.
    I hope that the members give special attention to the needs of our 
multi-modal transportation--our buses, passenger rail, bike lanes, 
trails, and more. Multi-modal transportation systems have several 
positive benefits, such as reducing congestion, preventing deaths, 
cutting travel times, benefitting our environment, and promoting 
economic activity. In the greater Philadelphia area, SEPTA--our 
regional transportation service--generates $3.05 billion in 
Pennsylvania. Importantly, these systems and modes of travel also 
reduce our emissions and carbon footprint. As we look for substantive 
measures to curb climate change, increasing the amount and access to 
modes of public transportation must be part of this conversation.
    Transit systems, in particular, have the ability to move large 
numbers of people in a fraction of the time, space, and carbon output 
as travelling individually in a car. Our goal in Congress must be to 
support and grow these systems, but it cannot be at the expense of 
equity and access. We must also ensure that city and regional buses and 
trains connect to all communities--rich and poor--allowing for 
increased mobility of their residents, as well as attracting the 
potential for economic development. SEPTA has a regional impact that 
supports 23,000 jobs and more then $1.7 billion in earnings in 
communities across Southeastern Pennsylvania.
    In 1981, the city of Pottstown in my district was a thriving 
manufacturing center and suburban hub. But that year its commuter rail 
line was suspended--which had detrimental effects on its community and 
economy. Many people who worked in Philadelphia left because they could 
not easily commute; the city lost a large portion of its tax base, and 
businesses left the city. Today, Pottstown has the highest poverty rate 
of any municipality in Pennsylvania's Fourth District.
    Still, it is a city with hope. The residents, officials, and 
community leaders in Pottstown are diligently working to invest in its 
communities and revitalize their neighborhoods. Ensuring people have 
access to transit systems starts right here in Washington--by providing 
robust funding and creating grant programs to help communities rebound, 
build equitable infrastructure, and incentivize transit use. Today, 
there is a planned rail line to a commercial hub in my district--King 
of Prussia--that would connect to rail lines in under resourced 
communities like Norristown and even sections of Philadelphia. These 
and many communities across America that have had similar paths as 
Pottstown are in dire need of investment--and those communities deserve 
a voice here in Washington.
    We must also take the opportunity to invest in our trails and bike 
lanes. Not only are these modes of transportation zero emission, but 
they provide economic benefits as well. The Circuit--a large trail 
network project in the Greater Philadelphia region that receives 
federal funds--is directly benefitting local communities. This includes 
real estate value, millions of dollars in direct economic impact, and 
even a reduction in regional medical costs according to one 2011 study. 
One way to ensure these transportation routes are completely funded, is 
ensuring increased funding of the FAST Act Transportation Alternatives 
Set-Asides at 10% of the Surface Transportation Block Grant Program 
(STBGP). In Pennsylvania 84% of project applications are not funded 
equally $367,130,228 unfunded project costs. Across the nation that 
cost rises to $3.5 billion. These unfunded projects are detrimental 
communities who are hoping to create safe, environmentally friendly and 
economically prosperous bike and pedestrian systems.
    Finally, and importantly, I hope the Committee considers the need 
for robust overhaul of our drinking water systems to ensure clean 
drinking water for every American. In particular, communities across 
the nation--including in my district--are suffering from PFAS 
contamination of the water supply--a chemical used in fire-fighting 
foam. According to the Agency for Toxic Substances and Disease Registry 
these chemicals have been linked to a number of detrimental health 
effects including developmental effects in infants, issues with 
fertility, and an increase risk of cancer. What was once an unknown 
contaminant used on military bases across the country is now an urgent 
health risk.
    I thank the Committee for recently holding a hearing on the Clean 
Water State Revolving fund and urge the members to consider the 
Drinking Water State Revolving Fund in your agenda going forward. State 
and local governments have been able to use the grants in the Drinking 
Water State Revolving Fund to install technologies that clean PFAS 
contamination, or to provide alternative water to local residents.
    Every American has the right to live a healthy life, and that 
requires our government to ensure every person has access to clean 
water.
    Thank you again for your commitment to bettering our communities. I 
look forward to working with the members of the Committee as you 
continue your important work.

                                 <F-dash>
    Prepared Statement of Hon. Rosa L. DeLauro, a Representative in 
                 Congress from the State of Connecticut
    Chairman DeFazio and Ranking Member Graves, I submit this testimony 
to bring attention to the need for a national infrastructure 
development bank. When your committee considers infrastructure 
legislation, we need to pursue clear, comprehensive policy that 
addresses the scope of the problem as soon as possible. According to 
the American Society of Engineers, the United States must invest $4.69 
trillion by 2025 to bring infrastructure to a state of good repair. We 
need a robust investment to exceed that amount in order to not only fix 
our current infrastructure state, but to invest in new projects to 
bring our infrastructure system into the 21st century. In addition, we 
need to pursue innovative financing that can help supplement gaps in 
current funding. I believe this can be achieved with a national 
infrastructure bank.
    When your committee, and Congress as a whole, considers 
infrastructure, I encourage you to support the creation of a national 
infrastructure development bank to help supplement gaps in investment. 
It would be a bold step forward that addresses the tremendous shortfall 
in infrastructure investment, creates jobs, spurs long-term economic 
growth, and improves our competitiveness in a global economy.
    As you know, the National Infrastructure Development Bank Act of 
2019 (H.R. 658) would create a government-owned corporation, modeled 
after the European Investment Bank, which would leverage private sector 
dollars from institutional investors, such as pension funds, to invest 
in projects beyond surface transportation such as broadband, energy, 
wastewater, and environmental initiatives. It would provide loans and 
loan guarantees to projects, and issue Public Benefit Bonds with 
proceeds to fund projects. The bank would be led by an independent 
Board of Directors that would, among other things, make final 
infrastructure financing determinations, an Executive Committee to 
handle the day-to-day operations of the bank; and Risk Management and 
Audit Committees to carefully manage risk and monitor the bank's 
activities.
    In addition, projects would be evaluated through an analysis of the 
economic, environmental, and social benefits, as well as the cost and 
if they can get 50 percent of funding from other sources. The bill also 
lays out specific criteria for each form of infrastructure. For 
example, reduction in surface and air traffic congestion for 
transportation projects; public health for environmental projects; 
reduction in greenhouse gas for energy projects; and expanding 
broadband into rural and disadvantaged communities for 
telecommunications projects. There is no minimum dollar amount required 
for a project to receive financing from the Bank. A project can be of 
significance yet not be major in terms of a dollar amount attached to 
it. Safe drinking water, for example is critical to any area, rural or 
urban, regardless of the cost.
    Lastly, employee protection provisions are included to ensure that 
while the infrastructure bank creates new jobs, it also does not 
displace current workers. When federal funds are used to acquire, 
improve or operate a transit system, federal law requires arrangements 
to protect the rights of affected transit employees. My legislation 
ensures that Bank investments do not undermine the collective 
bargaining rights or job status of the people who are employed in this 
field. It also extends those protections to any employees that may be 
impacted by Bank financing of other reconstruction, rehabilitation, 
replacement or expansion projects.
    In sum, in addition to needed robust public investment, a National 
Infrastructure Bank would supplement current federal financing 
mechanisms. Instead of focusing solely on transportation, the Bank 
would finance a wide range of infrastructure projects and it would be a 
self-sustaining entity to help support United States infrastructure 
development over the long-term.
    Thank you for your attention to my statement, as well as my 
legislation. Your leadership will be essential as congress considers 
new investments to address our growing infrastructure deficiencies. I 
look forward to working with you on this critical matter.

                                 <F-dash>
Prepared Statement of Hon. Anna G. Eshoo, a Representative in Congress 
                      from the State of California
    Chairman DeFazio, Ranking Member Graves, and honorable members of 
the Committee on Transportation and Infrastructure, thank you for 
allowing me to submit this testimony in support of my bipartisan bill, 
H.R. 2692, the Broadband Conduit Deployment Act.
    This commonsense, bipartisan legislation would mandate the 
inclusion of conduit--plastic pipes which house fiberoptic cables--
during road construction receiving federal funding if there is a 
demonstrated need for broadband in the area within the next 15 years. 
`Dig once' eliminates the need for digging up roads to install conduit 
for fiber at a later date. We call it a `dig once' policy.
    According to the Federal Communications Commission (FCC), 21.3 
million Americans lack access to broadband.\1\ Much of this is simply a 
problem of economics. Many rural communities and low-income 
neighborhoods in urban settings do not have the number of residents to 
make infrastructure investment profitable for private companies.
---------------------------------------------------------------------------
    \1\ ``2019 Broadband Deployment Report'' (Federal Communications 
Commission, forthcoming).
---------------------------------------------------------------------------
    `Dig once' is a smart, economical solution because the cost savings 
from this policy are significant. The Federal Highway Administration 
estimates it is ten times more expensive to dig up an existing road for 
conduit than to include it during road construction.\2\ A Government 
Accountability Office study found that a `dig once' policy can save 25 
to 33 percent in construction costs in urban areas and 16 percent in 
rural areas.\3\ These costs don't include the inconvenience of 
communities where roads are dug up a second time, disrupting traffic 
patterns.
---------------------------------------------------------------------------
    \2\ ``Executive Order: Accelerating Broadband Infrastructure 
Deployment, USDOT-FHWA Background Paper and Work Plan Strategy'' 
(Department of Transportation, Federal Highway Administration, and 
Office of Policy and Governmental Affairs, December 2012), https://
www.fhwa.dot.gov/policy/otps/workplan.pdf.
    \3\ ``Planning and Flexibility Are Key to Effectively Deploying 
Broadband Conduit through Federal Highway Projects'' (Government 
Accountability Office, June 27, 2012), https://www.gao.gov/assets/600/
591928.pdf.
---------------------------------------------------------------------------
    `Dig once' ensures that we don't leave rural and low-income urban 
communities out of 21st Century infrastructure. When America 
experienced electrification, we invested in ensuring all Americans 
would have access to this ground-breaking new technology. When America 
gained telephony, we did the same. This is why there are electricity 
and telephone poles throughout rural America and in low-income urban 
neighborhoods.
    I first introduced this bill in 2009 when our country began 
installing fiber cables in serious, though insufficient, ways. Over the 
years, companies, industry groups, and left-leaning and right-leaning 
groups have all supported `dig once.' Some states and cities have 
instituted their own `dig once' policies. Our country's first National 
Broadband Plan called for Congress to pass `dig once' legislation.\4\ 
In her 2019 book Fiber, Harvard Law Professor and telecommunications 
expert Susan Crawford specifically endorses the `dig once' policy.\5\
---------------------------------------------------------------------------
    \4\ ``National Broadband Plan'' (Federal Communications Commission, 
March 17, 2010), https://transition.fcc.gov/national-broadband-plan/
national-broadband-plan.pdf.
    \5\ Susan Crawford, Fiber: The Coming Tech Revolution--and Why 
America Might Miss It (New Haven, CT: Yale University Press, 2018), 
208.
---------------------------------------------------------------------------
    Last year, a preliminary version of the `dig once' policy was part 
of the Consolidated Appropriations Act, 2018, requiring states to begin 
the process of analyzing the need for conduit. The Broadband Conduit 
Deployment Act of 2019 provides the much-needed next step of requiring 
the inclusion of conduit in federally-funded road construction.
    All of us in Congress must consider how our country will operate 
years and decades in the future. This committee is unique in being 
charged with setting the very literal physical foundation upon which 
our country's future will be built. It is in this spirit I ask you 
considerconnectivity and broadband as issues worthy of consideration.
    Thank you for your attention to this matter.

                                 <F-dash>
 Prepared Statement of Hon. Dwight Evans, a Representative in Congress 
                 from the Commonwealth of Pennsylvania
    Thank you, Chairman DeFazio and Ranking Member Graves, for allowing 
me the opportunity to provide written testimony. I would like to thank 
the Committee on Transportation and Infrastructure for granting us the 
opportunity to discuss the crucial transportation and infrastructural 
issues challenging the country today.
    I represent the 3rd Congressional District, which includes 
Northwest and West Philadelphia and parts of North, South, Southwest 
and Center City Philadelphia. Pennsylvania ranks fifth in the nation 
for population and sixth in gross state productivity. As such, its 
citizens--like so many others in the nation--depend on its 
infrastructure. The Keystone State hosts over 5,000 miles of freight 
rail, more than 20,000 highway bridges, and more than 3,000 state 
regulated dams. Philadelphia is also home to the country's sixth 
largest public transportation system, SEPTA.
    Yet these critical systems and many more are in disarray. In 
Philadelphia, too many streets are riddled with potholes and cars are 
getting ruined by the on-going stress of hitting crater-sized holes in 
the road. In 2017, Pennsylvania's drinking water was ranked the 3rd 
most contaminated water in the nation. The aging water infrastructure 
that affects cities and small towns throughout our country, puts 
millions of Americans at risk every day.
    In the city of Philadelphia, tens of thousands of children are 
attending schools that have had lead in the water, lead dust from 
chipped paint, and asbestos fibers in settled dust. Although city and 
state officials have put a limited amount of joint funding toward these 
issues, the School District of Philadelphia needs federal help to 
ensure the safety of our beloved children and teachers.
    However, what is happening to school facilities in Philadelphia is 
not isolated to my city--there are crumbling school buildings 
throughout the nation and this problem needs to be addressed and 
included as we discuss infrastructure in Congress.
    Across our country there are children and teachers who are wearing 
coats in their classrooms to stay warm, crowdsourcing to raise funds 
that will repair broken air conditioners ahead of summer months, and so 
much more.
    Our youngest and brightest learners should have high-quality school 
facilities so they can achieve their dreams. Instead, too many of them 
are trying to learn in subpar facilities--even though we expect 
exceptional results.
    I serve on the Ways and Means Committee, where I urge support for 
the Rehabilitation of Historic Schools Act, H.R. 158. Among other 
tools, my bill would make available a tax credit to repair our 
children's schools so they can succeed in education and in life. These 
are the same federal rehabilitation tax credits that President Trump 
used to renovate the Old Post Office Building in Washington, D.C. and 
turn it into his own upscale hotel. I believe this tax credit should be 
expanded to work `For The People.'
    But this solution is just one proposal. Our country needs more than 
$4.5 trillion by 2025 to fix our crumbling roads, bridges, train 
tracks, and dams. We have an opportunity to work together across party 
lines to make a once-in-a-generation massive investment in 
infrastructure. Fixing our children's schools, ensuring the quality of 
our water supplies, and maintaining transportation networks must be 
part of that investment. Too often failures in our infrastructure 
affect those who live in poverty--a condition over which children have 
no control. Let us not abandon the responsibility we have to all our 
citizens, especially those most vulnerable.

                                 <F-dash>
Prepared Statement of Hon. Ruben Gallego, a Representative in Congress 
                       from the State of Arizona
    I urge the Transportation and Infrastructure Committee to pass a 
bi-partisan infrastructure package to improve and modernize our 
nation's roads, bridges, dams, airports, schools, wastewater, rail, 
electrical, and broadband systems. Year after year, the American 
Society of Civil Engineers gives U.S. infrastructure a failing grade 
and concludes that it is unable to meet the demands of a modern, 21st 
century economy.
    The longer we wait to make smart, cost-effective investments in our 
aging infrastructure system, the more it will restrict growth and the 
costlier it will become to eventually fix in the long-term. The time to 
act is now, and I am encouraged that there is support on both sides of 
the aisle to address this issue this Congress. I look forward to 
working with the committee on ensuring that Arizona's priorities, 
especially innovative water management investments, are included in any 
infrastructure package that it may consider.
    The committee should also be aware of how important sustained 
transit and light rail investments through the Federal Transit 
Administration's (FTA) Capital Investment Grant Program (CIG) are to 
the City of Phoenix and the district I represent. These federal 
investments have been matched by elected representatives and local 
taxpayers who have voted repeatedly for dedicated transit taxes. Today, 
Valley Metro, which operates the transit system in the Phoenix, Arizona 
metropolitan area, serves nearly 4 million residents and over 16 
million visitors annually.
    In particular, a light rail investment will help connect residents 
in south Phoenix to downtown and the east Valley, creating affordable 
access to jobs, health care, education, and business. Since 
construction began in 2005, Valley Metro's light rail system has grown 
to 26 miles and 35 stations, which serve the fastest growing region in 
the United States that attracts billions of dollars of outside 
investment into our local economy. None of this would have been 
possible with without sustained federal investment and partnership 
through CIG. In fact, federal funding has helped leverage $7.6 billion 
in private and $2.5 billion in public funding to help modernize our 
transportation system, support local businesses, and create jobs.
    I know that Valley Metro values the partnership with the FTA and is 
very pleased to have received a $75 million allocation for the Tempe 
streetcar project as well as engineering approval for the South Central 
LRT extension. Currently, Valley Metro is working with FTA on Letters 
of No Prejudice that would allow for the advancement of both projects.
    However, I remain concerned that the Trump Administration's efforts 
to reduce the federal match for CIG projects could undermine important 
transit investments in communities across the country. President 
Trump's FY 2020 Budget Request for CIG states:

        ``The FTA encourages project sponsors to provide an overmatch 
        as a means of funding more projects and leveraging State, local 
        and private financial resources including through the use of 
        value capture. For large projects, the maximum federal share 
        has been less than 38 percent in new FFGAs awarded since 
        January 2017.''

    Many of these projects, including projects that meet every single 
Section 5309 CIG statutory criterion for funding, would not be possible 
without at least a 50-50 federal match. I urge the committee to ensure 
that the Trump Administration honors the intent of the CIG program and 
ensures that eligible projects move expeditiously through the CIG 
pipeline, in accordance with federal law. Dramatically changing the 
federal match, especially for projects that are already moving through 
the CIG pipeline, could undermine important transit investments in 
Phoenix and across the country.
    Thank you for your attention to these important issues, and I look 
forward to working with you as the committee moves forward with its 
work.

                                 <F-dash>
Prepared Statement of Hon. Louie Gohmert, a Representative in Congress 
                        from the State of Texas
    Chairman DeFazio, Ranking Member Graves, and Members of the 
Committee:
    There are two projects vital to east Texas located near the city of 
Nacogdoches. The first of these projects is the reconstruction of the 
US-59/US-259 interchange north of Nacogdoches. This interchange is 
already extremely busy, and it will only increase in importance as US-
59 continues to be converted into Interstate 69.
    Aside from the need to improve the US-59/US-259 interchange in 
anticipation of Interstate 69 construction, changes to the interchange 
must be made to address safety concerns. Specifically, the 
interchange's cloverleaf design has led to routine truck overturns as 
loads shift when trucks take the interchange. This history of overturns 
has led to extreme risk of casualties and truly must be mitigated as 
US-59 becomes part of the national Interstate system as Interstate 69.
    The second project that needs your attention concerns additional 
problems that have arisen during construction of Interstate 69 on the 
Nacogdoches ``west loop.'' This section of Interstate 69 passes along 
nearly the entire length of the city but lacks a designation and 
establishment of definitive right-of-ways, creating considerable 
confusion and problems due to federal indecision. Definitive steps must 
be taken to specifically designate the Interstate 69 route as soon as 
possible.
    Along with this testimony, a map is included that illustrates the 
importance of these projects and the substantial impact they will have 
on the city and the region. If you require any additional information 
on these extremely important projects, please do not hesitate to let me 
know.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <F-dash>
   Prepared Statement of Hon. Raul M. Grijalva, a Representative in 
                   Congress from the State of Arizona
    Chairman DeFazio and Ranking Member Graves:
    There is broad consensus that previous Congresses and 
Administrations failed to invest sufficiently in our nation's 
infrastructure. The degrading impacts of this prolonged failure are 
evident in the crumbling roads and malfunctioning mass transit systems 
Americans are forced to navigate daily.
    Sadly, when those same weary commuters embark on vacation visits to 
National Parks, Wildlife Refuges, Forests or other federal conservation 
and recreation areas, they face the same decrepit infrastructure, which 
degrades their visitor experiences and harms the natural resources they 
travelled to enjoy.
    Fortunately, there is also broad public consensus that now is the 
time for Congress and the Administration to work together to address 
this national emergency. I appreciate the Transportation and 
Infrastructure Committee's invitation to Members of Congress to offer 
testimony regarding our nation's infrastructure needs and write to 
offer an assessment of those needs on federal lands.
                      Highway Trust Fund Programs
    Through the most recent funding legislation (FAST Act, P.L. 114-
94), the Federal Highway Trust Fund (HTF) provides significant funding 
for infrastructure programs on federal lands. Whether through a 
reauthorization of the HTF, or as part of a larger infrastructure 
package, these programs deserve increased funding.
Federal Lands Transportation Program (FTLP)
    FTLP provides funding for federally-owned transportation assets on 
public lands. Investing in high-priority assets would go a long way 
towards reducing the federal land management agencies' deferred 
maintenance backlog, as many of the most pressing and expensive 
maintenance needs--including over $6 billion of NPS' $11.9 billion 
backlog--are driven by transportation infrastructure. The program is 
currently authorized at $355 million annually, to be divided among more 
than half a dozen federal land management agencies. Request: $750 
million annually.
Tribal Transportation Program
    Roads and bridges on Tribal land are among the most dilapidated in 
the nation. The ongoing failure to provide for adequate transportation 
systems for Native People is a breach of the federal government's trust 
responsibilities. The Tribal Transportation Program distributes funding 
based on a formula calculating road mileage, tribal population, and 
relative need. The program is currently funded at $485 million 
annually, with a new Self Governance program allowing qualifying tribes 
to administer the spending. Request: $800 million annually.
Federal Lands Access Program (FLAP)
    FLAP supports State and locally-owned transportation assets that 
allow Americans to access and enjoy their public lands. As the 
availability of public, open spaces for Americans to recreate dwindles, 
the infrastructure making remaining federal areas accessible is more 
important than ever. FLAP is currently authorized at $260 million per 
year. Request: $500 million annually.
Puerto Rico and Territorial Highway Programs
    The Puerto Rico and Territorial Highway Programs are funded at $158 
million and $42 million, respectively. Not only has this level of 
funding proved inadequate to meet existing needs, recent severe weather 
events have devastated infrastructure in these areas. Climate change 
will only cause more frequent disasters. Request: $300 million for 
Puerto Rico and $100 million for other U.S. Territories.
                   Funding Subject to Appropriations
    In addition to funds from the Highway Trust Fund, Congress has 
provided funding from the General Fund, subject to appropriations, for 
the Puerto Rico and Territories' Highway programs; such funding must 
continue.
    Congress has also provided appropriated dollars for the Nationally 
Significant Federal Lands and Tribal Projects Program (NSFLTP). This 
program, designed to address large-scale projects costing more than $25 
million, is a critical funding source for once-in-a-generation funding 
needs and must continue to receive significant resources.
          Critical Aspects of a Larger Infrastructure Proposal
    In addition to extending the vital funding provided through the 
Highway Trust Fund, there is also broad public support for more 
comprehensive legislation with the potential to remake transportation 
and infrastructure in the United States. Should Congress find the will 
to approve such legislation, projects and programs on federal lands 
must be included.
US Forest Service Legacy Roads and Trails Program (LRT)
    Appropriated funding for this USFS program has been eliminated, but 
between 2008 and 2012, the program provided $300 million for storm 
proofing roads, bridges and trails for more extreme weather; culvert 
replacement; fish passageway; trail repair; and decommissioning of 
unneeded or environmentally hazardous roads. Reinstating LRT funding 
would help prepare the National Forest System for future climate 
change, including the likelihood of more extreme weather. Request: $80 
million annually.
National Park Service Cyclic Maintenance, Repair, and Rehabilitation 
        Projects
    Much of the multi-billion-dollar maintenance backlog facing our 
National Park System is infrastructure related. A new, significant 
investment in the maintenance of established assets would prevent 
further additions to the deferred maintenance backlog. Request: $200 
million annually.
Community Wildfire Protection Planning
    It is estimated that more than 70,000 U.S. communities are at risk 
from wildfire in the wildland-urban interface, yet fewer than 15,000 
have wildfire protection plans. Programs like Firewise USA help assist 
communities become fire adapted by providing a collaborative framework 
to help reduce wildfire risk but are similarly being underutilized 
considering the size and scope of wildfire risks to communities. A new 
Community Wildfire Protection Planning program would provide financial 
and technical assistance to communities, as well as home and business 
owners, to help improve resilience by utilizing wildfire resistant 
building materials for new construction and retrofits, assessing 
hazards, sharing best practices for wildfire risk reduction, and 
creating wildfire protection plans based on science-based forest 
restoration. Request: $150 million annually.
Civilian Conservation Corps
    Civilian Conservation Corps help federal land management agencies 
perform necessary maintenance and upkeep on federal lands, including 
the creation and maintenance of trails and important forest resiliency 
work. These programs help the agencies maintain assets under their care 
and provide job training and real-world skills to service members, 
including tribal youth. Request: $20 million annually.
Wildlife Corridors
    America's native fish, wildlife, and plant species have been 
declining as a result of habitat loss, fragmentation, and degradation. 
Data shows that maintaining habitat connectivity supports higher 
species diversity and lowers their risk of extinction. Wildlife 
corridors, road crossings, and other habitat connectivity efforts are 
necessary to ensure wildlife can continue to migrate, move, and thrive 
in the face of increasing threats, while protecting public safety. 
Request: $20 million annually.
Coastal Resiliency Grants
    Coastal Resiliency Grants would improve upon the National Oceans 
and Coastal Security Act administered by NOAA. Currently, the Act 
allows NOAA to better understand the oceans, coasts, and Great Lakes. A 
new grant program would direct funding to protecting, conserving, and 
restoring coastal resources, including efforts to address impacts of 
sea level change, sedimentation, and hurricanes. Request: $100 million, 
annually.
Living Shorelines
    Congress should authorize a Living Shorelines program under NOAA to 
issue grants to States and local governments to carry out shoreline 
stabilization projects that utilize natural materials. Living 
shorelines use plants or other natural elements to stabilize estuarine 
coasts, bays, and tributaries, Living shorelines are often better than 
``hard'' shoreline stabilization methods by providing nutrient 
pollution remediation, essential fish habitat, and buffer the 
shorelines from waves and storms. They also store carbon. Request: $20 
million annually.
Tribal Climate Change Infrastructure Program
    Coastal tribal communities are on the front lines and currently 
experiencing the effects of climate change. A comprehensive 
infrastructure package should include support for moving tribal 
communities from land damaged due to a rise in ocean water levels. This 
program should also include emergency recovery efforts for tribes 
drastically impacted by severe storms or flooding related to climate 
change. Request: $100 million annually.
    I am well aware of the difficulty your Committee and the Congress 
faces in designing and funding a plan ambitious enough to address this 
nation's infrastructure emergency. As Chair of the Natural Resources 
Committee, I can attest that the infrastructure needs on federal lands 
are significant, and I stand ready to assist in your efforts to craft a 
solution that will keep this country moving forward.
                                 <F-dash>
 Prepared Statement of Hon. Jahana Hayes, a Representative in Congress 
                     from the State of Connecticut
    Chairman DeFazio, Ranking Member Graves, thank you for the 
opportunity to submit this testimony to the Committee. Transportation 
and infrastructure are vitally important to both me and my 
constituents, and I appreciate the opportunity to be able to outline my 
priorities for you.
    Very few states are as diverse as mine when it comes to 
transportation. Connecticut is home to airports, train stations, major 
highways, and dirt country roads. But, Connecticut is also home to the 
5th worst infrastructure in the nation. The need for robust funding for 
our transportation systems and infrastructure is no more obvious than 
in Connecticut, and continued funding support for all forms of 
transportation, from road to rail to pedestrian, is a priority for my 
constituents.
    Of the 4,238 bridges in Connecticut, 332 are classified as 
structurally deficient, with repairs needed across the board. These 
repairs are estimated to cost over $1 billion to complete. In addition, 
nearly 25% of Connecticut's bridges are considered outdated and do not 
meet current standards. With some bridges seeing as many as 145,000 
daily crossings, the danger that these structurally deficient bridges 
pose can not be understated.
    Among the many concerns I hear from constituents in my district are 
the need to properly fund the Highway Trust Fund and reauthorize the 
FAST Act. Ensuring the solvency of the Highway Trust Fund is essential 
to the success of our transportation system. The FAST Act, the first 
federal law in over a decade to provide long-term funding certainty for 
surface transportation infrastructure planning and investment, is set 
to expire on September 30, 2020. We must reauthorize this funding.
    However, their concerns do not stop there. When looking at our 
infrastructure system, we must address the urgent need to make 
improvements to physical access to federally funded facilities for all 
Americans, particularly those with disabilities.
    One of the main reasons for today's crumbling roads, bridges, 
electrical power systems and water systems is corrosion. Corrosion 
threatens the continuous operation of these systems and exacts a global 
cost of $2.5 trillion. While some federal agencies and many state 
agencies utilize industry recognized anti-corrosion control policies, 
the U.S. Department of Transportation (USDOT) does not. I hope to see 
full inclusion of a corrosion control policy implemented at USDOT.
    When looking to the future, effective planning solutions should 
address a variety of needs within the transportation system. That is 
why we must increase funding for transportation planning programs. 
Metropolitan Planning Organizations (MPOs) need sufficient funding to 
assess an increasingly complex array of activities, including more 
planning based on performance-based criteria. When planning for 
infrastructure projects, we must ensure that they provide long-term 
benefits to the public; consider the cost of the entire project, 
including design, building, and operation; are built sustainably; and 
engage local, state, and private investment as vital partners in a 
strong infrastructure plan.
    Any infrastructure plan must bring all stakeholders into the fold 
and allow local municipalities with expertise in their respective 
regions to be at the table. That is why it is important that we 
increase funding for the Surface Transportation Block Grant Program 
(STBGP). This program provides states and MPOs the most flexibility to 
implement regional priorities. Increasing the allocation to this 
program will further enhance local authority in determining 
transportation improvements. Additionally, formula distribution of 
funds is more equitable and helps ensure all communities receive a 
level of funding needed to maintain transportation infrastructure and 
allow MPOs to set regional spending priorities.
    In many areas of Connecticut, there is an inconsistency between the 
metropolitan planning area under the jurisdiction of an MPO and the 
Census-defined urbanized area. Regional planning areas have evolved 
over time and represent long-standing inter-municipal relationships and 
better reflect commute and travel patterns and transportation issues 
and needs. Census-defined urbanized areas are not consistently 
reflective of transportation realities. Making sure that our 
infrastructure system is nimble and able to adapt when needed is key to 
long term success.
    Thank you again for this opportunity. I look forward to working 
with the Committee on these priorities.
                                 <F-dash>
Prepared Statement of Hon. Kendra S. Horn, a Representative in Congress 
                       from the State of Oklahoma
                              Introduction
    It's no secret that America's infrastructure is faltering. That 
applies to all forms of infrastructure, from the first thing that often 
comes to mind--roadways and water facilities--to internet access, 
highways and health record management. Our deteriorating infrastructure 
is affecting the district of every Member of Congress and we must work 
to address it before it is too late.
                                Transit
    At the heart of the district I represent, 5th district of Oklahoma, 
is Oklahoma City. Over the last decade Oklahoma City's transportation 
services have grown significantly, giving its citizens more options and 
flexibility in how they move around the city.
    One of the highlights of this growth is the $135 million streetcar 
project that was completed at the end of last year. The electric 
streetcars, which run along tracks like trolleys, link our city's 
important districts in and around downtown. The streetcars have only 
been in operation for roughly five months but have already hosted 
206,019 riders.
    The streetcar program is a most noteworthy accomplishment to come 
out of Oklahoma City's MAPS program. The acronym, which has become a 
household name for locals, stands for Metropolitan Area Projects. It 
uses voter-approved and specified sales taxes for projects that make 
our city a better place to live, work and visit. The program began in 
the early 1990s and is widely credited with revitalizing the city after 
a 1980s oil crash devastated the area. MAPS funding paid for the 
streetcar project and the improvements that came along with it.
    Oklahoma City has been smart with their federal dollars. At the end 
of last year, our city received a $14.3 million grant to pursue bus 
rapid transit. Essentially, we will use buses and exclusive lanes to 
mimic commuter rail, while dropping the start-up costs dramatically. 
The city's new bus rapid transit line will to connect the northwest 
part of the metropolitan area, which is home to businesses, hospitals, 
and neighborhoods, to our downtown area and the streetcar.
    The growth of Oklahoma City's transportation infrastructure is 
broadening and allowing local leaders to not just focus on 
transportation within the city, but also ways to connect the entire 
region of Central Oklahoma. Earlier this year, the Mayors of six 
Central Oklahoma cities, including Oklahoma City, agreed to the 
creation of the Regional Transit Authority of Central Oklahoma, 
otherwise known as the RTA. The RTA will oversee all transit projects 
going forward within Oklahoma City, including bus rapid transit and the 
streetcar system. It will also work to connect Oklahoma City with 
cities around Central Oklahoma.
    Never before have local governments in Central Oklahoma come 
together as they have to create the RTA. This new partnership shows the 
importance and desire for transit infrastructure among Oklahoma cities.
    Much like the local government leaders in Central Oklahoma, the 
state government has also been focusing on transportation 
infrastructure improvements. Oklahoma's Governor recently signed 
legislation into law that would transfer the current Transit Division 
within the Oklahoma Department of Transportation (ODOT) to a new Office 
of Mobility and Public Transit.
    This new division assumes all responsibilities of the Transit 
Division as well as implementation of any Federal Transit 
Administration programs not currently managed by ODOT. The new division 
will be charged with overseeing a network of public transit systems 
around the state. Further, the new division will be charged with 
funding and development of the Oklahoma Public Transit Policy Plan to 
ensure future growth. Importantly, the creation of this new division 
within ODOT is fiscally responsible, with no anticipated direct fiscal 
impact on the state budget.
    The state government has also begun to address Oklahoma's 
unfriendly infrastructure towards cyclists and pedestrians. In its 2017 
annual report card, the League of American Bicyclists ranked Oklahoma 
46 in bike friendliness. Additionally, according to data provided by 
the Federal Highways Administration, there were on average 663 non-
motorized fatalities and serious injuries involving a motor vehicle 
every year between 2012 and 2016 in Oklahoma, higher than the majority 
of states.
    Fortunately, legislation was recently passed at the state level to 
improve safety and increase penalties regarding motor vehicles 
overtaking cyclists, going beyond the standard 3-foot rule that ensures 
adequate space for bicyclists from passing motor vehicles. 
Additionally, later this year the Oklahoma Department of Transportation 
will host the first day of the Oklahoma Bike Summit. The Summit will 
include educational information sessions on how infrastructure can 
hinder or help bike and pedestrian safety in Oklahoma,
    As a member of the House Bike Caucus and advocate for cyclists I 
applaud these efforts. Recognizing the need to have safer streets for 
cyclists, and all pedestrians, will open up Oklahoma's streets to 
residents and encourage active lifestyles.
                          Rural Infrastructure
    We shouldn't prioritize our cities over our rural neighbors when it 
comes to transportation. The transportation and infrastructure needs of 
our rural communities are different than those of our cities. 
Nonetheless, they are equally important and we must work to address 
them.
    Jones is a small town in the 5th District that is half an hour 
northeast of Oklahoma City and home to about 3,000 Oklahomans. 
Northeast of Jones, the North Canadian River runs through and around 
the roadways there. In the last ten years, the river's banks have 
eroded causing road and bridge closures in the area. Residents spend 
more time on alternative roads just to get their kids to school or go 
to work.
    Since taking office, I've visited Jones and toured the damaged 
areas. Meanwhile, my office is working with local leaders to obtain 
funding to redirect the North Canadian River and rebuild these critical 
roadways. But Jones' infrastructure failings and the negative effects 
they have had on the community are happening in rural communities 
across our country.
    Eroding river banks are only a facet of the larger infrastructure 
challenges they face. Pipe networks and wastewater treatment facilities 
throughout our nation, especially in rural communities, are either 
outdated or quickly approaching a critical need for repair or 
reconstruction. The American Society of Civil Engineers graded 
America's wastewater infrastructure a D+ in its 2017 Infrastructure 
Report Card.
    A deteriorating wastewater infrastructure is a health hazard for 
all Americans, but for those living in rural communities that are often 
far away from hospitals and doctors, the risk is even greater. The EPA 
estimates that nearly $300 billion is needed for wastewater treatment 
infrastructure over the next 25 years to fully update and enhance our 
current wastewater system. This is a substantial investment, but it is 
a necessary one for the health, safety, and longevity of our 
communities.
    While our rural communities, by definition, are far from our 
metropolitan centers, we cannot allow them to become isolated from the 
rest of the world. Too many rural areas do not have reliable broadband 
access and it is hindering their ability to compete with urban areas in 
healthcare, business, and general quality of life.
    I have supported several measures this session that focus on 
increasing broadband connectivity for rural communities. I voted for 
the Delgado Amendment to the Save the Internet Act, which directs the 
Government Accountability Office to research ways we can make broadband 
coverage better and more affordable for rural internet users. I also 
voted for H.R. 1328, which would create the Office of Internet 
Connectivity and Growth within the National Telecommunications and 
Information Administration. This office would maintain a database to 
track broadband infrastructure built with federal support and help 
streamline federal broadband resources so local business and community 
leaders will have better access to them.
    Strengthening broadband in rural areas must be a part of our 
country's infrastructure improvements so our rural communities can grow 
alongside their urban counterparts.
                          Space and Aerospace
    We do ourselves a disservice when we ignore the skies above us when 
discussing infrastructure. America has long been a world leader in 
aerospace and space, in large part due to work that was done in 
Oklahoma, but we must continue to focus on updating and supporting our 
infrastructure in these areas if we are to continue to lead.
    Oklahoma City is home to the Federal Aviation Administration's 
(FAA) Mike Monroney Aeronautical Center, one of the ten largest 
employers in the State. Up to 2,000 students attend the Air Traffic 
Control Aviation School at the Monroney Center every year. The training 
being done at the Monroney Center is a critical piece of our national 
infrastructure, which supports 45,000 air traffic control centers 
worldwide. In my first speech in the House of Representatives, I 
highlighted the importance of the Monroney Center to our national 
infrastructure and the economic impact it provides Oklahoma City. I 
recently toured the Monroney Center and witnessed firsthand the 
intensive training they are doing there to ensure our air traffic 
controllers are among the highest skilled in the world.
    Training our FAA workforce is not the only service the Monroney 
Center is providing our government. The Enterprise Service Center 
(ESC), which is based at the Monroney Center, provides Federal Shared 
Services to other government agencies outside of the FAA. By delivering 
Federal Financial and Information Technology Services to other 
government agencies, the ESC's customer agencies reduce costs through 
economies of scale, partnerships, innovation, and improvement in 
capital planning. With the significant shortage of air traffic 
controllers being experienced by our nation and the tax payer dollars 
being saved by the ESC, we must focus on supporting the Monroney Center 
and its important work moving forward.
    Looking even higher than the sky our planes fly across, our 
infrastructure focus should also include our satellites orbiting earth. 
These satellites affect almost every aspect of our daily life 
including, GPS navigation, weather forecasting, and the precision 
farming.
    Satellites don't just affect our civilian way of life. They also 
play a critical role in our national security and space exploration. 
Satellite observations are used by our Armed Services to provide 
important imagery of aircraft, ships, and ground forces worldwide. NASA 
can use satellites to see into space better than telescopes on the 
ground because satellites fly above molecules in the earth's atmosphere 
that can block the view of telescopes.
    According to the 2018 NASA Inspector General's annual report, more 
than 80 percent of the Agency's facilities are 40 or more years old and 
are beyond their design life. This has a negative impact on our 
satellite infrastructure and is a grim reminder that we have fallen 
behind in our space infrastructure investment.
    As an Oklahoman, a member of the House Science, Space, and 
Technology Committee, and chair of the Subcommittee on Space and 
Aerospace, I know of the critical role the Mike Monroney Aeronautical 
Center and satellites play in our national infrastructure. I implore 
Congress to not forget about them when discussing national 
infrastructure priorities.
                                Closing
    Our country faces many problems with solutions that suffer at the 
hands of partisan gridlock. Infrastructure isn't one of them. Americans 
across the political spectrum agree: We need to build better roads, 
bridges, and, highways. We need to make it for all of us to get to 
work, to school and to our families. I'm excited to join my colleagues 
to prioritize our infrastructure for the sake of our economy and 
communities.

                                 <F-dash>
Prepared Statement of Hon. Will Hurd, a Representative in Congress from 
                           the State of Texas
    Colleagues on the Committee on Transportation and Infrastructure, 
I'm here today to advocate for the establishment of a Smithsonian 
Museum on the American Latino. The story of our nation cannot be told 
without the story of Latino Americans. Throughout the nation, the 
contributions of Latinos can be clearly seen and heard, and in my 
majority-Hispanic district, I have seen firsthand Latinos shaping our 
history and culture across local South and West Texas communities each 
and every day.
    The story of the American Latino doesn't just deserve to be told--
It needs to be told. That's why I proudly joined my friend Congressman 
Serrano to reintroduce our bill in the House to create a National 
Museum of the American Latino right here in our nation's capital on the 
National Mall. This isn't a Republican or Democrat issue. This is an 
American issue. This transcends each of us here today and will allow 
future generations of Americans from sea to shining sea to learn from 
our past, appreciate the progress made today and work together to 
create a stronger future.
    A Latino Museum is long overdue. I hope you agree and work with us 
to move this bill this Congress on behalf of the 57 million plus 
hardworking Latinos across the nation and all who came before them.
                                 <F-dash>
   Prepared Statement of Hon. Daniel T. Kildee, a Representative in 
                  Congress from the State of Michigan
    Thank you, Chairman DeFazio and Ranking Member Graves, for the 
opportunity to provide my views on an infrastructure package.
    In much of my work prior to coming to Congress, and one of my main 
areas of focus since being elected, has been to focus on the condition 
of America's older, industrial cities and towns. From small rural towns 
to larger cities, there are too many places across our country that 
continue to be one mistake away from fiscal failure. As Congress 
considers a robust infrastructure package, we must look for ways to 
specifically lift this subset of fiscally-stressed communities.
    My hometown of Flint, Michigan has captured many newspaper 
headlines in recent years. But even before the water crisis, Flint 
faced unique challenges as an older, industrial city: population loss, 
the outsourcing of jobs and rampant blight. Flint isn't an anomaly; a 
whole subset of America's cities and towns face similar challenges. 
There are places in every region of the country, like my hometown, that 
face similar stressors.
    These are real challenges that require action. It is long past time 
for us to have a national strategy about how we approach and invest in 
America's cities and towns. We cannot simply let these communities--
where millions of people live, work and raise their families--fall 
further into decline. America needs these communities to succeed. 
Sadly, federal policy has either failed to focus on these places 
altogether or taken a balance-sheet approach to managing decline that 
has led to a worse quality of life for those living in these 
communities.
    We need smart federal policy that supports increased opportunity 
and promotes growth. We need policies that promote investment in the 
already-built environment. Simply put, we need a Marshall Plan for 
America's older, industrial cities and towns. That is where a big, bold 
infrastructure plan comes into play.
    Our infrastructure needs are pressing. The American Society of 
Civil Engineers gives the U.S. a D+ and estimates the U.S. will need to 
invest $4.9 trillion by 2025. In many of the communities that I 
represent--Flint, Saginaw, Bay City and Oscoda--investment in our 
roads, bridges and water systems is sorely needed. But as Congress 
considers going big on infrastructure, we must ensure that new 
infrastructure investment benefits all communities.
    Without a clear plan and specific resources for hardest hit 
communities, a massive influx of new capital in the form of an 
infrastructure package could potentially contribute to further economic 
disparity. Any infrastructure package needs to include a specific plan 
that ensures older, industrial cities are in the same condition to 
compete for capital and investment as more affluent communities.
    Specifically, we must set aside funding to help older communities 
remove the remnants of the past. This includes funding for remediation 
and demolition of vacant commercial and residential buildings and 
advanced funding for Brownfields cleanup. Time is the enemy of business 
and real estate deals; it is vital that vacant industrial, commercial 
and residential spaces are remediated and well-positioned for capital 
investment. We should also set aside funding for communities that have 
experienced significant population loss, which creates great fiscal 
challenges for local governments to provide basic services. And it 
should address the pressing needs of areas with chronically debilitated 
housing markets.
    Communities like my hometown of Flint are resilient communities--
they just need a fighting chance. Ensuring an infrastructure package 
brings these communities up to a level playing field where they can 
compete for new economic investment and jobs will help lift our older, 
industrial cities and towns across America and the millions of families 
who live within them.
    I look forward to working with the Committee to ensure an 
infrastructure bill will help all of America's cities and towns.

                                 <F-dash>
 Prepared Statement of Hon. Derek Kilmer, a Representative in Congress 
                      from the State of Washington
    As the House Transportation and Infrastructure Committee begins to 
work on a comprehensive, and much needed, infrastructure package, I 
appreciate this opportunity to share my priorities. As the Chair of the 
New Democrat Coalition, a group of more than 100 Democrats in the House 
seeking to look at old problems through a new lens, I view this effort 
to modernize America's aging infrastructure as an essential component 
of our broader efforts to create jobs, spur economic growth, and 
increase our global competitiveness.
    Last Congress, the New Democrat Coalition's Infrastructure Task 
Force set broad priorities in ``Four Pillars for an Infrastructure 
Deal.'' We proposed a plan that would:
    1.  Modernize America's infrastructure funding, revenue sources, 
and cost analysis;
    2.  Create an infrastructure bank to finance projects;
    3.  Create incentives for communities most in need of building and 
maintaining their infrastructure, including through grant programs; and
    4.  Encourage innovation and reform, including responsible 
regulatory streamlining and private public partnerships, and the 
adoption of new innovative technologies.

    This Congress, our coalition is encouraged by the renewed, 
bipartisan support for advancing legislation that will deliver on our 
nation's infrastructure priorities, and we respectfully recommend the 
Committee take the following recommendations into consideration as you 
begin crafting this comprehensive infrastructure package.
    First, we need to create a reliable funding source for 
infrastructure that can't be looted for other projects. Even when 
federal funding exists, local communities are running into real 
challenges when trying to access it. Our constituents are ready for 
innovations in financing. Among other things, our coalition believes 
there's room for private public partnerships. I urge the Committee to 
modernize funding for existing entities like the Highway Trust Fund 
while also exploring new ideas like a public-private National 
Infrastructure Bank, which could leverage federal funds to provide low-
cost loans or guarantees to state or local governments to finance 
qualified infrastructure projects.
    Second, in addition to upgrading our existing infrastructure, we 
need to invest in new public transportation, alternative transportation 
(like bikes and ``last mile'' alternatives), and project-based funding 
to give our communities the flexibility to meet their unique local 
needs. These projects are critical to connecting underserved 
communities to economic opportunities, alleviating strain on our 
existing roads, and reducing the overall environmental impact of our 
transportation system.
    Finally, the Committee should provide dedicated support for 
projects that help communities become more energy efficient, resilient 
and better prepared to deal with the impacts of climate change. 
Communities across our country, especially our densely populated 
economic centers and coastal communities, are already experiencing the 
consequences of climate change. We need to invest in projects that 
enhance climate resilience, while also reducing pollution and carbon 
emissions. The New Democrat Coalition urges the Committee to take a 
climate-forward approach to any infrastructure package.
    Infrastructure projects are consistently evaluated as the best 
return on government investments, so investing in our infrastructure is 
more than just good politics, it's good economics. Supporting the 
movement of people and goods on our nation's roads, bridges, ports, and 
airports is crucial to driving investment in our communities. Enclosed 
with this statement is a copy of ``Four Pillars for an Infrastructure 
Deal'' put out by the New Democrat Coalition Infrastructure Task Force. 
I hope you will consider these ideas as the committee develops an 
infrastructure package this Congress.
    Our coalition is eager to take advantage of this opportunity to 
bring our infrastructure into the 21st Century, and we look forward to 
working with you to achieve this goal.

                                 <F-dash>
   ``Four Pillars for an Infrastructure Deal,'' by the New Democrat 
  Coalition 21st Century Infrastructure Taskforce, Submitted for the 
  Record by Hon. Derek Kilmer, a Representative in Congress from the 
                          State of Washington

      New Democrat Coalition 21st Century Infrastructure Taskforce

                Four Pillars for an Infrastructure Deal
    The New Democrat Coalition is determined to increase long-term 
federal investments in all types of infrastructure. Supporting the 
movement of people, goods, energy, and information through our 
infrastructure is crucial to driving investment in our communities and 
maintaining America's economic competitiveness. This investment is 
vital to both the jobs created to build and maintain our 
infrastructure, as well as those supported and bolstered by a strong 
and healthy infrastructure system that facilitates the efficient 
movement of workers, goods, services, and ideas. Modernizing our 
infrastructure is important to Americans in every part of the country. 
We know that infrastructure projects are consistently evaluated as one 
of the best returns on government investments, and that Americans would 
rather spend more time doing the things they love than sitting in 
traffic wasting time and money.
    As New Dems, we believe any new proposal must include new revenue, 
new financing, new funding, regulatory streamlining, and encourage 
life-cycle funding in innovative infrastructure projects that are built 
to last.
1. Modernize America's infrastructure
    The Task Force proposes modernizing revenue sources and protecting 
infrastructure funds from being looted for other purposes. We support 
securing dedicated, sustainable revenue to keep the Highway Trust Fund 
solvent well into the future, and increasing federal investment that 
ensures America's infrastructure keeps pace with growing demand. We are 
considering a variety of funding options including mileage based user 
fees, raising or indexing the gas tax, user fees on electric vehicles 
or batteries to create parity with gasoline powered vehicles, slightly 
increasing the corporate tax rate and dedicating the incremental 
revenue gains towards infrastructure, and both expanded and new bond 
programs.
    Finally, we must think strategically and expand our focus beyond 
up-front costs, using life-cycle cost analysis to account for the 
operating and maintenance needs of an asset across its entire life-
cycle. Short-sighted investment will only leave Americans with an ever-
deeper backlog of deferred maintenance and costly repairs.
2. Create an infrastructure bank to finance projects
    The Task Force supports investing seed funding to capitalize an 
infrastructure bank that could leverage its funds for everything from 
roads to water to broadband projects. The bank would be accessible to 
states, localities, and regional groups, and would be able to loan them 
money with favorable terms, as well as offer bond insurance. 
Importantly, an infrastructure bank is self-sustaining, able to make 
additional loans for new projects as money is paid back.
3. Create incentives for communities most in need of building and 
        maintaining their infrastructure
    The Task Force supports grant programs that specifically target 
areas in desperate need of revitalizing their infrastructure, including 
those recovering from natural disasters, communities with higher rates 
of unemployment and poverty, and rural areas.
    We also support creating new avenues to fund infrastructure 
projects in communities that have been left behind and in areas that 
have traditionally struggled to attract infrastructure funding for 
projects that have holistic community support. New Dems also believe in 
working with public and private sources to encourage joint investment 
into all types of infrastructure projects.
4. Encourage innovation and reform
    The Task Force recognizes the importance of continued regulatory 
streamlining in a way that balances expedited construction with 
appropriate environmental and safety safeguards. First and foremost, we 
believe the administration must work to implement the numerous 
streamlining provisions already passed into law by Congress in the FAST 
Act transportation bill. In addition, we support encouraging the use of 
regional partnerships and public-private partnerships where 
appropriate.
    Furthermore, as we revitalize old infrastructure and invest in new 
projects, we must encourage the adoption of new, innovative 
technologies that bolster safety and efficiency to create the 
infrastructure system of the future.

                                 <F-dash>
Prepared Statement of Hon. Andy Kim, a Representative in Congress from 
                        the State of New Jersey
    It doesn't matter where in the world you are, if you meet someone 
from New Jersey that finds out you're also from our state, you'll be 
greeted with the same question: which exit?
    `Which exit' isn't just a question of geography, it's a statement 
that our infrastructure helps define us. It's a reminder that our 
transportation systems aren't just what get us from point A to point B, 
but what deliver us from the present to the future.
    As we look at the future, it's hard not to examine our past. Years 
of neglect from Washington and increased use across our state have led 
to an infrastructure system that faces massive challenges today.
    A recent report from the American Road and Transportation Builders 
Association showed that in my district alone, there are 44 structurally 
deficient bridges and another 155 in need of repair. What does that 
mean for the people I represent here in Congress? It means when they 
exit the New Jersey Turnpike on Exit 5 and go north to Route 130, they 
drive over three structurally deficient bridges. Just one of those 
bridges, over Pompeston Creek, has nearly 68,000 trips per day.
    That means tens of thousands of parents trying to get their kids to 
school are doing so on a bridge that is a direct danger to their 
safety. It means tens of thousands of people trying to get to work are 
doing so on a bridge built when Calvin Coolidge was president. It means 
tens of thousands of seniors trying to get to their medical 
appointments are doing so on a reminder of Washington's failure to 
improve our basic infrastructure. All of this happens over the course 
of an average day in New Jersey.
    For these parents, working people and seniors, the basic 
infrastructure that delivers us to the future in New Jersey isn't just 
the paved roads of the Turnpike and Parkway. It's not just our state 
roads and city roads that connect our homes to our businesses, schools 
and communities. It's our public transit, sea and airports that connect 
us with the rest of the country and the rest of the world.
    If we are going to build connections--from community to community, 
from exit to exit, from New Jersey to the work and from the present to 
the future--we must build the infrastructure to make it happen.
    No family in Cinnaminson should be endangered because of a bridge 
that is deemed unsafe. No business owner in Toms River should face the 
challenge of roads that make it difficult to move goods and grow jobs. 
No senior should miss a medical checkup because they were failed by 
public transit.
    We need a robust and bold infrastructure package that reflects the 
bold aspirations of the people I'm proud to represent. The benefits of 
bold action aren't just felt by Democrats or Republicans.
    Building a new overpass over Route 539 won't just help Democrats or 
Republicans, it'll help make our Joint Base more secure and a stronger 
economic engine for our region. Fixing water infrastructure in 
Bordentown won't just help Democrats or Republicans, it'll make sure 
our children can drink from the faucet without fear. Expanding 
broadband access won't just help Democrats or Republicans, it'll make 
our businesses competitive in a global marketplace.
    These are benefits that will be felt across our state, regardless 
of your party or your exit. I'm proud to stand up for investment in 
infrastructure because every exit should be one that leads to the 
future. I call on this committee and this Congress to take immediate 
steps to make that investment and ensure that the future is truly 
bright.

                                 <F-dash>
  Prepared Statement of Hon. Raja Krishnamoorthi, a Representative in 
                  Congress from the State of Illinois
                           Opening Statement
    Chairman DeFazio, Ranking Member Graves, and all Members of the 
House Transportation & Infrastructure Committee, I sincerely appreciate 
this Members Day opportunity to submit my testimony to your committee 
as you consider legislative priorities for the 116th Congress. As you 
and your staff evaluate ways to strengthen access to public 
transportation, highway safety, and efficient and environmentally 
friendly transportation across rail, air, and roads, I ask that you 
please explore efforts to improve road safety and decrease distracted 
driving in America. Specifically, I ask that you support the passage 
and implementation of the bipartisan States Afforded Funding Extensions 
To Oppose Driving Recklessly In Vehicular Engagements, or the SAFE TO 
DRIVE Act (H.R. 2416). This legislation was introduced this Congress by 
U.S. Representatives Raja Krishnamoorthi, Mike Gallagher, and Steve 
Cohen.
    According to the National Highway Traffic Safety Administration 
(NHTSA), distracted driving was directly responsible for taking at 
least 3,166 lives in 2017, including 229 teenagers, with nearly 400,000 
people injured because of distraction-affected crashes.\1\ \2\ In 2010, 
NHTSA reported that crashes in which at least one driver was identified 
as distracted cost $39.7 billion,\3\ and with the rise smartphones and 
cheap data plans this issue has worsened. Text messaging, for example, 
increases the risk of a crash or near-crash by 23 times.\4\
---------------------------------------------------------------------------
    \1\ https://www.nhtsa.gov/risky-driving/distracted-driving
    \2\ https://www.nhtsa.gov/highway-safety-grants-program
    \3\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812013
    \4\ https://vtnews.vt.edu/articles/2009/07/2009-571.html
---------------------------------------------------------------------------
    It is evident that this problem is not going away and that current 
efforts to curb distracted driving are not sufficient.
                             Current State
    In 2015, President Obama signed into law the Fixing America's 
Surface Transportation Act, or the ``FAST Act.'' It provided years-long 
funding for surface transportation, allowing States and local 
governments to move forward with critical transportation projects. 
Specifically, the FAST Act authorized $2.7 billion in funding for the 
Section 402 Highway Safety Programs and Section 405 National Priority 
Safety Programs for fiscal years 2016 through 2020.\5\
---------------------------------------------------------------------------
    \5\ There was not a corresponding footnote listed for reference No. 
5 in the original written statement.-Ed.
---------------------------------------------------------------------------
    Within the Section 405 program, specific funding is allotted 
through Section 405(e) for comprehensive distracted driving grants. 
These federal grants are awarded to states to help create distracted 
driving awareness campaigns and to better enforce distracted driving 
laws. To qualify for these grants, states must meet four requirements:
    <bullet>  Ban texting as defined by statute (``reading from or 
manually entering data into a personal wireless communications device . 
. . or engaging in any other form of electronic data retrieval''), 
including not allowing an exemption for stopping at a traffic light.
    <bullet>  Prohibit drivers under 18 or in a graduated driver 
license (GDL) program from using a personal wireless communications 
device;
    <bullet>  Require primary enforcement of texting law and/or youth 
law (primary enforcement for both required); and,
    <bullet>  Impose a minimum fine of $25 for violation of texting law 
or youth law (both required).

    In 2018, 17 states applied for these grants, but only four 
(Connecticut, Maine, New Jersey, and Oregon) qualified for the grants. 
Unspent funds are allocated to Section 402. In review of this issue, it 
appears many states intended to meet the standards and hoped to 
received grant funding, but were unsuccessful in securing funds. As a 
result, states could be following the spirit of the law but falling 
short on the technicalities. For example, instead of having a minimum 
fine for a violation of a texting law, a state could have a maximum 
fine, or have previously defined texting as ``SMS Messaging'', which 
would not meet NHTSA's requirements.
                                Solution
    While many states will never fully qualify for the current grants, 
they should not be entirely denied the chance to educate and enforce 
distracted driving awareness and prevention. The SAFE TO DRIVE Act 
proposes two supplemental grants with clear language to use for 
distracted driving prevention. The two proposed grants will be awarded 
to states who:
    <bullet>  Add a state law with a specific definition of texting, 
which would encompass instant messaging, SMS texting, Facebook 
messaging, or using WhatsApp--essentially any other form of electronic 
data retrieval or electronic data communication. This would include 
browsing the web.
    <bullet>  Add a state law banning all non-navigational viewing 
while driving. States would still allow for use of something like 
Google Maps or Waze, but would not allow streaming from YouTube, 
watching a video, or FaceTiming.

    For each of these grants, up to 25% of the money already allocated 
to the distracted driving grant program would be available for the new 
supplemental grants.
    Additionally, this legislation would require NHTSA to provide 
states with a detailed analysis of why they failed to obtain a grant--
and make that analysis publicly available.
    Given the grave importance of road safety and Congress's intent 
under the FAST Act to help states promote distracted driving awareness, 
providing additional funding opportunities through the SAFE TO DRIVE 
Act will save lives.
                               Conclusion
    Implementing the SAFE TO DRIVE Act is one small but integral step 
to improving roadway safety. This bipartisan legislation, led by myself 
and Representatives Mike Gallagher (R-WI) and Steve Cohen (D-TN), has 
broad support in the road safety advocacy community, with endorsements 
from the following organizations: Advocates for Highway and Auto 
Safety, Allstate, Liberty Mutual, State Farm, American Property 
Casualty Insurance Association, and the National Safety Council. In the 
coming months, I look forward to engaging with the committee as you 
explore the reauthorization of the FAST Act and examine sustainable 
solutions to strengthen our nation's infrastructure.

                                 <F-dash>
Prepared Statement of Hon. John B. Larson, a Representative in Congress 
                     from the State of Connecticut
    Thank you, Chairman DeFazio and Ranking Member Graves, for holding 
this Member Day and for allowing me to testify. I have had the honor of 
hosting Chairman DeFazio in my district along with his predecessor 
Chairman Shuster on multiple occasions. The Transportation Committee 
has a rich history of operating on a bipartisan manner and I am 
heartened to see that tradition continuing.
    As a member of the Ways and Means Committee, I was delighted that 
earlier this year the Chairman and Ranking Member testified in front of 
our committee. The Ways and Means Committee will be responsible for 
finding the revenue needed to fund these investments and we are 
committed to doing just that.
    Infrastructure is neither Democratic or Republican, it's American. 
We have sadly allowed our infrastructure to fall into a state of 
disrepair. The American Society of Civil Engineers gives the state of 
our infrastructure a grade of ``D+''.
    At the same time, China has been investing 8.5% of its GDP in 
infrastructure. The United States invests less than 1.4%, its lowest 
level on record.
    Connecticut's First District is an example of a place with aging 
infrastructure that is in dire need of reinvestment. Hartford is home 
to the I-84/I-91 interchange, which is the largest traffic bottleneck 
in Connecticut, 2nd in New England, and 14th nationally.
    It was built in the 1960's to accommodate the largest department 
store in New England, G. Fox and Company--which no longer exists. But 
the highway system that was built around it now divides the city of 
Hartford and cuts it off from its beautiful riverfront.
    As we look at making infrastructure investments, we can't repeat 
the mistakes of the past.
    That is why I have been advocating for tunnel proposal for the I-
84/I-91 interchange in Hartford, similar to what Seattle recently did 
with the Alaskan Way Viaduct project.
    The I-84/I-91 tunnel proposal would:
    <bullet>  Spur economic development
    <bullet>  Create jobs
    <bullet>  Reconnect neighborhoods
    <bullet>  Recapture the riverfront
    <bullet>  Shore up the levee system
    <bullet>  Relieve congestion
    <bullet>  Create multimodal transportation options
    <bullet>  Allow the city to remain open during construction.
    <bullet>  Create a vibrant urban core and a thriving region with 
economic opportunities for all.

    Simply put, the benefits of such an investment are enormous. But 
our underinvestment in infrastructure is holding us back from building 
important projects like this one.
    It's time for Congress to pass an infrastructure bill that will 
unleash transformative projects across the country like the I-84/I-91 
tunnel proposal in Hartford.
    Mr. Chairman, Mr. Ranking Member--let's go big on infrastructure. 
Let's not settle for half measures.
    As the American Society of Civil Engineers has said, the nation 
needs to invest an additional $2 trillion in infrastructure over the 
next 10 years. The need is there. My legislation from last Congress, 
the America Wins Act, would raise $1.8 trillion over 10 years through a 
tax on carbon pollution. I think that is the type of proposal that will 
allow us to make the type of investments we need, but I am willing to 
vote for anything that brings in sufficient revenue to rebuild the 
country.
    Let's rebuild our roads, bridges, tunnels, and transit systems. 
Let's build for the future with high speed rail networks and multi-
modal infrastructure such as biking and walking. Let's invest in our 
airports, levees, drinking water, sewers, ports, schools, and more.
    If China can do this, so can the United States.
    Specially, I urge the committee to pursue the following policies:
    <bullet>  Let's go big. We should develop an infrastructure package 
that invests at a minimum, an additional $1 trillion over current 
levels over the next 10 years--and we should aspire towards $2 
trillion. We need to commit the type of investment that will allow us 
to take on transformational projects like the I-84/I-91 interchange in 
Hartford, CT.
    <bullet>  It's time for Congress to reassert its Article I power 
over the purse. Instead of leaving all project decisions in the hands 
of unelected bureaucrats, the members who know their districts and vote 
to authorize billions of federal dollars should have a role in project 
decision-making.
    <bullet>  We need real revenue and real funding. That means working 
with the Ways and Means Committee to pay for the investment with 
ideally a 90/10 federal/nonfederal split, or 80/20 at minimum. Public-
private-partnerships have role, but they are not a substitute for real 
funding.
    <bullet>  Life-Cycle Cost: Projects like dealing with the I-84/I-91 
interchange in Hartford cost billions of dollars up front, but the 
long-term benefits of making a smart investment in transformational 
projects far-eclipse the upfront costs. We should be looking to enact 
federal policy that takes into account the long-term benefits of 
infrastructure investment when considering which projects to build.
    <bullet>  The I-84/I-91 tunnel proposal involves economic 
development, a levee system, highways, transit, rail, and housing. I 
encourage the committee to explore policies that allow us to do a 
better job of looking at projects holistically rather than silo-ing 
them off between different agencies and modes.
    <bullet>  Multi-modal investment: we must ensure that federal 
funding is being invested in all forms of transportation, including 
transit, rail, biking, pedestrians, aviation, and waterways along with 
roads and bridges. This will make for communities that are healthier, 
vibrant, and sustainable. This includes taking into account the 
realities of climate change to ensure we are investing in sustainable 
and resilient infrastructure.

    Finally, I would like to submit for the record documents from the 
Connecticut Department of Transportation, the Connecticut Airport 
Authority, and the Capitol Region Council of Governments outlining 
their priorities before the Transportation & Infrastructure Committee's 
jurisdiction.
    Thank you for hearing my testimony. I look forward to working with 
your committee on a transportation reauthorization bill and major 
infrastructure legislation this year.

                                 <F-dash>
 Connecticut Department of Transportation Recommendations on FAST Act 
    Reauthorization, Submitted for the Record by Hon. John B. Larson
Connecticut Department of Transportation Recommendations for House T&I 
               Member Request on FAST Act Reauthorization
                             april 25, 2019
          1. Provide Flexibility to Toll Federal-aid Highways
Current Federal Policy:
    In most cases, federal law (23 USC 301) restricts states from 
tolling Federal aid Highways, which eliminates a potential source of 
revenue. The Interstate System Reconstruction and Rehabilitation Pilot 
Program (ISRRPP) was authorized under Section 1216(b) of TEA-21 to 
permit up to three existing Interstate facilities to be tolled to fund 
needed reconstruction on Interstate corridors that could not otherwise 
be adequately maintained or functionally improved without the 
collection of tolls.
Issue:
    Federal law imposes restrictions on states from tolling Interstate 
routes. These restrictions were put in place in 1956 when the federal 
government adopted a program to create a national network of limited 
access highways for national defense and to support the growth of the 
American economy. Federal funds paid for 90% of the cost of the system 
construction.
    Over 60 years after the program was created the Interstate highway 
and bridge infrastructure is aging and in need of extensive 
reconstruction or replacement. Unfortunately, the Highway Trust Fund no 
longer has the revenues to support a major reconstruction program. The 
burden of rebuilding and modernizing the Interstate system falls 
primarily on the states. The restrictions on tolling Interstate 
highways need to be lifted so states can generate the revenues they 
need for the massive reconstruction challenge they face.
    Connecticut is currently authorized to toll under the Value Pricing 
Pilot (VPP) Program which allows a limited number of states to toll on 
existing toll-free highways, as long as congestion pricing is used to 
manage traffic congestion. In February, Governor Lamont proposed 
tolling I-84, I-91, I-95 and Route 15 (west of New Haven) and the 
Connecticut General Assembly is currently debating toll authorization 
legislation. The ability to apply to USDOT for approval to install 
tolls on existing roads without the use of congestion pricing would 
provide Connecticut greater flexibility to use tolling as a revenue 
source for needed activities on all components of out highway system.
Recommendation:
    Provide increased tolling flexibility to states to maximize 
revenue-raising opportunities in light of federal funding challenges. 
Specifically, eliminate the prohibition on tolling existing free 
Interstate highways, subject to the approval of the Secretary, for 
purposes of reconstruction, restoration, or rehabilitation.
Legislative Text:
    Section 129(a)(F) of title 23, United States Code is amended to 
read as follows--
    (F)  reconstruction, restoration, or rehabilitation of a toll-free 
Federal-aid highway on the Interstate System and conversion of the 
highway to a toll facility, subject to the approval of the Secretary;

    Section 129(a) of title 23, United States Code is amended by 
striking subparagraph (G) and redesignating subparagraph (H) as 
subparagraph (G).
   2. Allow commercialization of rest areas on the Interstate System.
Current Federal Policy:
    Federal law (23 USC 111) prohibits the construction or location of 
commercial establishments within a rest area on the interstate and 
limits the provision of vending machines only to the state.
Issue:
    Federal law prohibits states from commercializing rest areas on 
interstates developed after 1956. The state of Connecticut has seven 
Rest Area facilities along its highways to offer travelers a place to 
pull off the highway to rest or stretch their legs. These facilities 
are located in West Willington (I-84 E/B and I-84 W/B); Danbury (I-84 
E/B); Middletown (I-91 S/B); North Stonington (I-95 S/B); Southington 
I-84 E/B); and Wallingford (I-91 SB). Basic services and amenities are 
provided, such as restrooms, parking, and vending machines, as well as 
picnic and pet walking areas.
    Funding for 24/7 Rest Area operations was reduced by $2M in FY 
2016. As a result, the rest areas remained open with hours reduced to a 
single daily shift (with hours of availability from 8:30 a.m. until 
3:30 p.m.). Expanding allowable commercial activity at Connecticut's 
seven rest areas would generate additional revenue for states with 
limited budgets to offset maintenance, operating and capital costs at 
each facility. Commuters and those traveling through Connecticut would 
benefit from modern rest areas with food, coffee, gas stations, and 
electric vehicle charging stations that are easy to access, similar to 
the 23 service plazas ConnDOT currently owns.
Recommendation:
    Amend 23 USC 111 to allow for food concessions and electric vehicle 
charging stations at State-owned interstate rest areas.
Legislative Text:
    Section 111(b)(2) of title 23, United States Code, is amended to 
read as follows--
    (1)  by redesignating subparagraphs (D) and (E) as subparagraphs 
(E) and (F), respectively;
    (2)  by inserting after subparagraph (C) the following:
      ``(D)  concessions, including restaurants, food services, and 
convenience stores;''.

    (b) TAX REVENUES.--Section 111(b)(4) is amended 4 by adding at the 
end the following: ``Notwithstanding the 5 preceding sentence, a State 
may use revenues received 6 from concessions under paragraph (2)(D) to 
support any 7 program authorized under this title.''

    Section 111 of title 23, United States Code, is amended by 
inserting at the end the following:
    ``(f)  ELECTRIC VEHICLE CHARGING STATIONS IN REST AREAS.--
      ``(1)  IN GENERAL.--Notwithstanding subsection (a), a State may--
        ``(A)  permit electric vehicle charging stations in a rest area 
along a highway on the Interstate System in the State, if such stations 
or facilities will not impair the highway or interfere with the free 
and safe flow of traffic thereon; and
        ``(B)  charge a fee, or permit the charging of a fee, for the 
use of such stations or facilities.
      ``(2)  LIMITATION ON USE OF REVENUES.--Notwithstanding subsection 
(b)(4), a State shall use any revenues received from fees collected 
under paragraph (1) for projects eligible under this title.''.
             3. Eliminate Rescissions of Contract Authority
Current Federal Policy:
    Congress has used rescissions of highway contract authority as 
budgetary offsets. An $856 million rescission in unobligated contract 
authority was enacted in June 2017 and a $7.6 billion rescission is 
scheduled for July 2020 under the FAST Act. The $7.6 billion rescission 
would be derived from Federal-aid Highway Program categories other than 
those that are exempt including: Highway Safety Improvement Program, 
Railway-Highway Crossing Program, and sub-allocated portions of the 
Surface Transportation Block Grant Program (STBGP). Non-exempt program 
dollars are required to be rescinded from unobligated balances 
remaining on that date on a proportional basis.
Issue:
    Rescinding previously-authorized highway contract authority greatly 
impedes the flexibility of state departments of transportation to 
program Federal dollars and could result in hard cuts to highway 
funding and seriously delay project construction.
    The Connecticut share of the rescission is estimated to be $96.9 
million (based on 1.28% of national total).
Recommendation:
    Congress is urged to repeal the scheduled FY 2020 rescission and 
avoid using rescissions of highway contract authority. However, if a 
rescission is imposed, no funding categories should be exempt. States 
should have the flexibility to choose among all the funding categories 
to rescind so they can reduce the negative impact of the rescission on 
transportation service and performance.
Legislative Text:
    Section 1438 of Public Law 114-94 is repealed.
                     4. Emergency and Tow Vehicles
Current Federal Policy:
    FAST Act, Sec. 1410, Interstate Weight Limits; 23 USC 127, Vehicle 
Weight Limitations-Interstate System, subsections (m) and (r)
Issue:
    The FAST Act increased the maximum gross vehicle weight allowance 
of an emergency vehicle on the Interstate System (and routes that 
provide reasonable access to the Interstate System) to 86,000 pounds 
and exempted heavy-duty tow and recovery vehicles (regardless of 
weight) from Federal Interstate weight limits. These vehicles can 
create greater load effects in certain bridges than the previous legal 
loads. If not appropriately rated and posted (i.e., restricted), bridge 
safety, serviceability, and durability may be compromised by these 
vehicles. States recognize the safety and mobility benefits of 
facilitating prompt movement of emergency and tow vehicles. However, 
these two new weight-limit exemptions are not subject to state permit 
authority and are considered ``unrestricted'' exceptions; thus, every 
state is now required to re-evaluate the load rating for all Interstate 
bridges (and those that provide access to the Interstate) and post 
restrictions on those bridges that cannot safely carry these new 
maximum unrestricted vehicle loads.
    An unintended consequence of the FAST Act is that hundreds--or 
potentially thousands--of bridges in each state now must be load-rated 
for the higher limits and ``posted'' with any applicable load 
restrictions. Furthermore, while the provision for emergency vehicles 
includes a stated maximum gross vehicle weight of 86,000 pounds and 
requirements as to axle limits, the heavy-duty tow and recovery vehicle 
provision does not state a weight limit and allows for the unspecified 
weight of a towing and towed vehicle combined, making it impossible for 
states to determine how to load rate the bridges and determine which 
ones must be posted. The unexpected additional costs associated with 
load-rating and posting thousands of bridges will cause financial 
burdens on state and local transportation agencies. Additionally, 
posting load restrictions on thousands of bridges on the nation's 
Interstate System (and reasonable access roads) will likely create 
confusion among drivers that could affect the safety of the traveling 
public and operators of said emergency and heavy-duty tow and recovery 
vehicles. If these vehicles were to be subject to state permit 
authority, states would be able to designate appropriate routes, 
reducing the number of posted bridges, reducing costs for state and 
local governments, protecting bridges, and continuing to facilitate 
prompt movement of emergency vehicles to the scenes of emergencies and 
prompt clearance of disabled vehicles from roads.
Recommendation:
    Rescind the FAST Act provisions concerning emergency vehicles and 
heavy-duty tow vehicles (23 USC 127(m) and (r)) and allow states to 
accommodate these vehicles as they have done successfully prior to the 
FAST Act, through real-time permitting or other methods. Another option 
is to modify 23 U.S.C. 127 (m) and (r) to allow states to apply for 
FHWA authority to use a permit system for subsection (m) and subsection 
(r) vehicles over 80,000 lbs gross vehicle weight.
Legislative Text:
    Section 127 of title 23, United States Code is amended by repealing 
subsection (m)(1) and inserting:
    ``(1)  IN GENERAL.--Notwithstanding any other provision of this 
section, a State may issue special permits to overweight covered heavy-
duty tow and recovery vehicles through real-time permitting or similar 
methods if such permits are issued in accordance with State law.

    Section 127 of title 23, United States Code is amended by repealing 
subsection (r) and inserting:
      ``(r)  Emergency Vehicles
        (1)  In General.--Notwithstanding any other provision of this 
section, a State may issue special permits to overweight emergency 
vehicles through real-time permitting or similar methods if such 
permits are issued in accordance with State law.
        (2)  Emergency vehicle defined.--In this subsection, the term 
``emergency vehicle'' means a vehicle designed to be used under 
emergency conditions--
          (A)  to transport personnel and equipment; and
          (B)  to support the suppression of fires and mitigation of 
other hazardous situations.
  5. Make All Categorical Exclusions Available for Use by Any Federal 
                                 Agency
Current Federal Policy:
    49 USC 304
Issue:
    Under current NEPA regulations, each federal agency adopts its own 
list of categorical exclusions (CEs) applicable to actions that the 
agency carries out. If multiple federal agency approvals are needed for 
the same project, and only one agency has an applicable CE, then that 
agency can issue as CE, but the other federal agencies must prepare an 
EA--slowing down the process unnecessarily. An existing law allows any 
USDOT agency to use any other USDOT's agency's CE, but this authority 
has two important limitations: (1) applies only to ``multimodal 
projects,'' which are defined as projects that require approval from 
two or more USDOT agencies, and (2) it does not apply to agencies 
outside the USDOT. These restrictions are unduly limiting.
Recommendation:
    Amend 49 USC 304 or enact new legislation authorizing any federal 
agency to apply a CE that had been adopted by any other federal agency; 
this authority would make CEs interchangeable among all federal 
agencies. For example, the Corps could apply a CE from FHWA's CE list. 
If this change is not made, Congress should at least amend 49 USC 304 
to allow any USDOT agency to use any other USDOT agency's CE, 
regardless of whether the project is ``multimodal.''
Legislative Text:
    Section__. Notwithstanding any other provision of law, in 
considering the environmental impacts of a proposed project, a 
categorical exclusion designated under the implementing statutes, 
regulations or procedures of a federal agency shall be adopted by other 
federal agencies when reviewing suchenvironmental impacts for a 
project.
  6. Require Air Quality Conformity Only for the Current Air Quality 
                               Standards
Current Federal Policy:
    42 USC 7506
Issue:
    As required by the Clean Air Act, the EPA periodically reviews and 
updates the National Ambient Air Quality Standards (NAAQS), typically 
by replacing an old standard with a new, more stringent standard. When 
a new NAAQS is adopted, EPA issues rules for transitioning to the new 
standard. In a recent court decision, South Coast v. EPA, the U.S. 
Court of Appeals struck down an EPA rule that provided for the 
transition from the 1997 ozone standard to the stricter 2008 standard. 
The court held that even though the 1997 standard had been revoked and 
replaced by a stricter standard, states and MPOs still were required to 
continue making conformity determinations for the revoked 1997 
standard. This decision will result in wasteful effort of demonstrating 
conformity to plans for achieving an air quality standard that has 
already been met.
Recommendation:
    Require that when a new standard is established for a pollutant, 
transportation agencies only need to conform to the most recent 
standard for that pollutant.
Legislative Text:
    Subsection 7506(c)(5) of title 42, United States Code, is amended 
to read as follows--
    ``(5)  Applicability.--
      (A)  This subsection shall apply only with respect to a 
nonattainment area and each pollutant for which the area is designated 
as a nonattainment area; and
      (B)  If a new national ambient air quality standard is 
promulgated for a pollutant, corresponding to a previously issued 
standard for the same pollutant, the requirements of this subsection 
shall apply only to the newly promulgated standard.''
 7. Adoption of Public Rights-of-Way Accessibility Guidelines (PROWAG)
Current Federal Policy:
    28 CFR 36, Nondiscrimination on the Basis of Disability by Public 
Accommodations and in Commercial Facilities
Issue:
    The Americans with Disabilities Act (ADA) strives to ensure access 
to the built environment for people with disabilities. To facilitate 
this access, the US Access Board is responsible for developing and 
updating design guidelines known as the ADA Accessibility Guidelines 
(ADAAG), which focus primarily on facilities on sites. These guidelines 
are currently used by the US Department of Justice and the US 
Department of Transportation in setting enforceable standards that the 
public must follow. However, sidewalks, street crossings, and other 
elements in the public right-of-way can pose different challenges to 
accessibility. While the current ADAAG addresses certain features 
common to public sidewalks, such as curb ramps, the Access Board 
determined more than a decade ago that additional guidance was 
necessary to address conditions and constraints unique to public 
rights-of-way.
    Thus, the Access Board has been collaboratively developing 
guidelines for facilities within the public rights-of-way--the Public 
Rights-of-Way Accessibility Guidelines (PROWAG)--which address 
transportation-specific issues, including access for blind pedestrians 
at street crossings, wheelchair access to on-street parking, and 
various constraints posed by space limitations, roadway design 
practices, slope, and terrain. Once these guidelines are adopted by the 
US Department of Justice, they will become enforceable standards under 
Title II of the ADA. Unfortunately, since the current ``officially 
adopted'' guidance is still the ADAAG, which is intended more for 
vertical than horizontal construction, there has been uncertainty in 
transportation agencies regarding what is or is not acceptable. In 
addition, several agencies are being required, as the result of 
litigation, to implement suboptimal accessibility solutions that were 
truly intended for buildings, not transportation facilities. Adoption 
of the PROWAG would provide transportation agencies with solid, 
researched solutions for accessibility within their transportation 
corridors.
Recommendation:
    Official adoption of the Public Rights of Way Accessibility 
Guidelines (PROWAG) is needed to ensure consistency across the country 
in the application of accessibility features within the streetscape. 
Adoption would also ensure that the horizontal construction guidelines 
are used by transportation agencies instead of the vertical 
construction guidelines.
Legislative Text:
    Section__.ADOPTION OF PUBLIC RIGHTS OF WAY ACCESSIBILITY 
GUIDELINES.--
    (a)  The U.S. Department of Justice and U.S. Department of 
Transportation shall adopt the Public Rights of Way Accessibility 
Guidelines developed by the U.S. Access Board.
    (b)  The guidelines adopted under subsection (a) shall become 
enforceable standards under Title II of the Americans with Disabilities 
Act of 1990.
 8. Minimum Condition Levels for National Highway System (NHS) Bridges 
 and Pavements Could Encourage a Worst-First Asset Management Approach
Current Federal Policy:
    <bullet>  23 USC Section 119, National Highway Performance Program
    <bullet>  23 CFR Section 515, Asset Management Plans
Issue:
    Current federal law requires states utilize and document an asset 
management plan for the NHS. State DOTs must also manage the 
transportation system well beyond the designated NHS. One of the 
principles of asset management is to focus on reducing life-cycle 
costs, not on addressing the ``worst first'' for the transportation 
network. FHWA's current guidance states that a successful asset 
management program ``must have moved away from a `worst first' 
investment strategy, and instead have adopted investment principles 
that are based on life cycle costing and incorporate life-cycle 
planning principles.'' Current federal law set minimum condition levels 
for NHS bridges in poor condition and also requires USDOT to establish 
a minimum condition level for Interstate System pavement. If the 
minimum conditions are not met, the State would be required to redirect 
certain funds to improve those conditions until the minimum conditions 
are met.
    A core principle of transportation asset management is to provide 
the right treatment at the right time in the life cycle of the asset. 
This may mean the option not to treat the worst item or segment first 
may be the most cost effective for the system. State DOTs are concerned 
that the minimum condition requirements for NHS bridges and Interstate 
System pavement may force state DOTs into adopting a worst-first 
approach to asset management.
Recommendation:
    <bullet>  Eliminate the minimum condition requirements written into 
law for both NHS bridges and Interstate System pavement.
    <bullet>  If the minimum condition requirements are not eliminated, 
do not use the achievement of meeting the minimum condition 
requirements for NHS bridges or Interstate System pavement as the basis 
for apportioning or allocating federal funds among state DOTs.
    <bullet>  Ensure that the minimum condition requirements for NHS 
bridges and Interstate System pavement do not force a state DOT to 
adopt a worst first approach to asset management.
Legislative Text:
    Section 119 of title 23, United States Code is amended by striking 
subsection (f)
  9. Expand Eligibilities for the Surface Transportation Block Grant 
 Program Set-aside for Transportation Alternatives and Make State DOTs 
                 Eligible Recipients under this Program
Current Federal Policy:
    23 U.S.C. 133(h), 23 USC 206
Issue:
    Although state DOTs use significant state resources to administer 
the Surface Transportation Block Grant Transportation (STBGP) set-aside 
for Transportation Alternatives (TA), state DOTs are not eligible 
recipients of TA funding. Similar programs, such as the Recreational 
Trails Program, allow states to be reimbursed for costs incurred in 
administering the program, up to seven percent of the apportionment 
made to the state each year (23 USC 206(d)(2)(H)), and one percent of 
Recreational Trails Program monies are returned to USDOT each year to 
administer the program (23 USC 133(h)(5)(B)). Thus, it is important 
that state DOTs be allowed to use a portion of the TA program funds for 
expenses associated with administering these funds.
    In addition, the current prohibition of state DOT sponsorship/
eligibility for TA funds hinders fund obligation as local government 
sponsors are often reluctant to use federal funding for small projects. 
As such, state DOTs should be able to sponsor local projects and 
receive project grants, at the request of the local agency.
    Also, TA funding is available only for infrastructure related and 
environmental projects. The Recreational Trails Program, however, 
includes eligibility for maintenance of existing trails and educational 
programs to promote safety and environmental protection.
Recommendations:
    <bullet>  State DOTs should be reimbursed for eligible costs 
incurred in administering the TA program, up to seven percent of the 
apportionment made to the state each year.
    <bullet>  Restore the authority for states to receive TA funding 
and administer TA projects, at the request of a local agency.
    <bullet>  Allow state DOTs to transfer STBGP set-aside funding for 
Transportation Alternatives suballocated for locally-selected projects 
each year if the locality fails to spend their obligation authority.
    <bullet>  Allow TA funds to be used for non-infrastructure programs 
that focus on preservation, safety, public education, enforcement, and/
or public outreach.
Legislative Text:
    Section 133(h) of title 23, United States Code is amended by adding 
at the end a new paragraph:
    (8)  Uses of funds.--Permissible uses of funds apportioned to a 
State for a fiscal year to carry out this section shall include payment 
of costs to the State incurred in administering the program in an 
amount not to exceed 7 percent of the apportionment made to the State 
for the fiscal year.

    Section 133(b) of title 23, United States Code is amended by adding 
at the end the following new paragraphs:
    (16)  The maintenance and restoration of existing recreational 
trails.
    (17)  The development and dissemination of publications and 
operation of educational programs to promote safety and environmental 
protection, (as those objectives relate to one or more of the use of 
recreational trails, supporting non-law enforcement trail safety and 
trail use monitoring patrol programs, and providing trail-related 
training).
10. Allow Conformity and Fiscal Constraint to be Determined Post-NEPA, 
                         Prior to Construction
Current Federal Policy:
    42 USC 7506(c)(2)(E), 40 CFR 93.108, 23 CFR Part 771 and Part 450
Issue:
    For projects located in air quality nonattainment and maintenance 
areas, FHWA must make an air quality conformity determination (i.e., a 
finding that the project conforms to the state's plan for achieving 
federal air quality standards per 42 USC 7506(c)). The conformity 
determination, in turn, requires a finding that the project is include 
in a ``fiscally constrained'' metropolitan transportation plan and 
transportation improvement program (TIP). 40 CFR 93.108. These findings 
are required prior to completion of the NEPA process under current EPA 
and FHWA regulations and guidance. This requirement creates a Catch-22 
for many large projects: without NEPA approval, it is difficult to 
confirm funding sources, but the NEPA process cannot be completed until 
funding sources are identified. The timing of the fiscal constraint 
determination can be especially challenging for large P3 projects and 
other innovative-finance projects, where funding and financing plans 
are not (and cannot be) resolved until after the NEPA process is 
complete.
Recommendation:
    Allow flexibility to complete the NEPA process with approval 
conditioned on making an air quality conformity and fiscal constraint 
determination before proceeding to construction. This approach would 
not change any substantive requirements related to fiscal constraint 
and project level conformity, it merely changes the timing of making 
these determinations. This change would be implemented with legislation 
directing FHWA and FTA to update their joint environmental and planning 
regulations (23 CFR Part 771 and Part 450), and directing EPA to make a 
corresponding change to its conformity regulations.
Legislative Text:
    Section 7506(c)(3) of title 42, United States Code is amended by 
adding at the end:
    (F)  The conformity determinations required by this section shall 
be coordinated with the transportation planning process under sections 
134 and 135 of Title 23, and with the environmental review process 
required under the National Environmental Policy Act and other 
applicable laws, in accordance with the following requirements:
      (i)  The Department of Transportation shall make its conformity 
determination for a transportation project prior to initiation of 
construction of the project.
      (ii)  The Department of Transportation shall ensure that the 
transportation project is included in the plan and program, as 
applicable, before the Department of Transportation makes its 
conformity determination for the project.
      (iii)  The Department of Transportation shall ensure that any 
environmental document prepared for the projectunder the National 
Environmental Policy Act discloses the need for a transportation 
conformity determination and evaluates consistency with conformity 
requirements, and shall condition any approval issued by the Department 
in the environmental review process on satisfying conformity 
requirements prior to construction.
           11. Delegation of Preventive Maintenance Projects
Current Federal Policy:
    23 USC 116, Maintenance, subsection (e)
Issue:
    Under 23 USC 116(e), a state may use Federal-aid highway funds for 
a preventive maintenance project ``if the state demonstrates to the 
satisfaction of the Secretary that the activity is a cost-effective 
means of extending the useful life of a Federal-aid highway.'' Because 
this is a statutory requirement, FHWA cannot currently assign to states 
the authority to determine that a preventive maintenance project 
qualifies for federal reimbursement.
Recommendation:
    This provision should be amended to allow states to determine that 
a preventive maintenance project meets the applicable criteria for 
federal reimbursement. This change would require an amendment to 23 USC 
116(e).
Legislative Text:
    Section 116 of title 23, United States Code is amended by striking 
subsection (e) and inserting:
    (e)  Preventive Maintenance.--
      (1)  A preventive maintenance activity shall be eligible for 
Federal assistance under this title if the State demonstrates to the 
satisfaction of the Secretary that the activity is a cost-effective 
means of extending the useful life of a Federal-aid highway; and
      (2)  Upon request of a State, and subject to the provisions of 
this subsection, the Secretary shall enter into a written agreement 
with the State assigning the full responsibility of the Secretary to 
the State for granting any approvals required under paragraph (1).
      12. Delegation of Authorization for Right-of-Way Acquisition
Current Federal Policy:
    23 USC 106, Project Approval and Oversight
Issue:
    Currently, there is no specific authorization in 23 USC 106 (or 
elsewhere in Title 23) for states to assume FHWA's responsibilities for 
authorizing federally funded right-of-way acquisitions. In addition, 
FHWA's right-of-way regulations state that ``as a condition of Federal 
funding under Title 23, the grantee shall obtain FHWA authorization in 
writing or electronically before proceeding with any real property 
acquisition using Title 23 funds, including early acquisitions under 
Sec. 710.501(e) and hardship acquisition and protective buying under 
Sec. 710.503.''
Recommendation:
    New legislative authority should be established for states to 
voluntarily assume some or all of FHWA's responsibilities for approval 
of right-of-way acquisitions, subject to the same legal protections 
that currently apply to the right-of-way acquisition process. This 
would require an amendment to 23 USC 106.
Legislative Text:
    Section 106(c) of title 23, United States Code is amended by adding 
at the end:
    (5)  Right of Way Acquisition.--For projects under this title, the 
State may assume the responsibilities of the Secretary under this title 
for the acquisition of rights-of-way under section 107 unless the 
Secretary determines that the assumption is not appropriate.
     13. Non-infrastructure Eligibilities under the Highway Safety 
                          Improvement Program
Current Federal Policy:
    Highway Safety Improvement Program funds are restricted to use on 
specific activities and cannot be used for education, enforcement, 
safety research, or emergency medical service safety programs.
Issue:
    The FAST Act (section 1113) amended 23 USC 148 to revise the 
definitions of what is a Highway Safety Improvement Project. The change 
effectively restricts HSIP eligibility to only 28 strategies, 
activities or projects listed in the legislation, eliminating the 
ability to use HSIP funds for public awareness and education efforts, 
infrastructure and infrastructure-related equipment to support 
emergency services, and enforcement of traffic safety laws that are 
identified in the states' Strategic Highway Safety Plans. SAFETEA-LU 
and MAP-21 had provided the flexibility to deploy additional 
enforcement to problem areas and help reverse a trend of increasing 
crashes on specific highway segments. The changes are inconsistent with 
the intent of a state's Strategic Highway Safety Plan (SHSP) which is a 
multidisciplinary approach to reducing highway fatalities and serious 
injuries on all public roads. The lack of flexibility in safety project 
selection in the HSIP program, particularly non-infrastructure related 
activities, stifles innovative safety improvements that lead to crash 
reductions and reduced highway fatalities.
Recommendations:
    Restore flexibility for states to use a portion of HSIP funds for 
non-infrastructure safety programs and for safety research.
Legislative Text:
    Section 148 of title 23, United States Code is amended in 
subsection (e) by adding the following:
    ``(3)  FLEXIBLE FUNDING FOR SAFETY PROJECTS UNDER ANY OTHER 
SECTION.--
      ``(A)  IN GENERAL.--To further the implementation of a State 
strategic highway safety plan, a State may use not more than 25 percent 
of the amounts apportioned to the State under section 104(b)(3) for a 
fiscal year to carry out safety projects under any other section as 
provided in the State strategic highway safety plan.
      ``(B)  OTHER TRANSPORTATION AND HIGHWAY SAFETY PLANS.--Nothing in 
this paragraph requires a State to revise any State process, plan, or 
program in effect on the date of enactment of this paragraph.''.
        14. Establish Project Delivery Innovation Pilot Program
Current Federal Policy:
    New Section in 23 USC Chapter 1
Issue:
    The NEPA process requires compliance with a host of other federal 
environmental laws, each of which is implemented by separate 
regulations, under the jurisdiction of different agencies. Streamlining 
the NEPA process alone will not be successful without also streamlining 
compliance with the other federal laws that also must be addressed as 
part of the same process. Yet efforts to amend or improve those other 
laws have not been successful, at least to date. Because other federal 
environmental laws are subject to complex and prescriptive regulations, 
agencies are highly restricted in their ability even to consider 
innovative practices that could yield ``win-win'' solutions for 
infrastructure development and the environment. One possible solution 
is to borrow from the ``SEP-15'' model used by FHWA--an experimental 
program that allows the agency to waive certain requirements on a 
project-specific basis as a way to test innovative approaches, which 
can inform future changes to the agencies regulations. This same 
flexibility should be provided to other agencies.
Recommendation:
    Establish a pilot program, modeled on SEP-15, that would allow 
USDOT modal administrations and federal environmental agencies to waive 
or otherwise modify their own requirements to develop innovative 
practices to streamline project delivery and achieve positive 
environmental outcomes. The flexibility provided under this framework 
would include appropriate safeguards--including interagency 
consultation and public notice and involvement--to ensure adherence to 
federal environmental laws, regulations, and policies. For example, all 
federal agencies required to consult on a project would need to agree 
to the inclusion of the project in the pilot program, consulting 
resource agencies would need to determine that equal or improved 
environmental outcomes would be achieved, and no agency would be 
allowed to override or modify requirements that fall within another 
agency's authority.
Legislative Text:
    Sec.  __. Pilot program on use of innovative practices for 
environmental reviews
    (a)  Findings.--The Congress finds that:
      (1)  The environmental review process for transportation 
infrastructure projects is complex and inefficient, resulting in delays 
and increased costs of delivery of needed improvements to our 
transportation system.
      (2)  True innovation in the environmental review process is 
difficult because the process is governed by many distinct requirement 
under dozens of federal laws and regulations.
      (3)  It is in the national interest to promote truly innovative 
approaches that have the potential to yield positive environmental and 
transportation outcomes more quickly and efficiently, with greater 
transparency and responsiveness to all stakeholders.
    (b)  Definitions.--
      (1)  ``Affected agency'' shall mean the federal agency or 
agencies, other than the United States Department of Transportation, 
with an approval or consultation role that would be affected if the 
flexibilities in subsection (d) are used.
    (c)  Establishment.--The Secretary shall establish a pilot program 
to promote the use of innovative practices in carrying out 
environmental reviews for transportation projects (referred to in this 
section as the `program'), including but not limited to innovative 
practices that:
      (1)  integrate environmental planning or other techniques 
involving consideration of multiple resources on a watershed or 
ecosystem scale;
      (2)  enhance environmental mitigation and enhancement measures 
that will result in a substantial improvement over existing conditions 
in an ecosystem or watershed;
      (3)  use innovative technologies that enable more effective 
public participation in decision-making, including use of 
visualization, animation, and other advanced methods for depicting 
alternatives; and
      (4)  focus on environmental and transportation outcomes rather 
than processes.
    (d)  Flexibilities.--Under the program, the Secretary, in 
concurrence with the affected agency, would be authorized to waive, 
solely for purposes of a specific project or proposal in the program, 
requirements under any federal law, regulation or order if the 
Secretary and the affected agency find that waiving the requirement is 
reasonably expected to:
      (1)  promote development of innovative practices for the 
environmental review process, as outlined in subsection (c);
      (2)  enable the more efficient delivery of needed improvements to 
the transportation system; and
      (3)  result in equal or better environmental outcomes.
    (d)  Eligibility.--The Secretary may select not more than 15 
projects or proposals to participate in the program. Eligible projects 
or proposals include any project as defined in section 139(a)(6) of 
title 23 of the United States Code, if the environmental review process 
has not yet been initiated for that project, and any proposal to meet 
the expectations in section (d) related to eligible projects.
    (e)  Eligible Applicants.--Eligible applicants include any State 
and any project sponsor as defined in section 139(a)(7) of title 23 of 
the United States Code. Eligible applicants for a single project or 
proposal may submit an application jointly.
    (f)  Application Process. The Secretary and the affected agency 
shall be jointly responsible for reviewing and approving applications 
for participation in the program, as set forth in this subsection.
      (1)  The applicant shall submit a written application, in a form 
prescribed by the Secretary, requesting use of one or more innovative 
practices in the environmental review process for the project or 
proposal andidentifying any flexibilities needed to carry out those 
innovative practices.
      (2)  If the Secretary recommends approval of the application, the 
Secretary shall submit a written recommendation to the affected agency 
for review. The Secretary's recommendation may include modifications to 
the applicant's proposal.
      (3)  The affected agency shall approve or deny the application, 
or approve the application with conditions.
      (4)  Upon the final approval decision by the Secretary and 
affected agency, the Secretary shall communicate the decision in 
writing to the project sponsor, the affected State (if not the project 
sponsor), and each affected agency, and shall post the decision on the 
agency's public website, and publish the decision in the Federal 
Register. The Secretary's notice shall identify, with specificity, each 
federal requirement that has been waived or otherwise modified. This 
decision shall be final and is not subject to judicial review.
    (g)  Implementation. Upon publication of the decision in the 
Federal Register pursuant to subsection (f)(4), the Secretary may 
initiate the proposal or the environmental review process for the 
project. Each federal agency with responsibility for review, 
consultation, approval, or other role in the environmental review 
process for the project or proposal shall proceed in accordance with 
the decision.
    (h)  Termination. The Secretary or any affected agency may 
terminate the participation of a project in the program if the 
Secretary or affected agency determine that the conditions for 
participation (as set forth in the application approval decision) have 
not been met, and that termination is in the public interest. Before 
terminating a project's participation in the program, the Secretary 
shall first give the project sponsor (and the State, if the State is 
not the sponsor) written notice and a period of at least 30 days to 
address the concerns.
    (i)  Reporting. The Secretary, in consultation with the affected 
agency, shall report annually to the [insert relevant committees] on 
each project or proposal participating in the program. The annual 
report shall identify each project or proposal, provide a status update 
on the environmental review process for that project or proposal, and 
summarize any lessons learned from the use of innovative practices 
authorized under the pilot program.

Contact:
Pam Sucato
Director, Government Affairs & Policy Coordination
Connecticut Department of Transportation
                                 <F-dash>
   Letter of April 29, 2019, from Kevin A. Dillon, A.A.E., Executive 
 Director, Connecticut Airport Authority, Submitted for the Record by 
                          Hon. John B. Larson
                                                    April 29, 2019.
The Honorable Peter DeFazio,
Chair,
U.S. House of Representatives, Committee on Transportation and 
        Infrastructure, Washington, DC.
The Honorable Sam Graves,
Ranking Member,
U.S. House of Representatives, Committee on Transportation and 
        Infrastructure, Washington, DC.

    Dear Chairman DeFazio and Ranking Member Graves,

    On behalf of the Connecticut Airport Authority (CAA), which owns 
and operates the second-largest airport in New England, Bradley 
International Airport, I urge you to address the critical 
infrastructure needs at U.S. airports as part of any comprehensive 
infrastructure bill considered by the committee. I believe this can be 
accomplished by modernizing the outdated federal cap on the Passenger 
Facility Charge (PFC) user fee, as well as increasing funding levels 
for federal grants available through the Airport Improvement Program 
(AIP).
    In 2018, Bradley Airport completed its fifth consecutive year of 
passenger growth, and nearly 7 million passengers use our airport 
annually. Since the CAA formally took control of Bradley and five of 
Connecticut's general aviation airports in 2013, we have reestablished 
west coast service, reestablished transatlantic service, and connected 
the state to other, major business hubs across the country. We have 
added two new, ultra-low-cost carriers, opened a new airport lounge and 
various other concessions, and received two, separate bond upgrades for 
our outstanding airport revenue bonds. We were also ranked as the 
third-best airport in the country in Conde Nast Traveler's 2018 
Readers' Choice Awards. These achievements have echoed throughout the 
region, facilitating economic growth in Connecticut and greater New 
England.
    America's airport system is a fundamental component of our nation's 
transportation infrastructure. In 2017, 1.8 billion passengers and 31.7 
million metric tons of cargo traveled through U.S. airports. With a 
national economic impact of $1.4 trillion, airports contribute more 
than seven percent to the U.S. gross domestic product and support over 
11.5 million jobs around the country. Bradley International Airport 
provides a massive contribution to the greater New England economy with 
a total economic impact of $2.6 billion, including supporting 20,604 
jobs in the State of Connecticut alone.
    Airport Council International-North America's most recent 
infrastructure needs study shows that America's airports require more 
than $128 billion in infrastructure upgrades over a five-year period, 
with over 50 percent of those needs coming within airport terminals. 
That estimate of more than $25 billion in annual infrastructure needs 
is more than three times the amount that airports receive in 
traditional AIP grants and PFC revenue every year.
    Despite the federal government restricting our funding capabilities 
through the outdated PFC cap, we have put forward an aggressive, 
ambitious capital plan to ensure that our passengers have the airport 
they deserve now and in the future. At Bradley International Airport, 
we recently completed a 20-year master plan update that calls for $1.4 
billion of investments at the airport. This plan calls for major 
improvements, including approximately $500 million for a new terminal 
and $210 million for a new ground transportation center. Funding these 
infrastructure needs will be challenging. The PFC user fee has lost 
significant purchasing power since the federal cap was last adjusted 
nearly 20 years ago, and we are experiencing those impacts at our 
airport as we seek to improve our facility, attract new air service, 
and remain a strong economic driver in our region.
    In the attached document, you can see how the outdated PFC cap 
threatens the CAA with outrageous and unnecessary interest costs over 
the next six years alone. If we were to bond all of our PFC-eligible 
projects over the next six years under an increased $8.50 PFC cap, we 
would save $110 million in interest costs as compared to a full bonding 
scenario under the current $4.50 cap. Maintaining the federal PFC cap 
at its current levels is simply not a sustainable path forward for the 
U.S. airport system. Considering the enormous funding gap and 
construction cost inflation, it is critical that we provide airports 
with the tools that they need to self-finance their infrastructure 
projects.
    Thank you for your consideration of these requests. We look forward 
to working with you on an infrastructure bill that addresses the needs 
of Bradley International Airport and airports across the country.
        Sincerely,
                                   Kevin A. Dillon, A.A.E.,
                 Executive Director, Connecticut Airport Authority.

                                          Bradley International Airport
                                             PFC Projects 2019-2024
----------------------------------------------------------------------------------------------------------------
                                                                                                        Other
                  Project Category                         Total         PFC Share     CAA Funding     Funding
----------------------------------------------------------------------------------------------------------------
Obstruction Removal.................................      $3,250,000        $812,500            $0    $2,437,500
Snow Removal Equipment..............................      $5,500,000      $5,500,000            $0            $0
Deicing Equipment...................................        $625,000        $625,000            $0            $0
Runway Friction Measuring Equipment.................        $250,000        $250,000            $0            $0
Terminal A Viaduct Repair...........................      $4,000,000      $4,000,000            $0            $0
Taxiway Rehabilitation Projects.....................     $50,300,000     $12,312,500    $1,050,000   $36,937,500
Airfield Signage Replacement and Circuitry Study....      $1,900,000        $475,000            $0    $1,425,000
Lower Level Terminal Renovation.....................     $16,700,000     $15,000,000    $1,700,000            $0
Deicing Facility Expansion..........................     $10,000,000      $2,500,000            $0    $7,500,000
Terminal Expansion..................................    $100,000,000     $80,000,000   $20,000,000            $0
Federal Inspection Services Facility Construction...    $140,000,000    $104,000,000   $11,000,000   $25,000,000
                                                     -----------------------------------------------------------
  Total.............................................    $332,525,000    $225,475,000   $33,750,000   $73,300,000
----------------------------------------------------------------------------------------------------------------

 Scenario 1: Build and Bond Full $225,475,000 @ 4.1% and Current $4.50 
                                  PFC
    <bullet>  30 Year Payoff
    <bullet>  $13.2M Average Annual Payment
    <bullet>  Interest = $170.5M Over Financing Term
    <bullet>  Interest as % of Funds = 43.1%
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   Scenario 2: Build and Bond Full $225,475,000 @ 4.1% and $8.50 PFC
    <bullet>  11.2 Year Payoff
    <bullet>  $25.5M Average Annual Payment
    <bullet>  Interest = $60.4M Over Financing Term
    <bullet>  Interest as % of Funds = 21.1%
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <F-dash>
    Federal Priorities of the Capitol Region Council of Governments 
     (Connecticut), Submitted for the Record by Hon. John D. Larson
    Federal Priorities of the Capitol Region Council of Governments 
                             (Connecticut):
    <bullet>  Dedicate additional revenue to ensure Highway Trust Fund 
solvency. Near-term solvency can be achieved by increasing and indexing 
existing federal fuel taxes. This will provide a window to identify, 
study, and implement a long-term solution such as a mile-based user 
fee.
    <bullet>  Increase funding for the Surface Transportation Block 
Grant Program (STBGP) and increase the portion of STBGP provided to 
local areas through their MPO for distribution. STBGP is the most 
direct way to provide federal funding for local priorities and 
increasing the portion of the program provided for this purpose will 
further enhance local authority.
    <bullet>  Directly allocate STBGP and Transportation Alternatives 
funds to MPOs of all sizes, to enhance local authority to prioritize 
spending through regional planning organizations.
    <bullet>  Increase authority of and funding for non-metropolitan 
planning organizations to incentivize rural planning and urban-rural 
collaboration. Encouraging more states to create and support RTPOs 
would help rural communities compete economically.
    <bullet>  Support multimodal investments and provide flexibility in 
the types of projects federal funding supports. Transit, rail, bike and 
pedestrian, safety, and other similar projects should remain federal 
priorities. Flexible funding allows communities to prioritize their 
federal funding in a manner that reflects local needs.

                                 <F-dash>
  Prepared Statement of Hon. Andy Levin, a Representative in Congress 
                       from the State of Michigan
    Chairman DeFazio and Ranking Member Graves: thank you for the 
opportunity to provide testimony as you begin crafting infrastructure 
legislation for America's future. On behalf of Michigan's Ninth 
Congressional District, I would like to highlight the need for 
investments in wastewater infrastructure projects that protect our 
water sources and roads; zero-net energy buildings; and electric 
vehicle (EV) charging infrastructure.
                   Wastewater infrastructure projects
    In 2017, the Environmental Protection Agency (EPA) estimated that 
approximately $655 billion will be needed over a twenty-year period to 
meet our nation's drinking water and wastewater infrastructure 
needs.\1\ Federal investment would help meet these needs, enable state 
and local governments to meet Clean Water Act treatment requirements, 
and, importantly, directly affect the integrity of our roads. According 
to the EPA, sanitary sewer overflows cost U.S. communities billions of 
dollars in clean-up and repair to damaged infrastructure, including 
roads.\2\ This damage has tremendous implications for Michiganders: 
Michigan motorists pay $14.1 billion every year in the forms of 
additional vehicle operating costs, congestion-related delays, and 
traffic crashes.\3\
---------------------------------------------------------------------------
    \1\ U.S. Government Accountability Office (GAO), (2017), Drinking 
Water and Infrastructure, https://www.gao.gov/assets/690/687261.pdf
    \2\ U.S. Environmental Protection Agency (EPA), (2003), Why control 
sanitary sewer overflows, https:/www3.epa.gov/npdes/pubs/
sso_casestudy_control.pdf
    \3\ TRIP. (2019), Modernizing Michigan's Transportation System, 
http://www.tripnet.org/docs/
MI_Progress_and_Challenges_TRIP_Report_March_2019.pdf
---------------------------------------------------------------------------
    In Michigan's Ninth District, the Chapaton Retention Basin is 
emblematic of the long-overdue need to invest in wastewater 
infrastructure to protect our water sources and roads. Chapaton is a 
28-million-gallon Combined Sewer Overflow (CSO) Facility. It opened in 
1968 and currently services Interstate 94 (I-94), businesses, and 
approximately 92,000 residents in Eastpointe, St. Clair Shores, and 
Roseville, Michigan. The Basin protects residents by moving storm water 
out of the community and into nearby Lake St. Clair, thereby preventing 
flooding. It also protects the environment. Storm water and sanitary 
sewage flow are held in the Basin during heavy rains and then re-
diverted to sewage treatment. In the absence of much-needed expansion 
to this CSO, however, preventable sewage overflows have led to water 
quality problems that include E. coli pollution and have hastened the 
deterioration of essential roadways like I-94.
    By investing in wastewater infrastructure projects, including 
through the Water Infrastructure Finance and Innovation Act program, we 
will simultaneously better protect our environment and forestall damage 
to critical roadways, thereby enhancing motorists' safety and helping 
drivers avoid unexpected costs.
                       Zero-net energy buildings
    In its 2015 Quadrennial Technology Review, the U.S. Department of 
Energy found that the buildings sector accounts for about 76 percent of 
electricity use and 40 percent of all U.S. primary energy use and 
associated greenhouse gas (GHG) emissions.\4\ The report also found 
that the implementation of the best available energy efficiency 
technologies in the nation's current building stock would reduce 
commercial energy consumption by 46 percent and residential consumption 
by 50 percent.\5\
---------------------------------------------------------------------------
    \4\ U.S. Department of Energy, (2015), An assessment of energy 
technologies and research opportunities, Quadrennial Technology Review, 
https://www.energy.gov/sites/prod/files/2017/03/f34/qtr-2015-
chapter5.pdf
    \5\ Ibid.
---------------------------------------------------------------------------
    As a former clean energy entrepreneur, I have seen first-hand the 
potential to address our climate crisis through solutions that produce 
more efficient commercial and residential buildings while also spurring 
cost savings and job growth. I believe we must move much faster with 
respect to the efficiency of both current and new building 
infrastructure, which is why I support requiring that all new building 
be zero-net energy--i.e., new buildings should produce as much energy 
as they consume. To achieve this rapidly, we must invest in grant 
programs that establish or expand financing for energy efficiency 
retrofit projects. Such investments will help us reduce our carbon 
footprint, create jobs, and move towards a cleaner, more robust 
economy.
                       EV charging infrastructure
    As our nation's transportation sector has become increasingly 
responsible for overall greenhouse gas emissions, plug-in EVs--which 
have 54 percent lower lifetime carbon pollution than conventional 
vehicles--can help us reduce emissions and move us closer to climate 
sustainability.\6\ \7\ EV charging needs will rise from 6 billion kWh 
in 2020 to 53 billion kWh in 2030, and the number of chargers needed is 
estimated to rise from 2 million in 2020 to 13 million in 2030.\8\
---------------------------------------------------------------------------
    \6\ U.S. Environmental Protection Agency (EPA), Inventory of US 
Greenhouse Gas Emissions and Sinks, https://www.epa.gov/sites/
production/files/2018-01/documents/2018_complete_report.pdf
    \7\ NRDC, Electric Vehicles Can Dramatically Reduce Carbon 
Pollution from Transportation and Improve Air Quality, https://
www.nrdc.org/experts/luke-tonachel/study-electric-vehicles-can-
dramatically-reduce-carbon-pollution
    \8\ Ibid.
---------------------------------------------------------------------------
    To encourage our country's needed shift to EVs, I have proposed the 
establishment of a network of EV charging stations along the National 
Highway System. I believe we need to lead the world in protecting our 
environment, and that must include improving EV consumer experiences so 
that we may end our dependence on conventional vehicles. ``Range 
anxiety,'' charge times, and charging costs currently preclude the 
paradigm shift necessary for a sustainable automotive future. As such, 
I urge you to consider robust investments to make a national network of 
EV chargers a reality.
    As Congress begins considering legislation to rehabilitate our 
nation's infrastructure, I respectfully request that the Committee bear 
these three priorities in mind when determining an appropriate course 
of action that promotes sustainability for our communities and our 
environment.
    Again, I thank you for your consideration and look forward to 
working with you.
                                 <F-dash>
    Prepared Statement of Hon. Daniel Lipinski, a Representative in 
                  Congress from the State of Illinois
    Thank you Chairman DeFazio for holding this important member day to 
get members' input on their infrastructure priorities. I appreciate the 
opportunity for T&I members to work with the Committee on their 
priorities. While I have many, I wanted to highlight one today, rail 
crossing safety and the Section 130 program. My Congressional district, 
Illinois' 3rd, has the most rail grade crossings of any district in the 
Country. I hear frequently from constituents and railroads about the 
need to improve the safety of our rail crossings. Indeed, in 2018, 270 
people were killed and 819 people were injured in rail crossing 
incidents. That's why the Section 130 Grade Crossing Safety Program, 
which was enacted by Congress in 1987, is so important. Section 130 has 
been a successful 30 year effort to protect motorists and prevent grade 
crossing accidents. Because of the Section 130 program, fatalities and 
injuries have significantly decreased. However, we need to continue to 
make progress as one death is one too many.
    As Chairman of the Rail, Pipelines and Hazardous Materials 
Subcommittee this Congress, I look forward to working with my 
colleagues on the subcommittee and full Committee to modernize the 
program in the next surface reauthorization so that States can use the 
latest technologies at grade crossings, provide meaningful incentives 
to localities to consolidate crossings and grade separate those 
crossings that provide mobility for first responders and reduce 
congestion associated with blocked crossings.

                                 <F-dash>
Letter of March 25, 2019, from the House of Representatives Sustainable 
Energy and Environment Coalition, Submitted for the Record by Hon. Alan 
S. Lowenthal, a Representative in Congress from the State of California
                                                    March 25, 2019.
The Honorable Nancy Pelosi,
Speaker,
House of Representatives, 1236 Longworth House Office Building, 
        Washington, DC.
The Honorable Steny H. Hoyer,
Majority Leader,
House of Representatives, 1705 Longworth House Office Building, 
        Washington, DC.
The Honorable Peter A. DeFazio,
Chairman,
Comittee on Transportation and Infrastructure, 2134 Rayburn House 
        Office Building, Washington, DC.
The Honorable Frank Pallone, Jr.,
Chairman,
Committee on Energy and Commerce, 2107 Rayburn House Office Building, 
        Washington, DC.

    Dear Speaker Pelosi, Majority Leader Hoyer, Chairman DeFazio, and 
Chairman Pallone:
    We write to express our strong support for House Leadership to 
pursue a broad-reaching, sustainable infrastructure plan that includes 
bold policies to address climate change. As a caucus focused on 
sustainable energy and environmental policy, the members of SEEC 
believe we need to act immediately to stem the impacts of climate 
change. The needs of our nation's surface transportation infrastructure 
are widely and rightfully recognized; however, our constituents require 
a comprehensive infrastructure package that goes beyond roads and 
bridges, including ports, water systems, grid modernization, and 
broadband. In each of these areas, significant work can be done to 
reduce climate pollution. Infrastructure designed to improve climate 
resilience while supporting clean energy technologies will promote 
public health, safety, and economic development, and protect taxpayers' 
investments.
    The most recent report from the Intergovernmental Panel on Climate 
Change (IPCC) warns that we have barely more than a decade to take 
serious action on climate change if we are to prevent its most 
catastrophic impacts. While climate adaptation is critical, these 
problems will continue to persist and worsen without mitigation 
measures. Experts advise that improvements in energy efficiency, 
policies that support electrification, and investments to modernize our 
grid to encourage the deployment of more clean energy resources are 
necessary to prevent a global temperature increase that threatens all 
communities. All of this can be included under an energy title of a 
smart, sustainable infrastructure plan. In addition to helping prevent 
an untenable climate crisis, these policies will spur job growth and 
establish American global leadership in the new clean energy economy.
    Recent natural disasters prove that Americans are already 
experiencing the consequences of climate change. Many communities 
across the country are in the process of rebuilding from extreme 
weather events. These tragedies serve as a reminder that mitigation 
alone will not be enough. Any infrastructure package must also enhance 
infrastructure resilience in ways that prioritize the health, well-
being, and physical safety of local communities. New infrastructure 
programs should prioritize investments that result in a reduction of 
climate pollution. To do so, we encourage a broad definition of 
infrastructure that includes the preservation and utilization of 
natural infrastructure--ecosystems that will help better protect 
communities from drought, extreme storms, and flooding while also 
serving as carbon sinks to remove greenhouse gas pollution from the 
atmosphere. We encourage federal agencies to coordinate the development 
of tools and guidance for climate smart infrastructure investment. We 
also encourage policies that will prioritize built infrastructure 
designed to withstand higher floods, stronger storms, and other hazards 
of extreme weather events exacerbated by climate change.
    With this letter we have included an outline of policy areas we 
believe are critical components of proactive climate-focused 
infrastructure legislation. This is by no means a comprehensive list. 
We also encourage review of SEEC's Sustainable Infrastructure Proposal, 
which lays out ideas and foundational principles for a sustainable 
plan, and specific policy proposals across many infrastructure 
categories. Finally, we urge consultation with relevant committees in 
drafting any infrastructure bill.
    Thank you for your time and attention to this critical issue. We 
look forward to working with you on the development of an ambitious 
infrastructure package this year.
        Sincerely,
Alan S. Lowenthal,
  Member of Congress.
Paul D. Tonko,
  Member of Congress.
Doris O. Matsui,
  Member of Congress.
Chillie Pingree,
  Member of Congress.
A. Donald McEachin,
  Member of Congress.
John P. Sarbanes,
  Member of Congress.
Suzan K. DelBene,
  Member of Congress.
Harley Rouda,
  Member of Congress.
Suzanne Bonamici,
  Member of Congress.
Steve Cohen,
  Member of Congress.
Susan Wild,
  Member of Congress.
Ilhan Omar,
  Member of Congress.
Pramila Jayapal,
  Member of Congress.
Salud Carbajal,
  Member of Congress.
Joe Neguse,
  Member of Congress.
Joseph D. Morelle,
  Member of Congress.
Susan A. Davis,
  Member of Congress.
Kim Schrier,
  Member of Congress.
Debbie Wasserman Schultz,
  Member of Congress.
Mark DeSaulnier,
  Member of Congress.
Ted W. Lieu,
  Member of Congress.
Gilbert R. Cisneros, Jr.,
  Member of Congress.
David E. Price,
  Member of Congress.
Gerald E. Connolly,
  Member of Congress.
Matt Cartwright,
  Member of Congress.
Mike Quigley,
  Member of Congress.
Judy Chu,
  Member of Congress.
Scott H. Peters,
  Member of Congress.
Lloyd Doggett,
  Member of Congress.
Jerry McNerney,
  Member of Congress.
Peter Welch,
  Member of Congress.
James R. Langevin,
  Member of Congress.
Jared Huffman,
  Member of Congress.
Raul M. Grijalva,
  Member of Congress.
Darren Soto,
  Member of Congress.
Mark Pocan,
  Member of Congress.
Derek Kilmer,
  Member of Congress.
Debra A. Haaland,
  Member of Congress.
Robert C. Scott,
  Member of Congress.
Donald S. Beyer, Jr.,
  Member of Congress.
Nanette Diaz Barragan,
  Member of Congress.
James P. McGovern,
  Member of Congress.
Ann McLane Kuster,
  Member of Congress.
Raja Krishnamoorthi,
  Member of Congress.
                    Climate Infrastructure Policies
Require Planning for Climate Impacts
    <bullet>  Infrastructure projects often have multi-decade 
lifespans. Proper consideration of climate projections is necessary in 
order to reduce future disaster costs and protect taxpayers' 
investments. It is critical that vulnerable communities, coastal and 
otherwise, have continued access to current climate projections and 
technologies to mitigate potential risk.
    <bullet>  Climate risk assessments should influence project design, 
construction, and long-term maintenance decisions. This may include 
projects' location, elevation, use of construction materials, 
repurposing of existing infrastructure, and inclusion of natural 
infrastructure and stormwater management features. Federal agencies 
should establish an interagency council for developing, recommending, 
and coordinating actions, guidelines, and tools for incorporating 
climate risk into its processes for infrastructure investments.
    <bullet>  Infrastructure projects seeking federal funding should be 
required to develop a greenhouse gas emissions ``score'' that estimates 
the downstream and upstream emissions that will result or change due to 
the proposed project. Proposals that are more adaptable to future 
climate conditions and result in a reduction of greenhouse gas 
emissions should be prioritized.
Protect Communities through Resilience
    <bullet>  Invest in the protection and restoration of natural 
ecosystems that provide vital barriers against the extreme weather 
brought on by climate change.
    <bullet>  Require natural resource agencies to coordinate support 
for state, tribal, and local government plans and tools for conserving 
and protecting natural resources in the face of climate risk.
    <bullet>  Promote and preserve green spaces, such as public parks, 
to make communities more resilient to floods and extreme heat brought 
on by climate change. This can also help address long-standing 
injustices in access to green spaces when proactively planned in low-
income and underserved communities.
    <bullet>  Redouble efforts to fortify brownfield and Superfund 
sites against extreme weather, and clean up toxic sites as immediately 
as possible so that they no longer pose a hazard and can be used by 
communities for more productive purposes.
    <bullet>  In addition to addressing the National Parks 
infrastructure backlog, provide funding to the managers of federal 
parks and public lands to deal with adaptation measures required due to 
climate change impacts.
    <bullet>  Support investments in drinking and waste water systems 
to revitalize aging, critical infrastructure while protecting public 
health. Federal investments in wastewater should seek to promote low-
impact development techniques like permeable pavements, vegetated 
roadside swales, and rain gardens that can reduce stormwater pollution 
while lowering management costs, along with other green development 
projects.
    <bullet>  Advance adaptable sea-level rise infrastructure projects 
that seek to better prepare coastal communities to face the growing 
threat of non-storm related damages and encroachment from the sea.
    <bullet>  Analysis has shown that grid failures are primarily due 
to disruptions in the distribution and transmission systems. Incentives 
to harden these systems are the most cost effective approach to 
improving grid resilience.
Modernize the Electric Grid
    <bullet>  Investments in the electric grid will be necessary to 
achieve a cleaner, smarter, more flexible, and resilient system. 
Support for a modernized, smart grid can facilitate achievement of 
other decarbonization goals: improved energy efficiency, increased 
integration of renewable energy resources, and more robust adoption of 
zero-emissions vehicles.
    <bullet>  Deploy advanced meters and other ``smart'' technologies 
to make the system more responsive and capable of supporting 
distributed energy resources.
    <bullet>  A sustained commitment to R&D funding, coupled with 
investment incentives, will increase the performance, affordability, 
and deployment of energy storage systems, which will enhance grid 
flexibility and reliability, and support the transition to an 
electricity generation mix with more intermittent, renewable energy 
resources.
    <bullet>  Assist local and regional governments to develop ``Smart 
City'' projects that utilize advanced technologies, sensors, and data 
to promote public safety, community resilience, civic services, clean 
energy deployment, and energy efficiency.
Promote Clean Transportation
    <bullet>  Revise and extend the electric vehicle (EV) tax credit to 
promote EV deployment by eliminating the manufacturer cap.
    <bullet>  Support efforts already underway in communities across 
the country to transition publicly-owned vehicles to zero-emission 
fleets, including electric buses and other alternative fuel vehicles.
    <bullet>  Support broader investments in clean public 
transportation of all kinds, including improving mass transit systems, 
the addition of bike lanes to existing roads, and the deployment of a 
network of publicly accessible charging stations for electric vehicles.
Reducing Emissions through Efficiency, Clean Energy, and 
        Electrification
    <bullet>  In addition to incorporating many policy proposals 
outlined in the Energy Savings and Industrial Competitiveness Act, make 
investments that will support highly efficient public housing, 
incentivize non-profits to invest in efficiency, promote adoption of 
clean technologies in manufacturing, and support states and local 
communities in jumpstarting energy efficiency retrofits in municipal 
buildings, hospitals, schools, and similar buildings.
    <bullet>  Support DOE's Weatherization Assistance Program to 
promote the energy efficiency, while improving health and safety, of 
low-income households.
    <bullet>  Set a national goal of achieving aggressive performance 
improvements in 100% of public sector buildings.
    <bullet>  Provide investments to increase installation of 
distributed and community-scale renewable energy resources in low-
income and underserved communities.
    <bullet>  Incorporate polices that will expand the nation's 
transmission system's capacity to connect clean energy resources with 
demand centers.
    <bullet>  Support programs that help homeowners shift from gas-
powered water heaters, heat pumps, stoves, and other appliance to 
electric power.
    <bullet>  The federal government has a responsibility to lead by 
example by supporting sustainable, resilient buildings and should seek 
to incorporate greenhouse gas emissions into procurement decisions. 
This should include promoting efficiency and clean energy power 
purchase agreements to decarbonize federal building's energy use, and 
support and protect policies that phase out fossil fuel use in federal 
buildings.

                                 <F-dash>
Policy Proposal, ``Sustainable Energy and Environment Coalition (SEEC) 
 Sustainable Infrastructure Principles,'' Submitted for the Record by 
Hon. Alan S. Lowenthal, a Representative in Congress from the State of 
                               California
    The 35-page policy proposal entitled, ``Sustainable Energy and 
Environment Coalition (SEEC) Sustainable Infrastructure Principles'' is 
retained in committee files and is available online at: https://seec-
tonko.house.gov/sites/
sustainableenergyandenvironmentcoalitioncaucus.house.gov/files/
documents/SEEC%20Sustainable%20Infrastructure%20Proposal%202.12.18.pdf.

                                 <F-dash>
 Prepared Statement of Hon. Ben McAdams, a Representative in Congress 
                         from the State of Utah
    Chairman DeFazio, Ranking Member Graves, Members of the committee, 
thank you for holding this hearing and bringing to light the many 
infrastructure issues we must address.
    In Utah's Fourth Congressional District, the need for investment in 
our infrastructure has never been more apparent. I'm here to work with 
the committee on infrastructure needs that include proactive solutions 
for congestion, poor air quality, and technological advancement.
    First, I urge the committee to pass the COMMUTE Act (H.R. 1517). 
This bipartisan bill directs the Department of Transportation to 
develop and provide states, regional metropolitan planning 
organizations, and rural planning organizations with important data 
about measuring transportation modes and use. These data tools are 
vital for improving funding and policy mechanisms. Access to data also 
encourages effective coordination between transportation agencies and 
organizations and spurs economic development.
    It is vital that when considering how to implement transportation 
policy, we look to local and regional groups who are already doing the 
work on the ground. As the former mayor of Salt Lake County, I know the 
importance of deliberative and collaborative transportation planning. 
That's why I would encourage the committee to look at ways to fund and 
support regional planning organizations. Rural, regional, tribal, and 
metropolitan planning organizations are critical partners for the 
federal government. Without these organizations, our most pertinent 
transportation and infrastructure priorities would not make it far.
    I'd recommend the committee look at ways to fully fund the surface 
transportation agencies and the Highway Trust Fund and direct funding 
towards repairing thousands of miles of roads and bridges. The Salt 
Lake valley and Utah valley are growing rapidly, and with that growth 
comes more wear and tear on our existing roads and bridges while new 
roads are being paved every day. Responsible funding for our roads and 
bridges are investments for the thousands of people choosing to make 
the Salt Lake valley and Utah valley their home.
    I would also suggest the committee restore funding for the Bus and 
Bus Facility Program, which has helped connect Salt Lake valley and 
Utah valley. Expanded bus services along the Wasatch Front has been 
fundamental for our growing economy, which is why I would suggest the 
Committee reestablish the capital investment ratio among Capital 
Investment Grants, State of Good Repair and Bus program to a 40-40-20 
percent ratio.
    In addition to funding important transit programs, another part of 
the infrastructure equation must be cutting down on vehicle emissions. 
To better address the growing population and air quality problems faced 
in the Salt Lake valley and Utah valley, I also am asking the committee 
to properly fund the No/Low Emissions Grant program. This program 
increases public transit options while cutting back carbon emissions.
    One way to cut back on carbon emissions and air pollution in the 
Salt Lake valley and Utah valley is by addressing congestion problems. 
The I-15 corridor along the Wasatch Front is one of the most congested 
areas in the country. This area is the source of massive time waste for 
many Utahns. Congestion causes economic delay and a productivity 
decline in products delivered as well as massive amounts of vehicle 
exhaust emissions. Economic interests should inspire an efficient 
transportation system. FAST Act reauthorization should include specific 
solutions for congestions and the associated challenges.
    Innovative technological solutions for congestion should include 
resources for state and municipal governments that integrate technology 
into the transportation system and address bottlenecks and gridlock. 
Performance-based planning could be used as a tool for robust 
investment when looking for cost-effective solutions. A mix of formula 
and discretionary investments should be authorized, leveraging private-
public partnerships. As the Silicon Slopes continue to drive innovative 
technology, we should actively support private-public partnerships that 
support local businesses.
    I ask the committee to find funding solutions for the Surface 
Transportation Block Grant Program, which provides flexible funding for 
states and localities to improve, plan, and implement local 
transportation priorities. This important programing helps develop 
everything from road and bridge repair, to pedestrian and bicycle 
infrastructure to capital projects like bus terminals. I also would 
encourage the committee look at other means of support for multimodal 
investments, which allows communities the ability to prioritize federal 
funding based on local needs.
    Further, I know that environmental assessments and consultations 
are important part of the infrastructure development process. I also 
believe there are opportunities to streamline environmental assessments 
while maintaining integrity in the environmental review process and 
robust consultation between all stakeholders. I ask the committee to 
find ways to make the environmental assessments more efficient and 
effective.
    As Salt Lake City International Airport continues to see rapid 
increase in traffic, I believe it is vital to address the Federal 
Capital Investment shortcomings. Adjusting the Federal Capital 
Investment would help modernize and expand terminals and tarmacs across 
the country. Additionally, increasing funding for the Airport 
Improvement Program would significantly reduce the burden felt by many 
of our nation's strained airports, including Salt Lake's airport.
    I also recommend the committee pursue policy requiring specific 
energy and environmental outcomes that enhance electrification 
initiatives, which will allow for older and outdated diesel propulsion 
to transition to clean and renewable electric energy. While not 
specifically excluded from the FAST Act or Federal Transit 
Administration's (FTA) evaluation criteria, the addition of language in 
section 5309(e)(2)(A) that includes programmatic components of 
electrification or non-carbon-based propulsion would reinforce this 
policy directive.
    Another active step towards infrastructure development is to fully 
fund the Capital Investment Grant Program, which provides funding for 
capital investments for transit infrastructure, including rapid transit 
and rail projects.
    The existing FTA Section 5309 Core Capacity program focuses on 
investments that relieve overcrowding in an existing fixed guideway 
corridor. I would suggest that the Committee broaden the eligibility of 
this funding source to look at growth projections to help facilitate 
the completion of critical policy goals at Federal and State Level.
    For example, the 90-Mile commuter rail service that connects the 
entire Wasatch Front, the FrontRunner, serves a population of 2.3 
million people. It also shares the congested corridor of Interstate I-
15. Given the drastic impacts that come with widening I-15 on the 40 
communities it bisects, laying additional track along with the existing 
single track would not only expand commuter opportunity but cut down on 
cars on the roads and air pollution in the Salt Lake and Utah valleys. 
Double tracking the FrontRunner is expected to triple the ridership.
    Current statute (Sec. 5309(e)) limits Core Capacity funding to 
situations where transit is already overcrowded or will be within five 
years. I recommend including language that extends eligibility to 
projects that increase service and reduce headways on existing fixed 
guideway systems. Expanding eligibility to projects that increase 
frequency on existing lines, even where capacity is not yet exceeded, 
would allow transit agencies to more effectively plan and better serve 
existing transit markets while increasing ridership and reducing 
emissions. In Utah, this change could expand FrontRunner service by 
double tracking and electrifying existing lines.
    I also ask the committee to look for opportunities to expand water 
infrastructure investments. While not in this committee's jurisdiction, 
I support efforts to increase resources for the completion of the 
Central Utah Project. This project, authorized under the Central Utah 
Project Completion Act (CUPCA), is working to deliver fresh water to 
ten Utah counties.
    Lastly, I urge the committee to look at funding for the Brownfields 
program, which provides vital funding for community cleanup and 
redevelopment of previously polluted or dilapidated areas. These funds 
leverage $17 for every $1 of federal spending.
    We owe it to the next generations to leave them a world-class 
infrastructure system that uses advanced technologies to address our 
toughest problems in environmentally sustainable ways. I look forward 
to working with the committee on developing these innovative solutions. 
Thank you for the opportunity to submit testimony.

                                 <F-dash>
Prepared Statement of Hon. Betty McCollum, a Representative in Congress 
                      from the State of Minnesota
    Dear Chairman DeFazio and Ranking Member Graves:
    As the Committee begins to work on important legislation such as 
the Surface Transportation Reauthorization and the Water Resources and 
Development Act (WRDA) Reauthorization, I would like to submit some of 
the transportation and infrastructure priorities for the Fourth 
District of Minnesota. Whether the Committee decides to move forward 
with individual reauthorizations, or an overarching infrastructure 
overhaul as mentioned by Chairman DeFazio and President Trump, the 
following priorities should be given special attention:
                   Surface Transportation Priorities
    <bullet>  While the Committee develops highway and transit 
reauthorizations, the following projects in the Fourth District are 
particularly important to my constituents and the greater Minnesotan 
economy:
      1.  METRO Gold Line Corridor (Gateway): Between Union Depot and 
Woodbury
      2.  Third Street/Kellogg Boulevard Bridge: linking downtown St. 
Paul to the City's East Side
      3.  Riverview Corridor: Between Union Depot and the Mall of 
America
      4.  Rush Line Corridor: Between Union Depot and White Bear Lake
      5.  Red Rock Corridor: Between Union Depot and Hastings
                             Passenger Rail
    <bullet>  Increase support for passenger rail through the 
Consolidated Rail Infrastructure and Safety Improvements grant program 
and authorize a State of Good Repair grant program.
    <bullet>  Provide funding for rail improvements from Union Depot in 
St. Paul, MN to Chicago, IL which will enable a second daily passenger 
train for this corridor and for the completion of an environmental 
assessment of existing rails.
    <bullet>  Provide funding for the East Metro Rail Yards Improvement 
Project, an initiative that Ramsey County has been developing with 
project partners to identify improvements that seek to reduce train 
delay, supply efficient routing, provide flexibility in the handling of 
existing freight and passenger trains, and maintain capacity for 
freight and passenger rail growth.
 Provisions from the Fixing America's Surface Transportation (FAST) Act
    <bullet>  Many of the provisions in the FAST Act that address 
highway and transit programs as well as Amtrak should be reauthorized 
through 2020 including, but not limited to:
      1.  Expanded funding options for programs under the Capital 
Investment Grant program (Core Capacity/Small Starts/Fixed Guideway 
Capital Projects).
      2.  Conversion of the Surface Transportation block grant program.
      3.  Modification to the Transportation Infrastructure Finance and 
Innovation Act (TIFIA) program, making transit-oriented projects 
eligible to apply for TIFIA loans.
      4.  Fully fund Capital Improvement Grants.
       Water Resources and Development Act (WRDA) Reauthorization
    <bullet>  The Army Corps of Engineers Navigations and Ecosystem 
Sustainability Program (NESP) on the Upper Mississippi River and 
Illinois Waterway (UMR-IWW) was authorized in Title VIII of the Water 
Resources Development Act of 2007 (P.L. 110-114). NESP is critical to 
the long-term sustainability of the UMR-IWW and will improve efficiency 
and capacity of the navigation system while protecting, preserving, and 
enhancing the ecosystem on this national significant waterway.

    I appreciate your consideration of my requests and look forward to 
working with you as the Transportation and Infrastructure Committee 
continues its work in the 116th Congress.

                                 <F-dash>
   Prepared Statement of Hon. Joseph D. Morelle, a Representative in 
                  Congress from the State of New York
    Dear Chairman DeFazio and Ranking Member Graves,
    I write today as the representative for the 25th Congressional 
District in the State of New York, and the employees and customers of 
the Rochester Genesee Regional Transportation Authority (RGRTA). I also 
write as a member of the Bipartisan Congressional Bus Caucus in support 
of robust federal investment in our nation's public transit systems and 
infrastructure.
    Bus transit systems, like RGRTA in Rochester, New York, continue to 
struggle because of the reduction in funding in the Bus and Bus 
Facility program. Between 2009 and 2017, the percentage of transit 
buses operating past their 12-year useful life increased 47 percent, 
while the percentage of buses operating longer than 15 years increased 
97 percent. At the same time, our nation's bus fleets contracted by 18 
percent. This is what happens when older buses are decommissioned and 
resources are not available to replace them.
    This has a significant effect on our constituents who ride the bus. 
Fewer buses means fewer routes, less reliable service and increased 
maintenance costs. This means it becomes more difficult for people to 
get to work, school, and medical appointments. All of these factors 
have contributed to declining bus ridership for RGRTA and transit 
systems across the country. The team at RGRTA does a fantastic job 
providing public transit to the communities they serve, but because of 
factors like these, their ridership has suffered, declining from more 
than 18 million in 2014 to just under 16 million today.
    To address this crisis in bus transit, I urge this committee and 
all of my colleagues to support increased funding for public transit as 
we develop an infrastructure bill and reauthorize the FAST Act.
    Congress should embrace a robust infrastructure bill that includes 
$7.42 billion in funding for bus transit programs over the ten-year 
life of the bill. This level of funding would replace the approximately 
15,500 buses that are currently operating past their useful life. This 
funding level would also create approximately 260,000 jobs, increase 
reliability, and significantly decrease the greenhouse gas impact of 
running older, less efficient buses.
    As we begin discussing the reauthorization of the FAST Act, we 
should look beyond funding levels that simply replace old and dirty 
buses, and champion the kind of investment that will help RGRTA and 
other systems modernize and expand service. A range of investment tied 
to NTD data will help these systems bring bus transit up to a more 
acceptable state of good repair. That data suggests it would take an 
additional $6.4 billion to address the 18 percent decline in bus fleet 
size. When adding together the needs of transit between an 
infrastructure bill and a reauthorized FAST Act, there is a clear need 
of $13.82 billion to address the bus crisis in this country. To 
understand the full extent of this crisis, consider that this number 
does not even reflect the significant disinvestment in facilities, 
smaller buses and paratransit service.
    If we take into consideration this range of funding over the six-
year life of the next reauthorization bill, this is what the investment 
range would look like from FY21 to FY26:

--------------------------------------------------------------------------------------------------------------------------------------------------------
           Fiscal Year                  FY2021              FY2022              FY2023              FY2024              FY2025              FY2026
--------------------------------------------------------------------------------------------------------------------------------------------------------
Funding Request.................  $1.24b-$2.3b......  $1.27b-$2.3b......  $1.31b-$2.37b.....  $1.35b-$2.41b.....  $1.39b-$2.45b.....  $1.43b-$2.49b
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Investing in public transit has an undeniable ripple effect that is 
felt in neighborhoods throughout New York and across the country. 
Investing in public transit is also an investment in jobs, economic 
development, education, health care, small businesses, and the 
environment.
    Thank you for considering my testimony. I look forward to working 
with you and the committee to invest in the future of our nation.

                                 <F-dash>
  Prepared Statement of Hon. Bill Pascrell, Jr., a Representative in 
                 Congress from the State of New Jersey
    Thank you very much Chairman DeFazio and Ranking Member Graves for 
accepting my testimony in writing. The residents and commuters in 
northern New Jersey have several pressing interests that are relevant 
to the committee's work. Safety is certainly one issue at top of the 
ledger.
    Following the 2016 rail crash in Hoboken, New Jersey, that killed 
one person, injured 108, and caused millions in property damage, the 
National Transportation Safety Board (NTSB) recommended the Federal 
Railroad Administration implement an obstructive sleep apnea testing 
rule for rail operators. This rule could protect commuters, rail 
operators and commercial truck drivers from the dangers of sleep apnea.
    Since 2000, sleep apnea has played a major role in as many as seven 
train crashes, resulting in 11 fatalities and 285 injuries.\1\ To 
improve safety, I introduced legislation last Congress (H.R. 3882) with 
my colleague Rep. Albio Sires, a member of the committee, to require 
the U.S. Department of Transportation (DOT) implement a proposed rule 
mandating sleep apnea testing and treatment for rail operators and 
commercial truck drivers that was abruptly reversed by the Trump 
Administration in August 2017.
---------------------------------------------------------------------------
    \1\ Appendix 1
---------------------------------------------------------------------------
    I am working with all stakeholders on re-introducing a proposal to 
address the problems caused by fatigue, and specifically sleep apnea, 
in our transportation system because we must put safety first. We 
cannot wait for the next tragic incident. With rail accidents becoming 
more and more prevalent, the USDOT cannot continue to be asleep at the 
switch on rules to require diagnosis and treatment a medical issue that 
has caused too much loss.
    I encourage the committee to prioritize safety by strengthening 
rail safety standards. Implementing NTSB guidance and mandating a 
fatigue protocol that addresses sleep apnea is a commonsense safety 
measure that could prevent crashes and save lives. We know the Trump 
Administration is not taking this issue seriously, so Congress must act 
before the next tragic incident occurs.
    Thank you very much for your time. I look forward to working with 
you and the committee.
                               appendix 1
    Since a rail accident in Clarkston, Michigan in 2001, NTSB has 
identified OSA as a major factor in seven rail accidents. There are 
three current recommendations that NTSB has made to FRA related to OSA 
and Screening. Data on these incidents can be viewed below:

----------------------------------------------------------------------------------------------------------------
            Location                    Date             Report Date     Fatalities  Injuries      Report No.
----------------------------------------------------------------------------------------------------------------
Clarkston, MI..................  November 15, 2001.  November 19, 2002.           2         2  RAR0204
Red Oak, IA....................  April 17, 2011....  April 24, 2012....           2         0  RAR1202
Chaffee, MO....................  May 25, 2013......  November 17, 2014.           0         2  RAR1412
Bronx, NY......................  December 1, 2013..  October 24, 2014..           4        61  RAB1412
Hoxie, AR......................  August 17, 2014...  December 19, 2016.           2         2  RAR1603
Hoboken, NJ....................  September 29, 2016  February 6, 2018..           1       110  RAB1801
Atlantic Terminal, NY..........  January 4, 2017...  February 6, 2018..           0       108  RAB1802
  Total................................................................          11       285  7 accidents
----------------------------------------------------------------------------------------------------------------

Note: This chart does not include accidents in other transportation 
modes, including a bus accident in Palm Springs in 2016 that killed 13 
people and injured 31, in which undiagnosed or untreated sleep apnea 
was an aggravating factor.

                                 <F-dash>
Prepared Statement of Hon. Ed Perlmutter, a Representative in Congress 
                       from the State of Colorado
    Chairman DeFazio, Ranking Member Graves, and members of the 
Committee, thank you for the opportunity to submit testimony for 
consideration for the Committee's legislative agenda this Congress. As 
the Committee works on an infrastructure package and the 
reauthorization of the Fixing America's Surface Transportation (FAST) 
Act, I urge the Committee to consider several items important to 
Colorado.
    Investing in our nation's infrastructure is an important issue 
which enjoys broad bipartisan support as it is a key component to our 
national economic growth. We need to fix our aging infrastructure and 
help fund technological improvements to transportation, energy, water, 
broadband, and more to help keep our economy competitive in the long 
run. Any infrastructure package needs to include substantial federal 
investment in partnership with innovative authorities to provide the 
tools and funding necessary for our states and local communities.
    I also urge the Committee to include investments in our federal 
buildings owned and operated by the General Services Administration and 
other federal agencies in an infrastructure package. The Denver Federal 
Center is in my district and is home to the highest concentration of 
federal agencies outside of the Washington, DC area with about 28 
federal agencies and over 6,000 federal employees. I've seen first hand 
the problems federal employees face in buildings over 50 years old 
which are falling apart and affecting the ability of federal employees 
to do their job on behalf of our constituents.
    Additionally, for over 40 years the National Renewable Energy Lab 
(NREL) in my district has advanced the science of renewable energy and 
energy efficiency technologies while building the capabilities to guide 
rapid deployment of commercial applications. NREL employs over 1,700 
scientists, engineers and support staff, and operations at NREL support 
our entire Denver metro area and the nation with an estimated annual 
economic impact of over $1.1 billion across the country. NREL is 
running out of both lab and office space, including collaborative space 
where commercial industry can partner with federal scientists and 
utilize the lab's equipment. These are two examples of the importance 
of needs for investment in our federal infrastructure.
    In the transportation arena, there are three issues I urge the 
Committee to address this year. First, the Railroad Rehabilitation and 
Improvement Financing (RRIF) loan program needs to be revisited to 
allow the Department of Transportation to repay Credit Risk Premiums 
(CRPs) for projects which have paid off their loans and pose no further 
risk to the federal government. This has been a longstanding issue in 
the RRIF program, and thankfully the FAST Act removed the requirement 
for loan recipients to pay their own credit risk premium and instead 
allow Congress to appropriate funding to cover the government's risks 
as a RRIF lender.
    However, the FAST Act only fixed the issue for new loans issued 
after enactment, leaving previous projects without a solution. I'm glad 
the T&I Committee has worked with the Appropriations Committee over the 
last several years to provide relief to the first of three RRIF loan 
cohorts with loans issued from 2002 to 2005. The second loan cohort 
with loans from 2006 to 2008 have all been retired allowing CRPs to be 
returned to the borrowers under the previous statute. However, the 
third cohort of loans made in 2009 to 2015 remains in limbo. One 
project in that cohort is the Denver Union Station Project. The project 
paid back its loan more than 20 years early resulting in no more risk 
to the federal government. Yet the Department of Transportation will 
not repay the over $29 million CRP without a legislative solution. 
Other projects across the country are similarly impacted and need 
relief. I urge the Committee to pass legislation for the third loan 
cohort similar to the provision include in the FY 2019 Consolidated 
Appropriations Act for the first loan cohort. This provision would 
require CRPs to be repaid once the loan is retired, and finally close 
the chapter on this issue. Importantly, it would also allow these 
entities awaiting repayment to use the returned funds on new 
infrastructure improvements.
    Another item needing to be addressed is the definition of Fixed 
Guideway Bus Rapid Transit Project. Colorado has successfully deployed 
Bus Rapid Transit (BRT) projects leveraging existing infrastructure and 
managed toll lanes. These routes have reliable travel times similar to 
that of fixed guideway dedicated bus lanes and expanding the definition 
would enable communities to compete for BRT funding using the best 
options available to them. The current narrow definition limits this 
program to a select few regions which unfairly excludes these 
innovative BRT projects.
    Lastly, I urge the Committee to work collaboratively to improve 
safety at railroad grade crossings and continue pushing the Federal 
Railroad Administration (FRA) to revise the 2005 rule on the Use of 
Locomotive Horns at Highway-Rail Grade Crossings, commonly referred to 
as the Train Horn Rule. Several communities in my district and across 
Colorado have struggled to meet the requirements of the Train Horn Rule 
to establish Quiet Zones. I have pushed for the FRA to review and amend 
the Train Horn Rule to improve the incorporation of innovative 
technologies and solutions to better encourage the establishment of 
Quiet Zones which improve public safety, reduce train horn noise, and 
improve economic competitiveness. The current rule is cost prohibitive 
for many communities which reduces the likelihood of safety upgrades at 
railway crossings. The Committee should also consider creating a 
competitive grant program for communities wishing to establish quiet 
zones. This would reduce one of the barriers towards adoption of Quiet 
Zones and improve safety in our communities.
    I again want to thank the Committee for offering members the 
opportunity to comment on your agenda this Congress. I look forward to 
working with all the Committee's members to enact these and other 
improvements on behalf of our constituents.

                                 <F-dash>
  Prepared Statement of Hon. Bill Posey, a Representative in Congress 
                       from the State of Florida
    Thank you, Chairman DeFazio and Ranking Member Graves, for the 
opportunity to provide testimony about important transportation and 
infrastructure priorities. I am pleased to submit a statement for the 
record of my priorities in support of improving water resources project 
delivery, estuary restoration, maritime affairs, and rail safety.
               Improving Water Resources Project Delivery
    I was pleased to work with the Committee and the Florida delegation 
last year to enact enhancements to Army Corps of Engineers authorities 
to permit sponsors to construct water resources projects under Section 
204 of the Water Resources Development Act of 1986 and be eligible to 
receive reimbursement of the federal share of their expenditures. I 
would like to offer another enhancement to this infrastructure delivery 
mechanism.
    Most federal programs are delivered through non-federal partners 
who receive grants and execute projects. The Corps Civil Works program 
is not a grant program but rather has historically engaged Congress to 
plan and develop water projects in the national interest for 
navigation, flood risk management, and ecosystem restoration. In 1986, 
Congress enacted Section 204 to modernize the delivery of Corps 
navigation projects by giving project sponsors a role to design and 
construct projects and become eligible for reimbursement of the federal 
share of their costs for the project.
    Over subsequent years, Congress strengthened Section 204 and 
removed obstacles to its implementation. The concept was expanded to 
project purposes other than navigation in separate provisions. In the 
Water Resources Reform and Development Act of 2014, Congress merged 
authority for sponsor construction of projects for all water resources 
purposes into a single, uniform authority under Section 204. In WRDA 
2018, Congress made it easier (under my legislation) for sponsors to 
obtain technical assistance from the Corps and to obviate duplicative 
permitting requirements. Section 204 is becoming friendlier as an 
alternative for project sponsors to pursue their needs under the Corps 
program. Sponsor leadership can accelerate projects. Local leadership 
better integrates projects into the community making them more 
sensitive to the diversity of interests associated with such complex 
projects. Project sponsors know the environment and physical setting 
that projects must fit into. A major plus of Section 204 is that it 
applies to authorized projects and thus maintains Committee and 
Congressional prerogatives to authorize Corps water resources projects.
    Currently, sponsors who want to lead project design and 
construction must provide the financing and hope to receive 
reimbursement of the federal share. Reimbursement can be uncertain and 
slow. The Administration sometimes has been reluctant to budget for 
reimbursement. For example, during the tenure of Florida Governor, now 
U.S. Senator, Rick Scott, the State laid out $1.4 billion for port 
improvements and the federal government has not reimbursed the State 
for $140 million on these projects. While not all these funds were for 
Corps related water resources, some were. In my district, Port 
Canaveral awaits reimbursement of the federal share of the $7,856,000 
West Turning Basin. Slow reimbursement contributes to mistrust of 
federal partners and denies ports and other entities funds they could 
use in advancing other infrastructure needs.
    Sponsors also face a high carrying cost of frontloading their own 
funds. By contrast, water resources projects designed and constructed 
by the Corps are funded from annual federal budgets, appropriations, 
and work plans. In other words, sponsor leadership of design and 
construction faces significant burdens that traditional projects do 
not. Relieving this asymmetric treatment of Section 204 projects can 
help make them more attractive, increase sponsor participation, and 
expand the benefits of this delivery alternative.
    Mr. Chairman, I propose that Congress amend Section 204 to empower 
sponsors designing and constructing projects under this authority to 
participate in the annual Civil Works budget cycle--to request funds in 
the President's budget for reimbursement--past, as well as prospective. 
For sponsors who have already constructed project elements under 
Section 204, a formal, transparent process would be available to 
request reimbursement in budget cycles. For those Section 204 sponsors 
who would benefit from up-front budgeting of reimbursement for 
identifiable annual project segments, the Secretary would be directed 
to accept sponsor requests for budget resources and submit approved 
requests to Congress with the Army's annual Civil Works budget. In the 
annual Corps work plan development, projects that had been the subject 
of sponsor budget requests would also be available to receive work plan 
funds. In this manner, authorized projects that are designed and 
constructed by the local sponsor would be placed on par with the 
authorized projects that the Corps designs and constructs. The Army 
Civil Works program would be brought closer to the delivery model that 
is characteristic of almost all federal programs where the non-federal 
entity leads program implementation. At the same time, it preserves 
Congressional and Committee prerogatives in approving projects for 
authorization in biennial WRDAs.
    Mr. Chairman, this is an innovative proposal that will save us 
money and bring projects on-line faster. This proposal contributes to 
our national infrastructure objectives, promotes trade, and creates 
jobs. I urge you to adopt this provision in the upcoming WRDA.
  Estuary Protection and Restoration in the Comprehensive Everglades 
                            Restoration Plan
    Mr. Chairman and Ranking Member, I am co-chair of the Congressional 
Estuary Caucus that I co-founded with Congresswoman Suzanne Bonamici. I 
work with the Caucus to protect and restore estuaries throughout our 
coastal states. Today, I bring you a proposal to strengthen our ongoing 
efforts to restore the estuaries of the South Florida ecosystem.
    My district in bounded on the East by the Indian River Lagoon, the 
most biodiverse estuary in North America. People in my district depend 
on this Lagoon for their economic well-being, recreation, and tourism. 
On the opposite shore of Florida is another significant estuary, the 
Caloosahatchee River Estuary.
    The Indian River Lagoon and the Caloosahatchee River estuaries 
share a common fate in that they currently receive excess water from 
Lake Okeechobee as part of the operation of the Central and South 
Florida Project. When flood waters stored in the Lake exceed a safe 
level, the Corps of Engineers must release that water into the 
estuaries to protect people south of the Lake from the dangers of a 
failure or overtopping of the Herbert Hoover Dike that makes Lake 
Okeechobee a multiple purpose reservoir. Large volumes of phosphorus 
laden water end up in these sensitive estuaries. The results are often 
disastrous as when conditions induce harmful algal blooms in the 
brackish water estuaries. News accounts have made all of America aware 
of the havoc these algal blooms wreak in the Indian River Lagoon and 
the Caloosahatchee River Estuary--waters putrefy, the ecosystem is 
robbed of oxygen, foul odors and even dangerous fumes are emitted, fish 
and wildlife die, tourism evaporates, people and businesses suffer, and 
a way of life is profoundly disrupted.
    In Title VI of Water Resources Development Act of 2000, Congress 
approved the Comprehensive Everglades Restoration Plan (CERP), a 
blueprint for modifying the Central and South Florida Project to 
restore the Florida Everglades. From its inception, the CERP aimed to 
restore the entire South Florida ecosystem, and Congress included the 
two estuaries as part of that ecosystem in the approval of CERP. The 
Indian River Lagoon and the Caloosahatchee estuaries are integral to 
the CERP. Projects were included in the CERP to restore and improve the 
environment of the estuaries. The Indian River Lagoon South (IRL-S) is 
part of the CERP as approved in WRDA 2000. Construction is underway on 
first component of the IRL-S project, C-44 reservoir and storm water 
treatment area (STA). The reservoir and STA will serve a vital role in 
storing and treating local basin run-off that now threaten the Lagoon. 
To the West of Lake Okeechobee, the C-43 reservoir has been authorized 
to improve the timing, quantity, and quality of freshwater flows to the 
Caloosahatchee River and estuary.
    Given the recent dramatic algal blooms and devastation that has 
been visited on the estuaries in the South Florida ecosystem, I ask the 
Chairman and Ranking Member to enact a study to review the CERP to 
identify such further modification of the Central and South Florida 
Project as may be advisable to protect and restore the coastal 
estuaries that are included in the estuaries of the South Florida 
ecosystem. This review should be coordinated with Governor of Florida, 
the South Florida Ecosystem Restoration Task Force, the South Florida 
Water Management District, the residents of communities surrounding the 
affected estuaries, and the public. The Secretary of the Army should 
submit a report that includes a description of projects or other 
measures that the Chief of Engineers recommends be included in the 
CERP, through the Adaptive Assessment provisions of Title VI of Water 
Resources Development Act of 2000, to restore and protect the estuaries 
within the South Florida ecosystem. The Secretary should include a 
description of any projects or measures to restore and protect 
estuaries in the South Florida ecosystem that the Chief of Engineers 
recommends for authorization in future water resources development or 
other appropriate legislation, and a proposed schedule for the 
submission of any project information reports (PIRs) required to 
authorize such projects.
    Mr. Chairman and Ranking Member, restoration of the Everglades is 
ongoing and has mobilized a team that can tackle the challenges to the 
estuaries. Congress intended for the estuaries to be addressed as part 
of the CERP. Wherever possible, we ought to emphasize projects that 
both advance the restoration of the River of Grass and contribute to 
restoring the estuaries. That is my intent, and I urge you to authorize 
putting the team to work on the estuaries of the South Florida 
ecosystem and update the plan to integrate the problems and the 
disastrous ecological crises that have emerged in recent years.
               Maritime and Consumer Services Protection
    Mr. Chairman and Ranking Member, international trade accounts for 
as much as one-quarter of our economy. The readiness of consumers and 
shippers to fully engage in these markets determines the success of our 
local economies and how well we will compete in world trade. Our 
nation's international traders face the daunting task of understanding 
a complex array of international shipping firms, policies, laws, and 
regulations.
    Our government can provide a vital function in assisting consumers 
and shippers with the information and knowledge to negotiate these 
institutions to avoid snags whenever possible and to resolve issues 
that inevitably arise. Fortunately, the Federal Maritime Commission 
(FMC) has the Office of Consumer Affairs and Dispute Resolution 
Services (CADRS) ready to assist and educate consumers and shippers 
with issues that arise in commerce and international trade.
    In January, Representative Garamendi and I introduced bipartisan 
legislation (the Common Sense Maritime and Consumer Services Protection 
Act--H.R. 709) to formally recognize CADRS's critical role, encourage 
its activities in resolving disputes and securing services without 
costly litigation by our American traders, promote public understanding 
of the assistance available, and educate the public about the various 
components of international shipping such as the role of carriers, 
intermediaries, and our ports.
    The Common Sense Maritime and Consumer Services Protection Act will 
help reduce transaction costs to our exporters and importers and 
eliminate costly delays in completing international exchanges. Our bill 
will help small businesses and individuals that cannot afford large 
legal and technical staffs to unravel complex trade and shipping 
problems while educating consumers and the public at large about the 
system.
                            Railroad Safety
    On a different note, in my district, private interests are 
developing a high-speed rail project supported by the federal 
government through private activity bonds. This high-speed passenger 
service runs trains through communities and downtown areas. The project 
has raised serious concerns from residents who live along the current 
train line and proposed extensions because of the lack of pedestrian 
safety regulations near the tracks.
    When completed, the Virgin/Brightline train will carry passengers 
from Miami to Orlando through my district along an existing freight 
corridor. Their plan calls for running as many as 32 high speed (120 
mph) passenger trains a day on the track that serves increasing numbers 
of freight trains. Most of that track is wide open, close to homes, 
schools and business, and many--if not most--of the crossings are at 
grade.
    Residents are used to the occasional low speed freight train, but 
our communities are ill-equipped to deal with the safety risks posed by 
high speed rail. Over the last year and a half, 18 people have died in 
connection with this train and only the first phase has been 
constructed. I'm concerned because pedestrians routinely cross these 
tracks by foot throughout the corridor in my district--many of which 
are children going to school. The burdens of making the new rail 
service safe for pedestrians and school children should not fall on the 
local communities along the tracks or upon those who need protection. 
The costs and burdens should be borne by the company developing the new 
service.
    In the interest of protecting our communities and our children, I 
ask the committee to task the Federal Railroad Administration with 
writing regulations to protect pedestrians, including mandating fencing 
where appropriate, along high-speed train lines.
    In closing, I again thank Chairman DeFazio and Ranking Member 
Graves for the opportunity to provide testimony about important 
transportation and infrastructure matters that are both very close to 
home and national priorities.

                                 <F-dash>
Prepared Statement of Hon. Tom Rice, a Representative in Congress from 
                      the State of South Carolina
    Chairman DeFazio and Ranking Member Graves, thank you for allowing 
me to testify regarding important district initiatives that are under 
this committee's jurisdiction.
    I strongly believe that infrastructure equals opportunity. There is 
no more important initiative, policy proposal, or project that has the 
ability to lift up my constituents more than Interstate 73. The 
district I am proud to represent consists of some of the poorest 
counties in South Carolina. Dillion, Marion, and Marlboro Counties make 
up the northern section of what has been deemed the ``Corridor of 
Shame.'' Unemployment and poverty rates in these counties are well 
above national and state averages. Interstate 73, which will run 
straight through these counties to Myrtle Beach, will provide a once in 
a generation opportunity for the communities.
    In 1991, Congress designated Interstate 73 as a high priority 
corridor. In South Carolina, the proposed highway will run 80 miles 
from the border of North Carolina across I-95 to Myrtle Beach. In June 
of 2017, the United States' Army Corps of Engineers issued the final 
permit to begin construction. In November 2018, the project received 
backing from a local funding source.
    The economic benefits alone are nearly overwhelming--29,000 new 
jobs, $1 billion increase in state and local tax revenue, and $2 
billion overall economic impact. The safety benefits are also critical. 
During peak tourist season, the population of Myrtle Beach grows from 
approximately 30,000 to nearly 1 million. Tourism season in South 
Carolina also coincides with hurricane season. After suffering four 
hurricanes in the last four years, the Grand Strand has seen the impact 
that inadequate and outdated road systems have on evacuation 
procedures. Last September, rising flood waters resulting from 
Hurricane Florence nearly isolated Myrtle Beach from the rest of South 
Carolina. Interstate 73 will remedy this problem by creating a 21st 
Century route and reduce evacuation times by at least 11 hours.
    As this committee is considering infrastructure financing, I 
implore its members to take into account and give priority to 
transformative projects, such as Interstate 73, that are shovel ready, 
nationally significant, and have a dedicated source of state and local 
funding and support. Additionally, I ask the committee to consider 
visitation levels and long-term projects in Federal-aid highway 
funding. Traditional funding streams take into account population 
levels in order to measure demand and dollar amounts. This methodology 
leaves areas of the county that attract a large number of visitors, who 
rely on and place a significant stress on national and regional 
roadways, at a disadvantage. In order to address this disparity states 
could receive federal formula funds based on visitation levels.
    I thank you again for allowing me to speak before you today and I 
appreciate your consideration of projects such as Interstate 73 as you 
review and develop infrastructure policy and initiatives.

                                 <F-dash>
Prepared Statement of Hon. Bobby L. Rush, a Representative in Congress 
                       from the State of Illinois
    Chairman DeFazio, Ranking Member Graves, and members of the 
Transportation and Infrastructure Committee, thank you for the 
opportunity to submit testimony about our nation's infrastructure 
priorities.
    Having robust and well-funded infrastructure is critical to my 
district as well as to the entire country.
    Chicago and its surrounding suburbs are home to five major 
interstates, multiple regional and Class I railroads, intercity and 
commuter rail services, inland waterways, aviation facilities, and 
major intermodal freight yards.
    Public transportation is also extremely important to my 
constituents. The Service Boards--which are made up of the Chicago 
Transit Authority (CTA), Metra Commuter Rail (Metra), and Pace Suburban 
Bus, including Pace Americans with Disabilities Act (ADA) Paratransit 
Service--make up the third largest ridership in the country and the 
second largest transit system in the country by passenger miles 
traveled. The system covers approximately 3,700 square miles and serves 
more than eight million residents, including many of my constituents.
    Federal investments in efficient and high-quality transportation 
systems are linked with economic development in these communities.
    As such, as the Committee considers the reauthorization of the 
federal surface transportation programs as well as other infrastructure 
packages, I ask that you keep the following priorities in mind which 
are important to my district:
    <bullet>  Ensure predictable and robust funding for the Highway 
Trust Fund to ensure long-term solvency.
    <bullet>  Promote and fund the Capital Investment Grant (CIG) 
Program, which includes New Starts, Small Starts, and Core Capacity, at 
levels at least as high as those codified in the Fixing America's 
Surface Transportation (FAST) Act.
        <bullet>  For this program, geographic diversity should not be 
a factor in project selection by the Department of Transportation (DOT) 
and the core capacity funding category should be enhanced to include 
projects that expand or modify existing station facilities
        <bullet>  Additionally, I encourage you to ensure transparency 
by requiring the DOT to establish a CIG program dashboard that is 
publicly available and includes information on projects and their 
status.
    <bullet>  Prioritize transit funding programs and financing 
options, including:
        <bullet>  Large and steady funding to the State of Good Repair 
(SGR) program and Urbanized Area formula funding to address the $100 
billion backlog for public transportation. This backlog is currently 
growing by $2.5 billion each year.
        <bullet>  Restore tax exempt advanced refunding on municipal 
bonds.
        <bullet>  Expand incentives for public transportation systems 
and local governments to utilize value capture as an investment tool.
        <bullet>  Codify the Transportation Infrastructure Finance and 
Innovation Act (TIFIA) as counting as part of the local match for 
federally supported projects, as well as also being issued at 49 
percent of a project's cost if a sponsor requests that level.
        <bullet>  Provide financial assistance for the credit risk 
premium of a Railroad Rehabilitation & Improvement Financing (RRIF) 
loan application to encourage more of these projects.
        <bullet>  Reauthorize eligibility for Transit-Oriented 
Development under RRIF loans.
        <bullet>  Ensure dedicated resources for commuter rails to:
          <bullet>  Help with the implementation costs associated with 
Positive Train Control (PTC); and
          <bullet>  Provide annual funding assistance for PTC 
operations and maintenance.
        <bullet>  Authorize Amtrak capital dollars at least at the 
level authorized by the FAST Act.
    <bullet>  Encourage rapid innovation in mobility technology through 
federal funding and analysis.
        <bullet>  Integrate and utilize accessible mobility options in 
the U.S. transportation system to help vulnerable populations such as 
disabled, older, and underserved Americans.
        <bullet>  Expand pilot programs that look at innovative ways to 
coordinate access and mobility of vulnerable populations.
        <bullet>  Compile data resulting from the use of many mobility 
modes (including scooters, electric bikes, and transportation network 
companies like Uber and Lyft) into a larger database to provide state 
and regional planners vital information on ridership data.
    <bullet>  Incentivize Public Transportation Ridership.
        <bullet>  Expand the transportation fringe benefits--also known 
as the ``Commuter Tax Benefits''--and restore employer's ability to 
deduct the cost.
    <bullet>  Ensure that freight funding is dedicated, sustainable, 
and flexible.
        <bullet>  Funding should include incentives and rewards for 
state and local investment, leverage public and private financing, and 
include fees for owners of goods who are the primary beneficiaries of 
system improvements.
    <bullet>  Improve transparency of the DOT's Infrastructure for 
Rebuilding America (INFRA) Grant Program, so that applicants are able 
to understand how the DOT is prioritizing funding and what makes an 
application successful.
    <bullet>  Authorize funding for critical regional projects, 
including the widening of I-80 and improvements to the Laraway Road 
Corridor in my district, as well as funding for surface transportation 
projects that target freight system improvements.
        <bullet>  Additional priorities for funding increases include 
the freight formula program and competitive freight grant program, as 
well as the Surface Transportation Block Grant Program (STBGP).

    Thank you again for the opportunity to submit testimony on our 
nation's infrastructure priorities as part of this year's Member's Day. 
I look forward to continuing to work with you on these important 
issues.

                                 <F-dash>
Prepared Statement of Hon. Bradley Scott Schneider, a Representative in 
                  Congress from the State of Illinois
    Dear Chairman DeFazio and Ranking Member Graves:
    Thank you for your continued leadership on the Transportation and 
Infrastructure Committee. The need for significant federal investment 
in infrastructure is undeniable. I hope to bring to your attention the 
infrastructure and transportation priorities of my district as you 
consider relevant legislation.
    When I talk with my constituents about infrastructure, we focus on 
two key priorities: that our investment must be comprehensive, and that 
it must be resilient. Infrastructure to my district means more than 
roads and bridges--and any federal infrastructure package must start 
with a comprehensive approach. This includes expanding network 
connectivity, bringing our ports into the 21st century, strengthening 
community institutions like schools and hospitals, updating water 
infrastructure such as wastewater and drinking water treatment, and 
supporting public transit.
    An example in my district that combines these two themes is 
stormwater management. My district has faced two ``hundred year'' 
floods in the past 14 years, and the Des Plaines River grew above its 
flood stage six times last year. Our communities have made significant 
investment in flood mitigation in recent years, but climate change will 
continue to challenge the capacity of our stormwater management. FEMA 
estimates that for every dollar invested in flood mitigation, there are 
four dollars of public benefits, underscoring how investments in 
mitigation pay dividends down the road--all the more important as 
climate change deepens its impact. As your committee looks at 
prospective infrastructure legislation, I urge you to consider the 
impacts of climate change and building climate-resiliency into our 
infrastructure investments, including the adoption of green 
infrastructure and on-site flood mitigation. We must ensure the 
investments we make can handle the needs of the decades to come, from 
strains on our grid like heat-driven electrical demand to the 
challenges presented by increased severe weather events.
    The reauthorization of surface transportation legislation also 
serves as an opportunity to double down on our investments in public 
transportation. First, we need to shore up the Highway Trust Fund (HTF) 
to ensure its long-term health. A 2017 survey in my district 
highlighted transportation infrastructure as a top concern for my 
constituents, with 70% of Lake County residents surveyed saying it was 
their number one issue. The HTF remains a critical resource for 
ensuring the safety and maintenance of our transportation arteries. I 
also believe we must continue robust federal support for public 
transit. Both commuter rail and bus networks in my district have 
expanded service in recent years, highlighting that there continues to 
be growing demand for public transportation--and underscoring how 
important the federal cost-share is.
    I have heard from transit stakeholders in my district about how the 
backlog within the State of Good Repair program is affecting them. 
Public transportation in my district would greatly benefit from funding 
increases for this and the Capital Investment Grant programs, both of 
which are critical funding sources in my community. I also believe 
Congress has a role in helping local transit agencies shoulder the cost 
of implementing, operating, and maintaining Positive Train Control, 
which plays a central role in ensuring passenger safety. Finally, I 
encourage the Committee to support and integrate biking and pedestrian 
infrastructure to make our communities more accessible for all modes of 
transportation.
    Thank you for your consideration of these priorities. I look 
forward to working with you on these and other pressing legislation.

                                 <F-dash>
 Prepared Statement of Hon. David Scott, a Representative in Congress 
                       from the State of Georgia
    As you begin to draft legislation to develop and improve our 
nation's infrastructure, I urge you and the Members of the House 
Committee on Transportation and Infrastructure to include investments 
and improvements in wastewater infrastructure and workforce development 
programs for African-American young men.
    The U.S. is one of the wealthiest nations in the world. Despite 
this fact, there exists profound inequalities and disparities across 
our great nation. These discrepancies harm our most disenfranchised 
communities including our lower-income and African-American households. 
The next infrastructure package must prioritize these communities so 
that all Americans have equal access to economic prosperity and to 
modernized wastewater infrastructure in order to sustain healthy homes.
    The United States received a ``D+'' for the overall condition and 
performance of American infrastructure from the American Society of 
Civil Engineers (ASCE) in their recent 2017 Report Card. In the same 
report, the U.S. received a ``D+'' for its national wastewater 
infrastructure. Reports indicate there are approximately 540,000 
households in the U.S. that lack complete plumbing--this is around 1.5 
million individuals who lack modernized water infrastructure plans. 
Without adequate disposal systems for wastewater, families face 
environmental contamination and diseases such as hookworm. These 
adversities are worse for rural communities, lower-income communities 
and for individuals with pre-existing conditions such as diabetes.
    My state of Georgia also received a ``D+'' from the 2019 ASCE 
report card where 45% of local government water or wastewater treatment 
plants did not generate enough revenue to cover operational and 
maintenance costs. The report found that wastewater systems need to be 
maintained and expanded to ensure access to clean water and proper 
waste disposal. This is especially true since the Clean Water Act 
mandates water and sewage treatment plants must follow federal 
standards to keep water supply safe and sustainable. In fact, the 
Environmental Protection Agency estimates, over the next 20 years, $271 
billion in investments are needed to modernize or replace current 
wastewater infrastructure.
    Additionally, as the inevitable construction facilitated by 
infrastructure legislation begins, it is critical the committee 
prioritize a diverse workforce. The infrastructure package must provide 
economic opportunity to disenfranchised populations such as African-
American young men who have higher rates of unemployment. This is why I 
introduced H.R. 52 The Jobs, On-the-Job `Earn While You Learn' 
Training, and Apprenticeships for African-American Young Men Act during 
the 115th Congress, and plan to do so again. This bill requires the 
Department of Labor to request labor unions, general contractors, and 
businesses that will rebuild infrastructure to actively recruit, hire, 
and provide on-the-job training to African-American men ages 18 to 39 
through existing jobs, apprenticeships, and ``earn while you learn'' 
programs. Apprenticeships and career technical education have been 
fundamental strategies that provide individuals with the education and 
work-based learning they need for success in high-skill, high-demand 
infrastructure sectors and occupations. These programs must be offered 
to African-American young men to provide for their families the 
opportunity to obtain economic prosperity.
    With infrastructure plans in development, I respectfully request 
that you include the following in any infrastructure legislation:
    <bullet>  Robust investment in our nation's wastewater 
infrastructure to keep American families safe from environmental 
contamination and diseases. These plans should include programs and 
funding requirements that help local and state level wastewater 
agencies modernize or replace current wastewater disposal systems.
    <bullet>  Include my legislation, The Jobs, On-the-Job `Earn While 
You Learn' Training, and Apprenticeships for African-American Young Men 
Act, so that African-American families are provided employment and 
economic opportunities in the advancement of our nation's 
infrastructure.

    We appreciate your consideration of these requests and look forward 
to working with you to ensure these items are included in the 
nationwide infrastructure package.
                                 <F-dash>
       The Jobs, On-the-Job `Earn While You Learn' Training, and 
 Apprenticeships for African-American Young Men Act, Submitted for the 
                       Record by Hon. David Scott
                       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <F-dash>
Prepared Statement of Hon. Robert C. ``Bobby'' Scott, a Representative 
             in Congress from the Commonwealth of Virginia
    Thank you, Chairman DeFazio, Ranking Member Graves and members of 
the Transportation and Infrastructure Committee for providing me this 
opportunity to discuss some of the priorities I believe should be 
reflected in any transportation and infrastructure legislation.
    I represent the 3rd congressional district of Virginia where the 
Chesapeake Bay meets the James, Nansemond, and Elizabeth Rivers, which 
presents both challenges and opportunities. The U.S. Army Corps of 
Engineers has worked to keep America's waterways and ports open to 
trade, while working with our communities to ensure that they can 
continue to live with the water that surrounds our community. My 
district is home to the Port of Virginia, one of the largest and 
busiest ports on the eastern seaboard. With 95 percent of our nation's 
trade moving by water, it is essential that the port is able to 
maintain operations. The 3rd district is also home to multiple 
shipyards and neighbors Norfolk Naval Station, the largest naval base 
in the U.S. These waterways are essential to our community.
    Unfortunately, due to sea level rise, both attributable to climate 
change as well as historic subsidence, these same waterways also pose a 
serious risk. Some studies estimate this rise to be as much as 7 feet 
by the year 2100, the Hampton Roads region is the second largest 
population center at risk from sea level rise in the nation, behind 
only New Orleans. The City of Norfolk is specifically at risk from 
flooding due to high tides, nor'easters, and hurricanes. As the home of 
Naval Station Norfolk and numerous other federal and military 
facilities, this recurrent flooding also poses a severe national 
security risk.
    State and local elected officials in Virginia already appreciate 
the significant threat sea level rise poses to Hampton Roads. 
Unfortunately, the cost to proactively and aggressively address this 
problem head-on is far too great for any city to bear by itself. While 
Norfolk has already spent considerable sums of money to study its 
recurrent flooding issues and implement resilient infrastructure where 
feasible, the scope of the entire project to actually address the 
problem is expected to total in the billions of dollars.
    As this committee begins to consider a robust infrastructure 
package, I urge you to make it a priority to invest in resilient 
infrastructure. I encourage you to look at the Building Up 
Infrastructure and Limiting Disasters through Resilience (BUILD 
Resilience) Act, legislation that I introduced last Congress with 
Senators Mark Warner and Tim Kaine and that I intend to introduce again 
soon. The BUILD Resilience Act would establish a competitive grant 
program for resilient infrastructure investment to bolster the ability 
of regions, such as Hampton Roads and New Orleans, to implement 
projects and strategies to reduce regional vulnerability to threats 
like sea level rise and recurrent flooding. Analyses by the 
Congressional Budget Office and the Multi-hazard Mitigation Council of 
the National Institute of Building Sciences estimate that every $1 
invested in resilient infrastructure upfront saves $3 to $4 in future 
losses on the back-end after a major disaster strikes. Investing 
upfront can help save taxpayers and impacted communities potentially 
billions of dollars in avoided costs.
    Hampton Roads is also home to significant traffic backups at the 
waterway crossings and throughout the region. The widening of the 
Hampton Roads Bridge Tunnel is primarily being financed with local 
revenue from sales and gasoline taxes in the Hampton Roads 
Transportation Fund but it will require state and federal support. 
There is a limit to how much and how many of these major transportation 
projects can move forward without federal assistance. I would urge the 
committee to commit crucial federal support for infrastructure in every 
state.
    School infrastructure must also be a part of any infrastructure 
package we consider. Despite the evidence linking well-resourced 
facilities, well-supported teachers, and healthy buildings to better 
academic and life outcomes, the federal government dedicates no money 
to public school infrastructure improvements.
    I would urge the committee to look at the Rebuild America's Schools 
Act (H.R. 865) which would fund $70 billion in grants and $30 billion 
in bonds to help address critical physical and digital infrastructure 
needs in schools across the country. According to economic projections, 
the bill would also create more than 1.9 million good-paying jobs. 
Students and educators deserve to go to school every day in safe and 
welcoming buildings.
    Mr. Chairman, thank you again for allowing me the opportunity to 
share my priorities for any comprehensive infrastructure package 
drafted by this committee. I look forward to working with you to ensure 
that resilient infrastructure and school infrastructure remains a 
priority.

                                 <F-dash>
    Prepared Statement of Hon. Jose E. Serrano, a Representative in 
                  Congress from the State of New York
    Chairman DeFazio, Ranking Member Graves, and members of the 
Committee, thank you for the opportunity to testify on behalf of the 
National Museum of the American Latino Act.
    Today, nearly 58 million Latinos reside in the United States, or 
18.1 percent of the population. By 2060, the U.S. Census estimates this 
population will reach 119 million, or 30 percent of the population. 
Latinos accounted for 25 percent of the nation's 54 million K-12 
students in 2016, up from 16 percent in 2000. This young, vibrant, and 
growing community not only represents the future, but they also make up 
the largest and fastest growing racial or ethnic group in the U.S. Yet, 
Latinos still face systemic under-representation in nearly every facet 
of American life, especially within our arts and cultural institutions.
    In 1994, Smithsonian acknowledged its shortcomings in Latino 
inclusion, so it issued a report setting forth ten recommendations to 
address it. While the Smithsonian has made good progress since that 
time, especially through the Latino Center's work, this is not enough. 
Relegating hundreds, if not thousands, of years of history to a single 
exhibit is unacceptable.
    Efforts to establish a Latino Museum have been underway for some 
time. In 2003, former Representatives Xavier Becerra of California and 
Ileana Ros-Lehtinen of Florida introduced the first bill. In 2008, 
President Bush and Congress established the Commission to Study the 
Potential Creation of a National Museum of the American Latino. The 
Commission issued its report in 2011 laying out a detailed plan for a 
world-class museum with a mission to illuminate the American Latino 
story for the benefit of all. This bill is a continuation of that hard 
work.
    The National Museum of the American Latino Act would act on the 
Commission's report by establishing a Board of Trustees to work with 
the Smithsonian's Board of Regents to plan, design, and establish a 
National Latino museum on the National Mall. This legislation is 
modeled closely after past successful bills that have established new 
museums, including the National Museum of African American History and 
Culture, which has proven to be wildly successful for the Smithsonian 
and another marvel on the National Mall. This bill's funding model is 
in line with the establishment other Smithsonian museums: 50 percent 
private funds and 50 percent federal funds.
    The contributions Latinos have made to American culture and history 
are innumerable, and often overlooked by the history books. From 
serving in our wars to influencing our economy, the arts, the sciences, 
and sports, it is time to share this history. That is why this bill is 
so important to so many. We will finally be able to see our history 
accurately reflected for the first time.
    Thank you, again, for allowing me this opportunity. This is one of 
my highest priorities in the 116th Congress. I look forward to working 
with all of you to move this dream forward for so many of us in the 
American Latino community.
                                 <F-dash>
  Prepared Statement of Hon. Adam Smith, a Representative in Congress 
                      from the State of Washington
    Chairman DeFazio, Ranking Member Graves, and distinguished Members 
of the Committee: Thank you for the opportunity to share some of the 
key infrastructure and transportation priorities that are of importance 
to the Ninth Congressional District of Washington, which I proudly 
represent. As the Committee develops its legislative agenda for the 
116th Congress, I would like to highlight the importance of acting to 
stem the increasing impacts of aviation noise and emissions on 
communities surrounding airports. As a Member of Congress whose 
district is home to one of the busiest and fastest-growing hub airports 
in the country, Sea-Tac International Airport, I have a deep 
understanding of how this issue affects residents near this and other 
airports throughout the country.
    Sea-Tac Airport is a vital economic engine for the Puget Sound 
Region. The growth of the airport has facilitated and been driven by 
economic expansion of the region. While air traffic at this and other 
airports has increased, new technologies have helped to mitigate, and 
in some cases reduce, corresponding growth in aggregate airplane noise 
impacts. Unfortunately, the benefits of noise mitigation and reduction 
has not been enjoyed evenly throughout regions served by major 
airports, including the district I represent. The narrowing of 
departure and arrival routes has concentrated noise and other impacts 
over specific areas and those living under these pathways now bear an 
increased majority of the noise burden. Culturally and 
socioeconomically diverse communities like the Beacon Hill neighborhood 
in the Ninth District of Washington as well as the City of SeaTac, 
where I grew up, are located directly beneath increasingly tight flight 
paths and the noise impacts on these areas can seem nearly constant as 
planes fly overhead every few seconds.
    Sadly my constituents and others living in similarly situated areas 
too often feel as though they have little or no recourse or remedy. The 
Federal Aviation Administration (FAA) has not always been responsive to 
their concerns, and while the FAA Reauthorization Act of 2018 included 
meaningful and positive provisions that will improve community 
engagement, I believe more can and must be done.
    I will be reintroducing legislation that I first offered in the 
115th Congress to improve the manner in which the FAA engages with 
noise-affected areas and to help bring some relief to those on the 
ground. The Aviation Impacted Communities Act will codify into law a 
formal process for localities to join together and constructively 
engage with the FAA through the work of Community Boards. These groups 
will have the ability to nominate civic leaders or elected officials to 
represent residents before the FAA. The Aviation Impacted Communities 
Act will also designate areas under flight paths as ``aviation 
impacted;'' allowing residents to petition the FAA to study and create 
action plans to solve the problems they face.
    I understand that changes such as these will place an additional 
burden on an agency charged with the daunting task of ensuring the 
safety and soundness of our air transportation network. However, the 
support provided by this legislation to those who are 
disproportionately impacted by the externalities of the aviation system 
that is vital to all of our communities and our country is both 
necessary and just. I look forward to working with you to improve and 
advance the provisions contained in this legislation.
    In addition to noise impacts from aviation, ultrafine particles 
(UFPs) in the atmosphere pose an outsize threat to those living near 
airports and under flight pathways. These pollutants are miniscule 
particles of less than one hundred nanometers in size that are emitted 
as byproducts of petroleum fuel combustion in engines, such as those 
used on vehicles and aircraft.
    In 2014, a first-of-its-kind study was conducted around the Los 
Angeles International Airport (LAX) to examine the levels of UFPs in 
the atmosphere surrounding the airport. That study determined that 
ultrafine particles were being emitted over a much larger area than 
previously thought and could be causing more serious and widespread 
harm.
    According to the FAA's own preliminary research, fine and ultrafine 
particles in the atmosphere are considered a health risk in humans 
because of their ability to penetrate deep into the human respiratory 
system. UFPs may be particularly dangerous as they may aggravate heart 
ailments, contribute to lung disease, and cause nervous system impacts. 
Their wide dispersion could affect human health over large areas, lead 
to increased hospital admissions, and hurt children's performance in 
school. Additionally, it has been demonstrated that lower-income and 
minority communities tend to be exposed to higher levels of UFP 
pollution. However, the degree to which aviation contributes to UFP 
pollution exposure is not fully known and only a handful of studies 
have been conducted in the United States to begin to inform our 
scientific understanding of these particles.
    In addition to gaps in scientific knowledge, there are also gaps in 
the federal government's approach to UFP regulation. The FAA regulates 
UFPs in the atmosphere no differently than considerably larger 
particles and presently only recognizes two still-sizable categories of 
particulate emissions. The first includes larger particles that are ten 
microns or less; identified as PM<INF>10</INF>. A second smaller set, 
designated as PM<INF>2.5</INF>, includes any particles below 2.5 
microns. Though ultrafine particles are included within the lesser 
subset, UFPs tend to be considerably smaller than those in the upper 
limits of the classification. There are no specific guidelines for 
regulating or measuring the smallest particles because the FAA does not 
identify them separately from the PM<INF>2.5</INF> category. In order 
to properly regulate these particles, more analysis is needed of these 
pollutants, their attributes, dispersions, and effects on human health.
    Given the potentially harmful health effects that UFPs may have on 
those who live near airports and the limited research on which to base 
regulation in this important area, it is time for a national study on 
this issue. Residents of impacted communities across the country, like 
those in the congressional district I represent, deserve to know how 
they are affected by ultrafine particles in the atmosphere, where these 
particles originate from, and whether alternative fuels such as 
biofuels could be employed to reduce those impacts.
    More must be done to understand how UFPs affect the areas around 
airports, to what extent aviation contributes to the creation and 
diffusion of UFPs, and whether or not sustainable aviation fuels could 
help reduce the number of these particles in the atmosphere. The 
Protecting Airport Communities from Particle Emissions Act, which I 
recently reintroduced in the 116th Congress, will help to answer many 
of these questions. This legislation seeks to improve the current 
science in this area by directing the Federal Aviation Administration 
(FAA) to partner with the National Academy of Sciences (NAS) to conduct 
a national study of UFP generation and dispersal around major hub 
airports, like Sea-Tac Airport in Washington state and others around 
the country.
    Drawing from data provided by agencies like the FAA, the 
Environmental Protection Agency (EPA), and Health and Human Services 
(HHS), among others, a FAA-NAS study would investigate the 
characteristics, primary sources, and potential health effects of UFPs. 
Its scope would be national and examine UFP pollution surrounding 
several of the most significant airports serving some of the United 
States' most sizable metropolitan areas, including: Washington, D.C.; 
Los Angeles-Southern California; Seattle; San Francisco Bay Area; 
Phoenix; New York; Chicago; Boston; and Atlanta. It would also identify 
any information gaps in the current science on this issue in order to 
better inform the regulation of UFPs.
    Communities have a right to know whether the air they breathe 
contains high levels of UFPs and how these particles affect their 
health. I would welcome the support and expertise of Members on this 
committee to advance the scientific understanding of ultrafine 
particles through the research proposed in my legislation. It is 
crucial that we in Congress fight to reduce the impacts from aviation 
on surrounding areas while ensuring that our airports remain vital 
economic engines.
    I appreciate the Committee's consideration of these priorities and 
its ongoing work to improve our nation's environment and 
infrastructure. As we focus restoring and improving our roads, bridges, 
ports, and water and aviation infrastructure, we must take care to 
mitigate the impacts that the movement of goods and people can have on 
the environment and Americans.

                                 <F-dash>
  Prepared Statement of Hon. Jefferson Van Drew, a Representative in 
                 Congress from the State of New Jersey
    Chairman DeFazio and Ranking Member Graves, thank you for the 
opportunity you have given me to submit my views about the critical 
importance to fully support the U.S. Coast Guard, the Federal Aviation 
Administration's William J. Hughes Technical Center and the need for a 
recreation title in any infrastructure package to address outdoor 
recreation infrastructure needs.
                              Coast Guard
    I represent New Jersey's 2nd congressional district which 
encompasses over 40 percent of the state's land mass and is home to the 
U.S. Coast Guard Training Center in Cape May, the birthplace of the 
enlisted corps, and the Air Station in Atlantic City.
    Training Center Cape May is the Nation's only Coast Guard Recruit 
Training Center, and the 5th largest base in the Coast Guard.
    Its mission is to develop the enlisted workforce for the U.S. Coast 
Guard.
    Training Center Cape May is attached to more than 350 military and 
civilian personnel and more than 4,000 of America's finest young men 
and women arrive for boot camp here, the first chapter of their Coast 
Guard career.
    Air Station Atlantic City opened in 1998 and is the newest and 
largest single airframe unit of the Coast Guard's air stations.
    It is located in Atlantic City International Airport in Egg Harbor 
Township along with another of South Jersey's crown jewels, the William 
Hughes Technical Center.
    Air Station Atlantic City is comprised of 10 MH-65D Dolphin 
Helicopters and supports a wide range of Coast Guard operations such 
as: search and rescue, law enforcement, port security, and marine 
environmental protection.
    The Air Station also provides multiple aircraft and crews to 
protect our Nation's capital, 24 hours a day and 7 days a week, at the 
National Capital Region Air Defense Facility under the operational 
control of the North American Aerospace Defense Command.
    I hope that this committee can work with the Appropriations 
Committee to provide $10 billion in discretionary funding to the U.S. 
Coast Guard which would be equal to the fiscal year 2019 enacted level.
    This funding would allow the Coast Guard to secure our borders and 
disrupt drug and human trafficking and to continue to save lives at 
sea.
    Of particular importance is the need to fund the first phase of the 
Barracks Renovation at Training Center Cape May at $30 million to 
recapitalize the barracks for three recruit companies to accommodate 
both genders, including providing classrooms and administrative 
support.
    I also request that the committee work with appropriators to 
provide $2.6 million to recapitalize Travel Lift Piers to meet 
sufficient load capacity and support boat maintenance at Training 
Center Cape May.
    Furthermore, I ask that the committee work with appropriators to 
provide the necessary funding for a 3.1 percent military pay raise in 
2020 to maintain parity with the Department of Defense for military 
pay.
                              Tech Center
    I am proud to represent over 1,400 men and women at the William J. 
Hughes Technical Center in Atlantic City who keep our skies safe.
    The Tech Center is the Federation Aviation Administration's 
national scientific test base for the research, development, test, and 
evaluation of air transportation systems.
    The research, testing and prototype development conducted by Tech 
Center staff helps shape the future of our nation's air transportation 
system.
    In short, it is the nation's premier air transportation system 
federal laboratory.
    The Technical Center has a number of unique laboratories engaged in 
research that contributes to aviation system development: air traffic 
management laboratories, simulation facilities, a human factors 
laboratory, the NextGen Integration and Evaluation Capability, a 
Cockpit Simulation Facility, a fleet of specially-instrumented in-
flight test aircraft, the world's largest full-scale aviation fire test 
facility, a chemistry laboratory for analyzing the toxicity of 
materials involved in a fire, surveillance laboratories, a full-scale 
aircraft structural test evaluation and research facility, the National 
Airport Pavement Test Facility and an Unmanned Aircraft Systems 
research and development simulation laboratory.
    The Tech Center is the heart of an aviation cluster that is 
unparalleled--a lot of the work at the Tech Center is done in 
partnership with academic, private, and public entities such as NASA, 
the Department of Defense, Department of Homeland Security, U.S. 
Marshalls, and the U.S. Coast Guard.
    I hope that the committee can work with the Appropriations 
Committee to support robust funding for the Tech Center Laboratory 
Facility, Laboratory Sustainment, NextGen and Operations Planning, 
NextGen Support Portfolio, and Fire Research and Safety, among others.
    At a minimum, the committee should work with the appropriations 
committee to ensure that all programs located at the Technical Center 
are funded at the enacted levels, at a minimum.
                      Recreational Infrastructure
    I encourage the committee to consider the role that recreation-
based infrastructure plays in supporting the U.S. economy and to 
prioritize these needs as the committee continues its work in 
developing a robust infrastructure package.
    An infrastructure package should fully and properly address the 
needs of outdoor recreational infrastructure, especially for boating 
and fishing, by containing a ``recreation title.''
    Recreational boating, for example, is a noteworthy contributor to 
the U.S. economy that generates $170.3 billion in annual economic 
impact that supports more than 35,000 businesses and 690,000 jobs.
    In terms of GDP, outdoor recreation is larger than mining, 
utilities, and chemical products manufacturing.
    Any infrastructure package should address dredging needs impacting 
recreational boating, study innovative recycling solutions, improve 
broadband access in federally managed lands and waters to support 
recreational safety and direct the Government Accountability Office 
(GAO) to conduct several studies.
    The GAO should study the U.S. Army Corps (Corps) assets and range 
of activities it does to expand access to important waterways, study 
the economic impact of outdoor recreation on property managed by the 
Corps and study and assess the status of aquatic invasive species 
throughout the country.
    I believe that these measures are consistent with the pragmatic and 
bipartisan makeup of this committee and I thank you for your time and 
consideration.

                                 <F-dash>
    Prepared Statement of Hon. Jackie Walorski, a Representative in 
                   Congress from the State of Indiana
    Chairman DeFazio, Ranking Member Graves, and members of the House 
Committee on Transportation and Infrastructure (T&I), I appreciate the 
opportunity to provide written testimony to highlight my infrastructure 
priorities since I was unable to testify before the committee due to a 
scheduling conflict.
    As a member of the House Ways and Means Committee, which recently 
held a hearing entitled ``Our Nation's Crumbling Infrastructure and the 
Need for Immediate Action,'' I had the honor of hearing testimony from 
both the Chairman and Ranking Member with many good ideas on how we can 
improve our nation's infrastructure. I want to let the Committee know 
that I am an eager partner in the effort to address our nation's aging 
infrastructure needs. Ensuring we have the best infrastructure in the 
world will help our economy move goods, services, and people. We need 
an all-of-the-above approach that includes creative solutions to 
finance our nation's infrastructure while leveraging technology, 
choosing cost-effective projects, reforming permitting requirements to 
prevent project delays, distinguishing between what is rightly a 
federal vs. a state and local priority, and ensuring safety on our 
roads. As the Committee develops an infrastructure bill to rebuild the 
backbone of the United States economy, we must also ensure that all 
Americans receive value for their tax dollars and that wasteful 
spending is stopped before it starts.
    While much of the financing of any infrastructure bill isn't within 
T&I's jurisdiction, I do want to update the Committee on some of the 
work I've been doing on the Ways and Means Committee. As the Committee 
may know, public-private partnerships are among the most cost-effective 
ways to revitalize our aging infrastructure and invest in our nation's 
future. I recently joined Rep. Earl Blumenauer in reintroducing the 
Move America Act, which would allow states to issue tax-exempt Move 
America Bonds to expand public-private partnerships and lower borrowing 
costs. Incentives for state and local governments to offer these bonds 
include flexible ownership and management arrangements, favorable tax 
treatment, and up to five years of unused bond carry-over. They would 
be allocated to states based on population. The bill would also create 
Move America Tax Credits to leverage additional private investment by 
enabling smaller states to trade in some or all of their bond 
allocation for tax credits at a 25 percent rate. Eligible 
infrastructure projects include roads, bridges, airports, rail, 
transit, ports, freight transfer facilities, waterways, sewers, and 
broadband.
    Currently, the federal gas tax is not a long-term solution that 
will meet the funding needs of our surface transportation programs, in 
part because gas usage does not necessarily reflect wear and tear on 
our roads. I am working on a discussion draft of legislation to help 
permanently stabilize the Highway Trust Fund while reducing the issue 
around the donor/donee states. This draft proposal will examine 
creating a new structure for instituting a vehicle miles traveled (VMT) 
tax on class 7 and 8 trucks. The revenue captured by the VMT model 
would be placed in a newly created Highway Trust Fund account dedicated 
only to critical and urban freight corridors, ensuring a direct return 
on investment for those users. To ease the tax burden on those in the 
trucking industry, the legislation would repeal all federal truck taxes 
that are not fuel-related (the tire tax and 12 percent tractor tax). 
Moreover, as a means to further address concerns about a new fee, the 
plan would reduce the gas and diesel tax by 2 cents up-front while 
indexing these rates to inflation moving forward. Lastly, the bill 
would ensure parity for all fuel sources by imposing a new tax on 
electric vehicle batteries. This provision intends to ensure parity 
between roadway users in terms of their financial support of the system 
regardless of how the vehicle is propelled. I know this proposal isn't 
perfect, but I look forward to hearing from stakeholders and my 
colleagues on ways we can improve on this proposal once it's released. 
Due to our current fiscal situation, we need to eliminate our reliance 
on general funds to support a large part of our highway and transit 
spending.
    The Committee should look at strengthening accountability by 
measuring real results and holding states accountable for the 
infrastructure dollars they receive from the federal government. 
Accountability and improved transparency can be achieved by requiring 
the Department of Transportation to create a graded dashboard to track 
a state's progress on improving its roads and bridges. Improving 
transparency on how states spend federal funds for infrastructure 
projects will hold states publicly accountable and help ensure federal 
funds are spent effectively on critical infrastructure projects.
    Project management is the driving force behind the delivery of 
major infrastructure projects throughout Indiana and across the 
country. Research from the Project Management Institute finds that 11.9 
cents of each dollar invested in projects is wasted due to poor 
performance--that's $119 million for every $1 billion! But 
organizations that adopt project management best practices enjoy more 
successful outcomes and waste significantly less money than their 
counterparts that do not. To protect and safeguard taxpayer dollars, a 
policy is needed to ensure that all federally-funded infrastructure 
projects are delivered (1) in accordance with American National 
Standards Institute project management standards and (2) by certified 
project managers. These two commonsense, no-cost provisions will 
greatly improve project outcomes and ensure transparency and 
accountability to both Congress and the American taxpayers.
    On October 30, 2018, three children in my district were killed by 
an oncoming driver who failed to stop as the kids were crossing the 
road to board their school bus. Illegal passing of school buses happens 
at an alarming rate every day in America. In the most recent annual 
one-day observational survey, 105,306 school bus drivers in 38 States 
reported 83,944 vehicles illegally passed a stopped school bus in one 
day. In response, Rep. Julia Brownley and I introduced the Stop for 
School Buses Act, which will help our states and local communities take 
the most effective actions to prevent illegal passing of school buses 
and ensure students are safe when traveling to and from school. The 
bill does not pre-determine any one solution but directs the DOT to 
look at all aspects of the problem and recommend the most effective 
solutions. I would suggest that the Committee include this legislation 
in any infrastructure bill, as it will help improve safety and prevent 
future tragedies. Ensuring children get safely to and from school every 
day should be a top priority.
    My district is one of the largest manufacturing districts in the 
nation, and we also have a significant agricultural presence as well, 
which means we're moving a lot of products around the country and the 
world. I have many truckers in my district and farmers who have 
specific issues with the Hours of Service (HOS) regulations and want 
more flexibility. Last Congress, I cosponsored Rep. Brian Babin's REST 
Act, which would have required DOT to update Hours of Service 
regulations to allow a rest break once per 14-hour duty period for up 
to three consecutive hours as long as the driver is off-duty, 
effectively pausing the 14-hour clock. However, drivers would still 
need to log 10 consecutive hours off duty before the start of their 
next work shift. It would also eliminate the current 30-minute rest 
break requirement. Also, I cosponsored Rep. Ted Yoho's Transporting 
Livestock Across America Safely Act. This bill reforms federal 
regulation on how haulers transport livestock across the country by 
changing HOS regulations. I think these small improvements to HOS 
regulations will provide many in the trucking industry much-needed 
relief.
    Marine infrastructure throughout the Great Lakes and Mississippi 
River basin region is a vital component of commerce and trade to the 
State of Indiana and my district. However, infrastructure in both areas 
needs reconstruction and repair. We need to continue to ensure that 
there are appropriate investments to rehabilitate the Soo Locks, 
rehabilitate the Saint Lawrence Seaway locks, and reconstruct strategic 
breakwater structures throughout the Great Lakes region. Another 
important part of this network is the Chicago Area Waterway System 
(CAWS) that provides a connection between the inland river navigation 
system, such as the Mississippi River, and the Great Lakes, ensuring 
movement of commercial maritime commerce and recreational boating to 
ports in Northern Indiana. I am opposed to any proposal that would 
separate the Great Lakes from the CAWS as a way to prevent the 
migration of Asian Carp. I support many other tactics for fighting 
invasive species in the Great Lakes and Mississippi River basin, but 
physical separation would negatively impact thousands of jobs in the 
region. The Committee should review the Coast Guard's management of the 
Great Lakes pilotage program to see if there is a need to modernize the 
Great Lakes Pilotage Act. Marine pilots are expert navigators and are 
necessary to ensure safe navigation. However, the Coast Guard may not 
be effectively managing the program in the most cost-effective manner. 
Ensuring the Great Lakes and inland waterway systems have a strong 
foundation of well-developed infrastructure will ensure we have strong 
economic growth and allow for more commerce with the rest of the world.
    As a member of the Congressional Composites Caucus, I believe it's 
vital we allow the use of innovative construction materials such as 
composites in appropriate infrastructure projects. The use of 
innovative, American-made materials like composites in projects has 
been shown to reduce lifecycle and maintenance costs and extend the 
service life. Composites offer a durable, sustainable, and cost-
effective solution for many different applications, and I encourage the 
Committee to promote innovative construction materials as a way to 
rebuild our nation's infrastructure with innovative technology.
    A strong American economy depends on a modern infrastructure built 
for the 21st century. I look forward to working with the members of 
this Committee, and stakeholders in addressing our nation's critical 
infrastructure. I want to thank the Committee again for this 
opportunity to submit testimony.

                                 <F-dash>
    Prepared Statement of Hon. Jennifer Wexton, a Representative in 
               Congress from the Commonwealth of Virginia
    Dear Chairman DeFazio and Ranking Member Graves,
    Thank you for holding today's Members' Day hearing. This hearing is 
an important opportunity for all Members of the House of 
Representatives to highlight issues of importance as the Committee 
develops an infrastructure package. In Virginia's 10th Congressional 
District, hundreds of thousands utilize multiple modes of 
transportation every day to commute to work and to travel for business 
and leisure. It is time for a serious investment in smart 
infrastructure growth and maintenance to update and expand our network 
of roads, bridges, public transit systems, airports, bike paths, and 
rail lines in northern Virginia and around the country. These 
investments would create new jobs and ensure that these vital conduits 
will continue to keep our economy running for generations to come.
    As the Committee develops a 21st-century jobs and infrastructure 
package that benefits all Americans, I would like to highlight the 
following priorities and projects specific to my district:

    <bullet>  Dedicated federal funding of $150 million annually for 
Washington Metropolitan Area Transit Authority (WMATA) and 10-year 
reauthorization of the Passenger Rail Investment and Improvement Act 
(PRIIA)
      <bullet>  WMATA is essential to the operations and economy of the 
National Capital Region (NCR), and serves a unique and vital security 
role for the federal government;
      <bullet>  Dedicated funding is critical to making the system 
safer, returning it to a state of good repair, and restoring its status 
as a world-class system; and
      <bullet>  Funding provided by the federal government is currently 
matched by the District of Columbia, Maryland and Virginia. Elimination 
of funding would result in a total loss of $300 million to the system.

    <bullet>  Reauthorization and Increased Funding for the Federal 
Fixing America's Surface Transportation (FAST) Act
      <bullet>  This program is a main source of transportation funding 
available to the Commonwealth of Virginia and localities for needed 
infrastructure.

    <bullet>  Improvements to Interstate 81
      <bullet>  The improvements recommended include additional travel 
lanes on the main line, evaluating collector-distributor lanes adjacent 
to the main line, modifications to existing interchange areas, and 
developing new interchange areas and bridge crossings of the main line 
as recommended by the Winchester Frederick County Metropolitan Planning 
Organization Long Range Plan.

    <bullet>  Route 7 Widening (Estimated Cost--$200 million)
      <bullet>  This corridor has experienced significant growth in 
traffic volumes and congestion resulting from the rapid population 
growth west of Leesburg in Loudoun, Clarke, and Frederick counties in 
Virginia and in the West Virginia panhandle. This project, segmented 
into several projects each which provide planning, design, right-of-
way, and widening costs, widens Route 7 east and west bound from the 
Town of Purcellville to the Town of Leesburg at King St. to create 
easier access to employment centers further east.
        <bullet>  Route 7 Widening (eastbound)--Route 690 to Route 9 
(Estimated Cost--$70 million)
        <bullet>  Route 7 Widening--Route 9 to Dulles Greenway 
(Estimated Cost--$53 million)
        <bullet>  Route 7 Widening (westbound)--Route 9 to 690 
(Estimated Cost--$70 million)

    <bullet>  Improvements to U.S. Route 15--North of Leesburg
      <bullet>  Route 15 serves as a major north-south interstate 
highway and is part of the National Highway System. For a number of 
years, volume, congestion, delays, and accidents have increased on the 
segment of the highway north of Leesburg. The increase in traffic 
volumes is attributed to:
        <bullet>  Increased commuter traffic between residents in 
northern Loudoun County, Maryland, and Pennsylvania traveling to 
employment centers in northern Virginia,
        <bullet>  Increased residential development along the corridor, 
and
        <bullet>  Increased interstate travel along the east coast 
using this corridor.
      <bullet>  The improvements recommended by Loudoun County would 
widen a portion of the existing two-lane roadway to four lanes and 
improve intersections along the corridor. Other plans include upgrading 
the roadway to the Virginia/Maryland state line at the Potomac River 
through spot improvements, roundabouts, turn lanes, shoulder widening, 
and other safety-related improvements.

    <bullet>  Improvements to U.S. Route 11--North and South of 
Winchester
      <bullet>  Route 11 serves as a major north-south interstate 
highway and is part of the National Highway System. Route 11 is a major 
alternative route for local commuters and residents in the I-81 
corridor.

    <bullet>  U.S. Route 50--Northern Collector Road (Estimated Cost--
$182 million)
      <bullet>  This project, segmented into two projects, will provide 
an alternative to Route 50 drivers traveling east and west into and out 
of Fairfax County. The project includes funding for planning, design, 
right-of-way acquisition, and construction of a four-lane median 
divided roadway.

    <bullet>  Expand Shellhorn Road (Estimated Cost--$175 million)
      <bullet>  This project provides for the planning, design, right-
of-way, and construction of Shellhorn Road from Loudoun County Parkway 
to Randolph Drive. This project will create new east/west connectivity 
in the suburbanized eastern section of the County and will support 
nearby Metro stations.

    <bullet>  Construct Railroad Overpass on Route 15 (Approximately 
$50 million)
      <bullet>  Recently submitted to USDOT as part of the second round 
of Infrastructure for Rebuilding America (INFRA) Grant Program this 
spring. This would be a major project consisting of widening US Route 
15 and constructing a railroad overpass, which would improve the 
network for commuters, regional commercial traffic, interstate freight 
traffic, and bicyclists/pedestrians.

    <bullet>  Broad Run Commuter Lot Project (Approximately $25 
million)
      <bullet>  600 space commuter lot part of the Virginia Railway 
Express's Broad Run Expansion Project. This project was submitted in 
2018 under USDOT's Better Utilizing Investments to Leverage Development 
(BUILD) Transportation Discretionary Grants program. Prince William 
County will be re-submitting this project in the 2019 round of BUILD 
funding in partnership with the Virginia Railway Express (and 
potentially the Potomac and Rappahannock Transportation Commission).

    <bullet>  Support freight and passenger rail
      <bullet>  Support capacity enhancements for Virginia Railway 
Express;
      <bullet>  Expand freight rail and terminal capacity at the Port 
of Virginia; and
      <bullet>  Improve/expand the Long Bridge from VA to DC for both 
freight and passenger rail.

    <bullet>  Support primary road projects in Prince William County
      <bullet>  Construct new interchange at Route I and Route 123;
      <bullet>  Widen Route 1 from Neabsco Road/Cardinal Drive to Route 
234;
      <bullet>  Route 234 at Clover Hill Road* Intersection/Interchange 
Improvements; and
      <bullet>  Route 234 at Sudley Manor Drive (including Wellington 
Rd) Interchange.

    I appreciate the Committee for holding today's hearing. I look 
forward to working with the Committee this Congress on passing 
legislation that will properly address the infrastructure needs of my 
constituents, northern Virginia, and our nation.

                                 <F-dash>
    Letter of April 30, 2019, from Hon. Maxine Waters, Chairwoman, 
   Committee on Financial Services, Submitted for the Record by Hon. 
     Maxine Waters, a Representative in Congress from the State of 
                               California
                                                    April 30, 2019.
The Honorable Nancy Pelosi,
Speaker,
House of Representatives, H-204, US Capitol, Washington, DC.
The Honorable Peter DeFazio,
Chair,
House Committee on Transportation and Infrastructure, 2165 Rayburn 
        House Office Building, Washington, DC.
The Honorable Richard Neal,
Chairman,
Ways and Means Committee, 1102 Longworth House Office Building, 
        Washington, DC.

    Dear Speaker Pelosi, Chairman DeFazio, and Chairman Neal:
    Affordable housing is a vital component of our nation's 
infrastructure and is therefore a critical component of any 
infrastructure spending package. Like roads and bridges, affordable 
housing is a long-term asset that helps communities and families thrive 
by connecting them to resources and opportunities.\1\ Similar to 
investments into other infrastructure projects, investments into 
affordable housing infrastructure generate construction activity and 
jobs that stimulate the economy.\2\ For example, according to the 
National Association of Home Builders, building 100 affordable rental 
homes generates 297 jobs, $28 million in wages and business income, and 
$11 million in taxes and revenue for state, local, and federal 
governments.\3\ According to the Council of Large Public Housing 
Authorities (CLPHA), every $1 million spent on capital investments into 
public housing generates $1.89 million in economic activity and 
supports 11 full-time jobs.\4\ Further, similar to disinvestment in 
other infrastructure, disinvestment in affordable housing 
infrastructure can hamper economic growth.\5\ For example, one study 
found that the shortage of affordable housing in major metropolitan 
areas costs the American economy about $2 trillion a year in lower 
wages and productivity.\6\ Another study estimated that the growth in 
GDP between 1964 and 2009 would have been 13.5 percent higher if 
families had better access to affordable housing, and \7\ would have 
led to a $1.7 trillion increase in total income, or $8,775 in 
additional wages per worker.\8\ When we invest in housing as 
infrastructure, we are investing in American families, jobs, and in our 
future as a nation.
---------------------------------------------------------------------------
    \1\ See e.g. the Campaign for Housing and Community Development 
Funding (CHCDF) 1-pager entitled ``Affordable Housing Infrastructure''
    \2\ National Association of Home Builders, ``Housing Fuels the 
Economy,'' http://www.nahbhousingportal.org/
    \3\ Id.
    \4\ CLPHA. ``The Economic Impact of Public Housing,'' October 2018.
    \5\ Chicago Policy Review, ``All Growth is Local: Housing Supply 
and the Economics of Mobility,'' February 2, 2016.
    \6\ Id.
    \7\ Chang-Tai Hsieh & Enrico Moretti, ``Housing Constraints and 
Spatial Misallocation,'' American Economic Journal: Macroeconomics, 
2019.
    \8\ Id.
---------------------------------------------------------------------------
    Despite the clear research showing the lost economic potential that 
results from a lack of investment into affordable housing 
infrastructure, funding for federal housing programs have remained 
relatively flat over the past several years (see Table 1). It is time 
that we harness the potential for greater economic growth by 
significantly increasing investments into affordable housing 
infrastructure.
    There are 1.1 million public housing units across the country that 
are home to 2.6 million residents.\9\ The most recent study 
commissioned by HUD on the public housing capital backlog was published 
in 2010 and found that that the national average estimate of capital 
needs was $19,029 per unit, with a median of $15,374 per unit.\10\ The 
key drivers of the capital public housing backlog were improvements to 
dwelling units' kitchens, baths, and interior doors, and other 
renovations to units' building architecture systems such as windows, 
exterior doors, roofs. The Public Housing Authorities Directors 
Association (PHADA) estimates that the public housing capital backlog 
has accrued to $70 billion today.\11\ Failure to invest in our public 
housing stock will result in the permanent loss of these units, which 
are already being lost at a rate of about 10,000 units each year.\12\
---------------------------------------------------------------------------
    \9\ HUD data on subsidized households available at: https://
www.huduser.gov/portal/datasets/assthsg.httml#2009-2018_data
    \10\ Meryl Finkel, Ken Lam, et al., ``Capital Needs in the Public 
Housing Program'' Cambridge, Mass., Nov. 24, 2011, available at: 
https://www.hud.gov/sites/documents/PH_CAPITAL_NEEDS.PDF. The report 
also found that additions needed fur lead paint abatement was 
$306,788,000 in 2010; additions for improving energy and water 
efficiency $4,149,439,000; and necessary accommodations for persons 
with disabilities is $25,000 per unit, for a total national cost of 
$264,473,000.
    \11\ Public Housing Authority Directors Association. The Advocate. 
Spring 2019.
    \12\ See e.g. HUD press release, ``Rental Assistance Demonstration 
generates $4 billion in public-private investment in distressed public 
housing,'' May 11 , 2017, available at: https://archives.hud.gov/news/
2017/pr17-033.cfm
---------------------------------------------------------------------------
    In rural America, including tribal areas, the housing needs of 
residents are just as concerning. The U.S. Department of Agriculture's 
multifamily housing portfolio, which provides much needed affordable 
rental housing for low income rural residents, has an estimated 
reserves deficit of $5.6 billion over the next 20 years.\13\ According 
to a report from the National Congress of American Indians, of the 
60,000 homes being maintained by federal housing assistance programs 
serving Native Americans, it is estimated that 70 percent, or 42,000 
homes are in need of retrofitting (including windows, insulation, 
efficient furnaces/air, elder/handicap conversion, etc.).\14\
---------------------------------------------------------------------------
    \13\ USDA Rural Development, ``Multi-family Housing Comprehensive 
Property Assessment,'' March 1, 2016.
    \14\ National Congress of American Indians, Policy Research Center, 
``Investing in Tribal Governments; An Analysis of Impact and Remaining 
Need under the American Recovery and Reinvestment Act, March 2010.
---------------------------------------------------------------------------
    As a direct result of the lack of investment into the affordable 
housing infrastructure, far too many families are being forced to pay 
unaffordable rents or live in substandard conditions. Nearly 50 percent 
of all U.S. renters are cost burdened and spend 30 percent or more of 
their income on housing.\15\ The share of renter households that were 
severely rent burdened--spending 50 percent or more of monthly income 
on rent--increased by 42 percent between 2001 and 2015.\16\ 71 percent, 
or 7.8 million of the nation's extremely low-income renter households 
are now severely housing cost-burdened and spend more than half of 
their incomes on rent and utilities.\17\ Additionally, only one in four 
households who qualify for federal housing assistance receive it.\18\ 
According to HUD's most recent report to Congress on ``worst case 
housing needs''--which are defined as households that are very low-
income renter households who receive no housing assistance and pay more 
than 50 percent of their income for rent or live in severely inadequate 
units--the number of households in the United States experiencing worst 
case needs was 8.3 million in 2015, up from 7.7 million in 2013 and 
nearly as many as the record high of 8.5 million in 2011.\19\ Low 
income American Indians and Alaska Natives face some of the worst 
housing conditions in the United States with disproportionately high 
rates of overcrowding and substandard housing conditions.\20\
---------------------------------------------------------------------------
    \15\ Chris Salvati, ``2018 Cost Burden Report: Despite 
Improvements, Affordability Issues Are Immense,'' Renteconomics, 
September 21, 2018.
    \16\ Pew Charitable Trust, ``American Families Face a Growing a 
Rent Burden,'' April 2018.
    \17\ National Low Income Housing Coalition, ``The Gap, A Shortage 
of Affordable Homes,'' March 2019.
    \18\ See e.g. Urban Institute. ``One in four: America's housing 
assistance lottery'' May 28, 2014.
    \19\ HUD, ``Worst Case Housing Needs: 2017 Report to Congress''
    \20\ See e.g. HUD Office of Policy Development and Research, 
``Housing Needs of American Indians and Alaska Natives in Tribal Areas: 
A Report from the Assessment of American Indian, Alaska Native, and 
Native Hawaiian Housing Needs,'' January 2017, citing Urban Institute 
Household Survey 2013-2015, American Housing Survey 2013.
---------------------------------------------------------------------------
    For these reasons, I will be advocating for the following funding 
levels in my forthcoming infrastructure bill:
    <bullet>  $70 billion for the Public Housing Capital Fund, which is 
estimated to fully address the public housing capital backlog;
    <bullet>  $1 billion for the Multi-family Preservation and 
Revitalization Demonstration program of the Rural Housing Service, 
which is estimated to fully address the backlog of capital needs for 
the Section 515 and 514 rural housing stock;
    <bullet>  $5 billion for the Predisaster Hazard Mitigation Program 
under section 203 of the Robert T. Stafford Disaster Relief and 
Emergency Assistance Act to support mitigation efforts that can protect 
communities from future disasters and reduce post-disaster federal 
spending;
    <bullet>  $5 billion for the Housing Trust Fund to support the 
creation of hundreds of thousands of new units of housing that would be 
affordable to the lowest income households;
    <bullet>  $100 million for Single Family Housing Repair Loans and 
Grants to help low income elderly households in rural areas age in 
place; and,
    <bullet>  $1 billion for the Native American Housing Block Grant 
Program under title I of the Native American Housing Assistance and 
Self-Determination Act of 1996 to address substandard housing 
conditions on tribal lands.
    <bullet>  $10 billion for a CDBG set-aside that would incentivize 
grantees to eliminate impact fees and responsibly streamline the 
process for development of affordable housing

    As the House moves forward to consider an infrastructure package, I 
request that America's housing needs, particularly those of low-income 
and rural renters, not be left out of this important conversation. 
Accordingly, robust funding for affordable housing infrastructure must 
be included as part of any infrastructure package passed by the House 
and I look forward to working with you on this important effort.
        Sincerely,
                                             Maxine Waters,
                       Chairwoman, Committee on Financial Services.

Enclosure

cc: The Honorable Patrick McHenry, Ranking Member

                            Table 1: Discretionary housing programs and funding levels by fiscal year (2015-2019) \<dagger>\
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                  Funding (in millions) by Fiscal Year
                                               ---------------------------------------------------------------------------------------------------------
                                                       FY2015               FY2016               FY2017               FY20I8               FY2019
            Discretionary Programs             ---------------------------------------------------------------------------------------------------------
                                                           Adjusted             Adjusted             Adjusted             Adjusted              Adjusted
                                                 Enacted     for      Enacted     for      Enacted     for      Enacted     for      Enacted      for
                                                          Inflation            Inflation            Inflation            Inflation             Inflation
--------------------------------------------------------------------------------------------------------------------------------------------------------
Public Housing Capital Fund Discretionary         $1,875     $2,030    $1,900     $2,042    $1,942     $2,017    $2,750     $2,801     $2,775     $2,791
 Spending.....................................
Rural Multifamily Preservation and                   $17        $18       $22        $24       $22        $23       $22        $22        $25        $25
 Revitalization Demonstration Program
 Discretionary Spending.......................
Pre-Disaster Mitigation Program Discretionary        $25        $27       $86        $92      $100        $93      $249       $254       $250       $251
 Spending.....................................
Housing Trust Fund Mandatory Spending.........        --         --      $174       $187      $219       $227      $269       $274       $245       $246
                                                                                                                                    Estimated
Single Family Housing Repair Loans and Grants        $32        $35       $32        $34       $32        $33       $32        $33        $33        $33
 Discretionary Spending.......................
Native American Housing Block Grant Program         $650       $704      $650       $699      $654       $679      $755       $769       $755       $763
 Discretionary Spending.......................
--------------------------------------------------------------------------------------------------------------------------------------------------------
\<dagger>\ Funding levels are rounded to nearest million. Inflation adjustments were made using the Bureau of Labor Statistics CPI Inflation Calculator,
  March 2019 (https://www.bls.gov/data/inflation_calculator.htm)

                                    
</pre></body></html>
